<html>
<title> - DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 1999</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                    DEPARTMENT OF TRANSPORTATION AND
                    RELATED AGENCIES APPROPRIATIONS
                                FOR 1999

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION
                                ________

 SUBCOMMITTEE ON THE DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES 
                             APPROPRIATIONS

                    FRANK R. WOLF, Virginia, Chairman

TOM DeLAY, Texas             MARTIN OLAV SABO, Minnesota
RALPH REGULA, Ohio           ESTEBAN EDWARD TORRES, California
HAROLD ROGERS, Kentucky      JOHN W. OLVER, Massachusetts
RON PACKARD, California      ED PASTOR, Arizona
SONNY CALLAHAN, Alabama      ROBERT E. (BUD) CRAMER, Jr., Alabama
TODD TIAHRT, Kansas          
ROBERT B. ADERHOLT, Alabama  

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

 John T. Blazey II, Richard E. Efford, Stephanie K. Gupta, and Linda J. 
                        Muir, Subcommittee Staff
                                ________

                                 PART 6
                                                                   Page
 DEPARTMENT OF TRANSPORTATION:                                         
   Federal Aviation Administration................................  231
 RELATED AGENCY:
   National Transportation Safety Board...........................    1

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
48-430 O                    WASHINGTON : 1998
------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          













                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        ESTEBAN EDWARD TORRES, California   
HENRY BONILLA, Texas                   NITA M. LOWEY, New York             
JOE KNOLLENBERG, Michigan              JOSE E. SERRANO, New York           
DAN MILLER, Florida                    ROSA L. DeLAURO, Connecticut        
JAY DICKEY, Arkansas                   JAMES P. MORAN, Virginia            
JACK KINGSTON, Georgia                 JOHN W. OLVER, Massachusetts        
MIKE PARKER, Mississippi               ED PASTOR, Arizona                  
RODNEY P. FRELINGHUYSEN, New Jersey    CARRIE P. MEEK, Florida             
ROGER F. WICKER, Mississippi           DAVID E. PRICE, North Carolina      
MICHAEL P. FORBES, New York            CHET EDWARDS, Texas                 
GEORGE R. NETHERCUTT, Jr., Washington  ROBERT E. (BUD) CRAMER, Jr., Alabama
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director















 DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  1999

                              ----------                              

                                      Wednesday, February 11, 1998.

                  NATIONAL TRANSPORTATION SAFETY BOARD

                               WITNESSES

JIM HALL, CHAIRMAN
PETER GOELZ, MANAGING DIRECTOR
CRAIG E. KELLER, SR., CHIEF FINANCIAL OFFICER
VERNON S. ELLINGSTAD, DIRECTOR, OFFICE OF RESEARCH AND ENGINEERING
BERNARD S. LOEB, DIRECTOR, OFFICE OF AVIATION SAFETY
JOSEPH OSTERMAN, DIRECTOR, OFFICE OF HIGHWAY SAFETY
MARJORIE MURTAGH, DIRECTOR, OFFICE OF MARINE SAFETY
ROBERT CHIPKEVICH, DIRECTOR, OFFICE OF PIPELINE AND HAZARDOUS MATERIALS 
    SAFETY
ROBERT LAUBY, DIRECTOR, OFFICE OF RAILROAD SAFETY
BARRY M. SWEEDLER, DIRECTOR, OFFICE OF SAFETY RECOMMENDATIONS AND 
    ACCOMPLISHMENTS

    Mr. Wolf. Why don't we begin.
    I don't know how many other Members are going to be here. 
Both the Republican membership and the Democratic membership 
are away on a retreat. I came back early because we didn't want 
to reschedule the hearing. If we had scheduled this one at a 
different time, we would have had to bump all the hearings. So 
we didn't do that. There may not be other Members attending. 
You shouldn't go home and wonder if no one likes you anymore.
    I think, in seriousness, Republicans and Democrats felt 
this was a good time to go away and it is part of the official 
business. That is why other Members are not here.
    Do you want to begin? Your full statement will appear in 
the record, and we will proceed with questions.

                           Opening Statement

    Mr. Hall. Thank you.
    Mr. Chairman, Congressman Sabo, I am joined here today by 
Member John Hammerschmidt and Member John Goglia; and, in 
addition, seated at the table to my right is Dr. Vernon 
Ellingstad, our director of research and engineering. To my 
left is Peter Goelz, our managing director; and to his left, 
Mr. Craig Keller, the chief financial officer of the NTSB.
    Behind me are the office directors of NTSB, and I have a 
vacant seat here so if we get into an appropriate subject 
matter that we want them to respond to they can come to the 
table and respond and identify themselves at that time.
    It is a pleasure to come before you again, Mr. Chairman, 
and discuss the work of the National Transportation Safety 
Board over this past year and to present our proposed fiscal 
year 1999 budget request. With our continued work investigating 
the Nation's transportation accidents, we at the Safety Board 
are once again in your debt, Mr. Chairman, and we thank you and 
the committee for your continued support.
    Mr. Chairman, 1997 was one of the most significant years in 
the history of the NTSB. We have continued our investigation of 
the tragic crash of TWA flight 800, and I will be glad to 
answer any questions you might have on our work on that 
accident.
    In addition, as a result of the intense activity of the 
last 2 years, we have taken steps to prepare the NTSB to 
effectively serve the American people in the 21st century. To 
elaborate on some of the steps, I will discuss three areas very 
briefly where the Board has expanded to provide better service. 
They are our 24-hour Communications Center, the NTSB web site 
and the family assistance program.

                         communications center

    Communications systems in today's world are, as you know, 
Mr. Chairman, essential to the success of any organization. 
With the advance in today's technology, it is important that 
the NTSB continue to expand its ability to communicate quickly 
and effectively.
    The 24-hour NTSB Communications Center, which is displayed 
on the screen, allows our investigators and Members to be 
promptly notified of any major transportation accident in this 
country and even around the world. The Comm Center plays a 
major role in the launching of Go-Teams by contacting all NTSB 
investigation participants and making arrangements for 
investigators before and after they arrive at the accident 
site. It also provides vital support for our new family 
assistance responsibilities and is the nerve center during the 
critical and often chaotic hours of a major launch.

                  safety board web site demonstration

    The NTSB web site, which is www.ntsb.gov, includes general 
information about the Board and its members, press releases, 
speeches and testimony, the ``Most Wanted'' list of safety 
issues and recommendation acceptance rates, a synopsis of over 
38,000 aviation accidents, aviation accident statistics, a list 
of accident reports available in all modes of transportation, a 
list of current position vacancies and a copy of the Board's 
Family Disaster Assistance Plan.
    I would like now to show you, Mr. Chairman, and Congressman 
Sabo, a demonstration of the NTSB web site and some of the 
information that any World Wide Web user can find at our site. 
This can show you the type of data that can be gathered on 
particular aviation accidents, NTSB safety studies or 
information on ongoing investigations, such as TWA 800.
    Dr. Ellingstad and Ms. Donaldson, both with our Office of 
Research and Engineering, will assist in the presentation. At 
this time, I would like to ask Dr. Ellingstad to begin the 
presentation and direct your attention to the TV monitor in 
front of you.
    Dr. Ellingstad. Thank you, Chairman Hall.
    Chairman Wolf and Congressman Sabo, I will let Ms. 
Donaldson, our web master, do the driving here, and we will 
step you through some of the features of the web site, which, 
as Chairman Hall indicates, is accessible by www.ntsb.gov from 
any Internet capable computer.
    Basically, our purpose in providing the web site is to 
display the Safety Board's information in a convenient and easy 
to use forum to the public, and we have got a variety of 
information that we will just quickly show you.
    The first of those categories of information are the 
accident data that the Safety Board is responsible to collect, 
and particularly the aviation accident data from our accident 
database. What you are seeing Ms. Donaldson accomplish right 
now is a query against our database, which is accessible on the 
web site. She has just asked the database to come up with all 
of the aviation accidents in the State of Virginia since 
January of 1997, and the search reveals 27 records meet this 
criterion. We can pick any particular record, click on it, and 
we are provided with a narrative description of the accident as 
well as the probable cause of that accident if it has been 
determined.
    Also, with respect to the aviation accident data, we 
provide routinely monthly statistical summaries of all aviation 
accidents, and these are usually out by the 15th ofthe month 
following the month being reported on.
    Every spring, we also produce a pie chart of transportation 
accident statistics, and these data are also available at our 
web site.
    We also provide the accident reporting forms for pilots.
    Another major source of information that the web site 
serves to provide to the public are the publications of the 
Safety Board. At the moment, we have a listing of all of the 
publications, accident reports, safety studies, other 
publications that have been produced by the Board.
    What we are showing you are highway publications.
    Within the next 2 months, available on the web will be the 
full text of all of the major accident reports and safety 
studies produced by the Board since January 1996. They can be 
downloaded to any citizen's personal computer. That is coming 
very quickly.
    Another important source of information is our most wanted 
list. We have this accessible either as the complete list of 
most wanted safety issues or by transportation modality. What 
we see here are most wanted issues in the railroad area, and we 
can click on one of those and pull up all of the status 
information about that safety recommendation since the time it 
was issued.

                       safety board web site uses

    We will, by the end of this calendar year, provide public 
access through our web site to the entire safety 
recommendations database, so that the web site will produce a 
complete text of all of our recommendations and all of the 
correspondence associated with those recommendations.
    Other items on the web site are a description of the family 
assistance program, including the full text of the disaster 
assistance plan, indications of upcoming activities, et cetera.
    Another important feature that we feel has been useful on a 
web site is our job opportunities list of vacancies. An 
indication of the success of this is we were able to locate and 
hire Miss Donaldson through that kind of an advertisement, so 
we believe that that has been effective.
    Finally, I would like to show you another use for the web 
site. We provided information to the public about the public 
hearing regarding TWA flight 800 that was conducted in December 
over in Baltimore.
    What we provided on our web site was factual information 
before the hearing started, the schedule of the hearing, as 
well as all of the exhibits that were used during the hearing. 
Each evening of the hearing our public affairs staff provided a 
summary that was immediately posted to the web, and when the 
hearing concluded we put the entire transcript of the hearing 
out on the web. That is available for browsing and for 
downloading for anybody that wishes to look at it.
    In addition, we also added some of the computer simulations 
and animations that were presented during the hearing.
    This is the simulation or the reconstruction of the 
accident sequence that was conducted by our performance 
engineers and used during the course of the hearing, and that 
again is displayed on the web site.
    I might also add that the wherewithal to produce this kind 
of graphic computer simulation and animation that has been very 
important to our investigative activity has been possible 
because of the hardware and software resources that we have 
been able to procure thanks to the actions of this committee.
    We can also show you another simulation. This is the 
reconstructed center fuel tank, and the surrounding fuselage 
structure, again using some of the computer graphics and 
animation capability. Our purpose in doing this was to very 
carefully account for all of the structure surrounding the tank 
and rule out the possibility that there could have been an 
external intrusion to the tank that would have triggered an 
explosion. Again, this computer reconstruction was provided by 
the software and hardware resources that we were able to 
acquire with your assistance.
    Finally, illustrating again the resources committed to the 
TWA 800 investigation and the features of the web site, this 
very short video clip is from our quarter scale explosion 
testing program that was conducted in Denver by the California 
Institute of Technology and the Applied Research Associates. 
Again, all of this information available to any citizen with a 
computer and access to the Internet.
    We expect to do a similar information presentation for the 
upcoming Guam KAL hearing that will be conducted in Hawaii, and 
for other hearings.
    That is all we have. Thank you.

                       family assistance program

    Mr. Hall. Thank you.
    Next I would like to move, Mr. Chairman, to the subject of 
our family assistance program.
    During the past 30 years, over 100,000 aviation accidents 
have been investigated by the Safety Board; and in October of 
1996 Congress gave the NTSB the additional responsibility of 
coordinating the Federal effort for the families of aviation 
accident victims. Since that time, we have hired a family 
affairs staff of seven people; developed, in concert with 
family advocacy groups and the aviation industry, a Safety 
Board family assistance plan; and provided family assistance at 
four accidents to date. Those are the United Express accident 
in Quincy, Illinois, with 14 fatalities; the Comair accident in 
Monroe, Michigan, with 29 fatalities; the Korean Airlines 
accident in Guam with 228 fatalities; and the Scenic Airlines 
accident in Montrose, Colorado, with nine fatalities.
    Along with these accidents we have continued our work with 
the families of TWA 800 victims, the ValueJet flight 592 
families and those from the accident involving USAir flight 
427.
    The support for this program for the families has been 
overwhelming, Mr. Chairman. Without the aid of your leadership 
and this committee we would not have had the resources to 
provide the needed and much appreciated assistance to these 
family members. I know that they join me in thanking you and 
this committee for that assistance.

                             air bag safety

    Mr. Chairman, I would now like to discuss one of the many 
issues addressed by the Board this year. I am just going to 
select one for brief presentation, and that is the subject of 
automobile air bags. While I can only summarize the work here, 
I have provided for you a much more in-depth description of our 
work during 1997, and the long testimony of course, has been 
submitted for the record.
    In March of this past year, NTSB conducted an international 
public forum regarding air bag and automobile occupant 
restraint use as a continuation of the Board's safety study of 
child passenger protection and our accident investigations in 
this area the preceding year and the recommendations that were 
made. The Board brought together representatives of the 
automobile industry, air bag manufacturers, insurance, safety 
and consumer groups, car crash victims who were injured or 
saved by the air bags and representatives from the National 
Highway Traffic Safety Administration to have an open and 
forthright discussion on the increasing number of injuries and 
fatalities due to air bag deployment and nonuse of passenger 
restraint systems.
    The Board also included automobile specialists from around 
the world to testify before the forum on automobile safety 
devices used in their countries.
    I am pleased to report that a number of improvements 
related to air bags have occurred as a result of the Safety 
Board's public forum and safety recommendations.
    As you will note on the screen, the number of children 
killed by air bags declined for the first time since passenger side air 
bags became available. The number of children killed dropped from 23 in 
1996 to 14 in 1997 at the same time as we had a dramatic increase in 
the number of passenger side air bag equipped vehicles on the road. 
This decrease can be directly attributed to the Safety Board's 
recommendation to improve public education through warning labels in a 
nationwide media campaign.
    Other actions taken as a result of our recommendations 
include installation of depowered air bags, a program to allow 
cut-off switch hardware that will allow owner or user 
discretion in disabling air bag protection, research on 
increasing air bag deployment thresholds and efforts to develop 
a time schedule for the installation of advanced technology air 
bags.

                    passenger side air bag accident

    I might note, Mr. Chairman, that this is still regrettably 
a current issue.
    On February 5th, in Lubbock, Texas, a 6-month-old girl was 
killed by a passenger side air bag that was activated in the 
front seat of a Ford Explorer that was in a rear end collision 
with a tractor trailer. I have a copy of the UPI story, and I 
would submit that for the record as well.
    Mr. Wolf. Without objection.
    [The information follows:]

                    Texas Baby Dies From Car Air Bag

    Lubbock, Texas, Feb. 6 (UPI)--A 6-month-old girl is dead a 
day after the air bag in the front seat of a Ford Explorer 
activated in a rear-end collision with a tractor-trailer.
    Hospital officials say she was brain dead and removed her 
from life support just after 9 a.m.
    Lubbock Police Lt. Gordon Hoffman told United Press 
International today the tiny victim suffered head injuries when 
the passenger side air bag slammed into her. He said, ``We 
figure the rear-end collision may have thrust the kid forward 
and knocked her back.''
    He said it appeared the child safety seat in which the 
child rode was not fastened down, nor was the infant secured in 
the safety seat.
    Hoffman says the case could be referred to the district 
attorney for prosecution.
    Another small child was in the back seat of the Explorer, 
but hospital officials say he was not injured.
    The accident occurred as the 18-wheeler slowed to exit 
Interstate 27. Hoffman said there were no skid marks from the 
Explorer, ``so I'm assuming (the driver) just didn't see it.''
    Hoffman says the collision did only moderate damage to the 
Explorer.

                         highway safety issues

    Mr. Hall. Along with this work in highway safety, NTSB 
continues its efforts on examining double trailer truck 
operations and training improvements, trucking company driver 
selection and certification, school bus crashworthiness and the 
safety of passing grade crossings at highway and train track 
intersections.
    This is only one example of the Safety Board's activity 
during the past year. As you know, the Safety Board has 
participated in two major accident investigations in recent 
months involving U.S.-manufactured aircraft--the crash of a 
Boeing 737 in Indonesia and the crash of a DC-9 in the 
Philippines. It is the support of your committee and others 
that provides us the resources to respond to these major 
international events and to help find ways to ensure such 
accidents don't happen again, either in our country or 
worldwide, as well as helping maintain worldwide confidence in 
American-manufactured products.

                              staff hiring

    In closing, Mr. Chairman, I am happy to report that the 
Safety Board has either hired or committed to hire all but 
three of the 25 positions provided by the Congress for this 
fiscal year.
    Miss Donaldson happens to be one of the individuals that 
was hired with the additional positions provided. She is a 
former computer systems analyst at the Census Bureau, has a 
mathematics degree from the University of North Carolina and 
has done all of the work on our web site.
    Mr. Chairman, I made a commitment to you that I would fill 
any new positions we had by the time we met again. Of the three 
remaining positions of the 25, we had two commitments from 
which the applicants declined at the last minute and a third 
position we were unable to obtain a list of qualified 
applicants. All three of those have been re-advertised, and we 
are going to fill them just as quickly as possible.
    I am very proud of the quality of these new hires, Mr. 
Chairman, and I have brought, for the record, a summary of some 
of the biographical background. I feel the greatest legacy I 
can leave to the Board, as the Chairman, is the quality of the 
individuals that are hired during my Chairmanship and 
leadership at the Board. So that will also, with your 
permission, be provided for the record.
    Mr. Wolf. Without objection.
    [The information follows:]


[Pages 8 - 18--The official Committee record contains additional material here.]



    Mr. Hall. Let me just say, in closing, Mr. Chairman, that I 
do not know whether you saw a recent network made-for-
television drama featuring the National Transportation Safety 
Board. But, in the movie, we noted an NTSB helicopter had been 
featured in which the IIC, or investigator in charge, arrived 
at the accident site in a black helicopter with the NTSB name 
on the side. I must report to you that, after a complete 
search, we have been unable to identify any helicopter in our 
inventory and I want you to know the Chairman does not have a 
helicopter.
    With that, Mr. Chairman, that concludes my brief remarks.
    Mr. Wolf. Who played you? Richard Gere?
    Mr. Hall. I wish.
    Mr. Wolf. Mr. Hall, thank you very much for your testimony.
    [The prepared statement of Jim Hall follows:]


[Pages 20 - 65--The official Committee record contains additional material here.]



                           ntsb web site hits

    Mr. Wolf. We have a lot of questions. As we go through the 
questions if you can be very succinct but also elaborate a lot 
for the record. I appreciate the good job you and your people 
have done. The Committee on both sides of the aisle has been 
very, very supportive of your appropriation request as, quite 
frankly, we will again this year. But I do appreciate that, and 
I wanted to make that clear.
    Before I get into the questions, how many contacts or hits 
do you have on this web site a day now?
    Ms. Donaldson. We have right now about----
    Mr. Hall. Why don't you please come up? Because she needs 
to provide that for the record. This is Ms. Donaldson.
    Ms. Donaldson. Right now, we have about 1,500 hits a day. 
On the first day of the TWA hearing, we had over 26,000 in one 
day. In addition, we had mirror sites at CNN Interactive and a 
newspaper in Long Island, New York, that mirrored the 
information; and they both said they had over 100,000 hits that 
week.

                    most wanted list recommendations

    Mr. Wolf. Well, thank you.
    Mr. Hall, for several years the Safety Board has maintained 
a most wanted list of safety recommendations. What 
recommendations are currently on the Board's most wanted list; 
and, for the record, please provide the Committee with a copy 
of the list.
    Mr. Hall. Mr. Chairman, we have 21 issues on our most 
wanted list. In May of 1997 we removed the railroad hazardous 
material tank car recommendations because regulations have been 
issued to modify and achieve an acceptable level of safety.
    At the same time, we added four issues--air frame 
structural icing, the explosive mixture in fuel tanks on 
transport category aircraft, airplane cargo compartment fires, 
and automatic information recording devices.
    We are planning a major review and possible reorganization 
of the list this year, but I would be glad to provide a copy of 
the current list for the record.
    [The information follows:]


[Pages 67 - 68--The official Committee record contains additional material here.]



                 status of most wanted recommendations

    Mr. Wolf. How many of the recommendations have been placed 
on the most wanted list this year? Did you say four?
    Mr. Hall. That is correct.
    Mr. Wolf. Which of these recommendations is DOT making 
progress in addressing and which ones have been stalled that 
you are concerned with?
    Mr. Hall. I would like to ask Mr. Sweedler to join me to 
respond to that. He is Director of our Office of Safety 
Recommendations and Accomplishments.
    Mr. Sweedler. Mr. Chairman, members of the committee, 
progress has been made on many of the issues, certainly flight 
data recorders. While we are disappointed with the time it took 
to accomplish it, the final rule is in place, and the recorders 
will be installed.
    The runway incursion issue is troubling to us, because 
there has been a 70 percent increase since 1993 of runway 
incursions, including a 13 percent increase just last year. The 
FAA is on track now to install conflict alert equipment, but it 
is about 5 years overdue.
    Other things, such as pilot background checks, is almost 
complete.
    With regard to the airplane cargo compartment fire issue, 
we understand that a rule will be issued shortly that will 
require suppression and detection in all airplane cargo 
compartments.
    Tremendous work has been done on the youth driving issue, 
and almost all States now have zero tolerance laws. That was an 
issue that you, Mr. Chairman, supported. I am pleased that only 
two States are left and----
    Mr. Wolf. What are the two States?
    Mr. Sweedler. Mississippi and South Carolina are the two 
States that still need to pass that.
    The Chairman mentioned the progress on the occupant 
protection issue, the issue that you were so instrumental in 
last year. More than 100,000 educational video tapes have been 
distributed by Ford, in addition to the 30,000 or 40,000 NHTSA 
put out. I think 50 masters were made and given to other groups 
to produce, so that has been very good.

         states without administrative license revocation laws

    We now have 39 States that have administrative license 
revocation for all drivers who drive drunk in place.
    Mr. Wolf. For the record, will you list the 11 who do not 
have?
    Mr. Sweedler. Certainly, sir.
    [The information follows:]

    The 11 states that do not have administrative license 
revocation laws are Kentucky, Michigan, Montana, New Jersey, 
New York, Pennsylvania, Rhode Island, South Carolina, South 
Dakota, Tennessee, and Washington.

                 status of most wanted recommendations

    Mr. Sweedler. Some of the others we haven't gotten as much 
progress on----
    Mr. Hall. Let me mention, if I could, as most disconcerting 
to me is human fatigue in transportation operations. We made 
recommendations to the Secretary to address that subject in all 
of the modes of transportation. While a great deal of research 
has been conducted, none of that research has gone into 
rulemaking or changed the current hours of duty and service in 
all of the transportation operations. As we see the increased 
sophistication of technology and dependence on technology in 
transportation operations, I think that is an important issue. 
You may want to comment on others.
    Mr. Sweedler. The only other one I thought I would give an 
example of is the positive train separation, the equipment that 
would prevent many of these collisions we see in the railroad 
industry but we still need a commitment from the industry to go 
forward. There is a lot of testing and pilot projects. The FRA 
has been quite proactive on this issue, but the industry still 
has not made a firm commitment to install this equipment.

                    recommendation acceptance rates

    Mr. Wolf. Last year, the Board testified that, although the 
Department of Transportation is increasingly implementing 
NTSB's recommendations, there are some modal administrations 
that do not do as good a job. Specifically, the Coast Guard, 
FRA and RSPA have had acceptance rates of below 80 percent for 
the past 3 years, which is below the Department's average. Why 
do you believe this is occurring?
    Would you like to go through them first on the current 
numbers?
    Mr. Sweedler. Mr. Chairman, we went back and did the 
average for the last 5 years just to see how each agency was 
doing. As we mentioned, they are much more responsive. For 
example, FAA is up to 88 percent. If we just looked at the last 
5 years, the Federal Highway Administration is at 80 percent; 
FRA is at 79 percent. That is up from their historic figure. 
NHTSA is at 83, and RSPA is at 93, and even the Coast Guard is 
up to 84 percent. So----
    Mr. Wolf. What were they last year?
    Mr. Sweedler. Historically, the FRA had been down in the 
70s, as had the Coast Guard. So this is a big increase, and a 
lot of that comes about from our very aggressive follow-up 
program. I mean, we just don't make the recommendations and, as 
you know, let it sit there. We work closely with them in trying 
to bring about the implementation of these recommendations.

                   safety recommendations of concern

    Mr. Wolf. Is there any particular one or two you are 
particularly concerned about? Are you worried if they don't do 
something, there will be bad ramifications?
    Mr. Sweedler. I think there are quite a few.
    Mr. Hall. There are two concerns.
    The recommendations I mentioned on human fatigue, the 
recommendations that are outstanding on the TWA 800 and ValuJet 
accidents are of concern to us, as well as the recommendations 
that had previously been made on the 737 aircraft, and the 
retrofit of flight data recorder information on those existing 
aircraft.
    Mr. Wolf. What does it look like in time? If people had 
been acting the way you thought was appropriate, how long would 
they have taken to put them in effect? I mean, how late are 
they? ValuJet has been----
    Mr. Hall. It obviously varies from accident to accident. I 
couldn't put a time frame on it, other than my biggest 
disappointment has been the urgency in which these items, once 
they have been identified, have been addressed.
    Mr. Wolf. The TWA one, does it bother you? The fact it 
hasn't been done means there could be a problem somewhere else.
    Mr. Hall. It is certainly of concern to us.
    I was very encouraged at the public hearing, Mr. Chairman, 
that both the FAA and Boeing indicated that, based on the 
information that had been previously provided to them by Mr. 
Sheppard at the FAA fuels flammability conference andat our 
hearing, they would work with us in a cooperative effort to try to 
address the problem of fuel tank flammability on an accelerated basis.
    Dr. Loeb has laid out a four-page agenda of different 
programs that will be undertaken in coordination with the FAA 
and with Boeing.
    I have met with Mr. Harry Arnold, who is the vice president 
of that area for Boeing Aircraft Company, and Jane Garvey, the 
head of the FAA. Both of them have committed to me their full 
support in working with us on completing the tests at Cal Tech, 
and the FAA is reconsidering all of the recommendations that we 
previously made. I am hopeful there will be a response 
forthcoming in the near future.
    Mr. Wolf. Mr. Sabo.

                         staff hiring problems

    Mr. Sabo. Thank you, Mr. Chairman, and welcome.
    I noticed you indicated you had trouble filling three 
positions. Are you having trouble finding qualified people for 
your positions? And what is the nature of the background in job 
requirement where you are having the problem?
    Mr. Hall. I will let our managing director respond on this.
    Let me say, first of all, Mr. Sabo, a lot of it may be that 
NTSB has a lot of visibility and attention in the past 24 
months, but we have not been lacking for applicants.
    Mr. Sabo. So for most jobs you have a significant pool to 
choose from?
    Mr. Hall. Yes, very well-qualified applicants. I put an 
emphasis on trying to be sure that our work force is diverse, 
as well as being technically qualified. We have an emphasis in 
both of those areas, to finding the very best people we can and 
being sure that our work force is as representative as we can 
make it of the population. I think we made a great deal of 
progress in both of those areas.
    Peter, you might want to comment further or Mr. Keller, my 
chief financial officer, who are more involved in the day-to-
day hiring.
    Mr. Sabo. Just a summary.
    Mr. Goelz. We have had enormous success in recruiting good 
people, which has surprised us, frankly.
    Mr. Sabo. Except that, in some places, you have had 
trouble. What is the nature of those jobs?
    Mr. Goelz. We have had difficulty in recruiting in highly 
technical areas, like fire and explosion investigation.
    We had, during 1996 and 1997, only one senior fire and 
explosion expert, who, frankly, was near retirement. He worked 
extensively on the ValuJet accident and then was brought in to 
work extensively on Long Island on TWA. In the middle of the 
TWA accident we had to move him to Newburgh, New York, for a 
FedEx accident, where a cargo plane caught fire and burned. 
That was one of the areas we had great difficulty recruiting 
because it is a very specialized area.
    Mr. Sabo. Okay.
    Mr. Hall. Let me say, Congressman Sabo, overall it is 
challenging to be sure we are keeping technical expertise. In 
the aviation area, with about 150 people, I have oversight of 
FAA with 40,000 and Boeing with 200,000 employees.
    I need to be sure that the engineers, the technical people, 
the computer specialists, are the very best. I am constantly 
trying to work with OPM and OMB to get additional SES and 
higher grade positions so I can be competitive in not only 
attracting new people but keeping the quality people we have.

                             attrition rate

    Mr. Sabo. Do you have much staff turnover?
    Mr. Hall. I do not have a number on that. Do you, Craig?
    We can provide it for the record.
    Mr. Keller. We can provide it for the record, but our 
attrition rate for 1996 and 1997 has been down to 6 percent. 
That is down from the previous years which were about 8 
percent.
    [The information follows:]

    For the past two years, the Board's attrition rate has been 
6 percent.

                    transportation of nuclear waste

    Mr. Sabo. One of the very tough issues that we face is what 
we do with nuclear waste in this country, and a whole host of 
issues are involved. One of them that gets raised whenever we 
consider it is the question of transportation and nuclear 
waste. Has your agency dealt with that issue at all? Has it 
come to any conclusions?
    Mr. Hall. I dealt with that some in my previous life in the 
Governor's office in Tennessee because of Oak Ridge. Mr. 
Chipkevich, who is from Tennessee as well, is head of our 
pipeline and hazardous materials office. You might want to 
comment on that, Bob, and the exercise we participated in.
    Mr. Chipkevich. Yes, sir.
    We haven't had any accidents recently involving radioactive 
materials, nuclear waste.
    We did participate in an exercise last spring in 
Albuquerque, New Mexico, where there was a simulated accident 
involving nuclear weapons. We did, in fact, put a team together 
to participate in that exercise, to interface with Department 
of Energy personnel as well as Department of Defense personnel 
on how we would conduct an investigation and interact with the 
other groups.
    Mr. Sabo. Have we had any problems currently with 
transportation of nuclear waste?
    Mr. Hall. I am not aware of any that we have investigated, 
sir, recently.
    There was one accident--and I was just asking my assistant, 
Miss Smith, to try and remember that. It was an accident that 
involved 500 pound bombs that we did investigate.
    Mr. Sabo. Any problems?
    Mr. Hall. No, sir.

                     aviation contract maintenance

    Mr. Sabo. One other issue, if I might, Mr. Chairman.
    I noticed you made some reference in some of your reports 
indicating problems with contracted-out maintenance of 
airplanes. How large is that problem and what is the scope of 
it? And how is that related to contracting out that goes beyond 
the borders of this country?
    Mr. Hall. I was recently out in our Los Angeles office 
speaking with one of our investigators who is conducting an 
investigation where an airplane was being deiced, and the 
deicing operation had been contracted out. The individual fell 
out of the bucket; and that was the accident event.
    We are actively investigating the supervision and oversight 
of that deicing operation and the contracting out of that 
deicing operation for that particular airline.
    Of course, this is an issue we looked at and explored in 
the ValuJet accident. Dr. Bernard Loeb is the head of our 
Office of Aviation Safety, and I would like him to add more 
detail on it.
    Dr. Loeb. As Chairman Hall indicated, in the ValuJet Miami 
accident the issue of contracted maintenance was a significant 
issue. We explored it in depth.
    Essentially, all of the maintenance for the ValuJet 
airplanes was contracted out. We found that it puts a 
significant burden on the carrier to oversee that, and it puts 
an even greater burden on the FAA to oversee the carrier's 
oversight of the maintenance program.
    About a year before the ValuJet accident in Miami, ValuJet 
had an engine failure accident that occurred at Atlanta. That 
engine had been overhauled at a Turkish Airlines facility, and 
purchased by ValuJet and brought into this country. There were 
significant questions about the inspection and overhaul process 
and raised some questions about the FAA's oversight of the 
Turkish facility.
    These two accidents are not the only accidents in which we 
have seen issues regarding part 145 maintenance repair 
facilities. The Board is, in fact, in the process of developing 
a program for a safety study on part 145 maintenance 
operations.

                          aviation maintenance

    Mr. Sabo. Excuse me, what is part 145?
    Dr. Loeb. I apologize for that. It is the FAA regulations 
that govern maintenance operations, other than one under which, 
for example, an air carrier would do its own in-house 
maintenance.
    Mr. Hall. As part of our ValuJet investigation, one of the 
things we did is called on the FAA to review the volume and 
nature of the work requirements for principal maintenance 
inspectors assigned to part 145 repair stations that performed 
the maintenance on major air carriers to ensure that the 
inspectors have adequate time and resources to perform their 
surveillance duties, as carried in our recommendation A-9-75. 
We have received a response from the FAA that it is considering 
policy guidance that will help resolve resource conflicts and 
balance and surveillance workload.
    Mr. Sabo. What is the relative percentage of maintenance 
that is done by contract versus by the airline companies?
    Mr. Hall. I don't know a percentage, but I am sure it is 
growing.
    Do you know, Dr. Loeb?
    If we can find any numbers, we will provide it for the 
record.
    Dr. Loeb. It really depends on the type of operation.
    The majority of the large carriers do their own maintenance 
in-house, most of it depending on where the airplane might be. 
Some of it may be done overseas for them, if the airplane is 
overseas and needs it.
    The majority of smaller carriers do contract out the 
maintenance.
    Mr. Hall. When you say smaller operations, you are talking 
about 20 percent of the market, so it is not an insignificant 
amount of the passenger miles.
    Mr. Sabo. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Pastor.

                          boeing 737 aircraft

    Mr. Pastor. Thank you, Mr. Chairman.
    Last year, we talked about two issues. One dealt with the 
737 and the problems we were having with the rudder. Since 
then, the FAA has come out with a ruling, but it asked 
compliance for the year 2000; and in between now and then we 
are going to have 737s flying all over the place. What are we 
doing to ensure that, first of all, the pilots get the training 
that they assured us they are going to get; and, secondly, 
where is Boeing at in replacing the rudders?
    Mr. Hall. Congressman Pastor, we had concern as a result of 
the 427 Aliquippa accident about the flight data recorder 
because it only had 11 parameters, and the need for pilot 
training for the recognition of the recovery of unusual events 
that could lead to the loss of control. I am pleased to say 
that most of that training is now in place, and modifications 
are being made to the components of the Boeing 737 rudder 
system to improve the safety of the design.
    The FAA on August 4, 1997, issued an airworthiness 
directive resulting in the Boeing 737 fleet of over 2,000 
aircraft being modified with an improved power control unit 
servovalve. On August 1, 1997, the FAA published a final rule 
requiring installation of a newly designed rudder device system 
by August 1, 2000. We are pleased with the action, but we were 
concerned about the date of implementation.
    Mr. Loeb may want to comment further. We anticipate later 
this year to have a final report on our Pittsburgh accident 
investigation, which is now in its third year.
    Dr. Loeb. Let me first just respond to the issue of the 
rudder PCU replacement program.
    The Chairman is correct. There was a final rule. Boeing, by 
this past summer, developed a replacement kit. About 100 units 
were shipped out. They discovered there were some problems in 
the rudder PCU replacement kit. They stopped the process, made 
some fixes to it and began shipping them again this fall. There 
are currently about 300 or 400 replacement kits for 
approximately 3,000 Boeing 737s worldwide.
    One of our concerns is whether they are going to be able to 
meet the 2-year deadline. It is uncertain right now whether the 
production capacity and the implementation of actually putting 
them into the airplanes can be done in that time. We just don't 
know right now.
    Insofar as the training issue, a lot has been done in that 
regard, as the Chairman has indicated.
    One of the things we did ask for that has not been done 
yet, and I don't know whether it will be done. We asked that, 
in the unusual attitude training, that consideration be given 
to training for events that the pilot is unlikely to expect; in 
other words, what caused the upset in the first place. If it 
was, in fact, a rudder hard over that caused the accident and 
that is not fixed and they don't train for that event, then the 
pilots are not going to receive the kind of training they need 
to cope with what is happening because they haven't been 
exposed to it.
    So far, we have not gotten the response that we would like 
from the FAA or from the industry in regard to that 
recommendation.

                          boeing 737 aircraft

    Mr. Pastor. Like you said, between now and the year 2000, 
many flights by 737s--and, from what I have seen, the 737 is 
becoming a very popular plane, especially for these airlines, 
discount airlines, that are buying them used. As you see more 
airlines doing the short flights on the 737, which is the 
popular plane, you have probably more use, more frequency, and 
yet we have this problem that for the next 2 years we will try 
to address. So I would think that being concerned about air 
safety for the passengers that we would kind of ask the FAA and 
maybe you guys can encourage them to get this done faster.
    Mr. Hall. Congressman Pastor, I share your concern. I met 
with Administrator Garvey on December 17 of last year to 
discuss our most wanted list. I might note that was done at her 
request, and one of the main things we emphasized in that 
meeting was our concern on the implementation of this 
modification.
    Mr. Pastor. Because it is very important to continue to 
assist her. Because it is a safety issue that all of us are 
affected by.
    Mr. Hall. That is correct.

                             aircraft icing

    Mr. Pastor. So I would encourage you to do it.
    How is our icing program doing? Because I have to fly to 
Chicago once in a while, like every weekend.
    Mr. Hall. We are presently involved in an icing related 
accident that occurred at Monroe, Michigan. Testing is under 
way, and Dr. Loeb can bring you up to date, Congressman.
    Mr. Loeb. We made a number of recommendations following the 
ATR-72 accident at Roselawn, Indiana. The report was completed 
last year. Some of those recommendations have been acted upon 
favorably by the FAA; and research has been undertaken.
    Then as the Chairman indicated, the accident at Monroe 
occurred. It raises additional questions about icing. Some of 
them are different from those that were raised at Roselawn. In 
fact, some action has been taken on the particular airplane 
that was involved, an Embraer-120. But research is continuing 
regarding the central issues that go to the certification of 
the airplanes and the conditions under which untoward events 
could happen in icing.
    There is a lot of research that is being done in 
conjunction with the FAA, and at NASA Lewis in Cleveland.
    We expect to bring our report to the Board on the Comair 
accident--that will probably, undoubtedly, have a number of 
additional recommendations attached to it--this spring, but 
there is a lot of work left to be done. I think the FAA has 
taken a number of steps, but there is more to be done.

                        aircraft icing research

    Mr. Pastor. What time frame do you have to get from the 
research and to the practical application?
    Mr. Loeb. It depends, obviously, on the nature of the 
research. But when it involves wind tunnel testing or ice 
tunnel testing or ice tests behind a tanker, those projects 
take a long time to plan, develop and implement; and so we have 
been talking about this problem now for years. I hope that 
within the next year or two there are going to be some 
significant changes introduced by the FAA based on some of the 
research.
    There are rubber boots on the leading edges of wings and, 
in fact, tail surfaces of a number of planes, so that you can 
actually expand them and they will pop the ice that forms on 
them.
    The belief has been that you have to wait until you get a 
quarter to half inch buildup on them before you can pop them. 
Because if you don't it will build a bridge and you will never 
be able to pop them and so forth.
    There is now work under way to determine whether, in fact, 
that is true or not. It was just a commonly accepted belief, 
but no one had ever verified it, no one had ever gone into a 
tunnel.
    What we have learned is that when you do pop the boots, in 
between the boot cycling, you can get very, very small amounts 
of roughness from the icing that can create problems that had 
not generally been recognized and that many of the pilots, even 
those flying in the Midwest, just are not aware of.
    This is a piece of information learned from the current 
research. I think, as we finish the research that is going on, 
lots of good things will happen.

                          turbulence accidents

    Mr. Pastor. One more question, Mr. Chairman.
    Recently--I missed your movie, but I did read Air Frame, 
which will probably become a movie very quickly. In there, air 
turbulence and also maintenance of parts, buying of parts in 
foreign countries--and it was a very interesting book and 
increased my paranoia on the whole thing on flying, especially 
how we handle or are not handling air turbulence.
    I know it was an issue that was recently experienced by an 
airline flying over the Pacific, and I don't know if you can 
blame El Nino for this, but you seem to have some turbulence 
problems. Is that a phenomenon you guys are looking at?
    Mr. Hall. Congressman, Air Frame is actually after the MD-
11 accident that occurred in Shemya, Alaska. Many have said the 
author had used that as a sort of a prop for his book.
    Between 1983 and 1997, the Board investigated 99 turbulence 
accidents and incidents that resulted in two fatalities and 117 
serious injuries. Of course, we are currently investigating the 
turbulence event that occurred with United Airlines in the 
western Pacific on December 28 of last year that resulted in 
one fatality and numerous injuries. We are looking into 
turbulence forecasting, flight crew training, dissemination of 
information on turbulence and crew procedures in areas where 
turbulence is forecast.
    I might note that when you are in your seat, buckled up, we 
have not had any evidence of any serious injuries.
    The National Weather Center is continuing efforts on 
improving clear air turbulence and mountain wave forecast 
products.
    Northwest Airlines has a turbulence program, a very active 
turbulence program; and they have been very active in that 
area. They have a very good record in terms of turbulence 
events.
    The FAA Weather Research Program has a product development 
team addressing this program, and the National Center for 
Atmospheric Research is involved in studies on turbulence and 
developing software for commercial aircraft.
    I spoke last week in Oklahoma City at the cabin safety 
conference.
    We have a cabin safety study that is presently under way. 
One of the things I hope we will address is the subject of 
signage and notification so that, when you are in your seat, 
you have your seat belt fastened.

                      speed limit effect on safety

    Mr. Pastor. My last question, Mr. Chairman.
    In Arizona, we now have the 75-mile-an-hour speed limit; 
and, Mr. Chairman, I want to say, unequivocally, I stay at that 
speed limit.
    Mr. Sabo. Never a mile under.
    Mr. Pastor. Well, occasionally, it is a mile under it.
    Usually I guess the theory is that the Highway Patrol will 
let you go about five miles per hour higher than that, so it 
translates into 80 and 85 miles an hour; and people are zooming 
down the freeway and highways fairly fast. Are you guys 
conducting any studies to see the effect of the increased speed 
limit and the number of accidents, number of deaths?
    Mr. Hall. Mr. Sweedler has some information in that area. 
It is certainly an area we are actively interested in, 
Congressman.
    Mr. Sweedler. A number of studies are under way, and one 
has been completed just last fall by the Insurance Institute 
for Highway Safety.
    They looked at the States that actually raised the speed 
limit, and looked at those highways that had the speed limit 
raised to at least 70 from December 1995 to early 1996. They 
found that on rural and urban interstates and freeways, where 
most of the speed limit changes occurred, speed limit increases 
were associated with a 12 percent increase in occupant 
fatalities. On other roads where the speed limits were raised 
less frequently, occupant fatalities increased by only 3 
percent, which they said was insignificant or nonsignificant.
    On all roads combined, occupant fatalities increased by 6 
percent, and it is estimated that during the last 9 months of 
1996 there were 500 additional deaths in the 12 States that 
raised speed limits. The National Highway Traffic Safety 
Administration has a study under way they will be releasing 
shortly. Using somewhat different methods, I think their early 
results are quite similar to what the Insurance Institute 
found.

                               driver age

    Mr. Hall. I might add, Congressman, one of the things that 
is of active concern to our Board are two issues; one, the 
mismatch of automobiles and trucks on our highways; and the 
other is just the demographics that are going to impact our 
interstates and highways between now and 2005. We have some 
numbers I will provide for the record on the growth in both the older 
drivers and younger drivers.
    This chart depicts the growth of young teenagers, 15 to 20, 
that will occur between 1995 and 2005 on our highways. You can 
see we have more and more traffic on our highways, and we are 
going to be adding more and more young people driving on our 
highways. That is why one of the things the Board has been 
actively supporting is graduated licensing for young drivers.
    This is quite a dramatic chart to me, and I will provide 
that for the record with the permission of the Chairman.
    Mr. Wolf. Without objection.
    [The information follows:]

    The National Transportatation Safety Board is providing information 
on the growth in both the older driver and younger driver populations.
    Individuals over age 64 made up about 10 percent of the population 
in 1970. According to the US Census Bureau, in 1990, 13.8 percent of 
the population was over 64. This percent will increase to almost one 
quarter of the population by the year 2030. In 1994, there were about 
25 million licensed drivers over the age of 64, about 14 percent of all 
licensed drivers.
    The high school-age population is projected to continue to grow 
from almost 14 million in 1992 to over 17 million 2005. In 2010, it is 
projected that the population in this age group will reach an all time 
high of 17.8 million.

         PROJECTED PERCENTAGE OF THE POPULATION THAT WILL BE OVER 64 YEARS OR BETWEEN 14 TO 17 YEARS OLD        
----------------------------------------------------------------------------------------------------------------
                                                     1990     1995     2000     2005     2010     2020     2030 
----------------------------------------------------------------------------------------------------------------
Adults over 64 years.............................     13.8     14.2     14.3     14.5     15.3     18.7     22.8
Teenagers 14-17 years old........................      5.3      5.6      5.7      5.9      5.7      5.2      5.4
----------------------------------------------------------------------------------------------------------------
Source 1990 Census                                                                                              

    Mr. Hall. I don't have it blown up quite as well--oh, it is 
on the screen. Thank you. Thanks, Vernon. I am impressed.
    The older drivers are on the screen, too. I am afraid I am 
in that category so I, of course, don't pay as much attention 
to that.

                            Vehicle Mismatch

    Mr. Pastor. When you talk about the mismatch, what are you 
referring to?
    Mr. Hall. Size in terms of trucks and the passenger 
vehicles.
    Mr. Pastor. You are talking about semis.
    Mr. Hall. And sports utilities, yes.
    Mr. Pastor. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Olver.

                             Young Drivers

    Mr. Olver. Thank you.
    Thank you, Mr. Chairman. Just out of curiosity, that graph 
with the pretty colors--where is the minimum of millions per 
year taking on driving? What year is that?
    Mr. Sweedler. This particular chart is the number of young 
people in the population.
    Mr. Olver. Where is the minimum in that number?
    Mr. Sweedler. You mean the minimum age for driving?
    Mr. Olver. No, the minimum in the number of----
    Mr. Sweedler. Oh, 1993 is the year.
    Mr. Olver. This is simple data as to how many people are 
getting to the age of driving in every given year.
    Mr. Sweedler. Yes, sir.
    Mr. Olver. Is that a composite of all the driving age--a 
summation of all the people driving, even though they may be 
coming at different ages?
    Mr. Sweedler. This is a projection of the people that will 
be in that age group.

                      Aviation Investigation Costs

    Mr. Olver. Maybe it was on the chart, and I could not read 
it from a distance, so I was curious what that was. Thank you. 
We will get it as part of the record somewhat later.
    I wanted to ask you--I noticed the aviation investigations 
that have been completed--there are a series of them--of 1996 
investigations or accidents which seem to indicate that, if 
things go well, it takes roughly a year to get an investigation 
completed. What does it cost--what, for instance, would have 
been the cost of the ValuJet airlines investigation in Miami 
versus, for instance, the Aliquippa, the USAir flight, which 
has not been completed, and the TWA flight 800?
    Mr. Hall. We have some information on the TWA flight 800 
accident because that has been such an extraordinary spending. 
I would call on Mr. Keller, who is our chief financial officer, 
Congressman, to respond to your question.
    Mr. Keller. I have some limited information concerning 
ValuJet. One of the pieces of information is Public Law 105-18, 
that gave the Board authority to reimburse the State and 
localities for expenses that they incurred. For NTSB's portion 
of the cost, NTSB does not have a cost accounting system to 
where we track our salaries and benefits related to an 
accident. We look at our accident cost based on overtime and 
travel.
    Mr. Olver. Are those budgets invented in other places or 
are they just in the NTSB's?
    Mr. Keller. They are in other budgets, such as the FAA.
    Mr. Olver. They are drawn from them, and do all the places 
have sufficient money to deal with the kinds of investigations 
here, when in some years there is not much, while in some years 
there are some pretty serious things going on?
    Mr. Keller. Well, sir, we have a party system, for which we 
get contributions, or we share the cost in the investigation 
with some of the industry, such as Boeing or the airline that 
may be involved. We will get the FAA who will contribute also, 
and the Board uses its emergency fund when the costs are 
extraordinary.

                        Status of Investigations

    Mr. Olver. I would be interested to know what the various 
investigations, the ones that are completed in the past year, the five 
of them that are listed, what the expenditures thus far are in the 
older ones that are still ongoing, the 1996 and earlier.
    Mr. Hall. We can provide that for the record. Let me make 
clear we would just be providing our percentage of the cost, 
not the FAA, or any of the other party.
    [The information follows:]

    The following table identifies the non-pay costs to the Safety 
Board for investigations completed during FY 1997 and so far in FY 
1998, and also costs to date for ongoing investigations:

------------------------------------------------------------------------
                                                                 Travel 
            Accident site                      Airline            cost  
                                                                 ($000) 
------------------------------------------------------------------------
Completed Investigations (FY 1997):                                     
    Everglades, FL...................  ValuJet 592 (DC-9).....       246
    Quincy, IL.......................  United Express 5925            16
                                        (Beechcraft 1900C).             
    Narrows, VA......................  Airborne Express (DC-8)        10
    Jamaica, NY......................  Tower Air 41 (B-747)...         3
    Flushing, NY.....................  Delta Airlines 554 (MD-         3
                                        88).                            
    Cheyenne, WY.....................  Cessna (177B)..........         5
    Houston, TX......................  Continental Airlines            9
                                        1943 (DC-9).                    
    Nashville, TN....................  ValuJet 558 (DC-9).....         2
    Carrollton, GA...................  Atlantic Southeast             26
                                        Airlines 529 (EMB-120).         
    East Granby, CT..................  American Airlines 1572         16
                                        (MD-83).                        
Completed Investigations (FY 1998):                                     
    Pensacola, FL....................  Delta Airlines 1288 (MD-       60
                                        88).                            
Ongoing Investigations:                                                 
    Miami, FL........................  Fine Air 101 (DC-8)....        32
    Aliquippa, PA....................  USAir 427 (B-737)......       528
    West Palm Beach, FL..............  American Airlines 903           4
                                        (A300).                         
    Montrose, CO.....................  Scenic Airlines (Cessna        10
                                        208).                           
    Guam.............................  Korean Airlines 801 (B-       155
                                        747).                           
    Newark, NJ.......................  Federal Express 14 (MD-         3
                                        11).                            
    East Moriches, NY................  TWA 800 (B-747)........    23,068
    Ida, MI..........................  Comair 3272 (EMB-120)..        50
    Newburgh, NY.....................  Federal Express (DC-10)        28
------------------------------------------------------------------------
Note: Amounts exclude claims to be paid to local jurisdictions for      
  extraordinary expenses incurred related to Comair 3272, ValuJet 592,  
  and TWA 800. Amounts also exclude costs incurred and/or shared by     
  parties to the investigations (e.g., the FAA, aircraft/component      
  manufacturers, applicable airlines, union representatives, etc.)      

                   aviation investigations completed

    Mr. Olver. Are the percentages different?
    Mr. Keller. We wouldn't have knowledge of the cost for 
whatever the industry may have picked up, like the airline, or 
Boeing or whoever participated with cost recovery of the 
accident. We wouldn't know that.
    Mr. Olver. Okay. How many of the list of ongoing 
investigations would you expect to be complete within the next 
3 to 6 months?
    Dr. Loeb. Within the next 3 to 6 months.
    Mr. Olver. That is a long time.
    Dr. Loeb. That is a short time. Within the next 3 to 6 
months, I hope to be able to complete the Comair investigation, 
the Federal Express at Newburgh, which was a cargo fire, I 
expect to complete the Fine Air Miami investigation, and if we 
stretch the time just slightly, to get the Pittsburgh accident 
to the Board, and if I could----
    Mr. Olver. Pittsburgh is listed here as Aliquippa.
    Dr. Loeb. Yes, sir.
    Mr. Olver. What would be holding up things like the ones in 
West Palm Beach and Newark, the Federal Express in Newark? 
There were no fatalities there. Does it take a great deal 
longer when there are fatalities or only when there are a great 
many fatalities?
    Dr. Loeb. Let me try to answer your question the best way I 
can. Federal Express in Newark is not proceeding rapidly simply 
because of resources at this time. The agency has put a 
substantial portion of its resources in the last two and a half 
years into 3 major accidents, ValuJet at Miami, TWA, and the 
Pittsburgh accident. The reason for that is there were 
significant issues in those accidents that we believe that 
absolutely needed our highest priority attention. At the same 
time, we tried to address the other accidents that are ongoing, 
but unfortunately in some cases we simply do not have the 
number of people to be able to pursue the investigations 
simultaneously and concurrently. We have a limited number of 
airplane performance engineers and we have a limited number of 
systems engineers.
    Mr. Olver. You have made a decision in the case of a couple 
where there were zero fatalities that they were not so 
critical, they were not likely to be producing----
    Dr. Loeb. They were not at the level at which we believed 
we could take people off the other investigations to put them 
on that investigation at full speed. I would like to say, a 
major investigation normally takes us 9 months to a year, at 
least. If there is substantial research that has to be done, as 
in the case of Pittsburgh, where we have done an incredible 
number of tests over the last 3\1/2\ years,the process of doing 
that just simply takes time. Even if we had more people we probably 
could not have pursued that faster at that time. However, while we are 
doing that and pursuing accidents like TWA and ValuJet at the same 
time, we do not have the redundancy we would need in some areas like 
airplane performance, systems, and so forth, to do them all 
simultaneously at high speed.

                         FLIGHT DATA RECORDERS

    Mr. Olver. How many of our scheduled passenger air flights 
are operating with the minimum number of recorders, as you make 
something of the fact that the number of parameters being 
recorded was at the minimum in the case of the Pittsburgh 
flight, which you advised has something to do with how quickly 
you are able to come up with answers?
    Dr. Loeb. At this point the majority of the airplanes 
flying would only be required to have----
    Mr. Olver. The same requirements?
    Dr. Loeb. That is correct.
    Mr. Olver. Has there been a gauge point or a time at which 
they must have--you say a number of them now have 100 
parameters.
    Dr. Loeb. That is correct.
    Mr. Olver. The new airplanes. Is there some standard for 
how many they must be recording that you have laid down for 
capital stock that is coming on line after such and such a 
year?
    Dr. Loeb. We have made recommendations, as the Chairman 
indicated, to the FAA. They have promulgated rules that now 
require newly manufactured and older airplanes to be 
retrofitted according to a schedule that goes into the year 
2004. Is that correct, Vernon?
    Dr. Ellingstad. 2002.
    Dr. Loeb. 2002, and it is very complex. It depends on when 
the airplane was originally certificated, whether it was a wide 
body, a narrow body and so forth.
    Mr. Olver. What is the new minimum going to be by 2002? Is 
there a minimum?
    Mr. Hall. Before Dr. Ellingstad responds to that, let me 
say, Congressman, that is what the FAA requires. Southwest 
Airlines, with an all 737 fleet, has retrofitted all of their 
aircraft immediately with modern flight data recorders.
    Dr. Ellingstad.
    Mr. Olver. That ought to make a good sound bite.
    Dr. Ellingstad. Actually, the situation is even more 
complicated than Dr. Loeb implied. There are several compliance 
dates and there are several standards. For aircraft newly 
manufactured after August of 2002, there will be 88 parameters 
required.
    Mr. Olver. After 2002.
    Dr. Ellingstad. After August of 2002.
    Mr. Olver. Regardless of the size, there will be at least 
88?
    Dr. Ellingstad. This is anything regulated under Part 121. 
For those manufactured after August of 2000, the requirement is 
57 parameters.
    Mr. Olver. Everyone will be there by 2002 retrofitted?
    Dr. Ellingstad. No, these are newly manufactured, and those 
requirements for the very extensive recorders come in for the 
newly manufactured aircraft. For aircraft manufactured after 
1991, there is a compliance date of 2001, and those aircraft 
will go up to 34 parameters. So it is scaled, and we are still 
going to have a lot of 11 and 22 parameter recorders in the 
older fleet for a considerable amount of time.
    Mr. Olver. That is interesting.
    Dr. Loeb. I will say this, by the year 2002, all the planes 
will be equipped to provide a significant improvement in our 
ability to pursue the investigation of the accident. So it will 
be a significant step forward, although not anything that we 
want.

                         FLIGHT DATA RECORDERS

    Mr. Olver. If you are making all new ones after the year 
2002 have 88 factors, and I don't know how many of those 
factors are so arcane that they really are very low probability 
kinds of factors, why, if people are having to go through the 
retrofit, why wouldn't you make planes that are coming on line 
after 1991 go up to that number also, since those planes 
probably have another life of 20 years or something of usage.
    Dr. Loeb. Because it depends on whether they are equipped 
already with a digital acquisition unit that helps them to 
capture and move the data. The problem is not the recorder. I 
think that needs to be understood. It is not the black box. It 
is the ability of the airplane to feed the black box. You have 
to have sensors on the airplane and you have to be able to get 
the information from those various sensors to the black box in 
the tail of airplane. If you are doing it digitally, you have 
to have the units in there that do it. For some of the older 
airplanes, it really is----
    Mr. Olver. You virtually might as well throw them away.
    Dr. Loeb. That is why the staggered approach. There is a 
basic minimum set of data we need, for example, that has not 
been available to us, and was not available on TWA 800, was not 
available on USAir 427. So, as I said, it will be a step 
forward, but not everything we want. The timing is something 
that is obviously of concern to us, because that is 4 years 
from now. It is a long time to live with that situation, but 
that is where we are now.

                           TRANSIT BUS SAFETY

    Mr. Olver. Let me switch, if I may, to one other thing, Mr. 
Chairman. In your highway program, I noticed that the case of 
the child who was killed leaving a transit bus by a utility 
truck, and the comment there is that you found no mechanism in 
place that documents the extent to which transit buses are 
being used to transport children to and from school. It is 
amazing we don't have a lot more accidents, I would think, 
because there are a lot of transit buses, and, yes, up my way 
you have flashing lights and stop signs that come out and so 
forth, but the transit buses have none of that. But I suppose 
in general usage, when you see flashing lights, a lot of people 
sort of see a shadow of a stop sign as well. Has anything been 
done, this is some time ago, is there anything moving on 
documenting the extent to which transit buses are being used?
    Mr. Hall. Yes, Congressman. I would like to call on Mr. Joe 
Osterman, who is the head of our Office of Highway Safety, for 
comment on that accident and the recommendations we would make.
    Mr. Osterman. Sir, the bottom line is we don't know how 
many fatalities or serious injuries are caused to students 
using transit buses to and from school because we are simply 
not able to tally those statistics. Additionally, the Board 
investigated a transit bus accident in Normandy, Missouri, 
which led us to a special investigation regarding the oversight 
of highway transit vehicles, not only driver selection, but 
maintenance, their use, the statistics that are being used to 
determine their safety, and a number of other issues. We will 
be holding a public hearing in St. Louis the first week in 
March. We are concerned about the oversight of this industry 
and the statistics and representation of its safety record.
    Mr. Olver. Why, then, does this Washington incident appear 
here? How does it come onto the radar screen if there are 
perhaps, as you are suggesting there may be, a number of 
accidents involving transit buses which haven't appeared? Why 
don't they appear on the screen? What is the trigger here.
    Mr. Osterman. Traditionally, transit operators have been 
prohibited from exclusively transferring students to and from 
school. You cannot generally use a transit bus to replace a 
school bus per se. But there have been voids in the rules that 
permit transit operators to conduct what they call tripper service. 
Essentially what the transit operators are able to do is establish a 
route that is primarily used to transport students to and from school. 
The difference is that a school bus cannot stop and pick up other 
passengers. The transit bus is permitted to do that and will do it, if 
necessary, or if someone flags it down at a stop. In the accident you 
are referring to, this was a tripper accident. The route was only 
established in the morning and in the evening. It was to and from 
school essentially. If an adult had been on the side of the road and 
flagged down the bus, the transit operator or the bus operator would 
have been required to pick them up, but in reality that did not happen. 
Statistics don't capture it as students, they capture most of these 
accidents as either pedestrians or occupants of transit buses. It is 
very difficult to figure out. Plus we have the compounding problem of a 
lot of urban school systems use transit systems as the primary 
transportation mechanism.
    Mr. Olver. Thank you, Mr. Chairman.

                         aviation safety issues

    Mr. Wolf. I thank you, Mr. Olver. We are going to go until 
5:00 and if we don't finish we are going to come back. So if 
you can be prepared to stay until 6:00, we have a lot of 
questions. We are going to have quick votes, but I don't want 
to make you come back, so if you could clear your schedules, I 
would appreciate it.
    With regard to the question Mr. Sabo had and Mr. Pastor had 
is really a good takeoff on this. I share their concerns. I sat 
through the hearings over the years, and we have heard you say, 
with regard to the FAA, there is a delay here, this has not 
taken place, the turbulence issue, the black box issue has been 
a problem, issues on the most wanted list. I think you all do 
an excellent job of investigating the accidents that take 
place, but I know you share my concern that our goal is not 
only to do a good job of investigating accidents that take 
place, but to prevent accidents from taking place. I think Mr. 
Pastor's comments with regard to the 737s were very relevent. 
They are flying all over. What I would like to do, and I am 
going to be talking to Jane Garvey, and let me say this, I 
think Ms. Garvey has a no nonsense approach to running the FAA 
and this would, I hope, be helpful to her. I would like to see 
us, and I hope you would agree to participate, do the 
following. There is no way of systematically measuring the 
success that Mr. Pastor talks about on the 737. The runway 
incursions are dramatically up. The ValuJet issue, I think it 
is fair to say the ValuJet, should have never happened.

                      aviation safety review group

    The TWA 800, the deicing issue, the repair statistics that 
Mr. Sabo mentioned, what they are doing with regard to the 
spare parts. We have a hard enough time dealing with the spare 
parts in River City, let alone outside the country. The human 
factors issue, you mentioned the turbulence issue, the United 
Airlines coming out of Hawaii. This is what I would like to see 
you do and I would like to see the Safety Board participate in 
it. I would like to see a group set up that would help us 
measure the progress FAA has made on the issues that the 
Members have raised. I have been concerned about all these 
things.
    We looked at the issues on the most wanted list, the flight 
data recorder, FAA, wake turbulence, FAA, mode C intruder 
conflict alert system, FAA, pilot background checks, FAA, air 
frame structural icing, FAA, explosive mixture in fuel tanks, 
transport category, FAA, airplane cargo compartment storage, 
FAA, airport runway incursion. This group would be set up to 
help us measure the progress that has been made.
    You come before the committee each year. This committee has 
given you what you have asked for. I don't think we have ever 
cut your budget. In fact, I think we have added to it. But how 
do you measure the progress? Can you honestly say, and I am not 
asking you to say it, can you honestly say aviation is safer 
today than it was 5 years ago? You have the Pittsburgh 
situation, ValuJet, TWA, and the controversy surrounding that 
accident. I would like to see a team set up with offices over 
at the FAA made up of someone from the Safety Board, someone 
from the GAO, someone from the IG, someone from Mitre 
Corporation, somebody from the Flight Safety Foundation, 
perhaps somebody from ALPA, and perhaps there are 2 or 3 other 
groups I haven't thought about, that would go in and look at 
all of these recommendations, all of your most wanted list, the 
things the Members have raised to develop a measurement stick 
that we can honestly see how FAA is doing on aviation safety. 
As you will see sometimes, when something comes in the news, 
then FAA becomes proactive on it. Then a person retires, and it 
is forgotten about. So somebody needs to put together a capable 
group of men and women that would develop some safety 
measurement mechanism. We would do it mainly for the FAA, 
because this is the major concern at this time. Perhaps it 
could be broadened in the future. Perhaps their office should 
be over at the FAA. We can put the funding in. I don't think 
anybody should be concerned about it, we are not talking about 
a major new program. Then they would put together a quarterly 
report that would tell the Members what progress is being made. 
Mr. Pastor can see what is the progress on the 737, or what is 
the progress or lack of progress on the runway incursion.
    I am going to ask that we set up this group. It would take 
somebody from all 5 or 6 of these agencies. I would hope the 
Safety Board would participate in that, because you all do a 
wonderful job of investigating what takes place. But I think 
our number one priority should be safety. It would be wonderful 
if we could put you out of business, and I know you would like 
to be put out of business. The ideal thing would be there would 
be no accidents, any. Our hope would be we could get to that 
point.
    So would you, and just listening to the Members and their 
questions, have the Safety Board participate in something like 
this? We could fashion a group that would develop a measurement 
and then on a yearly basis put out a systematic report that 
everyone could look at and then a quarterly report showing the 
increase or the decrease of the activity.
    Mr. Hall. Certainly, Mr. Chairman, we would be glad to 
participate in that. Let me just say, in my 4 years as 
Chairman, my major concern with the FAA has been the lack of 
urgency within the organization in addressing these accidents 
as they occurred, but I respectfully suggest that the most 
important member to participate in any team like that would be 
a representative from the OMB. As the Gore Commission 
identified in its study, one of the major problems is the issue 
of cost versus safety. They recommended that in the areas of 
major accident investigation, that that cost-benefit analysis 
not be applied as it has been in the past by OMB.
    Mr. Wolf. I think that is a great idea.
    Mr. Hall. Mr. Chairman, I and the other members of this 
Board are privileged to have been appointed by the President 
and confirmed by this Congress to serve as safety spokesmen for 
the Nation, and anything this Chairman asks us to do, we are 
willing to do and participate in.

                      aviation safety review group

    Mr. Wolf. I appreciate that. We will try to put this 
together and I think your idea with regard to OMB is excellent. 
I really believe this would offer Ms. Garvey a second opinion. 
A group of individuals she would have a lot of confidence in, 
that would not be there just to throw stones at the FAA but 
there to say once and for all, here is the measurement and here 
is what your annual report says and here is what your quarterly 
report says, just as we do with employees. I have a position in 
myoffice, every 3 months or so, we go back and review our work. 
If you remember the old Ed Sullivan show where he would have a magician 
on and he would spin the plates and the plates would spin and the plate 
would begin to wobble and the audience would say, Ed, get the plate, 
and he would then go back and get the plate and spin it. Just a group 
would force the FAA and everybody in authority to make sure the plates 
are being spun and that we have the safest aviation system, which I 
believe that we do now in the country. But I think until you have this 
group, I keep hearing the criticism of this has been delayed, that has 
been delayed, this is a high priority, then somebody leaves, it drops 
to a low priority and I don't think we have a systematic way. So I 
appreciate your willingness to participate and we will also contact 
anybody else you think would be helpful.
    Mr. Hall. If I can add one brief comment. You may be aware, 
Mr. Chairman, that the Air Transport Association recently 
announced a new partnership effort. We have been briefed by 
them on that partnership, and that is something that I am sure 
your staff is aware of and might be something that might be 
incorporated into your thinking.
    Mr. Wolf. Would you suggest a representative of the ATA?
    Mr. Hall. Certainly, sir. I must add, Mr. Chairman, that I 
don't think that this effort or any effort should replace 
active Congressional oversight.
    Mr. Wolf. Absolutely not.
    Mr. Hall. Or our independent accident investigation.
    Mr. Wolf. Absolutely not. In fact, this is in addition to 
Congressional and Safety Board oversight. When Mr. Pastor asked 
the question, assuming we were able to get this group up, next 
year he would want to have a report that says here is what the 
status is on the 737s. If there were not a hearing and he were 
interested in this last week, then he could look at the 
progress. We could see what has taken place, if a lot of good 
things have been done, or not very much has taken place, and 
also, the public could see. Public accountability, I think, 
forces people to do things that maybe they would do anyway but 
it spurs them on. If we can prohibit anything from taking 
place, preventing the pain and suffering and agony of the 
families that were involved in accidents, then I think it would 
be very, very positive. We will try to do that and I appreciate 
the Members raising it because I think it forces this issue out 
and we just don't forget about it. FAA comes up here on March 
10, we move along, we mark up, we go off and then everyone 
forgets and in the next year you come back. This way, every 3 
months we would have it. You would have to help us develop a 
measurement we can honestly and fairly measure what the 
progress or lack of progress was. Based on your accident 
investigations each year, the Safety Board helps focus the work 
on pointing out transportation issues we can be concerned 
about. What areas do you foresee may have serious safety 
problems that the committee should begin to monitor? If you 
want to think about it and give it for the record. But, what 
one or two do you think we should be following, the staff, 
everybody should really be watching?
    Mr. Hall. We have discussed a couple of those this morning, 
Mr. Chairman. Let me just say generally, we provided the 
tremendous growth we are going to see in all modes of 
transportation over the next 10 years.

                         aviation safety issues

    Mr. Wolf. That is what troubled me. I listened to a speech 
former Administrator Hinson gave and I am sure you have 
probably read the same speech where he talked about if things 
don't dramatically change, the number of accidents in the year 
2005 or 2010 will be substantially higher. Now I don't know if 
that was overly stated to get the attention, but we don't want 
that to happen.
    Mr. Hall. We are looking at the possibility of having 
airplanes in the future with the equivalent of a double decker 
747 that would carry maybe 800 or 1,000 people. I showed you 
the demographics of young people and older populations and the 
increased growth of 5 to 6 percent annually of automobiles on 
our highways. In the marine area, we are seeing cruise ships 
built that will be twice the size of the Titanic that can carry 
up to 6,000 passengers at one time. We have more rail mileage 
than ever, and, of course, the growth of the transport of 
hazardous materials and nuclear materials in this country is 
increasing as well. All of those statistics tell us that we 
need to be serious about trying to improve what is a very safe 
record in all of these transportation areas, and doing 
everything we can to prepare for the 21st century so we don't 
see an increase in accidents as a result of the growth in 
transportation and the statistics staying the same.
    Mr. Wolf. For the record, so I don't misquote this, do you 
remember the quote Mr. Hinson made? Could you repeat it so the 
other Members can hear it.
    Mr. Hall. I think the speech was based on a study completed 
by Boeing Corporation that indicated with the world-wide growth 
in aviation, that we were looking at a major hull loss 
worldwide once a week. Dr. Loeb has the exact quote.
    Mr. Loeb. Basically, the Boeing study indicated that, 
worldwide, by the year 2015, there would be a catastrophic hull 
loss each week, worldwide, jet transport, if there are no 
changes and the growth pattern continues in the way in which 
the FAA and others are currently predicting it will grow.
    Mr. Hall. Mr. Chairman, the interaction between man and 
machine is going to be the biggest challenge we have in the 
transportation area in the next 10 to 15 years. You may want 
Ms. Garvey to go over this with you. The number of new pilots 
that will have to be trained and be available for this growth 
in aviation is an important area as well.
    Mr. Wolf. The committee has put more money in human factors 
every year. The FAA seems to go the other way on this issue. 
This is one of the things that troubles me. Have you reviewed 
the President's budget to see if there are areas that are being 
adequately addressed? Are there areas that you have looked at 
you think are not adequately addressed that this committee 
should look at?

                      presidential budget request

    Mr. Hall. Well, like all citizens, I saw the President's 
budget was $1.7 trillion, and that is very difficult for me to 
comprehend. We do not get the detailed budget that you have, 
and I don't have enough detailed information to comment.
    Mr. Wolf. Staff will give you a copy and ask you to 
comment.
    Mr. Hall. We would be glad to do that for the record, Mr. 
Chairman.
    [The information follows:]

    4The Safety Board has yet to receive a copy of the 
Department of Transportation's FY 1999 budget request. However, 
we are reviewing a General Accounting Office report ``DOT's 
Budget, Management and Performance Issues Facing the Department 
of Fiscal Year 1999.'' Should we have concerns after our 
review, we will be certain to inform the Committee.

                             twa flight 800

    Mr. Wolf. What is the status of the TWA 800 accident? I 
understand the FBI still hasn't closed the case officially. I 
checked the other day. Can you give us the status quickly?
    Mr. Hall. As you know, Mr. Chairman, we concluded a week 
long hearing concerning TWA Flight 800 accident in December. 
During the hearing we heard testimony concerning the explosion 
in the airplane's center wing tank, the subsequent breakup of 
the air frame and the Board's efforts to identify the ignition 
source. A meeting of all the parties under Dr. Loeb's 
leadership was held last week, which provided an opportunity to 
lay out a plan of action for 1998 on the investigation. I will 
ask Dr. Loeb if he would review that for you at this time.
    Dr. Loeb. As the Chairman indicated, we held a meeting last 
week with the parties, the purpose of which was threefold. 
First, a number of the parties had indicated that they would 
like to have access to our researchers who had done work on the 
jet A fuel, that indicated that indeed the beliefs of the 
industry that had been held about the explosive characteristics 
of the fuel were incorrect. We had also done flight tests to 
demonstrate that explosive vapors would form and you could get 
the results that we saw. And so we made our researchers 
available to all the parties to question them and ask them the 
basis of the research and how it was done. The second purpose 
was to ask them what more needs to be done for the industry and 
the FAA to act on our short-term recommendations. We made a 
number of recommendations for remediation, and we made some 
recommendations that were for longer term action.
    And finally, the third part was to develop a plan for the 
remainder of the year. We had been doing that internally within 
the Board, but we wanted the input of the parties. We are in 
the process now of finishing the development of our plan for 
what we are going to do. And as you can see, Dr. Ellingstad has 
put this up on the screen. Basically, the kinds of large scale 
efforts that still remain are the laboratory studies on the 
fuel that will be done by Cal Tech and other organizations 
throughout the world working with them. Quarter scale testing, 
computer modeling that will be done by Sandia and Christian 
Mickelsohn Research, they are in Scandinavia, and eventually, 
full scale testing.
    There are a number of reasons for this testing. First, we 
would like to be able to pinpoint, if we can, and there is no 
assurance we can, the location of the ignition. If we can do 
that, it would help us to narrow down where it would occur and 
what may have ignited the vapors. To do that, ideally, if we 
could purchase maybe 100 747s and find a place we can blow them 
up systematically over a 5 or 10-year period of time, that 
would be a good way of doing it. That is obviously not 
possible, so what we want to be able to do is develop numerical 
coding, using the best resources in the world. Los Alamos was 
also invited to participate in this. It turns out that Sandia 
and Christian Mickelsohn Research Laboratories are the ones 
that had the codes that are most ready to run to try to do 
this. We are starting out with a quarter scale testing to learn 
enough to tweak the codes and then validate them against the 
quarter scale. Eventually we will validate them against full 
scale testing. If we are fortunate, it may pinpoint the 
ignition source and help us to identify it. Second, we will 
learn about the dynamics of fuel tank explosions, none of which 
has been known, nor has there been an attempt to previously do 
this, which was surprising to us when we started the process. 
We also need to do some additional ground tests, and maybe some 
flight tests as a part of this program.
    Finally, we have two major areas that are going on in the 
ignition source area at the same time. One is to look through 
every piece of wiring that exists, that we had salvaged, that 
is up in Calverton, to try to determine if any of those wires 
show arcing, burning, anything that would give us a hint as to 
how we may have gotten the energy into the tank. And then, 
finally, to continue with a number of other areas, including 
static testing. This program is likely to take us through this 
summer, at least. I am hopeful, and I have told the Chairman 
this although I have been wrong in the past, I am hopeful we 
can perhaps wrap this up and get a report to the Board by the 
end of this calendar year. That is ambitious, but that is the 
program we are embarked on and that is where we are right now.

                      twa flight 800 investigation

    Mr. Wolf. Is the dredging finished?
    Dr. Loeb. The dredging is finished, we cleaned the bottom.
    Mr. Wolf. Have you told all the fishermen who are out there 
if they come across something while they are dredging for 
oysters or something, they should call you? Have there been 
notifications to everybody in the region?
    Dr. Loeb. The Coast Guard has put out information there.
    Mr. Wolf. Did anything come in the last 2 months?
    Dr. Loeb. Yes, some parts came in in the last week that 
someone thought were from TWA 800 but they had nothing to do 
with it.
    Mr. Wolf. But that is a good sign that people are looking?
    Dr. Loeb. There are people still looking.

                   faa response to the investigation

    Mr. Wolf. Did you agree with the way the FAA approached the 
issue?
    Mr. Hall. Which specific issue, sir?
    Mr. Wolf. Their own investigations.
    Dr. Loeb. The FAA is a party to our investigation and have 
participated fully with us.
    Mr. Wolf. And their response to date, how do you feel about 
that?
    Mr. Hall. We have not been satisfied with the response.

                         FAA TWA INVESTIGATION

    Mr. Wolf. Mr. Hall, last year the FAA conducted their own 
engineering investigation into TWA 800, and there seemed to be 
some tension between the two agencies over the technical 
findings from your respective investigations. Under what 
authority does the FAA conduct their own investigations 
stemming from aviation accidents, and how does that compare to 
the NTSB's authority?
    [The information follows:]

    The Safety Board is the lead agency for the investigation 
of all civil aviation accidents, and the Federal Aviation 
Administration (FAA) does not have the authority to investigate 
commercial aviation accidents. Since the FAA is responsible for 
the certification of aircraft and for monitoring the continuing 
airworthiness of aircraft it certifies during the life of the 
aircraft, they are a party to all of the Safety Board's 
investigations, both to provide technical expertise to assist 
the Safety Board, and to be able to learn first-hand 
information to determine if there are any certification or 
airworthiness concerns, or violations of the Federal Aviation 
Regulations that need to be promptly addressed. In certain 
cases, the FAA will conduct critical design reviews of 
previously certified aircraft, engines, or components based 
upon the information developed during the Safety Board's 
investigation. In some cases, the Safety Board has recommended 
that the FAA conduct such reviews.

    Mr. Wolf. Did you agree with the way FAA approached this 
issue? If not, why not?
    [The information follows:]

    The Federal Aviation Administration (FAA) has conducted 
engineering evaluations of the Boeing 747 fuel system based 
upon the findings of the investigation and the Safety Board's 
safety recommendations. However, the Safety Board has been 
concerned that the FAA has not been aggressive in performing 
research to determine the conditions that can exist in a Boeing 
747 fuel tank or the properties of Jet A fuel. These are areas 
that would be considered part of the FAA's certification and 
continuing airworthiness responsibilities. The research into 
these issues in connection with the TWA flight 800 
investigation has been conducted by the Safety Board as part of 
its investigation to determine probable causes and potential 
corrective actions.

                     TWA FLIGHT 800 RECOMMENDATIONS

    Mr. Wolf. Following the TWA accident, the Board issued 4 
recommendations on design and operational changes that 
precluded the potential of an explosive fuel air mixture in the 
fuel tanks. Will you highlight briefly for the committee what 
the recommendations were?
    Mr. Hall. I will ask Dr. Loeb.
    Mr. Wolf. And the status, and also, the activity or the 
feelings of the aviation industry.
    Mr. Hall. It is fair to say, Mr. Chairman, that up until 
the December hearing, the attitude of the industry, as well as 
the FAA in regard to our recommendations, was not what I would 
describe as positive. I think, since our hearing, I believe it 
is positive, and I am encouraged there will be action on the 
recommendations. I will ask Dr. Loeb if he would like to 
outline them briefly.
    Dr. Loeb. We made 4 recommendations, two of which asked for 
short-term action, and two of which asked for action that we 
knew was going to be longer term. The status of the two shorter 
term ones is unsatisfactory, and the status of the two longer 
term ones are satisfactory for the following reasons. The 
short-term recommendations asked them to review any short-term 
measures, such as adding fuel to the center tank, putting in 
some insulation, any short-term kinds of things that could keep 
the heat down in the tank. They have taken no action in regard 
to that. There was also a short-term recommendation that asked 
for some information to be provided to the pilots about the 
explosive characteristics, and they simply haven't done 
anything in that regard either.
    Now the two longer term ones had to deal with developing 
longer term solutions, real design changes, and instrumentation 
and so forth, that would provide help. The FAA initially 
established a committee. That committee has been meeting; 
however, their process is extremely slow. The committee on 
flight and duty time met for years, they could not come to an 
agreement, and there has never been a rulemaking in that.
    However, as the Chairman indicated, since our public 
hearing, the FAA has established another task force which has 
very tight deadlines, and in fact is supposed to be finished by 
the end of February with a report to the Administrator. So they 
are taking a different tack and I believe, as the Chairman 
said, it is a much more positive approach right now.

                            jet a fuel tests

    Mr. Wolf. NTSB planned to conduct tests on the flammability 
and explosive characteristics of jet fuel computer modeling to 
understand the propagation of an explosion in the 
multicompartment B747 fuel tank and tests to determine 
potential ignition sources. What is the status of these tests? 
Which ones have been completed? Which ones are ongoing? For the 
record, please provide more specifics on each of these tests, 
including timetables and costs.
    [The information follows:]

    The Jet A flammability program can be divided into 2 broad 
categories, an experimental program and a computer modeling 
program. The Jet A experimental program consists of 5 phases: 
(1) laboratory explosion testing; (2) ignition energy testing; 
(3) \1/4\ scale testing; (4) vapor pressure measurements; and 
(5) flight tests. All of these programs are designed to give 
the Safety Board a better understanding of the conditions and 
circumstances surrounding this accident. The \1/4\ scale 
testing program is coupled to two different computational fluid 
dynamics (CFD) programs, one at Sandia National Laboratories 
and one at Christian Mickelson Research Institute, and provides 
initial experimental data for input to the computational 
modeling for validation of the computer mode. The purpose of 
the CFD modeling programs is to help determine the effects of 
changing the conditions within the tank without having to run 
an experiment for each condition or change. For example, the 
effects of changing the location of the ignition source within 
the center wing tank are being studied and compared to pressure 
development within each compartment within the tank. Thus, the 
computational modeling cuts the time and money required to 
study the effects of changing various parameters in the test.
    To date, approximately thirty \1/4\ scale tests have been 
completed. The data reduction from these tests is on-going. The 
modeling programs are using these data for validation and for 
exploring the effects of changing the test conditions. The 
modeling efforts are on-going, but completion is expected in 
June 1998. Based on the predictive results from these model 
calculations, additional \1/4\ scale testing may be necessary.
    Data analyses of the flight tests are on-going. These data 
are also being used to provide guidance to laboratory and \1/4\ 
scale testing programs.
    The combined costs of the above-mentioned work, as well as 
extensive Jet A flammability and ignition energy studies, has 
been about $1 million over the past year. This figure does not 
include the flight test.
    A second series of quarter scale explosion tests will be 
conducted this summer using Jet A fuel and a test fixture 
pressurized to represent the 14,000 ft. altitude conditions, 
and the temperature conditions of TWA flight 800. CFD modeling 
will also continue to attempt to identify a probable ignition 
location, and to evaluate the explosive overpressure in the 
fuel tank. This computer modeling of the explosion process will 
also be combined with structural modeling of the fuel tank/
aircraft response to these overpressure events. Costs have not 
yet been determined for these activities.
    The Safety Board expects to participate in ground tests 
conducted by Boeing to characterize the temperature and heat 
transfer characteristics of the Boeing 747 fuel tank and 
associated air conditioning equipment under various conditions. 
It is expected that these tests will be conducted in late 
spring.
    It is also likely that full-scale explosive tests may be 
initiated in late summer. Costs for those tests are not known.

                     twa flight 800 recommendations

    Mr. Wolf. What is the status of these recommendations? Are 
the airlines and others in the aviation industry still strongly 
opposed to these recommendations?
    [The information follows:]

    In December 1996, the Safety Board issued four safety 
recommendations to the Federal Aviation Administration (FAA) 
concerning the flammability of fuel-air mixtures in fuel tanks. 
In February 1997, the FAA wrote to the Board expressing its 
concern that the Board's recommendations called for major 
changes in fuel tank design and fuel management in transport 
category airplanes. In April 1997, the FAA requested comments 
from industry and interested parties regarding the Safety Board 
recommendations. The closing date for comments was in August 
1997. We are concerned about the length of time that has passed 
since the comment period ended without any response from the 
FAA about what specific actions it will take to reduce the 
potential for the buildup of explosive fuel/air vapors in fuel 
tanks. Although considerable information was discussed and 
gathered during the Safety Board's accident investigation 
hearing held in December 1997, no substantial actions have been 
taken by the FAA on our earlier safety recommendations.

                             TWA Flight 800

    Mr. Wolf. I checked with the FBI. They have not officially 
closed the case, is that accurate?
    Mr. Hall. My understanding from the statement made by the 
FBI is the case is in an inactive status.
    Mr. Wolf. But it is not closed?
    Mr. Hall. That is correct, sir.

            TWA Flight 800 Investigations of Missile Theory

    Mr. Wolf. Even though the FBI has officially closed its 
investigation and concluded that the accident was not caused by 
a criminal act, suspicion over the investigation continues. For 
example, recently senior military officials stated that all the 
evidence points to a missile, not to fuel vapors exploding in a 
central fuel tank. What is your response to this?
    [The information follows:]

    The examination of all recorded radar data indicates that 
there are no primary radar returns that appear close in 
distance and time to TWA 800 that are not attributed to known 
airplanes or surface vehicles. The investigation has found no 
evidence from the wreckage or the autopsies of the victims that 
a missile impacted the airplane or that a bomb exploded inside 
the fuselage. Additionally, detailed examination of the 
wreckage has provided no evidence of a penetration that could 
be associated with the detonation of a missile warhead.
    Recently, persons who are not familiar with the functions 
and processing of flight data recorders have made statements 
that the data provides evidence of a missile impact. The flight 
data recorder provides 25 flight hours of data on a continuous 
loop of tape. The recorder erases data that is more than 25 
flight hours old as it records new data on the tape. The data 
that some people have questioned is information from a previous 
flight.

    Mr. Wolf. There was one senior person, a military officer, 
that stated that all the evidence points to a missile, not a 
fuel vapor exploding in the central tank. How do you respond to 
this? We are going to get the name of the person. This is not 
Pierre Sallinger.
    Mr. Hall. We have ongoing correspondence with one 
particular individual, a Commander Donaldson, who we have 
corresponded with frequently concerning his concern that a 
missile hit. Mr. Chairman, that was the purpose of the weeklong 
public hearing in which we put out all the information we have 
in regard to the investigation. It is the opinion of our 
experts there was an explosion in the center fuel tank. We have 
been looking for the ignition source, but we have found no 
evidence of a bomb or a missile or an external explosion 
causing this event. We will certainly not conclude our 
investigation on this or any other matter until the staff 
concludes its investigation and submits the report to the Board 
for recommendations and probable cause.

                 TWA Flight 800 Investigation TimeFrame

    Mr. Wolf. Do you think the Board will be able to 
conclusively determine the cause of the accident or do you 
think it may be possible that you may never be able to identify 
the cause?
    Mr. Hall. Mr. Chairman, I am certainly hopeful that we will 
be able to determine the ignition source. There is certainly a 
possibility we may not.
    Mr. Wolf. Last year, you testified that the TWA accident 
investigation would be wrapped up early in 1998. However, this 
no longer appears likely. When do you anticipated completing 
the fact-finding stage?
    [The information follows:]

    The dynamic nature of complex investigations such as the 
TWA flight 800 accident make it difficult to project when the 
fact-finding phase will be completed. Experience has shown that 
the results of any one test can provide a solution, or they can 
highlight the need for more research. Based upon the research 
that is currently planned, the Safety Board's staff has 
indicated that fact-finding activities should be completed in 
early fiscal year 1999. However, a precise date for completion 
of the investigation and issuance of a final report cannot be 
stated at this time.

                        railroad investigations

    Mr. Wolf. We will have more questions we will submit in 
detail.
    During the last 6 months of 1997, we had a rash of freight 
railroad accidents. Prior to that, in 1996, there were a number 
of tragic railroad accidents, including the Fox River Grove and 
the MARC accidents. Is the Board concerned about railroad 
safety and do you believe we have seen an improvement of rail 
safety throughout the U.S.?
    Mr. Hall. Joining me at the table is Mr. Bob Lauby, who is 
the head of our Office of Railroad Safety. As you pointed out, 
Mr. Chairman, we have completed major accident investigations 
on accidents that occurred in Secaucus, New Jersey, one in 
Silver Spring, Maryland that received a great deal of attention 
in this area, and a couple accidents that occurred in Kelso, 
California. We have under investigation now accidents in 
Devine, Texas, Delia, Kansas, Kingman, Arizona, Garden City, 
Georgia and a special investigation underway on the Union 
Pacific Railroad. As you may know, Mr. Chairman, Union Pacific 
Railroad is the largest railroad in the United States, with 
about 26 percent of the rail industry and 32 percent of the 
track miles.
    Mr. Wolf. Let me interrupt you because we have a question 
on Union Pacific and I am going to throw that in. Union Pacific 
has had a spate of recent accidents and 10 employees have died. 
According to the railroad, this is more employee deaths than 
the railroad combined total from 1991 through 1996. I know you 
have begun some sort of special investigation, but as you 
answer, could you talk a little bit about that investigation. 
Do you believe that there has been an improvement in rail 
safety in the United States?
    Mr. Hall. Yes, sir. Let me also have Mr. Lauby comment. Let 
me say the Board, at the recommendation of staff, made a 
decision to hold a public hearing on the Union Pacific 
accidents. This was because the NTSB launched on 15 Union 
Pacific accidents in the past year, including 7 collisions 
which resulted in 7 fatalities. By comparison, during the same 
time period, we launched on 5 Burlington Northern-Santa Fe 
accidents, of which only one was a collision. Both of those are 
approximately the same size railroad. I will ask Mr. Lauby to 
be specific on your question, has rail safety improved. I think 
under Administrator Molitoris there are a number of active rule 
makings that have been undertaken on train devices, on 
passenger safety standards, and track safety. If all of those 
things were concluded, we would see a great deal of progress in 
rail safety.
    Mr. Wolf. Are you projecting a decrease then?
    Mr. Hall. I would certainly hope so. I hope the work of our 
Board always will result in a decrease. The area I mentioned 
earlier that has not been addressed is the subject of fatigue 
in the railroad industry.
    Mr. Wolf. You said you thought--I don't want to put words 
in your mouth--that there will be a decrease if the 
promulgations took effect. Do you believe we have seen an 
improvement in rail safety throughout the United States today?
    Mr. Hall. I think with the end of train devices that have 
been put in place since my term as Chairman, that we have seen 
an improvement.

                          railroad fatalities

    Mr. Wolf. In documentation you provided to the committee, 
the Board projects a decrease in rail fatalities by the year 
2002 even though vehicle miles traveled has been increasing 
dramatically in the rail industry. In comparison, the Board 
projects an increase in aviation and highway fatalities during 
the same time frame. Why are you projecting a decrease in rail 
fatalities but not a decrease in highway or aviation 
fatalities?
    [The information follows:]

    The Safety Board's strategic plan plotted the fatality 
counts in each of the modes from 1992 through 1996, and then 
computed a linear projection to determine the fatality trend 
through the year 2002. Growth in miles traveled per mode was 
computed the same way. Because fatality rates in the rail area 
decreased in 1994 and 1995, and 1996 stayed relatively even 
with 1995, the slope of the line projecting future fatalities 
was influenced by the two year decline. This influence resulted 
in a trend line showing a decline in railroad fatalities over 
the next five years. A limited number of accidents with a large 
number of fatalities could easily change the trend line from a 
downward slope to an upward one.

                safety assurance and compliance program

    Mr. Wolf. What is the Safety Board's opinion on the FRA's 
safety assurance and compliance program? Do you think it is the 
best way to eliminate safety hazards in the railroad industry? 
And as you know, FRA has been working with railroad labor and 
management, to identify safety hazards and develop corrective 
measures to eliminate hazards before they become problems. 
Union Pacific developed a safety action plan focusing on the 
railroad's systematic hazards in rail facilities, rolling 
stocks equipments and operations in 1995, before the figures 
that I just read with regard to employee deaths. Do you believe 
the FRA safety assurance compliance program is the best way to 
handle this?
    Mr. Hall. Obviously I think the record will speak for 
itself, Mr. Chairman. I can only speak on the matter personally 
and not for the Board. While I think partnerships in the safety 
area are good, I don't think they replace the government 
oversight responsibility and the responsibility of the 
government to provide independent accident investigations.
    Mr. Wolf. So you would have a little bit of a concern?
    Mr. Hall. Yes, sir. And we will explore that. If you would 
like, Mr. Lauby can----
    Mr. Wolf. I would appreciate that.
    Mr. Hall. He can go into more detail at the Union Pacific 
hearing on that subject.

                            fra inspections

    Mr. Wolf. To accommodate the FRA's new collaborative safety 
initiatives, FRA has shifted some of its resources away from 
site specific inspections. GAO recently reported these 
inspections declined by 23 percent from 1994 to 1995, and as a 
result, a greater number of railroads are not being inspected 
and FRA inspectors are conducting fewer reviews of the 
railroads' own inspection efforts. Are you satisfied the FRA's 
safety assurance and compliance program is not compromising 
rail safety?
    Mr. Hall. Mr. Chairman, I will let Mr. Lauby get into more 
detail.
    Mr. Lauby. Certainly we have seen the safety statistics 
showing the railroads overall are safer as time goes on. The 
accident rates have gone down. However, the dilemma right now 
is the Union Pacific Railroad. With the Union Pacific Railroad, 
we have seen a spate of accidents in the last year that 
indicate a problem in the way that railroad is doing business, 
because the issues we are looking at on the Union Pacific are 
not difficult issues. They are not things that there aren't 
solutions to. They are basic fatigue, they are mistakes made by 
dispatchers, they have to do with alcohol abuse in one case. 
These are lessons that we have learned over the years, and we 
would think that a railroad with a reputation like Union 
pacific would be able to handle these.
    Regarding the FRA's response, we intend to look at this 
further at our public hearing scheduled for March. We do want 
to take a look at the FRA oversight of Union Pacific in 
particular to see what has gone on. One thing we have seen is 
there has been lots of actions after the accident has occurred, 
with SAC and other processes. The FRA has been very responsive 
to get the situation taken care of, but we are concerned that 
nobody saw this coming. The problems we have seen on Union 
Pacific in the 15 accidents are very fundamental problems. We 
received letters from engineers talking about fatigue problems, 
we received letters from crew men talking about different 
problems they have with the management, and we assume FRA has 
these also. They have inspectors out in the field, and we would 
have expected that we could have headed this off before we got 
to this point.

                        railroad voice recorders

    Mr. Wolf. Following a collision of the MARC train and an 
Amtrak train near Silver Spring, Maryland in 1996, the Safety 
Board recommended that FRA amend its regulations to require a 
recording of train crew members voice communications for the 
exclusive use in accident investigations. What is the status of 
that recommendation and does the railroad industry support 
that?
    Mr. Lauby. We have very good support of that particular 
issue from some labor unions. As we speak, the FRA is 
establishing a group that is going to talk about some of the 
challenges associated with having voice recorders on the train. 
Mostly the challenge is the privacy issue.
    Mr. Wolf. But this would only be used exclusively in 
accident investigations. It is not like they are going to 
listen to it day in and day out.
    Mr. Lauby. That is true and these are some of the concerns 
that have been stated.
    Mr. Wolf. People were killed in these accidents.
    Mr. Lauby. It needs to be protected probably in the same 
way we currently protect cockpit voice recorders and other 
tools we use for aviation accidents.
    Mr. Wolf. But you already have the procedures for that; I 
would think it would be a relatively easy thing to do. When did 
you make the recommendation?
    Mr. Lauby. The recommendation came, I believe, in July of 
1997.
    Mr. Wolf. So it has been 6 months, 7 months.
    Mr. Lauby. Yes.

                        automatic train control

    Mr. Wolf. I have one more question. The Board recommended 
the installation of cab signals, automatic train stop or other 
similar redundant systems prior to the installation of positive 
train control on all trains where the commuter innercity 
passenger rail operates and that is particularly a concern 
here. We have VRE and MARC and Amtrak in this area. What is 
status of that recommendation?
    Mr. Lauby. That recommendation is basically tied up with 
positive train separation. We don't have any specific progress 
to report.
    Mr. Wolf. That has been on the most wanted list for a 
number of years. How many years has it been on?
    Mr. Lauby. Since the list was established in 1990, positive 
train separation has been on that list.
    Mr. Wolf. 8 years.
    Mr. Lauby. And the recommendations predate it being placed 
on that list. The MARC recommendation is just the latest of a 
series of recommendations.
    Mr. Wolf. If the railroads installed these devices, cab 
signals, automatic trains, all this kind of stuff like that, do 
you believe that positive control devices would still be 
needed?
    Mr. Lauby. The devices that exist now have the ability, 
once a signal is passed, to stop a train, but at that point, 
the train is still in the danger area. With a full-fledged 
positive train separation system, we would know exactly where 
the train is and be able to prevent it from passing a red 
signal. Steps would be taken to stop the train before it passed 
a red signal. With positive train stop and some of the other 
systems, the train has not always stopped before it crosses the 
red signal and gets into a danger zone.

                         Positive Train Control

    Mr. Wolf. Four class I freight railroads recently announced 
that they would contribute $20 million for the development of a 
positive train control project in Illinois. In the past, the 
freight rail industry has expressed a number of concerns about 
the cost and need for positive train control.
    What is your position on this recent development?
    [The information follows:]

    Test programs for positive train separation (PTS) control 
systems are being conducted on a number of railroads throughout 
the country. At this time, almost all major railroads are 
involved in some kind of PTS demonstration project. Positive 
train control is an issue on the Board's ``Most Wanted'' list 
and we are encouraged by the work that is being conducted. The 
Safety Board feels that PTS is a way that they can achieve 
higher utilization using the existing rail system by running 
more trains safely over the same track.

    Mr. Wolf. The administration has less than $1 million in 
its fiscal year 1999 budget for positive train control, which 
is a significant decrease over prior years. Would you comment 
on whether or not their proposal is adequate in this area?
    Mr. Hall. We would----
    Mr. Wolf. Especially, too, since the railroads have 
announced they are going to put $20 million of their money into 
a positive train control project in Illinois.
    Mr. Hall. Mr. Chairman, we would think that that is 
inadequate.

                          Aircraft Turbulence

    Mr. Wolf. Mr. Pastor asked questions on aircraft 
turbulence, so we are going to submit a series of questions on 
that issue for the record. Are more injuries on aircraft around 
the world because of turbulence than anything else? Is that a 
fair statement? I heard that somewhere.
    Mr. Hall. There are probably more injuries, I would not say 
more fatalities.
    Mr. Wolf. Injuries. Right. Prior to the United incident, 
did the Safety Board monitor and investigate turbulence-related 
injuries or accidents.
    Mr. Hall. Prior to that accident we had determined to 
conduct a cabin safety study and we had been very actively 
involved in that area. I have been very actively involved 
personally, Mr. Chairman, because my very first accident when I 
was a new member of the Board, was the MD-11 upset in Alaska, 
with the resulting death of one individual and numerous 
injuries. So we have been very active. There have been a number 
of workshops and forums with the FAA in attempting to address 
this issue.
    Mr. Wolf. Injuries to passengers and flight attendants 
caused by turbulence make up about 20 percent of all airline 
accidents; however, until the recent United Airlines incident 
en route from Tokyo to Hawaii where one passenger was killed, 
turbulence attracted little attention because it only hurt or 
fatally injured a few people at a time. Prior to the United 
Airlines incident, did the Safety Board monitor and investigate 
turbulence-related injuries or accidents?
    [The information follows:]

    The Safety Board is conducting an investigation into the 
United Airlines Boeing 747 encounter with turbulence that 
occurred December 28, 1997, over the Pacific Ocean. One 
passenger was killed and 14 passengers and two flight 
attendants sustained serious injuries. Prior to this accident, 
the Safety Board had investigated 99 in-flight upsets that 
caused 2 deaths and 117 serious injuries to passengers and crew 
between 1983 and 1997.

    Mr. Wolf. Is the Safety Board following this issue now? If 
so, what type of investigation are you conducting? Is it 
specifically related to the United Airlines Flight 826 
fatality, or is it a broader investigation?
    [The information follows:]

    The Safety Board's investigation into the United Airlines 
Boeing 747 turbulence encounter is continuing. Interviews of 
seven passengers who were hospitalized in Tokyo found that none 
of the seven had their seatbelts fastened when the turbulence 
was encountered. We are continuing to gather information from 
passengers to determine how many others did not have their 
seatbelts fastened. We investigate several turbulance incidents 
each year that involve injuries to occupants, and we are 
monitoring this situation closely to determine if safety 
recommendations are warranted.

                          Aircraft Turbulence

    Mr. Wolf. I was surprised when FAA noted that, ``For years, 
the number one causal factor for injuries to passengers on 
commercial airlines has been clear air turbulence.'' Are there 
any systems available or under development that you believe 
could help pilots detect turbulence and reduce the number of 
injuries?
    [The information follows:]

    One of the key work areas of the NASA Aviation Safety 
Program is the development of forward-looking ``lidar,'' a 
technology that uses laser light and weather radar technology 
to detect and warn pilots of significant turbulence. The 
National Center for Atmospheric Research (NCAR) is also heavily 
involved in this work. Further, NCAR is developing a system 
that uses commercial aircraft to provide real-time turbulance 
information to remote ground stations. Information on 
turbulence from these aircraft should result in better 
turbulence forecast products. However, according to information 
provided to the Safety Board by NCAR, the development of an 
accurate turbulence detection and warning system is probably 3 
to 5 years away, if funded.

    Mr. Wolf. I am going to ask you another question, and I 
think you actually answered this. You are suggesting that there 
is a new signing system being developed that will--I thought 
you said that----
    Mr. Hall. I would like to see a new signing system 
developed, Mr. Chairman.
    Mr. Wolf. Are there any systems available that are under 
development that would go along the line of what you want?
    Mr. Hall. I am not aware of any.
    Mr. Wolf. If turbulence is the number one cause of injury, 
it would seem to me that people should keep their seat belt on. 
When I am on an aircraft, I keep my seat belt fastened.
    We were going over the Atlantic when I was going to Bosnia 
in December. One of the people I traveled with was the pilot. 
Apparently you can listen in, and he said the category of 
weather that we were in was just next to the worst. It was 
scary. But I always keep it fastened. And when I fall asleep, 
what I do is put my belt around the blanket.
    I think you ought to take some leadership on this and see 
if the airlines or somebody can take a look and see if there is 
any other----
    Mr. Hall. I would hope that Dr. Loeb's office will come to 
the Board with a very good investigation. Hopefully, as a 
result of that investigation, we will have some good 
recommendations in this area that will provide some leadership 
and direction.
    Mr. Chairman, one of the things, as you pointed out in your 
series of questions, while partnerships are good, one of the 
problems with partnerships is the delay in forming a consensus 
in order to move forward on some safety issues. That is why we 
continually attempt to be sure that we are pointing out the 
direction in which we think things need to be going.
    Mr. Wolf. Wouldn't it be a potentially easy thing to do--to 
say, when seated, keep the belt buckled?
    Mr. Hall. Mr. Chairman, let me say that of course, although 
the airplanes fly at 30,000 feet, we still have a problem in 
this country in getting people to buckle up in their 
automobiles. I can't lay all the blame on the aviation 
industry. I do think that improved----
    Mr. Wolf. But I think if people knew, I think that when the 
light goes off----
    Mr. Hall. It sends the wrong signal.
    Mr. Wolf. It sends the wrong signal. Some of them do say, 
although the light is off and you are free to move around the 
cabin, we urge you, when you are seated, to----
    Mr. Hall. But it should be a requirement, when you are 
seated, you have the seat belt on. And that is not presently 
the case.

                   air traffic control shift rotation

    Mr. Wolf. We will see what you come up with there.
    In the area of air traffic control, the FAA Civil 
Aeromedical Institute has been conducting research into the 
effects of the controllers' usual shift schedule, which is 
called the 2-2-1. They have found that this schedule can result 
in serious sleep loss and fatigue as the weak progresses. Have 
you or your staff followed the work or do you have any comments 
on it?
    Mr. Hall. The Safety Board staff has reviewed the three 
CAMI studies on the air traffic control shift rotation. 
Although, as you pointed out, a number of shift rotation 
strategies exist, a common one is the 2-2-1 schedule. Under 
this schedule, controllers work two afternoon shifts, followed 
by two morning shifts, and finally a midnight shift in one 
workweek.
    This scheduling strategy is said to rotate counterclockwise 
because controllers report for duty at progressively earlier 
times throughout the week. Such a schedule minimizes the number 
of midnight shifts each controller works and compresses the 
workweek, providing more time off between workweeks. On the 
other hand, such shifts require quick turnarounds with as 
little as a minimum of 8 hours off between shifts.
    The CAMI studies have found that controllers working 2-2-1 
shifts report more fatigue and an average of a 30-minute-per-
week sleep loss compared to controllers who work nonrotating 
shifts. They have found some performance decrements in the 
noncontroller research subjects on the night shift.
    I might add that the Board is not aware of any accident 
where a 2-2-1 shift has been identified as a factor to a 
particular accident. However, I am pleased to see that CAMI is 
looking at shift rotation, at the subject of fatigue, and 
looking at how they might develop a program of countermeasures 
to be used to assist controllers in obviously what is a very 
pressure-packed and fatiguing operation.
    Mr. Wolf.  Are there countermeasures or different types of 
shifts which could be implemented to lower the level of fatigue 
and thereby raise alertness?
    [The information follows:]

    Operator (pilot, mechanic, air traffic controllers, etc.) 
fatigue and alertness have long been of concern to the Safety 
Board. Although we have never identified controller fatigue as 
a cause of an aviation accident, we recognize the huge 
complexities involved in scheduling air traffic control 
services around the clock, and we are pleased that CAMI is 
conducting scientific studies on this topic as part of its 
program to develop fatigue countermeasures for air traffic 
controllers. The Safety Board has reviewed studies of air 
traffic controller shift rotation conducted by the several 
Civil Aeromedical Institute (CAMI) in Oklahoma City. Many air 
traffic controllers work rotating shifts, and one common shift 
rotation schedule is called the ``two-two-one schedule.'' Under 
this schedule, controllers work two afternoon shifts, followed 
by two morning shifts, and finally a midnight shift in one work 
week. This scheduling strategy is said to rotate 
counterclockwise because controllers report for duty at 
progressively earlier times throughout the week.
    It is important to note that no study has determined that 
any particular alternative to the 2-2-1 schedule leads to 
increased controller performance. Further, because scheduling 
practices vary between ATC facilities, policy makers do not 
know what scheduling strategies are actually in use. The Safety 
Board understands that CAMI is now conducting a survey that 
will answer this question.

                            aviation growth

    Mr. Pastor. Just one question on that, Mr. Chairman.
    Mr. Wolf. Sure.
    Mr. Pastor. In earlier testimony, I think we were talking 
about how there are going to be more flights in the future; 
when you get to 2025, that we may have--was it 2015?
    Mr. Wolf. Yes.
    Mr. Pastor. You mentioned that there will be an increase of 
inexperienced pilots, the retirements, you have younger pilots 
coming on. I have also been told that the air traffic 
controller situation is very similar, that now you are having 
more experienced controllers retiring or leaving because of 
fatigue and other reasons, and that we are getting more and 
more younger controllers with less experience.
    Have you made any studies about that situation with the air 
traffic controllers as compared with the pilots and the trend 
that is occurring?
    Mr. Hall. Dr. Ellingstad. Have we looked in that area?
    Dr. Ellingstad. No, we haven't made any studies in that 
particular area.
    Mr. Pastor. Because it goes through the whole system. If 
you are getting inexperienced pilots just because they are 
retiring and you are getting inexperienced air traffic 
controllers, the rudders aren't working, it is all 
compounding--I think something that I would suggest you might 
want to look at.
    Mr. Hall. We will certainly take note of that, Congressman, 
and see if there is a way we can address that subject.
    Mr. Pastor. Thank you.

                    faa inspection and surveillance

    Mr. Wolf. I would appreciate you doing that. Let Mr. Pastor 
and the committee know.
    In July 1995, you wrote the subcommittee that the FAA had a 
``continuing problem in ensuring the adequacy of FAA's 
inspection and surveillance of airlines.'' You wrote, ``The 
Safety Board remains concerned that inspections continue to be 
conducted by personnel with little or no experience in air 
carrier operations or familiarity with the specific air 
carriers they oversee.'' The Office of Inspector General issued 
a recent report with a similar theme.
    Could you tell us how serious the problem is?
    Mr. Hall. Yes, Mr. Chairman, I would like to ask Dr. Loeb 
to comment on that. But it continues to be a concern of the 
Board, but it is one that the FAA has been addressing. As I 
mentioned earlier, they have indicated to us that they are 
going to issue policy guidance that will help resolve some of 
these resource conflicts and balance the surveillance work 
load.
    Mr. Wolf. When? Do we know? The budget for FAA 
certification inspection has grown by double-digits for the 
last few years. So the money has been there. I just wonder, do 
you know when they are going to do that?
    Mr. Hall. I don't personally know, Mr. Chairman. I am sure 
Ms. Garvey can provide a response on that, but I don't know.
    Mr. Wolf. Do you think there should be more advanced 
training? I thought of developing a consortium in the 
Washington, D.C., area for advanced training. Shouldn't there 
be more advanced training, through the Internet, a course once 
a week like at 5:30 at the Department of Transportation, 
something with regard to that? Is there much advanced training?
    Mr. Hall. I think the resources for people and training are 
the number one challenge for my small agency which is 
approximately, thanks to you, about 400 people. I am confident 
it is a constant challenge for the FAA with the number of 
employees that it has.
    But clearly, with the increases in technology, we have got 
to have an increased emphasis on training.
    Mr. Wolf. It would seem to me that they could develop a 
relationship with the consortium, with universities around the 
country to participate on the training. Or the universities 
that are up to speed on aviation could offer training through 
the Internet or by interactive television.
    Any thoughts you might have, if you could just kind of let 
the committee know about that, we would appreciate that. And we 
will ask Ms. Garvey.

               national civil aviation review commission

    What is your opinion of the National Civil Aviation Review 
Commission's recommendations regarding aviation safety? And 
what are the two or three most significant ones, if we could 
implement a few of them? They talked about a deteriorating 
relationship between the NTSB and the FAA.
    Mr. Hall. I met with Chairman Mineta and his committee. I 
did not share the concerns that they expressed in that area. I 
do think that, in regard to the investments that they indicated 
that were necessary in infrastructure and training, that the 
committee had certainly some good recommendations.

                         ntsb faa relationship

    Mr. Wolf. The NCARA was critical of what it called the 
``deteriorated'' relationship between the FAA and the NTSB. 
They said, ``This is not helping to improve aviation safety or 
the public's perception of it.'' Do you agree that this 
relationship has deteriorated?
    [The information follows:]

    The Safety Board is a watch dog agency overseeing the 
effectiveness of the Federal Aviation Administration (FAA) 
carrying out its mission of ensuring the safety of the U.S. 
civil aviation. In this regard, most of the Safety Board's 
aviation safety recommendations are directed to the FAA. Given 
the roles of the two agencies, a certain amount of tension is 
to be expected. However, the Safety Board's relationship with 
the FAA has always been and continues to be very professional. 
Although the two agencies may not agree on every issue, we 
continue to work together toward our common goal of improving 
the safety of the aviation transportation system.

    Mr. Wolf. In the last year, how often have you met with the 
FAA Administrator?
    Mr. Hall. I have met with the FAA Administrator as recently 
as this week. Ms. Garvey and I have probably met since she has 
been in office over--something between five to seven times.
    Mr. Wolf. That is good, because she has been on about 6 
months.
    Mr. Hall. I am very impressed with her. As I pointed out, 
Mr. Chairman, she requested that we come up and discuss the 
Most Wanted List with her in December. She has a tremendous 
challenge. She has in many ways one of the most difficult jobs 
in this city. Any way I can support and help her, I have 
committed to her I am going to try and do.

                     accident investigation process

    Mr. Wolf. She does. I know she is reaching out. She is 
very, very open.
    I think it is good that you meet with her. I think it is 
good that Mitre Corporation is coming in and helping and some 
of the others. The commission suggested that the accident 
investigation process could be improved by increasing the use 
of outside experts in the analytical process. What do you feel 
about that
    Mr. Hall. I could let Dr. Loeb comment on that. Let me say 
that we routinely use outside experts where we think it is 
appropriate. It is clear that the taxpayers have benefited in 
the past by the dependence that the Safety Board has used on 
the industry to assist us in many of the tests that we have 
after an investigation.
    Dr. Loeb?
    Dr. Loeb. Mr. Chairman, I think you are aware that our 
accident investigations use the party process, where all of the 
parties that have an interest in and can contribute, 
technically or in other ways, to the investigation are made 
parties to the investigation, like the airframe manufacturer, 
the carrier, the air carrier, the engine manufacturer, the 
unions, ALPA or ATA. So there is outside participation in the 
fact-gathering portions of our investigations always.
    In addition, whenever we believe that we can get help from 
researchers, academia, laboratories, any of the various 
facilities, especially the Federal Government facilities, we 
make use of them extensively in our accident investigation 
programs. Of course, TWA 800 is an example.
    What the commission was suggesting and what some of the 
parties would like, although not all of them, is the ability to 
have access to our analysis of the reports that we send to the 
Board.
    All of the parties get all of the facts that we gather. 
Before the staff provides its report to the Board for its 
deliberations, the parties have the opportunity to submit a 
submission, which would comment on what they believe is an 
appropriate analysis, to draw conclusions and to reach 
recommendations.
    Prior to that, we hold what is known as a technical review, 
and that is where we gather all the parties together, go over 
all the facts that we have gathered, ask if there is a need for 
additional fact gathering. In fact, it is one of the things 
that has contributed to the length of the 427 investigation, 
because we have used outside consultants and panels of expert 
witnesses and so forth. The parties asked for a number of 
additional tests. We continued to do them until they were 
satisfied we had done everything.
    At this technical review, we determine whether there is any 
need for additional fact gathering or whether any of our facts 
are in error. And then the parties have the opportunity to 
provide a submission to the Board so that when our draft report 
goes to the Board for its deliberations, they also have in 
front of them the submissions from the outside world.
    So we think the system works really well.
    Mr. Hall. Let me just add, Mr. Chairman, I am committed to 
undertaking a review of the party system. We have heard from 
the Mineta Commission being sure that the industry and 
representatives of the operators are involved in the analysis 
process.
    A task force was chaired by myself and Secretary Slater on 
family issues. Their concern, of course, is the involvement of 
the industry in the process. My main interest is that we 
continue to conduct, as I believe the Board has in the past, 
for the past 30 years, independent investigations that the 
American people can put credibility in. If there is a better 
way that we can do that in the future, we are going to look at 
it and improve the way we are doing our work.

                            repair stations

    Mr. Wolf. I appreciate your openness and nondefensiveness 
about that. I think that is the best way.
    On the repair stations, we are going to have a series of 
questions for the record, but just to bring it all together, 
the GAO said about half of the maintenance work performed--and 
Mr. Sabo referred a little bit to this--on commercial aircraft 
owned by U.S. airlines is now outsourced to independent repair 
stations. They cite four aviation accidents--including ValuJet, 
as a matter of fact--over the past 3 years involving aircraft 
maintained by contract repair stations and found a number of 
deficiencies in FAA safety oversight--obviously, something we 
should be concerned about, based on your answer that you gave 
earlier.
    We also understand that U.S. airlines are performing more 
of this work in other countries. We talked about the Turkish 
operation, obviously, because they believe it is cheaper and 
not better.
    Is there a difference in the FAA's oversight of U.S. repair 
stations and that work performed by a repair station overseas?
    Mr. Hall. I could only speak from personal experience. I 
have made some trips overseas for the purpose of trying to 
understand as much as I can, because I think aviation is such 
an international operation and the Board's responsibilities are 
international. I would say that the oversight conducted 
overseas, in my personal experience, is not as adequate as the 
oversight that is conducted here.

             aircraft maintenance--contract repair stations

    Mr. Wolf. According to the GAO, about half of the 
maintenance work performed on commercial aircraft owned by U.S. 
airlines is now ``outsourced'' to independent repair stations. 
They cite four aviation accidents, including ValuJet, over the 
past 3 years involving aircraft maintained by contract repair 
stations and found a number of deficiencies in FAA's safety 
oversight of these stations. Would you comment on the GAO's 
report?
    [The information follows:]

    GAO Report GAO/RCED-98-21, October 1997, addressed FAA 
oversight of repair stations operating under Title 14 C.F.R. 
Part 145. This report addressed Federal Aviation Administration 
(FAA) oversight, documentation of that oversight, and follow-up 
activities to address deficiencies found in its oversight of 
domestic and foreign Part 145 repair stations. The report 
concluded that the FAA was meeting its goal of conducting at 
least annual surveillance of these repair stations, but that 
most surveillance is conducted by individual inspectors rather 
than team inspections, which can more effectively identify 
deficiencies. The GAO found that follow-up corrective actions 
were routinely documented following (team) inspections of 
foreign repair stations, which are re-certified every 2 years, 
but that follow-up corrective actions were not well documented 
following inspections of domestic repair stations. It is our 
understanding that the FAA intends to update the regulations 
that address the operation of Part 145 repair stations, but 
this update is overdue. The FAA is also increasing its 
inspector workforce, which should allow improvement in repair 
station surveillance in the future. The GAO report notes that 
FAA inspectors who perform surveillance of repair stations are 
not given clear and consistent guidance as to what they should 
document and how that documentation should be conducted.
    The GAO report does not explore the qualification and 
training of the inspectors, including their knowledge of audit 
procedures, which the Safety Board has found lacking in some 
accident investigations. The report also does not address how 
inspectors should alter their inspection methodology to obtain 
meaningful data that might identify trends that might be used 
to prevent future accidents.
    Based upon the Safety Board's experience in investigating 
repair stations that were implicated in accident and incident 
investigations, the GAO findings appear to be accurate and 
their recommendations seem appropriate, but the Safety Board 
has not yet conducted its own study of Part 145 repair 
stations. The Safety Board will begin such a study in FY 1998. 
In the meantime, we intend to investigate these issues in any 
accident that might involve the effectiveness of Part 145 
repair stations.

    Mr. Wolf. Is this something we should be concerned about?
    [The information follows:]

    If there is adequate oversight to ensure that repair 
stations are staffed by properly qualified personnel and that 
they are performing at the level expected by air carriers, then 
there should be no concern. Recent ValuJet accidents showed 
that a carrier that outsources its maintenance cannot delegate 
its responsibility to provide guidance and oversight. More 
effective surveillance is also needed by the Federal Aviation 
Administration (FAA), however remote that repair station may be 
from the parent airline. Additional FAA staffing and improved 
inspection methods may be needed to ensure that safety is not 
compromised when maintenance is outsourced.

                  aircraft maintenance recommendations

    Mr. Wolf. It would seem that you should make some 
recommendations, because if it is being done better in the 
United States--and that appears to be what you were telling Mr. 
Sabo--and perhaps less is being done in one of these countries 
that we are not sure about, you would almost think the logic 
would say that we would at least want to do the same inspection 
outside the country and maybe even more, as in the United 
States.
    Does the Board have any suggestions, or can you make any 
recommendations?
    Mr. Hall. We are doing a safety study on that issue and we 
hope to have recommendations in that area.
    Mr. Wolf. We would like to see them.
    Does the Safety Board have any initiatives under way to 
encourage improvements in oversight of repair stations?
    [The information follows:]

    The Safety Board is planning to begin a study this year on 
FAA and Air Carrier Oversight of Part 145 Repair Operations. 
The Board will conduct site visits of several Part 145 repair 
shops, FAA FSDO's, and Part 121 airlines. Information 
concerning FAA's distribution of resources and training will be 
analyzed. Air carrier maintenance plans will be reviewed, with 
particular interest in quality control procedures and oversight 
of outsourced maintenance. The study will also draw on analyses 
of previous accidents, and if available, an in depth 
investigation of a Part 145 maintenance-related accident. The 
study will examine current FAA regulations and procedures for 
both Part 145 repair stations and Part 121 operations to assess 
their adequacy. Finally, the study will examine the progress of 
proposed FAA changes to certification and oversight, such as 
those suggested in the recent FAA 90 Day Safety Review. Staff 
will propose recommendations to improve the oversight of Part 
145 repair operations to ensure that organizational changes 
designed to increase efficiency and manpower utilization are 
balanced with a strong focus on safety.

                     foreign air carrier oversight

    Mr. Wolf. One of the issues that the Board is investigating 
is FAA's oversight of foreign air carriers to ensure an 
acceptable level of safety during operations in the United 
States. Could you elaborate on this issue?
    [The information follows:]

    The Safety Board monitors the Federal Aviation 
Administration's (FAA) oversight of foreign airworthiness 
authorities and foreign air carriers through our investigations 
of incidents and accidents involving foreign airlines. 
Additionally, the Safety Board receives considerable 
information on the effectiveness of FAA's program from our 
overseas contacts. Moreover, the International Civil Aviation 
Organization (ICAO) has begun a safety assessment program for 
countries that request and pay for such an assessment. The 
Safety Board supports this initiative and has kept abreast of 
the developments with the ICAO staff. Lastly, the European 
Civil Aviation Convention (ECAC), which represents the 
interests of 36 European countries, has begun a safety 
assessment program of inspecting foreign airlines operating 
into Europe. Again, this program has led to some initial 
findings and positive results. The Safety Board will continue 
to support and monitor the effectiveness of these assessment 
programs as they develop, and we will also support further 
development of the ICAO program on a worldwide basis.

    Mr. Wolf. Mr. Pastor.

                        FOREIGN REPAIR STATIONS

    Mr. Pastor. On that issue, will this study you are 
undertaking also bring consideration to the replacement of 
parts in terms that the manufacturer may require a certain 
quality? And in terms of the airplane being repaired in a 
foreign country, the part that is being replaced, being 
replaced by one of lower quality, that may end up causing 
problems in the future. Is that something that is going to be 
part of your study?
    Dr. Loeb. We will be looking at all aspects of the repair 
and maintenance operations done both here and, to the extent 
that we are able to, overseas. That will include any 
information that we can gather on the use of improper parts and 
how that process works.
    I would just like to add one point. I don't think it would 
be fair to say that all overseas repair stations----
    Mr. Wolf. We are not saying that now.
    Dr. Loeb. Because there are clearly some, and especially in 
some of the Western countries, in which they really do a fine 
job.
    Mr. Wolf. Sure. We are not saying that.
    Dr. Loeb. But there are certainly places that we would have 
concerns about. That is one of the reasons for doing the study.
    Mr. Wolf. I would urge you to do what Mr. Pastor said, 
because we have a hard enough problem here, let alone over 
there.
    Was there a similar problem of a repair job--do you 
remember the aircraft that crashed down off of Central America 
and your people were involved 2 years ago? It was German 
passengers mainly. The plane was substituted from there. Was 
there anything like that involved in that?
    Dr. Loeb. You are talking about off the Dominican Republic, 
the Bergen Air?
    Mr. Wolf. Yes.
    Dr. Loeb. There was a substitution, but we did not see any 
evidence at that time that there were any specific improper 
parts issues.
    Mr. Hall. I do think, Mr. Chairman, it is correct to point 
out what you said. On these issues, the Government, neither the 
NTSB nor the FAA, should be defensive. This issue has been 
raised in articles, in books, as you were mentioning, in 
novels. We need to take it head on. That is one of the things 
we are going to do. If there is a problem, I am sure that Ms. 
Garvey and the men and women of the FAA will be as committed to 
addressing that as the Safety Board is.

                     FOREIGN AIR CARRIER OVERSIGHT

    Mr. Wolf. I think so. And they should.
    Do you think that we should publish on the Internet--and 
maybe we now do this--the safety records of airlines operating 
in foreign countries, such as China and some of those places?
    I was on a plane that went from Moscow to Chechnya. It was 
really scary. Should we know the safety record before? That was 
the only one going down, so I didn't have a lot of choice.
    Shouldn't we now publish the safety records, particularly 
with the number of people that are traveling to China and going 
off into the far, far regions? Shouldn't we publish that in a 
way that everyone, if they want to find out, can find out 
without calling the State Department for a travel advisory?
    Mr. Hall. Mr. Chairman, I don't think the Board has taken a 
policy or made recommendations in that area, so I could only 
speak as an individual. My personal feeling is that any 
information that is paid for with public dollars should be made 
available to the public, and particularly if it is safety 
information. And if we collect it, it should be organized in a 
responsible fashion and disseminated to the general public. We 
have, as we have demonstrated here, through the Internet the 
opportunity to do that, and we certainly do that in other areas 
of American life.
    I don't know about the international treaties or diplomatic 
nuances that the State Department might have involved, but as a 
general philosophy I think that if any information is available 
to any representative of the Government concerning the safety 
of flights overseas, it should be made available to every 
citizen in the United States.
    Mr. Wolf. There were American citizens on the 737 that 
crashed in Indonesia, were there not?
    Mr. Hall. It is very rare that we don't have American 
citizens aboard a flight.
    Mr. Wolf. We are going to ask the FAA to do that. I would 
like you to take a look at that.
    The Pan Am accident, if you will recall, what was available 
to the FAA was not available to the people that were flying.
    So if you could look at that.
    Mr. Hall. We live in a worldwide community now. My children 
have both traveled overseas. I never traveled overseas until my 
country sent me to Vietnam. They have been overseas numerous 
times.

                       CHINESE AVIATION PRODUCTS

    Mr. Wolf. Were any of the tail sections for the 737 made in 
China?
    Mr. Hall. The Silk Air 737? The information that has been 
presented to me was that they were made in Wichita, Kansas.
    Mr. Wolf. Did we also look at the Chinese assembly plant? I 
know we went out to Wichita, but did we----
    Mr. Hall. Have we looked at them? No sir, we have not been 
to China.
    Mr. Wolf. How many tail parts are made in China?
    Dr. Loeb. I don't know. We would have to get that for the 
record.
    Mr. Wolf. Could you get it for the record and see because 
maybe we should be looking at China.
    Dr. Loeb. Sure.
    [The information follows:]

    Boeing representatives have stated that the ``build 
sheets'' for the Silk Air airplane indicate that none of the 
components of the horizontal stabilizer or vertical fin were 
produced in China.

                             kal flight 801

    Mr. Wolf. The Guam accident, involving Korean Airlines 
flight 801, will you just briefly tell us the status of the 
investigation?
    Mr. Hall. Yes. Let me just say two things, Mr. Chairman. I 
mentioned these to you because I know you are interested.
    On the Guam accident, I had three individuals from our 
Family Assistance Office. As you know, only eight of the 
citizens on that plane were U.S. nationals. Our Family 
Assistance staff went over there, and it was the largest 
accident we had had since that office was created. They did an 
outstanding job in providing services and assistance in that 
U.S. territory to the Korean citizens that had been involved 
and to the families that had been impacted by that accident.
    I was also very proud, too, of our investigators on the 
Silk Air accident who missed Christmas at home. One of them who 
had just gotten married, missed his first Christmas at home to 
go and respond to this accident. So I am very proud of the 
dedication of our employees.
    On the Guam accident, the issues, of course, that have been 
raised are the FAA oversight of the NAV aids and the ATC 
minimum safe altitude or warning system, or the M cell system, 
pilot training procedures and oversight of operations by the 
airline and the Government, the control flight and terrain 
accident prevention measures for the world's airlines, the 
advance ground proximity warning system development, 
installation and operations, and the search and rescue 
operations.
    As you Know, 228 of the 250 people on board the flight were 
killed when the plane was conducting an ILS approach with the 
glide slope out of service when it struck high terrain about 
3.3 miles from the airport.

                     foreign air carrier oversight

    Mr. Wolf. Do you have any suggestions as to how this 
activity could be prevented?
    [The information follows:]

    The Federal Aviation Administration (FAA) has been working 
with the foreign certification and airworthiness authorities to 
improve their surveillance and oversight of their operators. 
The intent of the FAA program is for the foreign authorities to 
establish an effective infrastructure in order to ensure that 
all of their operators comply with the standards and 
recommended practices of the Convention on International Civil 
Aviation and the requirements for operations in the U.S. It is 
hoped that, once other governments improve their oversight 
effectiveness, that foreign operators will comply with ICAO 
standards and safety will be improved. If the ICAO oversight 
program is eventually successful, and other countries meet the 
international standards, the FAA program will no longer be 
needed.

              transportation of hazardous materials by air

    Mr. Wolf. Following ValuJet, you issued emergency 
recommendations on transport of hazardous materials and later 
followed it with recommendations to the FAA, the Postal 
Service, and ATA on, ``the need to educate passengers, 
shippers, and postal customers about the dangers of 
transporting undeclared hazardous materials aboard aircraft and 
the need to properly identify and package hazardous materials 
before offering them for air transportation''. I want to ask 
you how that has been implemented.
    Following the ValuJet accident, the FAA tightened its 
hazardous materials rules. However, we understand the FAA has 
recently found that airlines and air couriers have an 
unacceptably low knowledge of the rules for transporting 
dangerous materials. Almost a fourth of the airlines and 10 
percent of the courier companies the FAA inspected last year 
did not follow the rules and were accepting dangerous cargo, 
such as pesticides, that can sicken passengers, explosive 
chemicals, and industrial strength corrosives.
    Is the Board aware of any accidents that were caused by the 
courier transporting hazardous or explosive materials? Are you 
investigating any? And how have the regulations been 
implemented?
    Mr. Hall. I am going to ask Mr. Chipkevich. We have a very 
small Office of Pipeline and Hazardous Materials which Mr. 
Chipkevich heads. But thanks to your assistance last year, we 
were able to add personnel to that office. In addition, of 
course, the FAA has now added some 127 investigators on 
hazardous materials that are at work at the FAA since the 
ValuJet accident.
    I will ask Mr. Chipkevich if he would respond to the 
question, please.
    Mr. Chipkevich. The ValuJet accident certainly involved 
undeclared hazardous materials which initiated the fire on 
board the aircraft and then, without fire detection or 
suppression systems, did not allow the aircraft to get back 
down.
    The Safety Board has for some time identified undeclared 
hazardous materials as a significant problem and a threat to 
aircraft.
    Back in 1988, on board an American Airlines flight to 
Nashville, TN, there was a fire. Fortunately, when that fire 
got going in the cargo compartment, the airplane was on 
approach for landing in Nashville and they were able to make a 
safe landing.
    Mr. Hall. The Board has asked, and it is part of our 
ValuJet recommendations, for the ATA and the Postal Service to 
work with the FAA to develop programs to address this issue. 
Hazardous materials continue to show up in the system, and 
undeclared hazardous materials aboard aircraft are being 
carried in the system.
    Mr. Wolf. And you have made recommendations on how to 
prevent that?
    Mr. Hall. We have asked the ATA and the Postal Service to 
work with the FAA to come up with regulations to tighten the 
system.

                           runway incursions

    Mr. Wolf. The Safety Board has previously been very 
interested in new technologies to reduce runway incursions such 
as the ASDE radar. According to testimony offered last fall by 
the DOT Inspector General, runway incursions are on the rise 
and the figure is very high. I don't have the exact figure in 
front me. The FAA has been ineffective in addressing the trend. 
Have you seen the IG's testimony, and do you agree with his 
findings?
    Mr. Hall. We certainly have seen the testimony. In fact, I 
have personally discussed that issue with the Department of 
Transportation Inspector General in a meeting where we covered 
a number of concern interests and common issues. This issue is 
on our Most Wanted List.
    Of course, our ultimate goal is to provide safer control of 
the aircraft on the ground. To date, Mr. Chairman, the FAA has 
issued requirements for air traffic controllers to obtain 
readbacks from pilots for all hold short clearances. They have 
completed a one-time examination of all U.S. tower controlled 
airports to determine the existence of any restrictions to 
visibility from the control tower to the runways or other 
movement areas. They have sent letters to all flight instructor 
refresher clinic sponsors requesting emphasis on the issue. 
They have sent letters to all flight standard divisions 
requesting that information on this subject be provided to all 
public schools. They have published an article on stop, look, 
and listen.
    I went out to San Francisco recently to look at the recent 
AMAS installation. When I was at Boeing recently, this is one 
of the three issues that Boeing has identified that are the top 
three safety issues in the United States. It was interesting to 
note that it is not really a safety issue in other parts of the 
world, which indicates that we need to make some improvements 
in this area.
    Dr. Loeb may want to add other comments.
    Mr. Wolf. That raises a couple of questions: One, what are 
one or two things the Congress could do? Two, if all these 
letters are going out to inform people and yet runway 
incursions are up, what happened?
    Mr. Hall. Two things. Congress, with the assistance of the 
Board, had a hearing on this area. The Congress in previous 
appropriation hearings has put an emphasis on this issue. As 
you know, the AMAS system had been put on the back burner by 
the FAA, and, as a result of Congressional attention and 
emphasis, the program is now back on track and on schedule.
    Mr. Wolf. Do you know what the runway incursion level is 
that is up?
    Dr. Loeb. As of this month, there have been 318 this year. 
In 1993, there were 186; in 1994, there were 204; in 1995, 
there were 242; and in 1996, there were 287. We have seen about 
300 for 1997, 318 for 1997. That is a preliminary number.
    Mr. Wolf. It doesn't seem that it has really helped.
    Dr. Loeb. The answer, as the Chairman said, is in the AMAS 
and in the ASDE.
    The ASDE 3 radar system was to go out to about 40 airports, 
give or take. That is upgraded surface radar detection 
equipment. But the radar, in and of itself, is not sufficient.
    There is a program called AMAS, which is a software system 
that gives warnings in conjunction with the ASDE 3 radar. This 
program was to have been in place a while by now.
    Mr. Wolf. When was it to be in place?
    Mr. Hall. 4 years ago.
    Dr. Loeb. Thank you.
    In 1993 or in 1994, I guess it was. By that time, it should 
have been in place. Now, what has happened, they have activated 
the program and there are now 34 ASDE radars out there. Twenty-
nine of them have been commissioned; the remainder are on their 
way.
    Mr. Wolf. Are they working?
    Dr. Loeb. They are. But in the case of AMAS, what we have 
right now is the one system that the Chairman saw in San 
Francisco which was the developmental system, and there are 
none that I know of that are in place and working. There has 
been one installed in Detroit. St. Louis is getting theirs now. 
I think Atlanta gets theirs in the early spring. That is a slow 
process. The funding has now been given, but until those are in 
place, I think we are going to continue to see problems, 
because that is the real answer.
    That, by the way, is at 40 of the largest, busiest 
airports. The next question is, what happens at the other 
airports? At one point, there was going to be an attempt to 
develop something for the ASDE 2 radars that are out there. 
They are disappearing from the scene, and a new program is 
being developed and we hope there will be a low-cost 
replacement at the smaller airports.
    Mr. Wolf. Is there an overlap between where the incursions 
have taken place, the increase, and where the airports are that 
are going to get it?
    Dr. Loeb. Many of them are taking place at the places where 
the AMAS sub broke.
    Mr. Hall. There was a lot of attention earlier in newspaper 
articles at the Cleveland Airport, and we did send some 
individuals out there to work with the FAA on that specific 
airport facility.
    Mr. Wolf. In your opinion, what are one or two things 
Congress should insist upon to help reduce runway incursions?
    [The information follows:]

    The Safety Board is aware of five recent reports that specifically 
address the issue of runway incursions. They are the Federal Aviation 
Administration's (FAA) RE&D report of 1992, two reports by the Mitre 
Corporation completed in 1994 and 1996, a report by the Department of 
Transportation's Inspector General in 1997, and a more recent 1998 
report by the FAA's RE&D Subcommittee on Runway Incursions. Of note, 
all of the recommendations from the 1998 report are common to the 
previous reports, such as:
    Standardized air carrier cockpit procedures for surface movement; 
improving airport layout charts; simplify and standardize ground 
communications and require readback of certain control instructions; 
expand the development of standard taxi routes; training and education 
of new pilots on surface operations; conspicuity of aircraft; standards 
for repainting of airport surfaces; development/installation of low 
cost ASDE radar; equipment, method of procedure for advising pilots 
when they are clear of an active runways; and expand human factors 
research on the cause of runway incursions.
    Because of the number of common recommendations from the various 
reports, we believe that the FAA should be strongly encouraged to move 
forward and implement those recommendations.
    Secondly, the FAA should expedite the development, installation, 
deployment and commissioning of the Airport Movement Area Safety System 
(AMASS) for those airports that currently have the ASDE-3 surface radar 
system.

                       AVIATION LANGUAGE CONCERNS

    Mr. Wolf. I think we will be able to finish in time.
    English language difficulty has been raised in other 
hearings. The International Civil Aviation Organization, have 
they done anything to address the problem? You remember the 
Colombian airline. Is there anything that has been done, or has 
the FAA supported any activity in that area?
    Mr. Hall. Mr. Chairman, as you know, as a result of our 
participation in the Government of Colombia's investigation of 
that accident, we issued a recommendation to the FAA that they 
develop, with air traffic authorities of member states and 
ICAO, a program to enhance controllers's fluency in common 
English language phrases and interaction skills sufficient to 
assist pilots in obtaining situational awareness about critical 
features of the airspace, particularly in nonradar 
environments.
    Mr. Wolf. Have there ever been any accidents based on that 
problem?
    Dr. Loeb. Totally on the English language?
    Mr. Wolf. Anywhere in the world?
    Dr. Loeb. We have had concerns. Clearly, there were some 
concerns raised in the Cali, Colombia, accident. Clearly, there 
were concerns raised in the Avianca accident at JFK. And, in 
fact, we have had concerns raised in others, Independent Air in 
the Azores, where there have been misunderstandings. The 
biggest of them all was Tenerife--where there have been 
misunderstandings on the part of either the pilots or the 
controllers, either way.

                       AVIATION WEATHER RESEARCH

    Mr. Wolf. Just a couple more questions. The committee has 
encouraged the FAA to do more research addressing aviation 
weather, given the high percentage of accidents and incidents 
which are weather-related. For the past several years, the FAA 
has proposed reductions in weather research which would have 
cut out research funding in such areas as de-icing techniques, 
which Mr. Pastor mentioned; clear air turbulence, again, Mr. 
Pastor mentioned. Could you comment on whether or not the FAA's 
fiscal year 1999 budget proposal is adequate in this area?
    Mr. Hall. Mr. Chairman, I would have to look at that and 
provide an answer for the record. Clearly, it is an area that 
we will be looking at as part of the Embraer accident. I am 
pleased to note that we had expressed a concern about the FAA 
weather folks at the centers. We had several meetings with the 
FAA expressing our concerns on that particular issue, and we 
have just received a letter from Mr. Belger telling me that 
they were going to maintain those weather folks in the centers 
as FAA employees--the weather folks in the center; I correct 
myself on that.
    But it is an issue we will continue to look at, to answer 
your specific question for the record. I have to do that 
because I am not familiar with their budget.
    [The information follows:]

    The Federal Aviation Administration (FAA) is pursuing 
several programs addressing the aviation weather hazards of in-
flight icing, turbulence, ground icing, and convective weather. 
Many of these programs were initiated as the result of Safety 
Board investigations and safety recommendations. It is 
essential that the FAA remain focused and continue the progress 
on these issues. Consequently, the FAA budget should provide 
adequate resources to address these and other aviation weather 
related research issues.

                     supplemental (fy 1998) request

    Mr. Wolf. The Safety Board has requested a $6,500,000 
supplemental for 1998. We saw what you said in your request, 
but can you for the record tell us what specifically the money 
will be used for?
    Also, your request further notes that, based on claims 
submitted, approximately $9 million was obligated in fiscal 
year 1997 for outlay in fiscal year 1998. However, 
approximately $6 million of the amounts claimed does not meet 
the intent of Congress for incremental expense incurred or 
funded by other sources. How will you deal with these? How will 
these outlays be recovered?
    Mr. Hall. I would like to ask Mr. Keller, if he could, to 
respond to that, and then I will follow up.
    Mr. Keller. As you are aware, the OMB will be submitting 
shortly the supplemental request for $5.4 million. That is 
directly related to the Calverton facility that warehouses the 
TWA 800 wreckage.
    In regards to the $9 million in the outlays projected for 
1998, that relates to the public law 105-18 that gave authority 
to reimburse the States of Florida, Michigan, and New York. 
Part of that legislation placed a requirement on the Safety 
Board to do a review of those claims for appropriateness as far 
as being extraordinary or incremental cost only.
    In that regard, we contracted with the Defense Contract 
Audit Administration to perform those reviews. They have 
completed the one for Dade County, Florida for which the claim 
from Dade County was $3.4 million. The appropriation allowed 
for a maximum reimbursement of $3.1 million. The report from 
the DCAA recommended an initial reimbursement of $2.2 million.
    Mr. Wolf. What about Michigan and the New York one?
    Mr. Keller. Michigan I just received today. I have the 
draft of that, which I am analyzing.
    Mr. Wolf. What about the New York one?
    Mr. Keller. In New York, they are to begin the review, at 
the request of New York, beginning February 23.
    Mr. Wolf. When that comes in, you will submit that?
    Mr. Keller. Yes, sir.

                          local reimbursements

    Mr. Wolf. In your request, you note that, ``Most of the 
additional $6,500,000 in Safety Board outlays for fiscal year 
1998 will be offset by a reduction in outlays resulting from 
the Board's review of claims received from the State of New 
York and local counties (TWA Flight 800), Dade County, Florida 
(ValuJet Flight 592) and Monroe County, Michigan (COMAIR Flight 
3272) for incremental costs incurred by these localities as a 
result of these accidents.'' Please explain what you mean by 
this statement.
    [The information follows:]

    During fiscal year 1997, the Board obligated the full $9 
million provided by the Congress to reimburse the State of New 
York and local counties (TWA Flight 800), Dade County, Florida 
(ValuJet Flight 592) and Monroe County, Michigan (Comair Flight 
3272). As a result of the reviews being conducted by the 
Defense Contract Audit Agency, anticipated outlays for these 
claims, which had been projected to be made during fiscal year 
1998, will be substantially less.

    Mr. Wolf. Your supplemental request letter further notes 
that, ``Based on claims submitted, approximately $9,000,000 was 
obligated in fiscal year 1997 for outlay in fiscal year 1998. . 
.however, approximately $6,000,000 of the amounts claimed 
either does not meet the intent of Congress for incremental 
expenses incurred or has been funded by other sources.'' How 
will these outlays be recovered?
    [The information follows:]

    There is no need to recover these outlays, since there had 
been no actual outlay of funds. There had only been a projected 
outlay of funds in FY 1998 based on the anticipated timing of 
the payment of these claims.

                               user fees

    Mr. Wolf. Before I recognize Mr. Pastor for any other 
questions, I'd like to discuss user fees. The President's 
budget will request $6 million in new user fees that will be 
deposited in an account for aviation accident investigations. 
They will augment NTSB salaries and expenses. How will the fees 
be collected?
    Mr. Hall. We do not support that position, Mr. Chairman. I 
am not exactly sure how they think they would do that.
    Mr. Keller. We do not have a mechanism in place at the 
current time for such a collection system, and I really don't 
know what the magnitude of a collection system like that would 
be.
    Mr. Wolf. Why would the airlines be paying exclusively for 
this service when NTSB investigates other modes, such as bus 
and rail?
    Mr. Keller. That is actually a question that the Chairman 
himself has asked the OMB.
    Mr. Wolf. And you have answered the last question about 
your opinion.
    Mr. Pastor.
    Mr. Pastor. When Congressman Olver was questioning you on 
the budget--when you do investigation and the length of the 
investigation and the conclusion of it, how much was paid by 
your board--you came back and said the FAA does a share, you do 
a share, and I think you also said that the airlines themselves 
do a share.
    Mr. Hall. No, maybe I did not make myself clear. We are 
responsible for the investigation. We, however, do the 
investigations, Congressman, under what is called a party 
process. There will be other government agencies such as TWA, 
the FRA; depending on the accident, other regulatory agencies 
will have people that will participate in the accident 
investigation with us, which is obviously, a cost of the 
investigation that we would not be aware of.
    For example, Boeing was a party to the TWA accident; TWA 
was a party to that accident; the airline pilots association 
was a party to that accident; Pratt and Whitney, they had the 
power plants on the plane, they were a party to that accident. 
All of those entities have people they pay that participate in 
that investigation. If you wanted to find out the total cost of 
the investigation, you would probably want to collect all of 
that information in order to say what is the total cost of the 
investigation.
    We are aware only of the cost that we have on a particular 
investigation. All of the tests that we do, of course, are 
funded through the Board. There are many times that we will do 
outside tests which we, if an outside test is done, the Board 
funds.
    Mr. Pastor. So then in the investigation, just 
hypothetically, the tank, the gas tank, you investigated it, 
the manufacturer investigated it; just a hypothetical, they 
would investigate it----
    Mr. Hall. No. We would all investigate it. We would lead 
the investigation of it through the party process.
    Dr. Loeb. When an investigation begins of an accident and 
we send our go team, we have an in investigator in charge. Then 
we have group chairmen; group chairman, that is a person in 
charge of structure, a person in charge of systems, a person in 
charge of human performance, operations, et cetera.
    On each one of those groups, there will be parties with 
their representatives if they have the technical expertise to 
help us. So if we are looking at the fire and explosions aspect 
of the fuel tank, there will be a group that does that, led by 
a Safety Board investigator, and the parties--Pratt and Whitney 
or Boeing or Rolls Royce or whoever--would have representatives 
on it. But they would be doing it under us. We do the planning. 
It is all one investigation. They are not doing independent, 
separate investigation; it is one investigation with a number 
of people helping.
    Mr. Hall. All of this, Congressman, interestingly enough, 
historically came out of a 1935 accident involving a Senator 
Codding from New Mexico who was in an aviation accident in 
Missouri on a Trans World Aviation accident in which it ended 
up with the regulator, the airline, and then eventually 
Congress, all conducting an investigation of the same accident. 
Out of that came the creation by Congress of the responsibility 
of an independent accident investigation board under the Civil 
Aviation Bureau, which then in 1967 became the National 
Transportation Safety Board with independent investigation 
responsibility in all modes of transportation.
    Mr. Pastor. That is interesting, Mr. Chairman. You bring 
out the frustration I guess some of us expressed in terms that 
you have this Board that investigates a particular accident, 
comes out with a finding, and says, these are the causes of the 
accident and we need to repair a particular part or we need 
more training. It goes to another agency. That other agency can 
follow through or not.
    We are talking about, where is this system while we are 4 
years behind? When are we going to correct this problem? Eight 
years from now? It becomes very frustrating, at least for me 
now, because I have to tell you, I would hope that the 
objective of all the different agencies would be to make 
whatever particular travel the safest possible, because we are 
talking about our citizens, we are talking about our 
constituents.
    Mr. Hall. Because of the need for a cost-benefit analysis, 
many times changes recommended by the Board have not gotten 
through OMB in terms of changing rules and regulations.
    Many times, of course, we have had the industry, 
unfortunately, as we had recently, tell the public they are 
going to perform something without a timetable on when it is 
going to be performed because it is covering a number of 
airlines' particular aircraft and it obviously is going to take 
some time to take them out of service and perform it.
    But the responsible thing to do if you are going to make an 
announcement like that is to say how they are going to do it. I 
am no advocate for Southwest Airlines, but I think when 
somebody steps forward in the safety area to address a problem 
that has been identified by the Board and moves ahead of the 
Government and ahead of the industry to do the job, the public 
should be aware of it.

                         Cost Benefit Analysis

    Mr. Pastor. Just one more question. We will go in at 5:00.
    Mr. Wolf. We are okay.
    Mr. Pastor. The cost-benefit ratio that you talked about 
just a few minutes ago, would you explain it to me--I am not 
familiar with it--that OMB requires?
    Mr. Hall. Mr. Keller is more of an expert in that area.
    Mr. Keller. OMB has a regulation with any new programs 
where funding is concerned, there has to be a cost-benefit 
analysis to make a determination or a recommendation as to the 
viability of funding that program. What they are actually 
looking for in that regard is offsets: Where can money be found 
in order to fund the program, and is it viable to do the 
program? A cost analysis.
    Mr. Pastor. How would this affect replacement of rudders on 
737's, when you are talking about potentially 100 people going 
down and killing themselves?
    Mr. Keller. Again, if it is looking at doing replacements 
versus doing repairs, there is a formula, or a calculation, and 
it is my personal opinion that it is arbitrary. It is a 
mathematician's nightmare as far as just trying to place 
numbers into something to justify it. In the area of safety for 
us, sometimes those rules just don't apply.
    Mr. Hall. I guess the most obvious example would be the 
American Airlines accident that has been referred to, in 
Nashville, Tennessee, that occurred with a fire in the cargo 
hold. The Board recommended fire suppression and detection 
equipment be retrofitted on the aircraft, which would have 
required a rule change. The FAA did a cost-benefit analysis--
which of course is, to bluntly put it, trying to put a value on 
human life--and determined that it was not cost effective and, 
therefore, did not move forward.
    Dr. Loeb. However, if the FAA determines that there is a 
clear airworthiness issue and the airplane is simply unsafe to 
fly as it is, then they do not need to defend it on a cost-
benefit basis and they can do it. And certainly the 737 rudder 
package could fit that example.
    What happens is, if they come back and believe that there 
are alternative ways of handling things or if the airplane 
basically is safe even if there is a fire--which is, by the 
way, one of the arguments, that the way the class C cargo 
compartment was designed, that it would never got out and in 
fact ValuJet would never happen--once it did happen, the FAA 
was no longer arguing that point, and therefore something was 
going to be done one way or the other.
    So the cost-benefit goes out the window when there is 
absolute evidence that the airworthiness of the airplane can be 
compromised and a catastrophic accident can result.

                   Hazardous Material Transportation

    Mr. Pastor. The rule that says that an airline should not 
carry hazardous material, it would seem pretty simple to say--
--
    Dr. Loeb. Air carriers can carry hazardous materials, but 
there are regulations that speak to the packaging, the 
quantities, how they are carried on board, and so forth. If you 
really want to get into that----
    Mr. Pastor. I just want to know how OMB would look at that 
or the FAA and come out with a simple rule to say you either 
have to label them or somebody has to be aware they are on and 
we shouldn't carry it because you have too many people in 
there.
    Dr. Loeb. There are rules. They are not simple.
    Dr. Pastor. They are not simple?
    Dr. Loeb. They are not simple, no, sir.
    The biggest issue is not so much the legal carriage of 
hazardous materials, it is the carriage of undeclared hazardous 
materials.
    The accident that Bob Chipkevich referred to earlier, the 
American Airlines accident in Nashville, was an accident in 
which materials actually for tie dying--that is not the word--
using jeans, stone washing them, making them look old.
    Mr. Pastor. ``Tie dye'' is more my term.
    Mr. Loeb. Right. I am showing my age.
    The materials were packaged improperly, were not labeled as 
hazardous materials, and got together. That is the issue that 
is really paramount, the undeclared hazardous materials. The 
FAA has been working on it through educational programs and so 
forth, but it still remains an issue.
    Mr. Hall. Fireworks were in a personal suitcase that 
someone put on the plane that went off and caused a fire in the 
cargo hold while the plane was on the ground. There was no 
problem. But that is why you need inspectors and you need to 
have the fire suppression and detection systems for.
    Mr. Pastor. So undeclared hazardous materials, that is the 
issue.
    Mr. Hall. Yes, sir.
    Mr. Pastor. To find a solution, to solve that problem, how 
would the cost-benefit ratio involve itself?
    Dr. Loeb. In many cases, that has been a problem. That was 
the problem in the class C cargo compartment.
    Mr. Hall. You would need to probably look at how OMB does 
it. It would simply say they factor in the cost of not doing 
the fix versus the fix and they use the cost of a potential 
loss of life versus the cost of fix in making the determination 
whether it is cost effective.
    Mr. Loeb. They calculate the predicted losses against the 
predicted cost.
    Mr. Hall. Let me also say, Congressman, to add to your 
education in this area, that once they agreed to do the 
retrofit, the cost of the actual retrofit came in far less than 
the cost that had been used for the purposes of the cost-
benefit analysis.
    Mr. Pastor. Thank you, Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Pastor.
    I appreciate your time, Mr. Hall, and your staff. We thank 
you very much. We will have a series of questions, too, for the 
record. I do appreciate your commitment to participate in this 
group to deal with these issues on a continuing basis. It will 
be an operation long after all of us who serve on this 
committee are even on this committee. But something like that, 
I think we do need it.
    If you have any thoughts, on any people, or groups that you 
think your might contact the Subcommittee Staff with regard to 
that. We would like to do that.

                      Transportation safety issues

    Mr. Wolf. Are these areas that there have not been any 
accidents?
    [The information follows:]


[Pages 120 - 122--The official Committee record contains additional material here.]



    Mr. Hall. Mr. Chairman, if I could just make one brief 
closing comment, I would be remiss if I did not thank you and 
the committee for your support but also to thank the excellent 
staff that serves this committee and the cooperation and 
assistance that we have received on an ongoing basis from your 
staff. They stay very knowledgeable and very aware of our 
accident investigations and are very actively interested in the 
process of the Board. We really appreciate that. We are very 
proud that we receive oversight from this committee.
    Mr. Wolf. Thank you very much.
    If there are no questions, the hearing is adjourned.


[Pages 124 - 230--The official Committee record contains additional material here.]



                                           Tuesday, March 10, 1998.

                 FEDERAL AVIATION ADMINISTRATION (FAA)

                               WITNESSES

HON. JANE F. GARVEY, ADMINISTRATOR, FAA
MONTE BELGER, ACTING DEPUTY ADMINISTRATOR, FAA
DENNIS DEGAETANO, DEPUTY ASSOCIATE ADMINISTRATOR FOR RESEARCH AND 
    ACQUISITION, FAA
GUY GARDNER, ASSOCIATE ADMINISTRATOR FOR REGULATION AND CERTIFICATION, 
    FAA
CATHAL ``IRISH'' L. FLYNN, ASSOCIATE ADMINISTRATOR FOR CIVIL AVIATION 
    SECURITY, FAA

                            Opening Remarks

    Mr. Wolf. Good morning. The subcommittee will come to 
order.
    This morning, we will receive testimony on the $9.7 billion 
request of the Federal Aviation Administration for fiscal year 
1999.
    We welcome the FAA administrator, Ms. Jane Garvey, before 
the subcommittee. Ms. Garvey testified last year before the 
subcommittee, then as Acting Administrator of the Federal 
Highway Administration. She had a much easier job then. 
[Laughter].
    I want to extend a warm welcome to Ms. Garvey, and I want 
everyone to know that any criticism of the FAA this morning is 
not criticism of Jane Garvey. She has been at the agency only a 
little over 6 months now. I see many good changes taking place 
at the FAA, and I am hopeful that she has the skills and 
leadership and ability to make a real difference. However, the 
longer you stay, the problems of the FAA will become yours. But 
you have been there for such a short time and you have done a 
number of, I think, very positive things.
    I do want to set the stage for this hearing by stating 
publicly that I am concerned about the continuing problems I 
see at the agency. The FAA performs some of the most critical 
of all services provided by the Federal Government. They help 
ensure the public safety by inspecting and certifying aircraft, 
airlines and pilots. They maintain safe separation and 
distances between aircraft as they fly over our country and 
provide detailed instructions to help pilots take off and land 
safely. They work internationally to promote safe aviation 
practices even in the poorest nations of the world. They 
provide systems which help pilots and airline dispatchers see 
and avoid hazardous weather. They conduct research in such 
areas as cabin fire safety in order to find new and better ways 
to protect the public.
    Yet the agency has historically been beset with huge 
internal problems of culture, management and labor relations, 
which I believe undermine the public safety and cause fear and 
anxiety in some air travelers.
    The former DOT inspector general said, quote, ``there was a 
troubling culture at the agency where managers are not held 
accountable for their errors.''
    The GAO said that the FAA's culture is focused more on its 
own bureaucratic interests than on furthering the agency's 
mission.
    And, in last year's report, the Appropriations Committee 
decried an FAA culture which is, and I quote, ``secretive, 
rather than open; self-interested, rather than public-spirited; 
and highly resistent to change.''
    Over the past year, serious planning and management 
problems became evident in two of the FAA's largest acquisition 
programs, STARS and GPS. The agency, even by its own admission, 
got a very late start in analyzing the year 2000 problem. Air 
traffic controllers are restive about delays in implementing a 
new classification and compensation system. The maintenance 
worker's union says FAA is only staffing at 70 percent of what 
is required. Courts have recently thrown out both FAA's over-
flight user fee plan and the entire contract tower program, 
which creates chaos in the agency's operating budget.
    Now you might think the problems are caused by severe 
financial pressure, and there are some who want us all to 
believe that, and certainly there are budget pressures within 
individual programs and activities at the agency. Yet, overall, 
the FAA received a hefty 9.5 percent budget increase in fiscal 
year 1998; and they request a 7 percent increase for fiscal 
year 1999. This is well beyond the increases in air traffic 
measures, which are going up on the order of 1 to 3 percent.
    It seems to me the agency has serious deficiencies not in 
overall funding, but resource management and planning; and, 
although we might disagree about the funding levels for a 
specific program, it is hard to believe that, overall, the 
agency doesn't have enough money.
    So I want to explore these serious issues today with the 
new FAA Administrator and hope she can provide evidence the 
agency is more focused, organized, and will hold people more 
accountable than has been the case in the past.
    As we said in last year's report, the committee believes it 
is imperative for the new administrator to place a high 
priority in gaining effective control of the agency and 
restoring morale, openness, and overall credibility to the 
Congress and to the traveling public.
    I might also say one other thing. It is my own growing 
feeling that perhaps it may be a good idea to have an 
independent FAA, one outside of the Department of 
Transportation. Now I know you have a good relationship with 
Secretary Slater, and I think that is an advantage, but there 
have been times where that has not been the case. The fact that 
the year 2000 thing, under the previous secretary, went on for 
such a long period of time and was not focused on is an 
indication that maybe it would be better to have a strong 
administrator, like yourself, with an 8- to 10-year term, if 
you will, totally independent, where that person could be the 
advocate and not have to go through the political process.
    Having said that, let me just recognize Mr. Sabo for any 
comments that he might make.
    Mr. Sabo. Thank you, Mr. Chairman, and welcome, Ms. Garvey.
    Ms. Garvey. Thank you.
    Mr. Sabo. We appreciate having you appear before us. We 
congratulate you on accepting the challenge of your current 
position. Clearly, FAA has had lots of problems, and it 
continues to have problems. We are confident that you are going 
to be able to deal with them, and we look forward to hearing 
from you.
    Ms. Garvey. Thank you very much.

                          FAA Opening Remarks

    Mr. Wolf. You may proceed as you see fit. Your full 
statement will appear in the record, but you can read the full 
statement or summarize.
    Ms. Garvey. I would like to summarize if I could, Mr. 
Chairman; and, first of all, thank you very much for welcoming 
me today.
    I want to say at the outset that I take very seriously the 
issues that you have raised in your opening statement and 
members of this committee have raised to me individually; and I 
hope that, through the course of this morning's discussion, I 
can answer some of the questions that have been raised in your 
statement.
    I would, however, like to begin by discussing the FAA's 
1999 budget request in the context of three areas, and that is 
safety, security, and system efficiency. These are the areas 
where I have directed the agency to focus its attention. These 
are the areas I think the American people will judge us by: Is 
the system safe? Is it secure? Is it efficient?

                                 safety

    Safety is clearly our number one priority. It is the 
Department's priority. It is, in many ways, the heart and soul 
of the FAA's mission. When I first arrived at the agency, I 
asked how many safety recommendations we had on our plate. I 
was told we had about a thousand, and that even if you 
eliminate the duplication, we have a number around 450. That is 
way too many for any agency or any organization to manage 
effectively. So over the last several months, we have spent a 
good deal of time developing and shaping a safety strategic 
plan. We are in the final process of developing what I believe 
is a very focused, a very doable agenda. An agenda based on 
safety data, and I think that is very important.
    One of the fundamental principles, as we begin to talk 
about the agenda, is we had to target our resources, where we 
could make the greatest difference, where we had the greatest 
potential benefits; and we really are looking at quantifiable 
safety data in order to shape that agenda.
    We also know that part of implementing an agenda 
effectively is also recognizing that these are very complicated 
and very difficult issues. They will not be solved by 
government acting in isolation. In the last 6 months I have met 
with stakeholders. I have met with partners, and I have asked 
them to join us in an alliance, in a partnership to reduce the 
accident rate. We know we can't do it alone. We know that 
industry can't do it alone.
    I want to be very clear, though, when I say that. It 
doesn't mean we are giving up our oversight responsibilities. 
We take that seriously. We must take that seriously. It does 
mean, however, though, there is a great deal that can be gained 
from collaboration, and I want to give two very quick examples.
    Recently, just about 6 weeks ago, the Secretary and I 
joined members of Air Transport Association (ATA) in announcing 
that airlines were voluntarily installing enhanced ground 
proximity warning systems on aircraft. We are proceeding with a 
rule because we know from the safety data that kind of 
equipment makes a difference. But even though we are proceeding 
with the rule, industry said they are going to step forward; 
they are going to move forward on this action. A second example 
is the work we have been doing with the General Aviation (GA) 
community over the last several months, again, working 
together, focusing on a safety agenda that works for them and 
for us. I think those kinds of partnerships really represent 
good news for the American people, and the American people 
deserve no less.

                          security enhancement

    A second priority for us is improving aviation security. 
The White House Commission gave us, a couple years ago, a very 
comprehensive blueprint for enhancing security; and, in fact, 
several improvements have already been made. They include the 
installation of significantly improved security equipment as 
well as enhanced procedures and methods for implementing the 
equipment throughout the system.
    We got a very aggressive implementation timetable. I have 
stopped at airports and talked with airport directors about how 
it is working, about improvements they would like to see. By 
September 1, 1998, we will have more than 500 pieces of 
explosive detection equipment at U.S. airports. Again, I think 
that is good news.

                       system efficiency upgrade

    Another priority, and the final priority for us, is system 
efficiency. A significant amount of work has been done by the 
FAA and industry to modernize the air traffic control system. 
In 1997, for example, thanks to the strong financial support 
from this committee, the FAA installed more than 1,500 pieces 
of new equipment--ranging from very basic equipment, such as 
radios and distance measuring equipment, to systems that are 
much more complex, such as the voice switching and control 
system and the long-range enroute radar. We are in the midst of 
major acquisitions to replace computer systems at all enroute 
and airport terminal facilities. In addition to upgrading 
existing systems, these computers will provide the platforms 
for future enhancement; and I think that is very important.
    When we talk about STARS and DSR, this really is the 
platform for the automation tools of the future. It is 
important we get them in place. We know, and I know this 
committee knows, the issue of modernization is one of the 
greatest challenges that we face.
    As I have said, a significant amount of work has already 
been done, including the development of an architecture, which 
I think is a really significant piece of work. But, really, to 
build on this work, I asked a group of aviation experts, 
including, by the way, the unions, because I think it is very, 
very important, as we talk about modernization and as we talk 
about the equipment of the future, that we have the unions at 
the table with us. They are the ones who will be operating the 
equipment, the ones who will be using it. I asked the task 
force to really focus on two areas. First of all, take a good 
look at the architecture, and that is really what the system 
will look like. But, secondly and perhaps, in some ways, even 
more important, examine the when and the how of implementing 
the system: When should we do it; and how should we do it? And 
I was very pleased that, over the last couple months, we are 
seeing a growing consensus among the entire aviation community.
    Again, we have met with general aviation, with the 
commercial airline industry as well as the unions; and RTCA is 
coming forward and has come forward with free flight phase-I 
where there really does seem to be a growing consensus. This 
really is a system of automation and decision-making tools we 
can introduce into the system incrementally. I think that is 
very important. Very often, the FAA has focused on a long-term 
vision--not just the FAA, very often this happens in the 
government--and you lose sight of what we can put in place now 
and what we can do incrementally. RTCA is giving us some very 
good direction in that area.
    I think what is really key to the consensus is the 
acknowledgment that the new system is more than acquiring new 
technology. One of the messages we heard loud and clear at the 
off site that the task force was engaged in--we heard this from 
the unions in particular. We really need to train our work 
forces in a new way. We have to think about the human factors. 
We have to think about how people will be trained to use the 
tools for the future. I think all of that is getting folded 
into our modernization plan as we move forward, and those are 
very important issues.

                       year 2000 (y2k) challenge

    With respect to the Y2K issue, the question on everyone's 
mind is: Will the FAA meet the challenges as the countdown to 
January 1st, 2000, continues? My answer is, ``Yes, we will meet 
the challenges.'' Last month, I appointed a new FAA Y2K 
manager. I think he is terrific. His name is Ray Long. He has a 
very dedicated staff working with him. We have a business 
partner in Coopers and Lybrand, and they are at the table with 
us. We have a command center at Tysons Corner where people are 
working round the clock on just this issue. We developed time 
lines and benchmarks to ensure our computer systems are Y2K 
compliant before the turnof the century. We worked with the 
Inspector General (IG) to move up the dates.
    Mr. Chairman, I thought your comments last week that 
November was not an acceptable date is one we agree with. We 
have moved it up to June. But our Secretary has asked us to 
examine the dates even further, take another look at them and 
see if we can move them up more. I want to be realistic as I 
lay out the agenda. I know we can meet the June deadline; and 
we will look for ways to move it up even further.
    I know this is a tough issue. Because at the same time we 
are making all of the systems Y2K compliance we are also 
bringing on new technologies. So we are moving in many 
different directions, and I know it is going to take 
commitment. I know it is going to take vigilance. But I believe 
we are on the right track, and I believe we have brought the 
right resources to bear.

                   fy 1999 president's budget request

    Mr. Chairman, let me say I believe the President's budget 
request allows us to move ahead on each of the priorities I 
have mentioned. It gives us an increase in Operations, which 
recognizes the need to hire more controllers, maintenance 
technicians, safety inspectors and certification personnel. It 
includes a request for grants-in-aid for airports at $1.7 
billion, recognizing the capital needs of our Nation's 
airports. It includes an increase in the facilities and 
equipment appropriation, allowing us to move ahead on 
modernization. It contains a strong request for research, 
engineering and development, in providing us the tools to 
better explore and understand the challenges associated with 
deploying major communications, navigations and surveillance 
systems on a much broader scale. So I think it is a good, 
strong, sound budget.
    Let me just add one personal note in closing. I had a 
wonderful meeting a few weeks ago with the former FAA 
administrators. One of them said at the time that the greatest 
gift you can receive is the gift of responsibility. I know how 
very responsible this position is and how awesome those 
responsibilities seem at times. I am prepared to meet the 
challenges. I appreciate very deeply the kind of commitment and 
support I have received from this committee, and from other 
Members of Congress as well, and from members of the industry. 
And while there are days when I am awed by the challenges, I am 
ready to take them on.
    Thank you very much.
    Mr. Wolf. Thank you, Ms. Garvey.
    [The prepared statement and biography of Jane Garvey 
follows:]


[Pages 237 - 243--The official Committee record contains additional material here.]



                           safety task force

    Mr. Wolf. We were hoping to put together a group, and we 
have asked the Secretary about this. We have asked Jim Hall and 
the IG, a group located in DOT made up of representatives of 
the Safety Board, of the GAO, and John Anderson has agreed, the 
IG, and Ken Mead has agreed, and NASA and perhaps several other 
groups, to develop an alternative group you could go to, the 
public could go to, the Congress could go to, to develop a 
measurement as to the safety and as to procurement. What are 
your feelings about that?
    Ms. Garvey. We would, Mr. Chairman, embrace that 
enthusiastically. I think in some ways we have done it 
informally with all of the entities you have mentioned. I spent 
a great deal of time with Mr. Mead and with Mr. Hall, and I met 
with Dan Goldin at NASA to talk about ways we could work 
together. But I think formalizing that is a very good idea, and 
I think it would be very helpful to us.
    The whole issue of safety metrics is an interesting one and 
a difficult one. We have had some wonderful experts from 
academia. There is a fellow by the name of Arnie Bernet from 
MIT in Boston who has worked with us. There are some real 
challenges there. So I think having that kind of expertise, a 
group we could talk with about our safety agenda, would be 
extraordinarily helpful. We look forward to that.

                      user fees vs. aviation taxes

    Mr. Wolf. The administration's budget proposes to, over the 
next 5 years, finance a majority of the FAA's operations 
through new user fees. However, the budget does not scale down 
the aviation taxes proportionately, resulting in total new 
revenues over the next 5 years of about $6 billion. Ways and 
Means Committee Chairman Archer has called this proposal ``an 
old-fashioned tax hike'', and he opposes it. Can you explain 
why the administration proposes to collect this additional 
revenue?
    Ms. Garvey. First of all, let me say we are aware of those 
concerns, and we have heard those. Yesterday, I met with OMB to 
talk about this issue. We know we need to work closely with 
Congress on this. I think the way we envisioned it is phasing 
in the user fees and phasing out, if you will, the taxes. But 
we know we have to work closely with you, and we are not there 
yet. We have work to do in that area. OMB was very supportive 
yesterday about trying to figure out a way to work with us on 
this issue. So phasing out, though, I think is really the key.

               coopers and lybrand--productivity savings

    Mr. Wolf. A little over a year ago, Coopers and Lybrand, 
who you said you are working closely with on the year 2000 
program, submitted their final assessment on FAA's long-term 
financial picture, as required by the FAA Reauthorization Act 
of 1996. Coopers said that a status quo environment was 
unacceptable at the FAA because there were significant 
operational savings which the agency should focus on.
    They said: ``There are no significant productivity 
improvements in FAA's 6-year numbers; savings from procurement 
and personnel reform are not assumed; no savings are assumed 
from reduction of services or products; and no significant 
administrative savings are assumed.''
    Last year, in our committee report, we called on the FAA to 
address this by ``aggressively eliminating inefficiencies and 
waste, by streamlining and consolidating its organizational 
structure, and by improving productivity.'' What are you doing 
to address the operational efficiencies and cost savings 
recommended in the Coopers report?
    Ms. Garvey. The FAA has taken a number of steps in response 
to the Coopers report.
    I think, for example, some of the efficiencies we have 
gained from the changes in the Airway Facilities--the AF branch 
of the FAA, I think, has been very helpful. We have been able 
to derive some cost avoidance from the contract tower program 
that we have. I had a good meeting on that the other day.
    There are other areas, I think, though, in productivity, 
where we are talking to the unions, both through negotiations 
and more informally with the unions, beyond the negotiating 
table. I think there are some more we could do in the area of 
productivity to really get some of the benefits. We have 
implemented a number of the recommendations from Coopers.

    Mr. Wolf. Regarding productivity, Coopers said ``we were unable to 
find any significant, widespread productivity improvements between 
fiscal years 1997 and 2002 that were included in FAA's estimates . . . 
The FAA would benefit from a mandate created by the administrator that 
addresses specific expectations''. Have you issued such a mandate to 
establish specific productivity improvements during your tenure?
    [The information follows:]
    The agency has been directing its attention to the development of a 
focused safety agenda, a comprehensive plan for security enhancements, 
and laying out a clear road map for systems modernization.
    It is important, however, to recognize that the FAA has already 
accomplished a lot in terms of downsizing, contracting out, and 
restructing. Among other actions, the agency has decreased its FTE by 
almost 6,000 for total cost avoidance of over $1 billion and these 
decreases have been accomplished while the safety work forces have been 
growing.

                     regional office consolidation

    Mr. Wolf. The FAA used to have a Productivity Working Group 
which, by December of 1996, had identified as the number one 
area for potential improvement, the consolidation and 
elimination of regional offices. You know the concern of the 
Federal Highway Administration, who just came up last week to 
tell us their plans.
    The head of that group said the following about this in 
last year's hearing: ``I have worked for the FAA for 24 years 
now and for all of those years it has been clear to me that 
there are enormous efficiencies that we could gain through 
looking at our regional structure. That is going to be 
presented to the new administrator, and I would hope that [she] 
and the other folks on the Hill would help us make the right 
decisions in the next year or so.''
    The Coast Guard has closed two regional offices and, as I 
mentioned last week, the new administrator of Federal Highways 
came up to say what their proposal is.
    Do you have a proposal regarding consolidation of the 
regional offices?
    Ms. Garvey. Let me say, I know of your interest in 
particular on the issue of regional consolidation. I will tell 
you very honestly, in the first 6 months I have really focused 
my attention on the safety agenda, modernization and the issue 
of security. I know the issue of regional consolidation is 
something, though, I need to come to grips with and plan to do 
that within the next several months. I have talked to people in 
the regions about this as well as some folks in headquarters. I 
know there are a number of proposals on the table, and I would 
like to look at all of them. But I will make that commitment to 
you that that will be certainly among the top priorities for me 
in the upcoming months.
    Mr. Wolf. You might want to talk to the Coast Guard, and 
you might want to talk to----
    Ms. Garvey. That is a good suggestion.
    Mr. Wolf [continuing]. The Federal Highway Administration 
to see what they are doing. I think it can be done in a way 
that is very compassionate and sensitive to the employees, and 
without having RIFs and major changes, to signal that over the 
next couple years. But, if you can do that, I would appreciate 
that.

                       FIELD OFFICE CONSOLIDATION

    Mr. Wolf. Is the FAA planning any consolidation of its field 
offices in the next few years, such as Airport District Offices or 
Flight Standards District Offices?
    [The information follows:]
    The FAA is just beginning to formulate ideas about the various ways 
we might be able to increase administrative and operational 
efficiencies through organizational restructuring at headquarters and 
in the field. However, recent consolidations included combining 77 
Airway Facility Sector Offices into 33 System Management Offices, which 
was completed in 1996; and final implementation of the planned 
conversion and consolidation of Flight Service Stations into Automated 
Flight Service Stations, which were completed in 1997.

                              COST SAVINGS

    Mr. Wolf. Coopers said a ``focused re-engineering effort'' 
supported at the highest level of the FAA could have a ``monumental 
impact'' on the delivery of services. On a broader level than just 
consolidation of field offices, do you have a plan for achieving 
savings through ``focused reengineering'' of the agency, as Coopers & 
Lybrand suggested?
    [The information follows:]
    As part of its annual budget formulation and execution processes, 
the FAA continually considers possible productivity savings to its 
budget, including those put forth by Coopers & Lybrand.

    Mr. Wolf. Mr. Sabo.

                          year 2000 compliance

    Mr. Sabo. Thank you, Mr. Chairman.
    How confident are you of your ability to address the year 
2000 problem?
    Ms. Garvey. Well, let me say I am confident that we will 
meet it. I think we have put the resources that we need to it.
    I think it was a very significant step to take Ray Long and 
put him in that key management position. He sits on 
ourmanagement board. I see him every week. He reports every week as to 
what our schedule is. We have some very clear benchmarks, deliverables. 
Our next major deliverable is September 30, when all the systems need 
to be renovated.
    Mr. Sabo. Of this year.
    Ms. Garvey. Of this year. But, even before that time, I 
have asked Mr. Long to report back to the management board on 
some benchmarks between now and September 30. So we are keeping 
very close track of our progress.
    We have a dedicated team. This is all they are doing. They 
have come from around the country are working only on Y2K. 
Every line of business has someone who is responsible for 
getting the information to Ray, and he really has a lot of 
authority to act on my behalf and on making sure he gets it 
done. So I think we have got the resources.
    As the Chairman mentioned, we got a late start, and that is 
always the concern. But I think we have an aggressive schedule. 
We are getting enormous help from the IG's office and the 
General Accounting Office (GAO) in sort of working with us and 
flagging some issues they think are important. That has been 
very helpful.
    So while I would love to say there is no risk to this, I 
guess there is nothing in life where you can say that. I do 
think we have the resources we need, and we brought them to 
bear. All of us, collectively, as a management team and agency, 
are very focused on it. It is very visible. We know that if we 
don't succeed, it is going to be quite evident we haven't 
succeeded. So, we want to work very hard on it.

                         y2k contingency plans

    Mr. Sabo. Do you also develop contingency plans, like let's 
hope for the best but----
    Ms. Garvey. That is an excellent question, because I have 
been asked that by GAO. We do have contingency plans, and I 
will tell you that GAO has raised questions about them, whether 
they are sufficient enough.
    One of the points they made is: This is such an integrated 
system and sometimes some of the contingency plans we have may 
be more system dependent as opposed to really integrated. So we 
have told him--and that is one of the issues that Mr. Long is 
working on--we are taking a very hard look at our contingency 
plans to make sure they will be adequate.

                    controller staffing requirements

    Mr. Sabo. One other question, Mr. Chairman, at this point.
    Historically, when I have looked at projections by FAA for 
its need for air traffic controllers, I have never had great 
confidence in the planning process that produced the numbers--
sometimes too low, sometimes too high. Sometimes the agency has 
seemed oblivious to the fact that it had lots of controllers 
are nearing retirement.
    Ms. Garvey. I would say I have a good degree of confidence 
in the numbers. They are based on staffing plans that people 
have worked on in the agency. They are based on discussions 
with the union as well. I think it is something that we need to 
constantly evaluate, and I think it is a fair question. We 
will--you know, we have a target of hiring about 800 additional 
controllers this year. We are doing it sort of systematically 
by quarter. But I think it is a fair question, and we need to 
probably constantly look at that.
    In fact, I think the issue of staffing is one we need to 
constantly reevaluate. We are not doing it just with the air 
traffic controllers but airways facilities as well. I think, 
again, as we start thinking about what the work force needs to 
look like as we move forward--new training, different skills--
that all affects the numbers we arrive at as well. We will 
continue to look at that issue of staffing.
    Mr. Sabo. Thank you.
    Mr. Wolf. Before I recognize Mr. Tiahrt, Mr. Callahan 
wanted to be recognized. Mr. Callahan.

                            airline pricing

    Mr. Callahan. I just have a short statement. Thank you. I 
have another committee hearing so I have to go to. I just want 
to fire a shot over the bow; and, hopefully, Madam 
Administrator, you will be riding on our ship, shooting at 
another ship.
    My concern is that the airline predator pricing problem is 
growing more and more severe. The unfairness of the disparities 
of the rates for the same mileage traveled from an airport that 
only has one airline is getting out of control. I don't want to 
go back to price controls, but, unless something is done, we 
are going to have to, with the help of your office, put some 
controls on these predator pricings.
    This is a serious problem, and your distribution of the 
monies revolves around the number of landings. So an airline 
will go into Pensacola, Florida, for example, and cut the rates 
down 25 percent of Mobile, Alabama. Yet, more landings compound 
the problem.
    So, just to tell you there is a very serious concern in 
Congress about the unfairness of the rate structure of the 
airlines in captive areas such as Mobile, Alabama, has got to 
be corrected. You can respond later. I just wanted to say that 
before I went to my other meeting.
    But, it is a very serious problem that a lot of Members of 
Congress are interested in. We have to find some relief for 
these captive markets.
    Ms. Garvey. Thank you very much, Mr. Congressman. I will 
mention that the Secretary, I know, has heard this from members 
of the committee and also on the Senate side as well. I know 
they are working very hard on a competition policy that will, I 
hope, address many of the issues you have raised. I know the 
Secretary raised this with all of us earlier this week as 
something he is concerned about and heard a great deal about.
    Thank you for your comments.
    Mr. Callahan. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Tiahrt.

                        trip to wichita, kansas

    Mr. Tiahrt. Thank you, Mr. Chairman. Welcome, Ms. Garvey. I 
was pleased to hear you were in the air capital of the world, 
Wichita, Kansas.
    Ms. Garvey. I had a terrific visit.
    Mr. Tiahrt.  I am sorry I was not able to be there with 
you.
    Ms. Garvey. You had a wonderful staff representative.
    Mr. Tiahrt. We are very proud of the general aviation 
industry with Boeing, Beech, Cessna and Learjet all there. 
Boeing now considers them part of the general aviation 
manufacturers with their new business jet, so we have a very 
well-rounded community when it comes to--as far as aircraft is 
concerned, I should say.
    I got a lot of positive reports from your visit, and they 
feel like you are probably the person to get the job done with 
the FAA, and I want you to know my office and myself would like 
to help you accomplish those purposes. I have some concerns and 
maybe some philosophical differences, and I am going to submit 
some questions for the record, Mr. Chairman.

                     user fees and kansas airports

    Mr. Tiahrt. I first want to talk to you about user fees. In 
your budget it looks like by 2003 you would like to fully be 
funded by user fees, and I think this would be devastating to 
general aviation. Some of the people who fly--and we have a lot 
in Wichita, and many of them are marginally able to afford to 
fly--and if you have a landing fee of a hundred dollars, it 
will take a lot of people out of general aviation, and I don't 
think that is good for the industry.
    I think that most people in aviation would rather see 
something in a fuel tax, rather than a user fee, and I wish the 
administration would strongly consider that. I am afraid we 
would move so many people out of the market it would slow down 
the progress we are making in general aviation, and so I hope 
you would consider that.
    The other thing that I would like to talk to you about is 
the airport improvements program. I see from your book here 
that you have increased the amount of money there, and I am 
very pleased with that. Congress increased the amount of money 
by 70 percent last year, and you matched that this year. I 
think that is good progress, and we need to, at some time, 
think about another boost.
    I have been to small airports in Kansas where the runway is 
very rough. I mean, it would be difficult to ride a motorcycle 
down it because you couldn't keep your balance; and when you 
land a tail dragger, I am sure the people are sweating. You 
know how difficult it is to land a tail dragger.
    I think there are a lot of small and medium airports 
neglected over the years, and many of the communities are now 
trading internationally through NAFTA and GATT. We have open 
markets overseas.
    In Kingman, Kansas, for example, there is a gentleman who 
trades with Asia; and he both brings products in and sells 
products to Asia. Some of the people who are involved in these 
larger corporations he does business with try to land their 
business jets on this rough runway. Because there is so much 
loose materials, he can't get them to come in; and it is 
actually hampering him from creating jobs in these rural 
communities.
    So I think we need to think about that, as far as a 
stronger economy in rural areas, especially. So I would like to 
see us take a hard look at increasing the amount of funding 
available for the airport improvement program, and I want to be 
more specific to Kansas.
    Hays, Kansas is not in my district. It is in Jerry Moran's 
district, and he sits on the Transportation and Infrastructure 
Subcommittee, so you will probably get pressure from more than 
one person.
    But last year we wanted to get an ILS into Hays. Mr. 
Valentine told me by the end of 1998 the WAAS system would be 
fully in place, but it is not in place now. I was told it was 
supposed to be in place, and it was a matter of one by one 
designing the approaches for each airport in the Nation, and 
Hays was going to be up higher in the priority. So I was hoping 
you could give me the same guarantee by the end of this year, 
we would be able to get an ILS on line in Hays, Kansas.
    Ms. Garvey. Let me check. I don't want to make a commitment 
until I understand the issue more. But I certainly would like 
to try to honor that.
    Mr. Tiahrt. I would like you to comment on user fees. I am 
very much concerned about that because, by the year 2000, your 
budget is around $10 billion, and that is a big number on user 
fees, and I would like your comments on the Airport Improvement 
Program, and then please help me with Hays.
    Ms. Garvey. Let me start with the airport improvement 
program. Because the issues you raised are the same issues we 
have been talking about internally. We are discussing the 
reauthorization of the AIP program, and we spent a couple hours 
yesterday talking about how do we deal with the smaller 
airports.
    It is becoming clearer and clearer, as you think about a 
system, the small- and medium-sized airports are becoming 
increasingly important. We were looking at ways we might be 
able to boost the money that is needed or could go to the 
smaller and regional airports. So we are very much aware of 
what--we are looking at a couple options, and we would be happy 
to sit down and talk with your staff about some of the options 
we are looking at.
    The issue of user fees is one I heard a great deal about. 
In fact, I heard a lot when I was in Wichita, and I know the 
concerns the general aviation community has. We have tried to 
structure in a way that keeps the general aviation community 
out of the user fee structure because of the issue that you 
have raised, the impact that it would have, and that is the way 
our proposal would be. I know that, in talking with Ed Bolen 
and others, that is still a source of concern, and I respect 
that and understand that. We are going to try to work with 
members of the industry to deal with it. But I think the way 
our proposal is set up now, we do respect and honor the sort of 
distinct contribution and issues that GA has, and I expect we 
will stay that course.
    Mr. Tiahrt. Okay. Thank you.
    Thank you, Mr. Chairman.
    Mr. Wolf. Thank you.
    Mr. Olver.

                           amherst, ma visit

    Mr. Olver. Thank you. Thank you, Mr. Chairman.
    Administrator Garvey, glad to have you here. Among your 
visits to various places, Wichita and others, I hope you will 
put a visit into Amherst, Massachusetts, sometime.
    Ms. Garvey. My family would be delighted if I would do 
that.
    Mr. Olver. I actually have no questions right now. I will 
listen for a while and see where we get to.

                           user fee proposal

    Mr. Wolf. Mr. Packard.
    Mr. Packard. Thank you, Mr. Chairman.
    Ms. Garvey. Good morning. Nice to see you again.
    Mr. Packard. Let me pursue the user fee.
    The National Civil Aviation Review Commission stated the 
FAA should be partially funded by general tax revenue, in part 
because the aviation system is beneficial to all society and 
not just to users. Yet the administration proposes to replace 
the general fund contributions to aviation with $1.7 billion in 
new aviation taxes, beginning in the year 2000. Generally 
speaking, which segments of aviation do you plan on taxing and 
what nonaviation programs would receive the diverted funds?
    Ms. Garvey. Mr. Packard, some of the details will be 
flushed out more in our reauthorization, but let me talk about 
the principles and the approach we are taking.
    We read the NCARC proposal very, very carefully. We 
recognize their distinction with the GA community, and we are 
trying to honor that as we work through our proposal for 
reauthorization as well.
    Secondly, as we are thinking about user fees, we are very 
focused on the air traffic control side. We think that is an 
area where, as we begin to think about and as we are developing 
our cost accounting system, we are really targeting on the air 
traffic control piece because those are services we think we 
can get our arms around a little easier. So we are really 
focusing on that piece.
    The NCARC proposal calls for a performance-based 
organization that would be funded by user fees with a sort of 
separate budget treatment, and that is the sort of model that 
we are looking at as we are moving forward with our proposal.

                    transportation fund for america

    Mr. Packard. Thank you.
    What is the Transportation Fund for America?
    Ms. Garvey. That is a concept that has been proposed in the 
President's budget. It is really a concept that could be used 
for--could be a vehicle, if you will, for revenues from user 
fees, a place to deposit those additional revenues. I, frankly, 
was encouraged to see that in the President's budget because I 
think it may suggest a way that we might be able to use user 
fees or to use additional resources that could be collected.
    I think it is sort of a recognition--and I know that John 
Ball is here, and I think it is a recognition from the Office 
of Management and Budget (OMB) we need to think differently as 
we are looking at some of the trust funds like aviation or the 
surface side as well.

                       host computer replacement

    Mr. Packard. I think perhaps my greatest concern--and I had 
a series of questions, but it has been asked--relative to the 
computer--the year 2000 thing. That is of great concern I think 
to this committee and, of course, I think to the country, and 
certainly I am sure it is to you.
    IBM has recommended against relying on the existing system. 
They feel that the lack of parts generation--it is old 
equipment--lack of test tools and available skills to analyze, 
change existing microcodes were referenced in their concerns. 
If the original equipment manufacturer, IBM, doesn't really 
recommend the system to be used for FAA's application, how does 
the FAA plan to guarantee the systems will work in the next 
century?
    Ms. Garvey. That is an honest concern; and it is one, by 
the way, that we have talked about a lot with IBM. I have 
actually met and spoken with the vice president several times 
on this very issue, and they raise a very important question.
    They say, with the host computer, the age and the 
sustainability is such that we are not sure, as you have 
suggested, that we can fix it. So we are really taking a two-
pronged approach, and I think this is important. It is an 
approach IBM supports, the IG supports. It is an approach the 
GA supports. So it is not a decision we made in isolation. It 
was well thought out.
    It is a two-pronged approach. First of all, we are going to 
aggressively try to replace the host computer by the year 2000. 
So we have an aggressive replacement schedule. Secondly, we are 
also going to renovate what we have in place. It is really a 
belt and suspenders, as Ken Mead likes to describe it. Because 
it really says, if we are not successful in getting the host 
computer, if we get down to the last couple months and we find 
we are short in a couple of centers, key centers, then we want 
to have the system that we currently have renovated and usable. 
So we are taking the two-tracked approach. We are working very, 
very closely with IBM. In fact, we have asked for any 
additional expertise that they may have to help us in the 
process. So we are taking the two-tracked approach, and I think 
that is a prudent way to approach that issue.

                       year 2000 compliance date

    Mr. Packard. In a previous hearing--and I can't remember 
who the witness was, at the present time--but it seems I recall 
where it would go up to November--it was scheduled to go to 
November of 1999, which was just 2 months, a month and a half 
or so before the deadline, that the solution was scheduled to 
be resolved. That is a very, very thin time line; and if, in 
fact, there are glitches and problems that are unforeseen, at 
this time, you could be up against a deadline that would not be 
achievable.
    Ms. Garvey. That is right.
    Congressman, in response to questions raised by this 
committee and also in response to questions raised by OMB and 
the IG, we have moved those dates forward. We are right now at 
June. The Secretary and OMB have asked us to reexamine that and 
see if we can move it forward even more, and we are doing that.
    I want to be realistic about what our timetable is. We have 
an enormous number of systems we are renovating and making Y2K 
compliant, so I want to be realistic. But, at the same time, I 
want to be as aggressive as we can. So we have moved it from 
November to June, and we are examining with OMB and the IG to 
see if we can move it even further.
    Mr. Packard. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Pastor.
    Ms. Garvey. Good morning, Mr. Pastor.

                  sky harbor air traffic control tower

    Mr. Pastor. As you fly out west and you go through Kansas--
I guess it is now probably under snow--I would encourage you to 
visit us in Phoenix. The temperature is 75 degrees. And you 
will probably see Sky Harbor International, the need for a new 
tower. You have a request for a tower from both of our Senators 
in Arizona and I support their request. So you are welcome, and 
I would suggest you come visit us while the weather is still 
warm and get out of this cold weather.
    Ms. Garvey. We are well aware of the request, and I believe 
we are responding appropriately for you.

              explosive detection system (eds) deployment

    Mr. Pastor. I basically have three questions. And the first 
one, in the 1996 Aviation Reauthorization Act and the Gore 
Commission, both suggest the FAA deploy EDS systems in a 
scatter-shot approach. That means trying out new systems, 
whether they are certified or not.
    Most recently, I received a letter from the Air 
Transportation Association supporting that approach. By 
contrast, they say continuing to purchase more of the same, 
when competition and better technology are just around the 
corner, is at odds with that thoughtful approach. They believe 
it will shortchange the flying public and send a signal to 
manufacturers the innovation is neither expected nor rewarded. 
Would you respond to the ATA concerns?
    Ms. Garvey. Let me try; and if I am not getting to the 
heart of your question, I will ask Irish Flynn, who is here, to 
respond as well. There are really a couple issues. First of 
all, as you suggested, it is deploying the new technology; and 
I think we are doing that. And, in some cases, I think the 
airports have made suggestions to us to improve the equipment. 
They have talked to the manufacturers. We have as well.
    As you suggested, a lot of this is very new technology; and 
so, while we have certified equipment, we also know it is 
important to test some of the equipment as it is coming along. 
We are doing that.
    I think, over the next year, there are several pieces of 
new equipment that will receive FAA certification. There is one 
that will be coming on line again this spring. There is one 
that will be coming on line in the summer and again this fall. 
So I think while we are deploying technology and getting new 
equipment out there, we are also, encouraging the kinds of 
market-driven innovation that will make these products even 
more viable. So I think we are on track with that.
    I think there were some questions raised last year about 
were we doing enough to really bring on some of the new 
technology. We worked hard with the new firms to make sure they 
can be and will be certified.

                       eds reprogramming request

    Mr. Pastor. More specifically, your February 13 
reprogramming request, which is pending before the committee, 
includes $25.1 million for explosive detection equipment. The 
request states that funding is needed to purchase and install 
certified EDS machines for screening checked baggage. If other 
manufacturers are close to certification approval, do you 
intend to defer obligation of the funds in order for them to 
compete?
    Ms. Garvey. What we tried to do with the reprogramming is 
to establish the performance standards. So we said, here are 
our standards. Can the manufacturers meet those standards? And 
by doing that, we have been able to distribute the money among 
three manufacturers--I think it is at least three 
manufacturers. So I think we are still dealing with 
manufacturers that are able to meet those performances. I 
believe a couple may not yet be fully certified, is that right, 
Irish? I was so hoping to get through this whole hearing 
without having to turn to anyone. Keep it short, Irish.
    Mr. Flynn. The FAA has given grants totalling $20 million 
in R&D to forward explosive detection systems to be developed 
for screening checked baggage. As the Administrator says, we 
had hoped the products from that development would be certified 
this year. As the products are certified, the Integrated 
Product Team (IPT) will be making decisions to buy them. It is 
important that we maintain the level of detection that 
certification implies.
    Mr. Pastor. Let me--your request, as I understand it, 
states, funding is needed to purchase and install certified EDS 
equipment.
    Ms. Garvey. Some may not be.

                           eds certification

    Mr. Pastor. It is my understanding very shortly, in a 
matter of weeks, you are about to certify the new generation. 
That may be better than the old generation that has been 
certified. You know, if we are that close--my question is, if 
we are that close to the next generation of equipment thatwill 
detect even better, is it better to have a little patience and say, 
well, let's get that certification done so that we can get the best in 
place, rather than just stay with the certified and stay with an older 
generation of detection equipment? That is basically my point.
    Ms. Garvey. I understand the question now. So you are 
saying, if we are that close, if we are talking about the 
springtime or summer, let's take another look at that. Let me 
get back to you on that.
    Thanks, Irish.
    Mr. Pastor. Because I would--since I am probably one of 
your best clients in terms of going through the airports, I 
would suggest to you that, if you are reasonably close to 
certifying the next generation, maybe it would be reasonable to 
wait so that you get the best product, rather than bringing the 
$25 million in the old certified system and you may not get the 
best product.
    I guess I followed with the lead question, in that the Gore 
Commission, the AF--excuse me, the ATA, everybody saying maybe 
you ought to look at this scatter-shot approach because that 
way you may get the best technology quicker into the system, 
rather than just staying with the certified equipment, which 
may be obsolete at this point.
    Ms. Garvey. Thank you very much. Let's follow up on that 
and get back to you with a fuller discussion on it.
    [Additional information follows:]


    With the reprogrammed funding, the FAA will purchase and install 
only FAA-certified EDS equipment for screening checked baggage. Trace 
detection equipment will also be purchased and deployed to assist in 
alarm resolution.


    Mr. Pastor. I only have one request. You get back to me 
before the $25 million is given out or that the--that you stay 
with the request and only certified equipment gets installed. 
Thank you.

                 controller staffing--coopers' findings

    Mr. Wolf. Following up on what Mr. Sabo asked, in the 
Coopers report, they concluded that the FAA has consistently 
overestimated future aviation activity in its forecasting. 
Because of this, Coopers believed there was a high likelihood 
that future FAA workload was also being overestimated, meaning 
that your controller staffing requirements, which Mr. Sabo 
referred to, and associated budget requests might be too high. 
Have you made any adjustments in light of Coopers' finding or 
do you disagree with them?
    Ms. Garvey. There were some adjustments, Mr. Chairman, 
made, as a result of Coopers' finding. The staffing study that 
was done, I believe, last year--I will double-check on the 
time--really dealt with and took into account some of the early 
findings that Coopers had included.
    In talking with staff yesterday about the issue of 
staffing, I think one of the points one of the associates made 
was that the whole issue of staffing is one you have to 
constantly keep looking at. We have to constantly reevaluate. 
Even though we have a staffing study that may have been done in 
1997, it is something that has to constantly be evaluated, and 
I think it needs to be evaluated with the unions. Frankly, it 
is discussions we are having even as we are in the midst of the 
contract negotiations.
    One of the issues that I have talked to some of the NATCA 
leadership about is, are there more productivity gains we need 
to take a look at? I know NATCA has raised an issue about the 
ratio of supervisors. Fair questions, and I think we have also 
raised some issues about how can we derive and get some future 
productivity gains. But I think we need to constantly look at 
it, and I am not sure we hit it out of the park yet. I think we 
did take into account the Coopers findings. I will go back and 
take another look at it to see if we have done everything we 
possibly can in that area.

                 lack of financial management--coopers

    Mr. Wolf. We were concerned to read the following statement 
in the report: ``A related issue facing the FAA is that many of 
its own executives have told us, quote, `it can't manage 
money'. The FAA's core program managers have not demonstrated 
an understanding of financial management. One of the real 
issues associated with the lack of financial management is the 
lack of accountability in terms of what was projected versus 
what actually happened.'' Do you agree with this statement and 
are you doing anything to deal with the financial management at 
the FAA?
    Ms. Garvey. First of all, I think the cost accounting 
system is going to be extraordinarily helpful to us. In some of 
the early discussions we have had with Arthur Andersen, for 
example, there are some patterns that are emerging. Places 
where control centers or centers where there is great 
difference among cost and, you know, where you sort of have to 
ask yourself the management question: Why is the difference so 
great and what we can do about it? What changes can we make? So 
I think the cost accounting system would be a wonderful tool 
for management in managing the money.
    I talked with GAO the other day about the problems we often 
have at the FAA, just in terms of even giving the cost of 
projects; and I said, what suggestions would you have for us? 
One of the suggestions that Mr. Dillingham made, which I 
thought was a good one and one we have talked about a little 
internally, is: we often lock ourselves into a number. We would 
be better off, because often these projects are so complicated, 
to suggest a range and to think in terms of a range. To 
identify very early on what the risks are associated with the 
contract, and how answering the risks in a certain way that 
might affect the bottom line, might affect the number. So, that 
is something we are talking about as we are managing projects: 
Are we locking ourselves in too early on numbers that may be 
unrealistic?
    I think some of the other discussions and some of the 
things acquisition reform has given us is an ability also, 
though, to put up front the life-cycle cost. That is often 
something that was not included in the past--as least as I have 
understood it--in past discussions.
    So do I think we need to manage better on finances? Yes. Do 
I think we need to manage our projects more tightly? Yes. And I 
think there are tools, such as the cost accounting, that will 
be very effective in helping us do that.


[Page 257--The official Committee record contains additional material here.]



                   user fees--cost accounting system

    Mr. Wolf. Both the House and Senate Appropriations 
Committees are on record as opposing whole-scale conversion of 
the FAA funding to user fees. Mr. Packard asked the question 
and I think Mr. Tiahrt also. How does the new accounting system 
fit into this issue of user fees?
    Ms. Garvey. First of all, I think it is critical we have a 
cost accounting system in place; and we are working hard to do 
that. Before we move to user fees, the industry has said we 
need to know how much the services cost; and that is a fair 
question. We are trying to focus FAA, with the help of, Arthur 
Andersen on the cost of the air traffic control system. That is 
really our first priority. That is the area where it is the 
operations--where understanding what the costs of the services 
are I think is absolutely critical. So we are focused, first 
and foremost, on the air traffic control.
    I do want to say that I understand how difficult the issue 
of user fee is, and I think it is one that is going to take a 
great deal of discussion with Congress. We certainly will be 
putting forth a proposal--my guess is it is a proposal that is 
a good proposal--to begin the debate and begin the discussion. 
So I think it is going to not be an easy issue, and it is one 
that I think is going to take a lot of discussion, both with 
Congress and with industry as well.
    One of the issues that industry has raised with me, and I 
think it is a fair question, what are the assumptions that you 
are going to use as you start thinking about cost pricing? The 
cost accounting is the first step, and understanding it as a 
management tool is the first step. That is what I am eager to 
have, the cost accounting system in place as a management tool. 
The second is, when you start thinking about pricing and cost 
pricing, what are the assumptions you are going to use? And 
that is going to take some very hard and frank discussions with 
industry and, again, I think with Congress as well.

                  cost accounting system cost estimate

    Mr. Wolf. The cost accounting system was going to cost 
anywhere from $2.9 to $3.7 million. What is the cost going to 
be?
    Ms. Garvey. Let me get back to you with the exact cost, 
because I am not sure what the exact number is. We just made an 
adjustment to the contract. I want to be sure I am giving an 
accurate number.
    [The information follows:]

    Last year we reported that the fiscal year 1997 cost to 
develop the cost accounting system was estimated to be $3.6 
million. We estimated the total cost to develop and implement 
the system to be $6.63 million. The total estimated cost was 
provided before we had fully identified our detailed functional 
requirements. Our current estimate, based on fully known user 
requirements, is $8.03 million.

    Mr. Wolf. Despite the FAA's statement regarding its 
importance, the Coopers team found over 50 percent of the cost 
system was unfunded. So the question is, is it fully funded at 
this point?
    Ms. Garvey. Because we are focused on the air traffic 
control, I asked yesterday whether we were comfortable with the 
budget. People are still feeling comfortable with the budget, 
because we focused in on the air traffic control.
    Mr. Wolf. It will be implemented when?
    Ms. Garvey. The air traffic control, the piece we feel we 
really need in order to understand the cost, will be by October 
1st, of this year.

    Mr. Wolf. It was expected to be fully implemented by the 
end of this year. Is that your current schedule?
    [The information follows:]
    FAA plans to have the framework in place to support an 
operational cost accounting system. However, current emphasis 
is being placed on completing those portions of the system 
which support user fees. This may necessitate implementing any 
remaining portions of the system during FY 1999.
                         COST ACCOUNTING SYSTEM
    Mr. Wolf. The Coopers and Lybrand study said ``at least two 
separate people referred to (financial) data produced by the FAA as 
`terrible.' Two other independent groups referred to `dueling data,' or 
data that can be manipulated to represent any viewpoint.'' Will the new 
cost accounting system be the single source of financial data from FAA, 
so that we can count on it?
    [The information follows:]
    The cost accounting system is not being designed to replace the 
Departmental Accounting and Financial Information System (DAFIS), which 
is the Department's core accounting system. The cost accounting system 
will receive financial data from DAFIS and the Consolidated Uniform 
Payroll System, (CUPS), tie the cost data to data from various 
operational systems, perform allocations of overhead and general and 
administrative costs, and report the fully allocated cost of end-user 
services. It will be the single source of cost accounting data.
    Arthur Andersen, the contractor assisting the FAA in developing the 
cost accounting system, has validated the CAS design extensively, and 
benchmarked the CAS development program with similar successful 
programs it has conducted with private sector organizations. Arthur 
Andersen further indicated that the progress to date reflects an 
efficient, fully defensible approach to enterprise system development.

                         year 2000 target date

    Mr. Wolf. It is important--I agree with what Mr. Packard 
said on the year 2000--but I think, for credibility, it is 
important to set targets that really can be met and not just 
throw something out that really can't be met. Then people say 
there they go again. So when you do all of this, it is good to 
keep to them, even if you have to go a month or two.
    Ms. Garvey. That is, frankly, in the year 2000 why we have 
June right now. We will try very hard to move it up, but I, 
again, want to be realistic about what we can deliver.
    Mr. Wolf. OMB's date was March. Are there any other 
agencies asking for longer than that, not only in DOT but 
across the board?
    Ms. Garvey. I am not aware of any, and I know Mr. Koskinen 
has just joined the Administration to honcho the effort. He 
started on Monday, and I think his first call was from the FAA. 
So we are going to sit down and talk with him about that.

                            personnel reform

    Mr. Wolf. The 1999 budget document calls it a ``priority 
management objective'' of the administration to implement, 
within the FAA, ``a personnel system that, without increasing 
cost, empowers managers to effectively hire, reward, promote, 
discipline and remove employees while at the same time 
protecting employee rights''. How much progress has been made 
so far, and what is your schedule over the coming year in this 
priority management area?
    Ms. Garvey. In the coming, year, in fact very soon, we will 
be implementing a pilot program. It is a complicated issue. It 
is a difficult issue. We are asking people to make some 
significant changes in personnel. As you suggested, it is 
moving much to a performance based, to incentives rather than 
automatic steps. It is not an unusual system for the private 
sector, but it is a new system for those of us in the public 
sector. And the suggestion made by the team that is working on 
it is to begin it as a pilot program. We are looking right now 
within the agency and research and development is one area 
where there is an interest to be a pilot program. There are a 
couple of other offices that have said they would like to step 
forward and be a pilot program as well. We think by 
implementing a pilot program, we can give the employees an 
opportunity to check in every other month to make sure that we 
are understanding how it is going and answer the questions that 
develop. It is a really enormous task and I will say, even in 
talking with the unions, I know people have worked hard on it, 
but it is a complicated issue.
    Mr. Wolf. Most Federal agencies would give anything to have 
the personnel and procurement flexibility that you have.
    Ms. Garvey. That is right, yes.

                         reform implementation

    Mr. Wolf. How much have you used that since it was passed?
    Ms. Garvey. I think we have done much better on the 
acquisition side. I think we have made some great, great 
progress with the acquisition piece. We have cut contract time 
almost in half. I have talked with contractors who say that the 
cost of doing business with the FAA and preparing for it is 
less because it is so much more streamlined. I think----
    Mr. Wolf. Could you submit some of those examples for us?
    [The information follows:]


[Page 261--The official Committee record contains additional material here.]



    Ms. Garvey. Yes, we will. I would be happy to do that, Mr. 
Chairman. We have a contract resolution office, dispute 
resolution office, which is in place, that if issues arise 
during the life of a contract we can deal with it quickly and 
expeditiously.
    On the personnel side, I think we have made good progress. 
We have cut the time, when somebody is identified, from about 6 
months to 6 weeks to hire someone. We have reduced the time.

                         new hires under reform

    Mr. Wolf. How many people have been hired under that 
system?
    Ms. Garvey. I would have to get back with the number, but I 
know we have hired about 27 specialist technicians--
approximately 21 to 27. I have to double-check on that, but 
they are sort of outside the cap with bonuses and different 
pays and so forth. Let me check on the other number, though, 
and get you a more accurate number.
    I do think, though, as you have suggested, the real 
breakthrough with personnel reform, where you really take it 
over the top, will be with the new compensation program. That 
is why I do think that that is so important.
    [The information follows:]

    Since April 1, 1996, the FAA has hired 5,098 people as of February 
28, 1998. That number includes 684 temporary employees.
    Mr. Wolf. I notice that in the acquisition area, you are 
considering an approach which prioritizes some systems for faster near-
term implementation, and saving other projects for phase two. Yet in 
the personnel reform area, I've heard the approach is ``all or 
nothing''. Executive pay, travel reform, PCS reform, and bargaining 
unit compensation are all being considered collectively. Is there any 
merit in ``rolling out'' personnel reform initiatives on a phased 
basis, instead or waiting until there is agreement (and buy-in with all 
the unions) on issues across the entire workforce?
    [The information follows:]
    Yes, there is merit to a phased approach for reform and some of our 
initiatives are expected to be implemented in phases. FAA has already 
implemented many new initiatives under personnel reform. Some of these 
initiatives include: streamlined hiring processes that have reduced the 
time to fill positions from 6 months to 6 weeks; implemented automated 
systems to distribute vacancy announcements and referral lists, and 
develop position descriptions, reducing processing times from a week or 
more to one day; modified premium pay rules to pay only for time 
actually worked; and modified our grievance and appeals process to 
reduce the average time to resolve complaints from 1 year to 3 months.
    We are continuing to develop additional initiatives to take 
advantage of the flexibilities under personnel reform, some of which 
may be implemented for nonbargaining unit employees in advance of 
completion of union negotiations. In addition to these already 
implemented initiatives, we are developing comprehensive and complex 
changes such as a new compensation system, which will likely be 
implemented in phases as various FAA organizations can complete the 
necessary communications training within their work force, or complete 
negotiations with their affected labor unions.

                   ig audit of contract tower program

    Mr. Wolf. One of the reasons, as you know, for reform was 
to allow the FAA flexibility to move employees to understaffed, 
hard-to-fill locations. The contract tower program continues to 
provide experienced controllers for possible transfer to 
understaffed facilities, and personnel reform allows you to do 
so. However, the IG found that the FAA reassigned over half of 
the controllers to overstaffed facilities. Why does the agency 
send employees to overstaffed facilities when they are needed 
in other locations, even if the personnel reforms give you 
unprecedented flexibility?
    Ms. Garvey. I am aware of that report that the IG did. 
Obviously, we should be putting the personnel where they are 
needed. I understand that there have been some union issues on 
that, but the IG has asked us to take a very hard look at that. 
And we are doing that. The classification program that we are 
developing with the union will also, I believe, help us address 
that issue a little more specifically.
    I do want to speak just a minute about that IG report 
because it was one of the first ones that occurred when I was 
Administrator, and again I think is a testimony to Mr. Mead and 
his staff. What they did with that report, I hope, is a model 
for lots of reports to come. They met with us in the middle of 
the report, and gave us some sort of heads-up on several issues 
that they were concerned with. This gave us the opportunity, 
before the report was completed, to begin making some 
management changes and management decisions that I think helped 
improve the process. So it was a good model, and I think a 
model for many other reports in working with the IG.
    Mr. Wolf. I want to say that I appreciate your attitude, 
and your answer to that. I have found it kind of remarkable. 
Since you have taken over, I have not seen a defensive attitude 
at all; whereas, in the past it would seem that every time--and 
I know there was animosity between the former IG and certain 
agencies, to say the least, the FAA being probably the prime, 
prime one, even leading to a book, I guess, but--you could see 
the body just kind of tensing up, and nobody wanted to take any 
criticism. And I do think it has been very healthy. Nobody 
likes to be criticized, I guess, Members up here or in any 
other job. But I do want to publicly acknowledge that I do 
appreciate your openness. And you have never lashed back and 
said, well, that person doesn't understand what they are 
talking about.
    I don't know what is in your mind, but your attitude and 
your body language----
    Ms. Garvey. It is very positive, Mr. Chairman.
    Mr. Wolf [continuing]. Has been--it has been very 
refreshing, having watched it over the years. And I think that 
is a good sign of leadership, being willing to listen to other 
people. It doesn't mean you have to do everything that everyone 
says, but not be defensive about it. Your answer with regard to 
the IG and Mr. Mead, I think, was very positive.
    Ms. Garvey. Thank you.
    Mr. Wolf. Mr. Olver, if you have any questions?

                   ig audit of contract tower program

    Mr. Olver. Well, if I may just follow-up, Mr. Chairman, on 
that one. There's the IG's report, as Ms. Garvey has pointed 
out, it was just about to come in as she was taking over, but 
the point that they made about the FAA's reassigning over half 
the people that they were reassigning to overstaffed 
facilities, is that--has that been addressed in a positive way?
    Ms. Garvey. I think it has been addressed----
    Mr. Olver. Positively?
    Ms. Garvey. Partly. Monte, do you want to add anything to 
that?
    Mr. Belger. Yes, sir, I think we have addressed it. I think 
we have done a better job in the past several years in 
assigning folks to the more critical facilities than we did in 
the first couple years of the contract tower program. We tried 
to do this in a way that is consistent with an agreement that 
we reached with the unions in order to be able to continue on 
with the contract tower program, which as of today is going to 
save the taxpayers roughly $30 million a year. So we are trying 
to do the best we can, working with the unions and being fair 
to our employees.
    Mr. Olver. How long has the contract tower program been in 
operation?
    Mr. Belger. It started back in 1994, probably.
    Mr. Olver. Okay. Well, actually, I was counting up the 
years, the first couple of years, and the most recent several 
years, and thinking, oh, how far back did that go, since the 
IG's report is a year old and they are saying that half--more 
than half of the reassignments went to overstaffed facilities? 
So I think that at least--at least for what is in--well, 
history starts with when I came on the committee. Pre-history, 
I don't really care that much about, but the history of it, to 
me, is what has happened in the last year. And if the 
assignments are--if the IG were to go back, what would the IG 
say about the assignments of personnel in this--under this 
program?
    Mr. Belger. I think they would----
    Mr. Olver. And the assignments in the last year?
    Mr. Belger. I think they would say that we have done a 
better job of assigning controllers who choose to stay with the 
FAA to the more critical facilities than we did in the first 
couple of years.
    Mr. Olver. Thanks, Mr. Chairman.
    Mr. Wolf. Mr. Sabo.
    Mr. Sabo. Nothing.

            national civil aviation review commission report

    Mr. Wolf. The National Civil Aviation Review Commission 
submitted its final report to you and Secretary Slater in 
December. What is the department's schedule for making formal 
proposals to the Congress based on it?
    Ms. Garvey. Mr. Chairman, we are in the final stages. As a 
matter of fact, we met with OMB yesterday about some of the 
elements of the proposals. So we expect to get that up to the 
Hill within the next few weeks. We are a little bit dependent 
on some of the discussions, obviously, within the 
administration with OMB, but we were very encouraged by their 
response yesterday. Our staffs are meeting, both from DOT and 
OMB, for them to understand some of the elements in a little 
more detail.
    I will tell you that one of the recommendations that came 
out of NCARC that I am particularly pleased about is the 
focused safety agenda. They encouraged us to take a hard look 
at all of those 450 recommendations, and we are very close to 
unveiling a safety agenda that I think will be very responsive 
to the work that that Commission did.
    Mr. Wolf. When will that be?
    Ms. Garvey. We are hoping in the first week in April. To be 
very honest, it is just about ready and we are trying to work 
people's schedules to make sure that we can have the right 
people there. But again, it is a very close collaboration with 
people in the general aviation community. We have talked with 
our colleagues at NTSB, though we recognize their independence 
in all of this, but wanting them to understand how we are 
thinking about the agenda and the approach we are taking.
    We have taken advantage of some of the data that Boeing has 
available, the safety data that is available, and we have made 
some very strategic decisions. We are really saying, let's take 
our resources and let's put them where they will produce the 
greatest benefits.
    The other challenge for us, and what we have not quite 
finalized but we will in the next couple of weeks, is what do 
we need to do internally as an organization to manage this 
implementation well? Do we need to restructure ourselves? I 
don't mean massive reorganizations, but within the regulations 
office, for example, within the certification office, do we 
need to think differently? Do we need to create something 
similar to Ray Long with the Y2K program, you know, a 
streamlined team with somebody who is clearly, you know, 
accountable and in charge?
    So we are asking ourselves some organizational questions, 
but I think we have made some very good progress that really 
responds to what NCARC is suggesting.
    Mr. Wolf. I think the more you make one person 
accountable----
    Ms. Garvey. Right.
    Mr. Wolf [continuing]. Because nothing fits into one 
category anymore.
    Ms. Garvey. Right.
    Mr. Wolf. The formal processes are no longer valid just 
about anywhere. Every time there is an issue up here, members 
from all different committees come together into task force to 
resolve things, because nothing fits into any one jurisdiction.
    I would urge the more you can make one person accountable--
--
    Ms. Garvey. Good advice.
    Mr. Wolf [continuing]. With a name and a face, I think that 
is certainly preferable.
    Secondly, I would urge you to make this announcement as 
quickly as you can and not wait for everyone's schedule. This 
is so important that you ought to probably do it by the end of 
the month, hopefully before Congress adjourns for the Easter 
break.
    Ms. Garvey. Good advice.
    Mr. Wolf. I think it would be good if it were done when the 
Congress is here so we could see it quickly and call you.
    Ms. Garvey. Very good.

                      off-budget treatment for faa

    Mr. Wolf. But I would not wait too long for schedules.
    In August of 1993, the final report of the commission to 
ensure strong, competitive airline industry, I think the 
Baliles Commission, said the FAA was severely limited by the 
ebbs and flows of the Federal budget process. They said the 
Federal budget process cannot be relied on to provide adequate 
continuing funds for FAA's operations or capital programs. They 
recommended an off-budget ATC Corporation to solve this 
problem.
    Similarly, the Review Commission said the federal budget 
process is crippling the agency and calls for an off-budget 
performance based organization, PBO. If Congress didn't agree 
in 1993, and there was a bipartisan opposition to the ATC 
Corporation, how is the PBO concept sufficient to overcome that 
opposition now?
    Ms. Garvey. That is a question we are asking ourselves, and 
we know that concept really faces an uphill battle. I must 
confess that I am not as familiar with the Baliles Commission 
Report as I am the NCARC, but I would make one distinction. The 
move towards user fees and a good, sound cost accounting system 
gets to how important that management tool is. If we can really 
understand what the services cost, we may be able to make a 
better case that user fees might allow us to have the kind of 
special budget treatment, removing ourselves from the budget 
caps that we have talked about.
    I know how difficult it is. I know when our colleagues at 
OMB look at the budget they have to look at all the 
discretionary programs. Every time you do something different 
for aviation or something different for surface, it has an 
impact to the rest of the budget. We are aware of that. We are 
looking at ways that we can keep it deficit neutral, which is, 
I know, of great concern to the Congress and great concern to 
the Administration. We have some ideas but that is really what 
we have to flesh out over the next few weeks. But, again, I 
expect this is going to not be an easy debate. It is one where 
I think we have to all put our best ideas forward and then talk 
them out fully and see where we end up.
    I will say, the issue of flexibility within the budget is 
one that I struggle a little bit with. We had the National 
Airport issue and we thought we wanted to try to move up the 
STARS program here at National. The difficulty sometimes in 
moving some of the budget numbers, we get great help from you 
and from your staff in sort of helping us through that maze but 
sometimes those are the challenges in terms of flexibility that 
make it a little more challenging.
    Mr. Wolf. Well, I personally favor giving you more 
flexibility any way we can. We have some questions with regard 
to the National STARS. But as we can, if you have any thoughts, 
I think the administrator needs flexibility.
    Ms. Garvey. Thank you, Mr. Chairman.
    Mr. Wolf. You can't be pigeonholed into one category.
    Do you believe the appropriations process has not been able 
to provide adequate and reliable funding for FAA?
    Ms. Garvey. I think this committee has been extraordinarily 
generous and Congress has been generous. I think the one issue 
might be to work a little bit more with you on the flexibility 
issue. I would welcome doing that.
    Mr. Wolf. Okay. We have a number of others on that which we 
will ask for the record.
    [The information follows:]
                  PERFORMANCE BASED ORGANIZATION (PBO)
    Mr. Wolf. Last year's budget proposed 9 new PBO's. How many of 
these were enacted by Congress?
    [The information follows:]
    To date there have been no PBO's approved by Congress.
    Mr. Wolf. How many new PBO's are formally included in the 
President's budget for fiscal year 1999?
    [The information follows:]
    The Administration is seeking to establish the following PBO's: 
Retirement Benefit Management Services (Federal Retirement and 
Insurance Service, Office of Personnel Management), Intellectual 
Property Rights (Patent and Trademark Office, Department of Commerce), 
Defense Commissary Services (Defense Commissary Agency, Department of 
Defense), U.S. Mint (Treasury), St. Lawrence Seaway Development 
Corporation (Department of Transportation), Seafood Inspection 
(National Ocean Service), Technical Information Dissemination (National 
Technical Information Service, Commerce), Mortgage Insurance Services 
(Government National Mortgage Association, Department of Housing and 
Urban Development), Mortgage Insurance Services (Federal Housing 
Administration, Department of Housing and Urban Development), and the 
Rural Telephone Bank (Department of Agriculture). The Administration is 
currently considering several other possible PBO candidates as well.
              COMPARING FAA'S GROWTH WITH INDUSTRY GROWTH
    Mr. Wolf. This view that we're heading toward ``gridlock'' because 
the Federal budget process cannot provide enough money for the FAA 
seems to miss some important facts. In fiscal year 1998, Congress 
provided an overall budget increase of 9.5 percent for the FAA (from 
$8.2 billion to $9.0 billion), yet by the FAA's own statistics, air 
traffic workload at your centers and towers is only going up between 1 
and 2 percent. If we approve your 1999 funding request, we will be 
providing another 6.9 percent increase, even though air traffic 
workload is only expected to grow by 1 or 2 percent. Is there any other 
element of the aviation industry where rates of budget growth far 
exceed the growth in workload, yet the experts still project disaster 
or ``gridlock''?
    [The information follows:]
    The comparison between growth in the FAA's budget and growth in 
center and tower activity is not a complete comparison since it 
excludes other cost drivers, both external and internal.
    Externally, for example, the comparison excludes our deferred 
capital investments in both airport improvements and in more modern, 
more efficient national airspace system equipment, both of which 
increase our funding requirements. In both cases, these investments, if 
we were a private company, would be expensed and depreciated over the 
life of the investment and not just in any one specific year. The 
comparison also excludes funding increases required to address the 
heightened security threat facing U.S. aviation, the public's desire to 
strengthen our regulatory and certification oversight, and the general 
globalization of aviation.
    Internally, the comparison fails to take into account mandatory 
Federal pay and retirement costs, both of which, given our large number 
of required staff, are quite expensive, easily exceeding the 1 to 2 
percent growth cited in the question.

                    aviation workload budget impact

    Mr. Wolf. Sometimes we hear that because the aviation 
business is doing well and more people are traveling, the FAA 
needs more money to keep up. But often these people are 
referring to the number of new passengers and new trips, which 
has little direct bearing on FAA's workload. As Mr. Belger and 
others have pointed out in past years, the FAA doesn't really 
move passengers; it assists in the movement of aircraft.
    As we review the FAA's workload estimates, wouldn't it be 
more accurate to look at the rate of growth, in aircraft 
operation, rather than just the number of passengers?
    Ms. Garvey. I think that is a fair question. I think some 
of that has been touched on by the modernization task force. 
And I know when some of the folks at the off-site kept 
reminding us that what we need to think about is the number of 
aircraft moved, number of operations. I think that is really 
the direction that we need--we need to head. I think that is a 
fair comment.
    Mr. Wolf. One FAA program is directly affected by increases 
in the number of airline passengers, and that is the AIP 
program, which Mr. Tiahrt mentioned, which funds grants for 
airports. The service requirements of the airports, and 
especially hub and connecting airports, are more closely 
related to the number of passengers, because each passenger 
uses those services individually. And yet the budget increases 
FAA funding in every program except airport grants. The 
operating account, F&E and RE&D all go up, but AIP remains 
flat. Why was that the case?
    Ms. Garvey. Again, I think it reflects the kinds of 
discussions that occur within the Administration when you are 
trying to balance a number of priorities. We felt the $1.7 
billion was a good, strong program. We know that there are 
certainly those that would like to see it higher. But, I think 
given the budget constraints and given the budget priorities, 
we were pleased. And I have to say, I believe the Secretary 
worked very hard within the Administration to make sure that 
that number stayed at that level.
    Mr. Wolf. And the committee----
    Ms. Garvey. It is not always easy.
    Mr. Wolf. The committee, as you know, went up from $1 
billion last year to $1.7.
    Ms. Garvey. We appreciate that, yes.
                              NCARC REPORT
    Mr. Wolf. NCARC was especially critical of the way the 
Appropriations Committees place a priority on funding for FAA 
operations instead of capital programs. They accurately note that F&E 
funding has declined in the 1990's. However, the four year decline 
between fiscal year 1993 and 1996 has all but stopped, and your 1999 
request represents a large increase of 13 percent--a rate not seen 
since 1992. This request you submitted is part of the ``federal budget 
process'' so criticized by NCARC. Do you believe a budget process 
leading to a 13 percent increase is really unable to provide the FAA's 
modernization needs?
    [The information follows:]
    While the President's Budget requests a 13 percent increase in 
funding for modernization, that request has not yet been enacted by 
Congress. However, the FAA interprets NCARC's commentary as relating to 
two larger questions: (1) can the current system provide adequate 
funding each year to five, ten or more years, and (2) should funding 
for airspace modernization be subject to the political vagaries 
associated with the current federal budgetary process or instead should 
be subject to market and business forces whereby the users of the 
system determine what is needed, when it is needed, and how best to pay 
for it.
    Mr. Wolf. The NCARC report says ``the money problem that faces the 
FAA is an inability to access the revenues collected for its use.'' But 
this ignores the fact that the general fund is contributing more to 
finance FAA operations than it should. Isn't this similar to the 
situation in highways, where those who claim the highway trust fund 
cash balance is subsidizing other programs turn a blind eye to the 
substantial contribution to highways from the general fund?
    [The information follows:]
    No. The NCARC report explicitly recognized the general fund 
contribution and recommended its continuation. It is our belief that 
the NCARC's statement on access to revenues collected for aviation use 
relates to amounts in addition to the general fund contribution.
                       TRUST FUND PENALTY CLAUSE
    Mr. Wolf. Last year, this committee recommended taking more money 
from the trust fund for FAA operations, but the Chairman of the 
Transportation and Infrastructure Committee stripped those funds out on 
the House floor, requiring us to use general fund money instead. Isn't 
it true that we would have significantly more access to aviation 
revenues if the legislation cap on the trust fund share of FAA's 
operations--the so-called ``penalty clause''--were lifted?
    [The information follows:]
    Yes, it is true that there would be increased access to the trust 
fund revenues if the ``penalty clause'' was lifted. This by itself will 
not provide the FAA with the financial flexibility that NCARC 
recommended, and the FAA believes is necessary to move the agency into 
the 21st century.
                             TRUST FUND CAP
    Mr. Wolf. Lifting this cap to allow at least 80 percent of the 
FAA's operating budget to be derived from the trust fund would open up 
access to the trust fund and spend down more of the fund balance. It 
would also show aviation users that the government did not impose 
billions in new taxes last year just to watch them build up in the 
trust fund. Such a move has been supported by FAA and DOT in past 
years. And it would appear to address one of the NCARC's criticisms. Is 
the administration prepared to make that recommendation?
    [The information follows:]
    The Administration has proposed in its 1999 budget, that by FY 
2000, all FAA programs receive funding from the trust fund.

              AIP FUNDING FOR SMALL OR MID-SIZED AIRPORTS

    Mr. Wolf. Have you looked at directing more AIP funding 
toward small or mid-sized airports versus the large ones, which 
have PFC's.
    Ms. Garvey. We have. We actually spent a good deal of time 
yesterday, because we are looking at the AIP. I just actually 
stopped a couple of the folks from the airports organization as 
we were coming in, saying: I would like to talk with you a 
little bit about some of the ideas. I mean, our goal is, how 
can we perhaps give more to the small and medium sized 
airports?
    I know that the Secretary talks about aviation as kind of 
the mass transit of the 21st century. When you think of it in 
those terms and when I listen to someone like Linda Barker, who 
was on the NCARC, who comes from, a Midwestern state, then we 
really do understand how important those small and regional 
airports are. We are looking at ways that we might be able to 
give a little boost to them. I want to talk through some ideas 
with some of the airports people, hope we are heading in the 
right direction.
    Mr. Wolf. They are happy with the direction that they think 
you are moving in?
    Ms. Garvey. We need to talk with them a little bit more. We 
have just really begun those conversations in earnest with 
them. Some of them are their ideas, though, so I hope they will 
like them.
    Mr. Wolf. They will like them?
    Ms. Garvey. Yes, sir.
    Mr. Wolf. We will ask other questions for the record.

                  PERFORMANCE-BASED ORGANIZATION (PBO)

    Mr. Wolf. In last year's budget, PBO's are described as 
``discrete units of a department that commit to clear 
management objectives, measurable goals, customer service 
standards, and specific targets for improved performance. Once 
designated, they would have greater personnel and procurement 
flexibility and competitively-hired CEO's.'' With the exception 
of the CEO position, which elements of this could the FAA not 
implement on its own without becoming a PBO, based on the 
flexibility we gave you 2 years ago? What is stopping you?
    Ms. Garvey. Actually, there is a great deal that we can do 
and the cost accounting system will be a good tool to help us 
in that direction. The one thing the legislation might offer us 
is the flexibility on the budget side. And I think that is 
really the piece that enhances the program, if you will, but 
you are absolutely right. Short of that, personnel reform, 
acquisition reform, the ability to set up performance standards 
is something that we can do and we will do. We will definitely 
be moving towards that, even as we are discussing legislation.
    Mr. Wolf. The Aviation Commission recommended that as part 
of the PBO concept the FAA be able to hire a chief operating 
officer. This officer would be the top managerial officer in 
the air traffic side of the agency, would be nonpolitical--you 
are nonpolitical, aren't you? [Laughter].
    Ms. Garvey. That is--absolutely.
    Mr. Wolf. All right. That official could be paid as much as 
$199,000, with bonuses. Given the broad flexibility provided in 
personnel reforms, is there any legal authority preventing the 
FAA from doing that today?
    Ms. Garvey. There is not. We could do that. We have 
actually talked about that idea. I will tell you that we are 
very focused right now on this sort of early phase of 
modernization. How should we organize internally--recognizing, 
as you have said, that many of these issues cut across a number 
of lines of business, how should we organize for a Free Flight 
Phase 1? I want to do that first, but I think the issue about 
whether or not we have a COO for the air traffic control 
operation is one that we will be looking at and we will 
discuss.

                      PBO CHIEF OPERATING OFFICER

    Mr. Wolf. The PBO concept would have a chief operating 
officer which reports to a newly-created governing board of the 
organization. The individual would oversee the day to day 
operation of activities encompassing about three-quarters of 
the FAA staff and three-quarters of its budget. They would be 
paid one-third more than the FAA Administrator. On the other 
hand, you would still have an FAA Administrator reporting 
directly to the Secretary of Transportation on policy and 
budget matters.
    Does this type of structure raise the possibility of 
divided leadership and a power struggle at an agency?
    Ms. Garvey. Well, that is certainly a--that certainly would 
not be the desired outcome and that certainly is a fair 
question.
    We have looked at the issue about the board that the NCARC 
has suggested. We are still thinking that through. I have to 
say, there is a division of opinion within the administration 
as to whether or not creating a board with a COO, even though 
you still have the Administrator. I think NCARC does suggest 
that the Administrator also serves as the chairman of the board 
and that may reinforce the position of the Administrator. I 
think you could have a chief operating officer. I think, again, 
so much of this depends on who are the personalities, who are 
the people in those positions. As you said earlier, I have a 
good relationship with the Secretary. That may not always be 
the case.
    Mr. Wolf. Well, that is the problem. That may not always be 
the case, and it really hasn't always been the case. If you 
believe some former Administrators who have come up, that has 
not been the case. They have seen things and they have wanted 
to do them, but they have had a very difficult time because it 
has all been involved in a political realm.
    Ms. Garvey. Yes.
    Mr. Wolf. And while your job technically, I think, is more 
or less political, it is a political job but much less so, the 
Secretary's job is very much political. And having worked for a 
cabinet officer, I know they spend a lot of time going out and 
making speeches and representing the administration.
    Ms. Garvey. The administration.
    Mr. Wolf. That is why my own sense is it would be better to 
have an independent FAA. You have a great relationship, but the 
next Administrator may not.
    Ms. Garvey. Yes.
    Mr. Wolf. I think, institutionally, you have to prepare for 
that.
    Ms. Garvey. I do think, if you established a charter that 
was very clear on what the responsibilities of the COO were, 
what the responsibilities of the board were, and that they did 
report to the Administrator, it would deal with the issue that 
you said, which is creating too much of a balkanized situation. 
There is a wonderful challenge at the FAA that is so large and 
the issues are so complex, that you want to have the right 
management team. You also want to have clear responsibility. 
You want to have clear leadership structure. So I understand 
the dilemma and I understand what you are saying. I think the 
challenge would be to make sure that it is very clear in the 
charter that sets up what the responsibilities of each of the 
entities would be.
                    REVENUE AND EXPENDITURE LINKAGES
    Mr. Wolf. NCARC makes the point that there should be a direct 
linkage between funds paid for use of the system and the service 
provided to those users. This would presumably create ``prices'' for 
aviation services similar to a free market environment. However, the 
NCARC didn't apply the same standard to government users of the 
aviation system, for their legislation proposes a $600 million 
mandatory appropriation every year, out of the general fund, to cover 
government use of the aviation system. This payment is made regardless 
of the government's use of the system. Given the business-like, ``user 
pays'' principle that NCARC was trying to encourage, do you know why 
they suggested this fixed, mandatory appropriation?
    [The information follows:]
    NCARC's recommendation to establish a direct link between funds 
paid for use of the system and the service provided to the users, is a 
mechanism to allow users to pay for only those services that they use. 
Fees would be set to recover only the cost of providing the service. 
Such a system would mimic the economic efficiencies of a free market 
and ensure that users pay only for the cost of providing the service 
that they actually consume. Aviation users and the FAA would benefit 
from a more efficient air traffic control system. The mandatory 
appropriation of $600 million was a projection based on data available 
at the time of the actual annual cost of providing air traffic control 
services to government use operations. Under the NCARC recommendation, 
future year adjustments could be made in appropriation requests to 
reflect the actual cost of providing these services to the government.
                   GOVERNMENT USE OF AVIATION SYSTEM
    Mr. Wolf. Since government use of the aviation system is obviously 
a discretionary activity, is there any reason why such an appropriation 
should be mandatory?
    [The information follows:]
    Under the NCARC proposal, this mandatory payment for government use 
of the air traffic control system would be in lieu of a user fee. 
Presumably the NCARC believed that, in a user fee-financing 
environment, there would need to be a direct link between the costs 
that government aircraft impose on the FAA and the amount of funding 
provided to the FAA to cover those costs. The absence of such a direct 
link would run the risk that the FAA would either under-recover of 
over-recover its costs in any given year. A mandatory payment is one 
way to ensure that funding equals costs.
                             SAFETY AGENDA
    Mr. Wolf. On the safety side, NCARC said a prioritized safety 
agenda is needed. What are you doing to develop such an agenda, and 
will it be specific enough to track performance?
    [The information follows:]
    The FAA Administrator, in October 1997, made a commitment to 
develop a safety agenda for the next five years that would concentrate 
the agency's efforts on accident prevention.
    The safety agenda is being developed in cooperation with the 
various elements of the aviation community. This is consistent with the 
NCARC report, which concluded that the currently high level of aviation 
safety and the ``maturity'' of safety issues require a new relationship 
between the FAA and the aviation community. The new relationship must 
accelerate and build on government/industry partnerships in which 
government and industry jointly dedicate resources to analyze new and 
shared data, and then jointly identify top safety issues.
    Specific initiatives will be identified for each element of the 
agenda. Each initiative will be supported by a business plan that 
includes measurable milestones and other performance indicators to 
permit the agency to track accomplishments. As progress is achieved on 
various initiatives and as additional analyses identify new issues, the 
agenda can be changed leading ultimately to measurable progress toward 
NCARC's goal of a five-fold reduction in the fatal accident rate.
                           Safety Task Force
    Mr. Wolf. They also recommend that FAA's safety programs become 
more performance oriented, with measures of performance developed and 
used to hold the safety organizations accountable. This is similar to 
an idea I wrote you about recently--creating a Safety Task Force to 
develop a measuring ``yardstick'' for your safety programs. What do you 
think of that idea?
    [The information follows:]
    The FAA enthusiastically embraces your idea. In fact, we have done 
this informally with the NTSB, GAO, OIG, and several other groups to 
promote ways we could work together. Formalizing this idea of safety 
metrics would be very helpful yet very challenging. It would be 
extraordinarily helpful for the FAA to be able to talk to a group with 
the expertise of a ``safety task force'' and FAA would work closely 
together with these entities to accomplish this goal.

                         airline safety records

    Mr. Wolf. The commission said the FAA's international 
safety activity should be expanded because, as they point out, 
the accident rate in Eastern Europe, Russia, Asia, Latin 
America and Africa are many times greater than in the U.S. and 
Western Europe. What specific activities can be expanded to 
meet the goal? And would it not be a good idea to publish the 
safety records of foreign air carriers? The number of Americans 
who are flying around the world is increasing, whether it be in 
Azerbaijan, Armenia, the former Soviet republics, or Asia. If 
you noticed the Indonesia aircraft--I think there were four or 
five Americans on that plane when it went down. Would it not be 
a good idea to publish the safety records of the international 
air carriers, particularly in countries where their standards 
may not be up to ours, China for instance, so that individuals 
who are going to that country would know the potential risk?
    If you recall during the Pan Am situation, there was an FAA 
notice, but it was only available to employees.
    Ms. Garvey. That is right.
    Mr. Wolf. That was not made available to the traveling 
public. Should we not publish that, perhaps on the internet, 
that everyone could access? If your son or daughter was 
traveling to a remote region of the world, or if you were going 
there on a business trip, you would be able to know what the 
safety record of a particular airline was.
    Ms. Garvey. Well, let me start with what we are doing with 
ICAO and then go to the second part of the question that you 
raised. The issue about the the safety standards with the 
international community is a very serious issue. When you look 
at some of the data, for example, that Boeing has, it is rather 
chilling to see where the accidents will be and where they will 
occur. And it is clearly less of an issue here than it is in 
some of the foreign countries.
    We have worked very, very hard with ICAO. I spent a good 
deal of time at a meeting in Montreal last month with all of my 
counterparts from around the world, and the whole focus of the 
conference in Montreal was safety oversight. It was an 
exploration both of what we do internationally, with our teams 
going in to do assessments. It was also a very strong clarion 
call, if you will, for ICAO to get even more actively involved 
in this, for ICAO as an organization to go in and work with the 
international countries. And really I found that the leaders of 
those countries wanted the help. They want to have the right 
kind of safety record. So it really seems, to us, to be a 
combination of both the teams that we have in place, that we 
send out there to do assessments. Then also, ICAO is building 
up its own forces, I know that is one of the issues that the 
Secretary has talked briefly and informally to World Bank and 
other organizations. They have done wonderful work on the 
surface side, but he has raised the issue about whether or not 
there is more that they could do, and we could do together, on 
the aviation side to particularly focus on the safety issue.
    The second part of your question--and by the way, we are 
having another meeting in the fall, in Montreal, with the same 
leaders of each country. The agenda will be broader than safety 
but the issue of safety and a follow-up to the March 
conference, will be very much discussed and very much part of 
the conference.
    The second part of your question concerns the internet. As 
a principle, I think the more information that we can give 
consumers, the better off we are and the better off the 
consumer is. I know the issue of how we rate them and what kind 
of information we put on the internet, can be complicated. Let 
me get back to you with something a little more specific. I 
think that is a fair question and one we ought to be able to 
give you a good answer on. I will tell you my one hesitation is 
that I know I have been working on this same issue on the 
Senate side of the Congress, and there have been difficulties 
in trying to rate airlines, for example, because it becomes 
much more complicated when you actually get the information up 
there. We have been looking at other ways to do it.
    For example, most airlines have a very high ranking safety 
officer in the airlines. One of the thoughts we had yesterday 
is what about putting that information on the Internet, letting 
folks know which of the airlines has a very high ranking safety 
officer that have a very well thought out safety program, more 
of a positive kind of approach. So let me get back to you on 
the international. I know we have done some of that by the 
Secretary's notices that I have often seen about places where 
you should not fly because of security issues. Let me see what 
we have done on the safety side and see if there is more we 
should be doing there.
    [The information follows:]

    We are working with all the member nations of the International 
Civil Aviation Organization (ICAO) to attempt to greatly expand the 
volume, quality and public disclosure of safety oversight inspections 
and reports around the globe. Essentially, we are attempting to get 
ICAO to do on a worldwide scale the same kind of safety assessments 
that the FAA currently does in those countries whose air carriers 
serve, or seek to serve, destinations in the United States.
    Until recently, however, the concept behind ICAO's program has been 
that it should be purely voluntary (i.e., member states are inspected 
only if they request it), and confidential (i.e., the final report of 
the assessment is provided only to the state that was inspected, with 
no useful information ever disclosed to other states or to the public). 
In addition, the timeliness of reporting and of developing corrective 
action plans has been uneven. The program remains totally dependent for 
funding from member states' voluntary contributions.
    In November of last year, FAA participated in a worldwide 
conference of all directors General of Civil Aviation (DCCA) at ICAO 
Headquarters in Montreal to address the single issue of how to make 
this program more effective. We hope that the result will be an ICAO 
inspection program that is mandatory; open to disclosure of meaningful 
inspection results to all member States and thence to the public; 
timely in its reporting mechanisms and in development of corrective 
action plans; and supported by stable funding within the Organization's 
regular budget. In conjunction with ICAO, we are also exploring the 
potential to expand this concept of enhanced, international assessment 
programs to the areas of air traffic control and security. We will 
aggressively pursue these areas once it is demonstrated that a model 
safety assessment program with stable funding can be effectively 
implemented by the organization.
    In addition to expanding the scope of international safety 
assessments, we are also working on a variety of other safety 
initiatives with global impact. For example, the FAA has been leading 
in the international development of the Global Analysis and Information 
Network (GAIN), a worldwide infrastructure to collect, analyze, and 
disseminate aviation safety information. Careful analysis and sharing 
of such data may help identify key incidents, factors and trends, and 
could thereby aid in preventing accidents before they occur. We are 
also supporting the increased carriage of airborne collision avoidance 
equipment; the implementation of satellite-based approach procedures to 
provide better and safer terminal navigation; and we are involved in a 
research project to determine ways to improve English language 
proficiency among the world's air traffic controller force. These are 
only a few of the areas in which we are attempting to expand our safety 
activities.
    FAA currently provides, via the Internet, accident/incident data, 
near mid-air collision reports and other safety information for foreign 
air carriers where those events occur in US airspace. Information on 
FAA's safety assessments of foreign civil aviation authorities, 
including their ability to provide effective safety oversight of their 
national air carriers, is also provided via the internet. The 
information can be viewed under the heading ``Aviation Safety 
Information'' on the FAA's homepage (www.faa.gov).
    More specific accident/incident and other safety data on foreign 
air carriers are not consistently available and are not sufficiently 
comprehensive for meaningful analysis. In addition, reporting systems 
in some states are not precise, and normalizing data (hours flown, 
departures, etc.) needed to make instructive comparisons are often not 
available. As a result, determinations about the level of safety of any 
particular air carrier based on the information and sources currently 
available would be suspect.

                      spare parts--airline safety

    Mr. Wolf. Well, we have had trouble in this country on 
spare parts.
    Ms. Garvey. Yes.
    Mr. Wolf. You have a suspected unapproved parts office out 
at Dulles Airport, which I have visited. Domestically we have 
had problems. Clearly there are problems in other nations, and 
I don't think it is asking too much. We don't have any 
regulatory control--and I am avoiding commenting on a whole 
series of countries. We don't have regulatory control in this 
country, but to provide the American taxpayer----
    Ms. Garvey. It is an issue.
    Mr. Wolf [continuing]. The opportunity to know what their 
safety record is, I would venture to guess, and I have no way 
of proving this, but I suppose there are FAA employees who are 
taking trips around the world that may joke ``Well, I am going 
to X country and the safety record is very''--and joking about 
it, because I have had different FAA employees comment about 
it.
    If they know information that in certain parts of China or 
certain parts of whatever country that there is a potential 
safety problem, we cannot prohibit, nor should we, Americans 
from flying there--and I give a lot of credit to American 
government employees who many, many times have to fly to places 
like that. If you recall, the American Ambassador in Russia, 
Mr. Pickering, who is now the Under Secretary of State, put out 
a travel ban----
    Ms. Garvey. That is right.
    Mr. Wolf [continuing]. For American employees in the 
American embassy in Moscow with regard to flying some of the 
airlines outside of Moscow. I think for a while there was a 
total ban. Well, if there was a total ban for American 
employees in Moscow, I think at the least we owe it to the 
American citizen, who is going to go to that country, going 
down to Chechnya, or going down to Azerbaijan, or going to 
wherever, to know what the safety record of the airline going 
there is. Then he or she can make that choice, can make that 
judgment.
    Many are going there for business and have to go, but 
others might be able to perhaps change. If you were flying to a 
certain country, maybe Lufthansa also goes in there 3 days a 
week, so you can adjust your schedule to go in that time. Maybe 
Delta is going in 2 days a week where the domestic airline is 
going in 7 days a week. But I really think we have to provide 
that information to the American taxpayer. They deserve to have 
the same information that the people at the FAA have.
    So ICAO is good, and I think the more we can encourage, the 
better. But in some countries, the level of corruption is very, 
very high. They may say let's take this unapproved spare part, 
let's just put it in, let's just see what happens, and I think 
if you could assemble for the committee a record of foreign 
airlines and their safety record, just so we could distribute 
it to the other Members to have, it would be helpful.
    Ms. Garvey. Okay.

                      english language proficiency

    Mr. Wolf. One element of the expansion with regard to 
safety might be to improve English language proficiency around 
the world. We saw in the Cali, Colombia, crash how it can 
contribute to an accident. The Acting Administrator told us 
last year that inadequate proficiency in English was a ``great 
concern of ours.'' And FAA's representative to the 
International Civil Aviation Organization wrote last year ``the 
FAA feels that fluency in the English language is a significant 
aviation safety issue''. Because of this, the committee added 
$500,000 last year for FAA to address this issue in an urgent, 
focused way. Yet I understand these funds still have not been 
obligated and the plan to do so is mostly a long-term research 
in the U.S. rather than outreach overseas. Could you explain 
the FAA's plans with regard to this money?
    Ms. Garvey. Mr. Chairman, I think when the FAA first 
started on this undertaking the emphasis was much more as you 
suggested on research. In talking with your staff and in 
reevaluating it ourselves, we understand very clearly that the 
real need for this is in field testing; let's get something in 
place that can be used. So we have shifted our focus, and I 
think rightly shifted our focus, to be much more field driven. 
Working again with ICAO and working also with the NTSB, we are 
developing standards right now. We are developing a training 
program that could be used with our international counterparts 
and also could be something that the NTSB has expressed an 
interest in as well.
    Mr. Wolf. How many aviation accidents were there, 
fatalities involved, that we believe took place because of 
language problems?
    Ms. Garvey. I don't know, Mr. Chairman, but I will find 
out. I would expect it is a number that would surprise me.
    [The information follows:]


[Page 277--The official Committee record contains additional material here.]



    Mr. Wolf. And yet there are no funds in the budget this 
year for that.
    Ms. Garvey. My understanding is we are going to use the 
$500,000. I see what you mean in the '99 budget, that is fair.
    Mr. Wolf. This year. I can still remember seeing the 
recording of the Avianca flight coming in to Kennedy, with 
regard to the fuel, and that was a language problem. Those 
people should still be alive today.
    Ms. Garvey. Right. I will double-check on this. I would 
believe anyway that as part of our safety agenda, one of our 
key pieces is going to be the whole human factors issue. It 
would seem to me that we might be able to fold this into our 
human factors element of the agenda, but let me find out to see 
if there is a way. Even though we don't have specific funds in, 
using the monies that we have and shaping the agenda that we 
have, can we use it that way? And I will follow-up on that.
    [The information follows:]

    We have worked diligently with the National Transportation Safety 
Board (NTSB) and ICAO in addressing foreign language misunderstandings. 
This past week I received a letter from Mr. Jim Hall, Chairman, NTSB, 
thanking us for our response to a 1996 NTSB recommendation on this very 
subject. The NTSB had recommended that we develop, along with air 
traffic authorities of the member states of the ICAO, a program to 
enhance a controller's fluency in common English language phrases and 
interaction skills sufficient to assist pilots in obtaining situational 
awareness about critical features of the airspace, particularly in non-
radar environments.
    We worked closely with the Secretary General of ICAO to develop 
such a plan and in November 1997 the Air Navigation Bureau (ICAO) 
issued a draft task statement that set forth a plan for ICAO to carry 
out a program to complete a comprehensive review of the existing 
provisions concerning all aspects of air-ground and ground-ground voice 
communications in international civil aviation, aimed at the 
identification of deficiencies and shortcomings. We continue to work 
with ICAO regional planning groups to accomplish these tasks.

                            strategic goals

    Mr. Wolf. Fine. Mr. Olver, Mr. Sabo? Okay.
    Mr. Olver. Mr. Chairman, I would, if you would allow me.
    Mr. Wolf. Certainly. Yes.
    Mr. Olver. I have a couple of things. I am curious, Mrs. 
Garvey, how nonpolitical could you be if your pay were to 
increase to $199,000?
    Ms. Garvey. Well, let me just say, Congressman, when I am 
in Amherst, I will be political but that could be pretty 
compelling.
    Mr. Olver. This discussion along these lines, by the time 
you have gone through for a while, we range over so many 
different issues of the FAA's operations that I lose track of 
what really the--this performance based organization, what its 
real goals are. And clearly, the Department of Transportation--
has a strategic performance plan and believes in having each of 
its agencies having a set of goals, and I wonder if you could 
give me just what your sense is of the goals for this year for 
the FAA, so that I can come back and make a list of them and 
then be able, as we are going through this, to at least 
categorize things of what is really important. I mean, not that 
anything that we are talking about is not important, but rather 
to see where they fit with what you are really trying to 
achieve here in this year.
    Ms. Garvey. Congressman, let me say at the outset that when 
I first came to the FAA we had 9 strategic goals and we talked 
a lot about that. And I really urged and encouraged people to 
scale that down so that we have no more than three to five. We 
have three major strategic goals, three areas that we are 
really focused on. It's safety, it's security and it's system 
efficiency. And in each one----
    Mr. Olver. And modernization then falls under?
    Ms. Garvey. System efficiency.
    Mr. Olver. Okay. So those really are, as in your testimony, 
in giving--I missed the earlier testimony but I have in the 
meantime managed to read it and I wondered if that was what you 
would say, and so I should guide that then by whatever you said 
if we are talking about modernization or that is part of the 
efficiency aspect?
    Ms. Garvey. That is right, Congressman. And so all of the 
action items that we have developed with ourselves within our 
own strategic plan and then forwarded to the Department can be 
categorized under each one of those areas.
    Mr. Olver. So your commitment as you put it--the emphatic 
yes to the Y2K process and this issue of June, that is part of 
the efficiency aspect and so virtually everything then related 
to that and STARS, and so forth, falls in that category?
    Ms. Garvey. That is right, Congressman. STARS and DSR 
really are the foundation for all of the automation tools that 
will follow. The building blocks that we have talked about with 
industry for modernization, that is all system efficiency. When 
we talk about rulemaking and ground proximity, enhanced ground 
proximity, when we talk about taking on some of the human 
factors issues and developing some of the training programs 
that are needed, that falls under the safety agenda. When we 
talk about the explosive detections and the canine teams that 
are at the airports, that is under the security issue. I am 
trying very hard because in a public arena it is always more 
difficult to keep your agenda focused. There always are things 
and pulls that you are not anticipating. We have to be flexible 
and ready for that. I think at the heart of what we do we have 
got to be very focused and very clear about what we expect to 
accomplish.

                               year 2000

    Mr. Olver. I must say in several of the earlier periods--
hearings that we have had thus far this year, we have talked on 
several occasions about the K----
    Ms. Garvey. Y2K?
    Mr. Olver [continuing]. The Y2K problem, and I have been 
very skeptical about whether that could really be done. And I 
must say I have some better feeling about that process by--the 
way you put it and the way you have--approached this----
    Ms. Garvey. Thank you.
    Mr. Olver [continuing]. Problem, and the way you approach 
your whole administration.
    Ms. Garvey. Thank you, Congressman. I hope we will not 
disappoint you.

                            pay and benefits

    Mr. Wolf. On pay, pay and benefits, the Coopers & Lybrand 
study said, ``Perhaps most important, the FAA's single most 
significant cost element, pay and related costs, continues to 
grow at significant rates . . . This area needs significant 
attention . . . As the FAA begins to implement personnel reform 
as well as negotiations with its unions . . . there must be 
substantial reform.''
    Do you expect that your labor negotiations will result in 
containing these costs, as Coopers said?
    Ms. Garvey. I hope it will. I think the labor negotiations 
are going very well. I mean, I have heard that from both the 
labor side and the union side. We really have everything on the 
table. I think every idea that the unions have put forward are 
being fully discussed by the management team. I know that every 
idea that the management team is putting forward, the union has 
said they will discuss and look at very carefully.
    Our position is that it must be budget neutral, so we 
really have to find the efficiencies in other places. And it is 
a challenge, but I hope that it will have the right kind of 
results and the productive kind of results and what is good for 
our employees as well.
    One of the points I have made with the unions, and--I will 
say, the opening day of the union negotiations, the Secretary 
joined me in meeting with both teams in saying how very 
important this is. This is really a critical thing we are 
asking people to do and they are giving up a lot of personal 
time. But it is very, very important that we treat our 
employees fairly and we treat them well. One of the challenges 
for management is that while we are dealing with the unions, we 
also have to deal with all of the other employees that may not 
be part of the unions as well. So it is an enormous challenge 
to balance all of those interests.
    [Additional information follows:]

    Yes. We have stated that we expect the labor negotiations 
to be budget neutral. We are actively engaged in discussions 
with the unions on productivity issues and are optimistic that 
we will be able to achieve productivity gains in a number of 
areas.

    Mr. Wolf. When do you hope to conclude the pay 
negotiations?
    Ms. Garvey. I am not sure when it will conclude. They are 
finishing up a second week and they have gotten through a vast 
number, I think it is about 50 or 60 of the articles, many more 
than they thought they would. Clearly the ones that are going 
to be the toughest will be the pay ones and we all keep hoping 
that it will be this spring. I have been told that in the past 
it can go on for years. But I think a lot is going to depend on 
how well these two weeks go. Iknow they will take a break for a 
period and then come back again after--I believe it is after Easter.

                      air traffic staffyear costs

    Mr. Wolf. Is it true, as Coopers said, that air traffic 
average staffyear costs rose 18 percent, to $84,341, between 
1993 and 1996?
    Ms. Garvey. I am not sure about those exact numbers and I 
would like to check. My guess is it is probably right. Monte is 
suggesting that it is.
    Mr. Wolf. Okay. The next we will just do for the record, 
and we have a whole series with regard to the negotiations.
    [The information follows:]

    We cannot determine how Coopers and Lybrand arrived at the 
staffyear cost of $84,341 or the 18 percent increase. While the exact 
figures depend on what costs are included in the staff year cost, the 
increase from 1993 to 1996 is approximately 16 percent.
                               FTE COSTS
    Mr. Wolf. According to FAA data provided last year, the average 
staff year cost at the agency is estimated at $85,300 for fiscal year 
1998 (p. 423). This is the approximate cost for a Coast Guard or Navy 
captain or an Air Force Lieutenant colonel--senior military officers. 
Yet most of your workforce is performing non-executive, non-managerial 
duties. Is your agency-wide FTE cost appropriate, compared to other 
federal workers?
    [The information follows:]
    Yes. To date, in determining pay for our employees, we have used 
classification standards published by the Office of Personnel 
Management and we believe our FTE costs are appropriate for the mission 
our agency is charged with carrying out. FAA employees are highly 
skilled, well trained, and perform very exacting and demanding work in 
furtherance of aviation safety and the movement of airplanes throughout 
the country. Much of the work is performed in a real-time environment, 
where there is little margin for error.
                   BUDGET NEUTRAL COMPENSATION SYSTEM
    Mr. Wolf. In a question for the record of last year's hearing, the 
FAA states ``it is one of our primary objectives of the new 
[compensation] system that it will ensure fiscal responsibility and be 
budget neutral for the FAA as a whole.'' (p. 339). Since I understand 
there are no funds in the fiscal year 1999 budget for a new 
compensation system, can I assume it is the FAA's current position that 
the new compensation system will not only be budget neutral for the 
agency as a whole, but offset within the operating account?
    [The information follows:]
    Yes. Fiscal responsibility is a basic tenet of the new compensation 
system.
                            PAY NEGOTIATIONS
    Mr. Wolf. What is the status of the pay negotiations, and when do 
you hope to conclude them?
    [The information follows:]
    The agency is actively engaged in discussions on new pay systems 
with our two largest unions, National Air Traffic Controllers 
Association (NATCA) and Professional Airways Systems Specialists 
(PASS). These negotiations are integrally related to the larger 
negotiations of new, comprehensive collective bargaining agreements. We 
anticipate completion of the negotiations with NATCA to occur in the 
next several months. PASS negotiations should be concluded in late FY 
1998 or early FY 1999.
    National Association of Air Traffic Specialists and National 
Association of Government Employees accepted our January 1998 pay 
increase offer, which mirrored the one established by the President for 
other Federal employees. Neither union has submitted any compensation 
proposals to the agency.

                   union negotiations on compensation

    Mr. Wolf. The 1996 reauthorization laid out specific 
procedures for FAA to follow in mediating this agreement, if 
you get to that point. On what date would you intend to submit 
outstanding compensation articles to the Federal Mediation and 
Conciliation Service for assistance, or later to the Federal 
Service Impasse Panel, should that become necessary?
    Ms. Garvey. I would have to talk a little bit more with the 
negotiating team to see what the date is. I think we are hoping 
that we will not have to reach that point. I think our goal is 
to try to resolve them with our management and union teams.
    Mr. Wolf. Well, we hope that is the case. The act requires 
that if all else fails, and I am sure hopeful that it won't, 
you are to submit your proposal, along with union objections, 
to the Congress. While Congress is not required to act on the 
proposal, you are prohibited from implementing your proposal 
until 60 days after it is submitted to Congress. Obviously, if 
it comes to that, there would be a lot of pressure for Congress 
to get involved. With the situation as it stands today, what do 
you think is the probability that this will be sent to Congress 
for resolution? Do you think it will be very low?
    Ms. Garvey. I would say today it is low. I mean, I think 
really the kind of cooperation on both sides, I think, has been 
very promising. So I would still remain optimistic that that 
will not be the case.
                            PAY AND BENEFITS
    Mr. Wolf. The controllers union estimates that their compensation 
proposal would cost the agency approximately $300 million a year more 
than the current system. Could you give us the details of their 
proposal, and tell us whether you agree with the estimated impact of 
$300 million?
    [The information follows:]
    The National Air Traffic Controllers Association's compensation 
proposal stated that the proposal's cost estimate was $400 million, 
with a projected $100 million offset through cost savings, that would 
result in a net increase to the FAA for bargaining unit employees of 
$300 million. We expect that the cost to the agency could be 
significantly higher, if adopted, because of differences in potential 
cost savings, variability in costing assumptions, and costs impacts 
associated with related supervisors, staff, and managers.
    Mr. Wolf. Have you received cost-increasing proposals from your 
other unions as well, such as the maintenance union (PASS)?
    [The information follows:]
    Yes, we received a proposal from PASS for an increase of 6.66 
percent each year for all bargaining unit employees during the period 
of the FAA and PASS Agreement. This would provide a 20 percent net 
increase during the 3 year period that the contract is in effect. Their 
proposal kept intact all incentive pay provisions.

    Mr. Wolf. There was a rumor that the controllers union was 
seeking a change in the process to submit binding outside 
arbitration results to Congressional review rather than a third 
party mediation, as is currently the case. Would you explain 
that proposal, and do you support it?
    Ms. Garvey. I am sorry. I am not fully aware of that issue.
    Mr. Wolf. Can you look into it?
    Ms. Garvey. I certainly will. I certainly will, 
Congressman.

                                benefits

    Mr. Wolf. The next series deal with those issues. We will 
just submit them for the record, the whole series with regard 
to the benefits and different things like that.
    [The information follows:]

    Under the union's proposal, all impasses over matters covered by 
personnel reform, including pay, would be submitted to the Federal 
Services Impasses Panel for binding resolution. Generally speaking, 
binding arbitration is a widely used method for resolving bargaining 
impasses. However, the use of arbitration creates potential budgetary 
conflicts from a decision that exceeds the agency's appropriation.
    In informal discussions, NATCA has indicated that it is not its 
intention for pay issues to be submitted to arbitration. However, the 
language of the proposed amendment does not support such an 
interpretation.
                    COST OF OFFICIAL TIME FOR UNIONS
    Mr. Wolf. The IG recently issued an audit of FAA's labor agreements 
which found the FAA granting far more time for union activities than 
necessary. The report says ``Managers routinely granted more time for 
union activities than required by the national agreement, even though 
the loss of controllers affected their ability to meet operational 
staffing requirements''. Do you plan to limit union time to those 
levels specified in the union agreement? If not, why not?
    [The information follows:]
    Yes. To the extent there may have been excesses in the use of such 
time due to inadequate management controls as reported by the Inspector 
General, the FAA has already put in place more systematic tracking and 
accounting systems for documenting the use and cost of official time by 
our unions. We are also addressing this issue in our ongoing contract 
negotiations with our national unions.
                               UNION TIME
    Mr. Wolf. FAA estimates that its managers granted 516,000 hours for 
union activities in fiscal year 1996--the equivalent of 248 full-time 
controllers (or 1,414 hours each day). When the IG compared you to 
other federal agencies, they found that you grant more time for union 
activities than the other agencies, even though you have fewer 
employees represented. You also have more union representatives, 
expressed as a percentage of total bargaining unit employees. Is the 
FAA a little out of line here, compared to other agencies, and if so, 
are there adequate reasons for that situation?
    [The information follows:]
    The FAA has long supported partnership with our labor unions and 
these activities and the partnership process have required the 
investment of additional time and resources. The Inspector General's 
numerical comparisons to other agencies may show the FAA to be higher. 
However, we do not believe we are ``out of line'' if one takes into 
account the significantly larger number of separate facilities we 
operate in many diverse locations as well as the significant resources 
we have put into partnership with our unions.
    To the extent there may have been specific excesses in the use of 
such time due to inadequate management controls, the FAA has already 
put in place a more systematic tracking and accounting systems for 
documenting the use and cost of official time by our unions.
    Mr. Wolf. The IG found that some facilities were not effectively 
managing this situation. For example, at the New York en route center, 
they found that in addition to a full-time principal facility 
representative, FAA managers allowed 16 other union positions including 
an assistant facility representative, a secretary, a treasurer, 6 area 
representatives, a safety representative, a legislative representative, 
and a union training coordinator. Over 9,000 hours of additional time 
was granted even though the New York center incurred over $2 million in 
overtime costs during that year to meet operational staffing 
requirements. Do you agree, based on the findings of this audit, that 
FAA needs to track and manage these staff hours more effectively?
    [The information follows:]
    Yes. To the extent there may have been excesses in the use of such 
time due to inadequate management controls as reported by the OIG, the 
FAA has already put in place more systematic tracking and accounting 
systems for documenting the use and cost of official time by our 
unions. We are also addressing this issue in our ongoing contract 
negotiations with our national unions.
    Mr. Wolf. The IG's review found that private sector labor 
agreements required greater documentation and management control over 
the use of official time for union activities. For example, Boeing's 
agreement with the IAM stipulates that each union steward must notify 
and obtain permission from their supervisor before leaving work and 
performing union business. FAA generally does not. Will you implement 
these seemingly common sense improvements to the management of official 
time?
    [The information follows:]
    To the extent there may have been excesses in the use of such time 
due to inadequate management controls, the FAA has already put in place 
more systematic tracking and accounting systems for documenting the use 
and cost of official time in both the air traffic controller's union 
and our other unions as well. In addition, we are addressing the issue 
of better controls and limits on the amounts and use of official time 
in our ongoing contract negotiations with our national unions.
    Mr. Wolf. The audit found FAA managers routinely calling in or 
scheduling controllers on overtime to replace controllers performing 
union activities. Isn't it possible to schedule union activities in 
less busy times, so that overtime is not necessary?
    [The information follows:]
    Official time requests that are authorized at the local level are 
subject to operational requirements. These obligations can be 
effectively managed along with other resource demands, such as training 
and annual leave, and rarely result in overtime. Even when union 
representation itself does not cause overtime, it can be a contributing 
factor. By reducing overall available staffing, facilities become 
increasingly vulnerable to variations in operational demand and sick 
leave.
    Most of the overtime used to accommodate union activities occurs 
when the approval of official time is beyond the control of facility 
managers. Union representatives are often required to attend meetings 
or hearings that are scheduled by other organizations, without regard 
for operational impact. Air Traffic is working with various 
organizational elements to improve the mechanism for scheduling 
activities involving bargaining unit employees, in order to ensure 
adequate time for planning and resource management.
    Mr. Wolf. They also found that some facilities called in people on 
overtime when controllers were being trained on new equipment rather 
than using supervisors, staff specialists, or NATCA representatives who 
were in the building and qualified to control traffic. Isn't this a 
waste of money?
    [The information follows:]
    We make every attempt to minimize the use of overtime, but at times 
it is the only option available to us. Training requirements for new 
equipment impose additional demands on all operational personnel, 
including support staff and union representatives. Non-bargaining unit 
employees are frequently used to supplement controller staffing in 
order to accommodate training or other operational needs. However, 
these activities can interfere with the individual's primary duties and 
responsibilities which directly or indirectly support the air traffic 
operation.
                              CREDIT HOURS
    Mr. Wolf. Another finding was that some FAA managers were granting 
``credit hours'' to controllers, and not managing them well. In one 
example, they found three sites where employees were granted over 
52,000 credit hours (the equivalent of 25 full-time controllers) even 
though 2 of the 3 facilities were already overstaffed. What are 
``credit hours'', and what FAA directives govern their use?
    [The information follows:]
    Credit hours are extra hours employees work in excess of their 
scheduled tour of duty. Accrued credit hours are then used to account 
for subsequent periods of time not worked during an employee's 
scheduled tour. Accrual and use of credit hours are governed by OPM 
guidelines which FAA voluntarily follows, by headquarters and regional 
directives, and in some cases by labor agreements.
                            TIME OFF AWARDS
    Mr. Wolf. They also found that, at some facilities, managerial 
signed agreements which allowed controllers to receive ``time off 
awards'' for simply coming to work. Time off awards are normally 
granted on the basis of a suggestion, cost savings improvement, or 
other accomplishment. But in the FAA, some employees were allowed time 
off for simply showing up. For example, at two facilities, employees 
were given a 10 hour time-off award for each 5 consecutive days they 
worked during the transition to new facilities. Is the FAA planning to 
put stronger guidelines in place for time off awards?
    [The information follows:]
    The FAA has already taken steps to ensure that time-off awards are 
only given in recognition of the types of accomplishments for which 
they are intended. We have also strengthened our documentation and 
approval processes. The Director of Air Traffic rescinded delegated 
approval authority for time-off awards until he approved regional 
management plans for addressing problems identified with the 
administration of the program. We are presently discussing changes in 
the time-off awards program with the unions. It is our expectation that 
the problems identified in the past with this program have been 
eliminated.
    Mr. Wolf. Have any FAA managers been held accountable for such lax, 
wasteful practices--especially those that exceeded national agreements 
or guidelines already in place?
    [The information follows:]
    To date, no manager or employee has received a written or verbal 
reprimand or disciplinary action regarding improper granting or use of 
time off awards. However, we are continuing to research past practices 
in granting and use of time off awards, and we will take appropriate 
steps to hold managers and employees accountable if situations are 
identified that warrant such action.

                        CONTROLLER PRODUCTIVITY

    Mr. Wolf. In last year's hearing we had a lot of discussion 
about air traffic controller productivity. Mr. Belger stated, 
``Oh, productivity absolutely needs to be investigated. There 
is no question of that. Are there things we can do in the 
future? Absolutely there are.''
    Have you followed up on this with Mr. Belger and can you 
tell us whether the FAA is going to propose any initiatives in 
this area?
    Ms. Garvey. We will be proposing some initiatives, again as 
part of the modernization effort. In the discussions that we 
had with the modernization task force, again with the unions 
very much at the table, the issue of productivity was raised. 
As we are thinking about the new tools that we are bringing on-
line, thinking about productivity issues, thinking about 
training issues, new kinds of training, are issues that are 
going to be part of the process as we move forward.
    We have a lot of work to do in that area. But I want to 
link it, and I think it should be linked, to the modernization 
effort, so that it is real and it makes sense to people and we 
are all moving in the same direction. That is really the goal.
    Mr. Wolf. The Coopers study notes that FAA's staffing 
standards for air traffic control facilities resulted in 
``significant excess coverage'' in most facilities during slow 
periods of the day and suggested that if controller 
productivity were improved by only 10 percent, the annual 
savings would amount to $21 million. As they point out, 
Congress, OMB, the DOT IG and GAO have all suggested to the FAA 
that the agency needs to improve controller productivity. 
However, they were critical of FAA's lack of initiatives in 
this area.
    Do you want to comment a bit more on that? Have you talked 
to them?
    Ms. Garvey. To the unions?
    Mr. Wolf. No.
    Ms. Garvey. I am sorry.
    Mr. Wolf. Have you talked to the IG and the GAO?
    Ms. Garvey. I have talked to, particularly to the IG, not 
to the GAO. I have talked to Ken Mead about that and actually 
he was part of the task force on modernization, so he was part 
of that discussion.
    I think we need to do more. I mean, we have recognized it 
as an issue. We have laid down some possible areas within the 
modernization efforts, where we think some productivity gains 
could be made. The union seems very interested in it. They have 
got some ideas themselves, I think we just have to work it as 
we work through the modernization.
    As we are moving forward in this, one of the keys for us is 
to find the right sites where we are going to deploy some of 
the early modernization efforts. And as we think about that, I 
think working with the controllers at those very specific sites 
on very specific productivity issues will be the way we can 
really get at it, sort of site specific and automation tool 
specific, if you will.

                      CONTROLLER STAFFING STANDARD

    Mr. Wolf. Last year the GAO took issue with your controller 
staffing standard as well, claiming it results in an 
overestimate of your annual needs for new controllers. Have you 
made any changes--the changes recommended by the GAO?
    Ms. Garvey. As I testified earlier, we have made great 
progress and we have made progress in this area. I bet if we 
went back to the GAO, and we will, and the IG, they may say 
more needs to be done. We have to just keep working on that 
issue. I think we have made some progress. It is a fair 
question to ask whether we can make more.
    [Additional information follows:]

    On page 17 of the GAO report, the GAO defers comments on the 
staffing standards because the National Research Council (NAS) was 
looking at the standards. We have reviewed the NAS Report and are 
implementing its recommendations.
    GAO, however, does address concerns with attrition and retirement 
data used in the staffing standards. We acknowledged that the 
consolidated personnel management information system (CPMIS) did not 
provide us with adequate data to better predict retirement eligibility 
by counting controller ``good time.'' A computer program was developed 
last June and underwent a labor intensive verification process that 
compared system data to manually computed retirement eligibility dates. 
The testing has been completed and we are in the process of resolving 
discrepancies between manual and software data. We anticipate the final 
version of the software to be available this summer. That new data will 
be incorporated into the staffing standards where applicable. With 
better data, the FAA will then be able to make better assumptions to 
forecast controller hiring for future budgets.

    Mr. Wolf. We will have a number of others for the record.
    [The information follows:]
           ATC STAFFING STANDARDS COOPERS AND LYBRAND REPORT
    Mr. Wolf. They [Coopers & Lybrand] were also critical of the 
staffing standards process itself--the process which generates your 
budget requirements for air traffic controllers. They said ``there is 
no design or attempt to consider improving or significantly changing 
the observed work processes and activities to achieve savings through 
productivity or work process changes. This is a significant failing, we 
believe.'' Do you agree with Coopers that the staffing standards 
process is inadequate?
    [The information follows:]
    No. FAA does not agree that the staffing standards process is 
inadequate. A subsequent review by the National Academy of Sciences/
National Research Council affirmed the value of the agency's staffing 
standards when used for their intended purposes as stated above.
    We use staffing standards to develop national air traffic staffing 
requirements for budget requests, to allocate staffing among our 
regions in an equitable manner, and to measure the impact of proposed 
changes in the NAS system, such as changes in procedures or equipment. 
It is not now, and never has been, the prerogative of FAA's air traffic 
staffing standards program to improve or change the ``work processes 
and activities'' of the air traffic controller or the air traffic 
control system. This has always been the prerogative of the air traffic 
service and air traffic systems development which have significant 
resources dedicated to improving the air traffic system, by improving 
both safety and productivity. Our air traffic staffing standards models 
reflect current air traffic control practices and procedures, thereby 
automatically incorporating all safety and productivity improvements as 
they are implemented.
                         CONTROLLER RETIREMENTS
    Mr. Wolf. At the time of their report, the GAO estimated your 
fiscal year 1999 controller attrition at 214, about 40 percent below 
your estimate at that time of 360. This has significant implications 
for your 1999 compensation and training budget, because it drives your 
need for new hires. How does your current estimate of attrition compare 
to that given by GAO last year?
    [The information follows:]
    Last year, the GAO estimated that the FY 1997 controller 
retirements would be approximately 198 compared to 240 estimated by the 
FAA; actual retirements were 273 controllers. For FY 1998, we now 
estimate 270 retirements compared to GAO's 211; in the first 5 months 
of FY 1998, 184 controllers have already retired. The FY 1999 FAA 
budget request now reflects a lower retirement estimate of 270, rather 
than the prior estimate of 360.

    Mr. Wolf. Let me ask you this one. In its response to the 
GAO report, the FAA wrote ``because of the potential for 
creating delays in the air traffic control system, the FAA 
considers the potential problems associated with 
underestimating retirements to be greater than overestimating 
retirements.''
    Doesn't this minimize the problem that occurs when funding 
for FAA modernization, AIP and other programs are reduced to 
give FAA a margin of error in controller new hires?
    Ms. Garvey. I am not sure I understood the question. I am 
sorry, Mr. Chairman.
    Mr. Wolf. If you overestimate or underestimate?
    Ms. Garvey. Right.
    Mr. Wolf. Do you overestimate more or underestimate more?
    Ms. Garvey. I would suspect that we probably overestimate 
more. And I think part of it, again, is working with the unions 
to make sure that we are also in sync with their views of where 
the needs are as well. I mean, we do it in a way that is in 
partnership with them.
    [Additional information follows:]

    No, the FAA has an end-of-year (EOY) controller work force 
(CWF) authorized on-board (AOB) goal every fiscal year that is 
based on staffing standards which are updated yearly to reflect 
current requirements. As a part of meeting that goal, we make 
an initial estimate of attrition and plan hiring to meet that 
EOY goal. However once the fiscal year begins we monitor actual 
attrition and adjust our estimated attrition and hiring plan 
accordingly to meet the EOY AOB goal. For example, last year we 
started the year with a plan to hire 500 controllers, based on 
an estimated attrition rate of 300, to meet an EOY CWF goal of 
17,300. However, as the year progressed we saw that our 
attrition was running higher than the original estimate so we 
adjusted our hiring and ended up hiring 671 new air traffic 
control specialists to be assured we would meet our EOY goal. 
This year we estimated attrition to be 300 and planned to hire 
800 to meet our EOY CWF AOB goal of 17,800. Already this year 
we see that attrition is running higher than planned but we 
have not yet adjusted our hiring plan. As the year progresses 
we will continue to monitor attrition, the budget situation, 
and hiring rates and make adjustments as necessary based on 
budget constraints.
    In summary, although we start our each year with estimates 
of attrition and hiring based on current needs, we make 
adjustments to reflect real time events. This real time process 
has no direct relationship to the other funding programs you 
mentioned.

    Mr. Wolf. Well, what has been the track record for the last 
3 or 4 years with regard to that?
    Ms. Garvey. With regard to that? Monte, do you want to 
respond to that? Thank you.
    Mr. Belger. We will provide some specifics, Mr. Chairman. 
In general, last year, attrition was a little bit higher than 
we thought, and this year it looks like it might be a little 
bit higher than we thought.
    [The information follows:]

    In fiscal year 1997, we anticipated a controller work force 
(CWF) attrition rate of 250. The actual attrition rate was 364. 
In fiscal year 1998, we anticipate a CWF attrition rate of 300, 
but this number may be as high as 400.

    Mr. Wolf. Because of the economy or because of the age, 
because of----
    Mr. Belger. Well, I think it would be more just the age. In 
other words, folks who are eligible retire perhaps, you know, 
taking that option, or taking other jobs in the FAA that take 
them out of the controller workforce, means that we have to 
fill behind them. But we have specific numbers that I can 
provide to you that perhaps would be good if we could show the 
GAO's estimate for last year and this year and then the actuals 
for last year and this year, and we can compare all three.
    Mr. Wolf. Sure. That would be fine.
    Mr. Belger. GAO estimate, our estimate and then the actual.
    Mr. Wolf. Who was closer to being accurate?
    Mr. Belger. Well, I think last year and this year the FAA 
will be more accurate, but the numbers will tell that for 
certain.
    Ms. Garvey. So we have not overestimated?
    Mr. Belger. I don't think we have, in the past couple of 
years, and, of course, your question for the future is right 
on. We need to be as precise as we possibly can for the future, 
so that we appropriate the right amount of money for the people 
that we need to hire. And we are monitoring that very closely. 
They did give us some good recommendations to help us perhaps 
be more precise, and we are implementing those.

                        cwf workplace simulator

    Mr. Wolf. In 1996, the Washington Consulting Group and a 
consultant named Dr. Thomas Culliname recommended that FAA fund 
the development of a physical simulator or laboratory model of 
the air traffic controller workplace, in order to measure 
productivity and test cost-saving improvements. Was this 
recommendation carried out?
    Ms. Garvey. I believe that recommendation was not carried 
out. There were a series of recommendations that Dr. Culliname 
put forward, and I believe the judgment of the agency was that 
they were perhaps more academic or more--I don't want to say 
less practical, but that is what I keep thinking perhaps, less 
practical. We have done some additional studies since then with 
the National Science Foundation. Those recommendations seem, at 
least in our evaluation or our judgment, to be recommendations 
that we would like to look at ways to fund, fit into the 
priorities that we have. They may apparently, from what I 
understand, and I need to be better briefed on this, they are 
more practical, a little bit easier for us to implement, within 
the budgets that we have and also within the resources that we 
have.
    Mr. Wolf. Could you elaborate for the record and tell us 
where you are on it?
    Ms. Garvey. I will, yes. Thank you very much, Mr. Chairman.
    [The information follows:]

    A large part of the Federal Aviation Administration (FAA) 
missions is to define the future National Airspace System 
(NAS). This mission includes the assessment, modification, and 
integration of NAS components and their operational impact. In 
1988, Congress recognized the role of simulation and modeling 
in the research development process and expressed that 
recognition through legislation. The Aviation Safety Research 
Act of 1988 required the FAA ``to . . . undertake . . . a 
research program to develop dynamic simulation models of the 
air traffic control system . . . which will provide analytical 
technology for predicting airport and air traffic control 
safety and capacity problems, for evaluating planned research 
projects . . .'' The National Simulation Capability (NSC) 
program was established in response to that congressional 
mandate. The NSC is a large scale, distributed, simulation 
network comprising various air traffic-related simulators and 
skilled personnel. The NSC is used to facilitate the 
development of the NAS by providing an integrated 
representation of the NAS through the interconnection of 
various simulation facilities and laboratories internal and 
external to the Federal Government. The NSC Program is based at 
the FAA William J. Hughes (WJH) Technical Center.
    In addition to the NSC, the FAA's WJH Technical Center and 
Civil Aeromedical Institute (CAMI) currently support the 
research, development, test, and evaluation activities required 
for concept exploration and development of future ATM/CNS 
concepts and technologies. The WJH Technical Center houses 
current operational systems and proposed future systems in the 
enroute, terminal, oceanic, flight deck, and communication, 
navigation, and surveillance domains. CAMI's Advanced Air 
Traffic Control Research Simulator will soon provide additional 
capabilities to evaluate alternative ATC system design 
concepts.
    Fast time and real time modeling and simulation tools are 
available to support analysis of procedures, concepts, 
technologies, and architectures for the NAS. Several modeling 
tools are available to support cost-benefits and safety 
assessments of operational concepts. These fast time simulation 
and analysis tools are used to forecast capacity and aircraft 
delay changes associated with the implementation of major 
airport infrastructure changes and/or terminal airspace 
procedural changes. These tools also forecast the effects on 
the National Airspace System of possible future system-wide 
changes to infrastructure, aircraft fleet mix, CNS technology, 
and procedures.
    Human factors measurement tools are available to accurately 
determine the system impact and the effect on the human 
operator. Extensive research has already been conducted at the 
FAA's research facilities to develop performance measures, 
design guidelines, and investigate human performance, workload 
and other issues associated with anticipated changes in 
controller operations based on alternative NAS concepts of 
operation.
                              PRODUCTIVITY
    Mr. Wolf. FAA data provided last year indicated that first line 
supervisors represent approximately 13 percent of the total controller 
workforce, which would indicate an employee-to-supervisor ratio of 6.8 
to 1. Isn't one of the goals of the national performance review (NPR) 
to raise supervisory ratios to around 15 to 1, and if so, shouldn't FAA 
convert some of these supervisors positions to ``hands on'' positions?
    [The information follows:]
    In the Transforming Organizational Structure section of the NPR, 
increasing the ``span of control from seven workers per supervisor to 
15:1'' is listed as an action item. The FAA had originally planned to 
increase the first-line supervisor ratio; however, where this effort 
was initiated, we found it to be operationally disruptive. There are 
between 120 to 130 lower-level ATC facilities which are staffed with 
less than 10 air traffic control specialists (ATCS), but require a 
minimum of two supervisors; (one air traffic manager and one 
supervisor). Due to the safety nature of the air traffic profession and 
the operational involvement of air traffic supervisors, watch coverage 
requirements would not be met with supervisory ratios of 15:1. The FAA 
is, however, pursuing increases in the supervisory ratios in other than 
controller work force areas where system safety is not adversely 
impacted.
    By position description, the first-line supervisor position at an 
air traffic facility is a ``hands on'' position. Supervisors are 
required to work a minimum of eight hours per month on operational 
positions, and they frequently provide real-time operational assistance 
to controllers during peak demand periods.
    Mr. Wolf. Operational currency requirements specify that air 
traffic supervisors work a minimum of 8 hours per month on operational 
positions. If the FAA raised this figure, would it produce cost 
savings?
    [The information follows:]
    The currency requirement for air traffic supervisors, which is the 
same for anyone maintaining operational currency, is designed to assure 
that first-line supervisors maintain operational efficiency which is 
necessary for managing the operation. The requirement is not designed 
to augment staffing. Although this operational currency requirement is 
typically met during off-peak air traffic periods, supervisors 
frequently provide real-time operational assistance to controllers 
during peak demand periods.
    In order to incorporate the air traffic supervisor operational 
currency requirement into the air traffic control specialist (ATCS) 
staffing standard, first-line supervisors would need to be available 
for ATCS staffing during peak air traffic periods. It is precisely 
during peak air traffic periods that the need for first-line 
supervision is most crucial. Therefore, increasing the operational 
currency requirement for air traffic supervisors to enhance ATCS 
staffing would not yield a practical cost saving.

                      currency for cwf supervisors

    Mr. Wolf. In a hearing last fall, a controller testified 
that some supervisors game the system by working their 8-hour 
operational shift on the midnight shift or other time when 
traffic is low. If so, it wouldn't give us much confidence that 
these people are, in fact, remaining current in their job 
skills. To what extent does FAA monitor when supervisors take 
their currency shifts?
    Ms. Garvey. NATCA has raised with us some concerns about 
the supervisors, both the ratio and some of the activities, and 
that is something we monitor very carefully. That is something 
we take very seriously. The issue about ratio is something that 
is again being raised in the contract negotiations or in the 
discussions we are having with the unions. And so it is 
something we take very seriously. I mean, those are serious 
allegations. I suspect that like every large organization, we 
have breaches sometimes but it is the management's 
responsibility to make sure we are dealing with those.

                abestos contamination at leesburg center

    Mr. Wolf. All right. Yesterday a number of air traffic 
controllers came by to see me from my district. As you know, 
the Washington Center is out in Leesburg. The first question, 
and I understand that Rich has spoken to the FAA about it maybe 
this morning, is about the asbestos contamination, which 
continues to be a problem, they say, at Leesburg Center. In 
December of 1996 they said an independent arbiter assigned to 
hear a grievance on the issue concluded and I quote, ``the 
evidence is compelling that the use of asbestos-containing 
material to insulate the attic of the facility when it was 
built continues to present a serious asbestos hazard to those 
employees who work in the areas below the ceiling. There is no 
need here to recite all of the conditions which lead to the 
conclusion that a definite asbestos hazard exists. It seems the 
most workable near-term solution recommended by the contractor 
is to build a tent-like structure.''
    What has the FAA done about the situation and, in 
particular, has the agency put a tent structure in place to 
protect the employees at the facility, or do you plan on doing 
that?
    Ms. Garvey. Let me answer, Mr. Chairman, this way: First of 
all, it is a new issue--was a new issue to me this morning.
    Mr. Wolf. It was a new issue to me, too. It came in 
yesterday.
    Ms. Garvey. Apparently, from what I understand, we have 
looked at it. We have some serious concerns about creating a 
tent. I guess some of our scientists have suggested that 
creating a tent or constructing a tent will create even more 
difficulties and more problems. So we are going back to the 
arbitrator and to NATCA and to the union to talk about it, to 
at least let them know what some of the scientists that we have 
talked to have raised. The issues that they have raised sound 
very serious.
    Mr. Wolf. Do you know the date of the arbiter's decision?
    Ms. Garvey. I don't, Mr. Chairman. We will find out.
    Mr. Wolf. December of 1996. That is a while.
    Ms. Garvey. Ouch.
    Mr. Wolf. Yeah.
    Ms. Garvey. Yes.
    Mr. Wolf. And they live in my district, too, so I am 
interested.
    Ms. Garvey. Double ouch. Excuse me. I will be leaving 
immediately to look into it. [Laughter].
    [The information follows:]

    The FAA has instituted a number of engineering controls to minimize 
the risk of asbestos exposure within the control room. Weekly 
inspections of the roof, attic, and mechanical systems are performed to 
ensure that the asbestos containing fireproofing is not deteriorating. 
All personnel conducting inspections are adequately trained and every 
effort is made to prevent possible disturbance of asbestos during these 
inspections. Air monitoring has been conducted in the facility for the 
past year with no recorded asbestos releases. We are doing everything 
possible, and have been quite successful, in protecting our employees 
at this facility.
    The FAA is pursing several different options for containing and 
removing asbestos in conjunction with the installation of Display 
System Replacement (DSR) equipment. We are continuing our dialogue with 
facility union representatives and will work with them to ensure the 
safety of our employees while we complete this project.

                      reassignment of glen reffner

    Mr. Wolf. They also brought another problem to our 
attention. They said the FAA's planned reassignment of air 
traffic controller Glen Reffner, the FAA hired this individual 
on March 30, 1997 fully aware that he was 31 years old. 
However, 5 months later the FAA Office of Human Resources 
directed that Mr. Reffner be reassigned because if violates the 
personnel regulations set by the agency, which says that a new 
controller cannot be above 30 years of age.
    How can you fairly disallow this individual from 
controlling air traffic, which he has done as a DOD controller 
for many years, when you are hiring hundreds of former PATCO 
controllers with an average age of 59? If he is 31, why--well, 
how would you justify 31 versus 59?
    Ms. Garvey. Again, a very new issue, but let us get back to 
you on that. It was not one that staff here were familiar with 
either. Let us get back to you on that. It certainly does sound 
on the face of it to be, you know, not quite right.
    [The information follows:]


[Pages 292 - 293--The official Committee record contains additional material here.]



                         controller age limits

    Mr. Wolf. Does the law mandate or give you the ability to 
set age standards?
    Ms. Garvey. I believe we have a little more flexibility, 
and I believe we set the standards on that.
    Mr. Wolf. You set the standards. Because in the letter to 
the FAA, Mr. Reffner wrote, ``the actions of the agency in 
hiring me with full knowledge of disclosure of my age 
constitutes a constructive waiver of the age requirement. I am 
not going to ask you if you agree or disagree but my sense----
    Ms. Garvey. I will take a look at it.
    Mr. Wolf. My sense is really--and 31 is a mere child. 
[Laughter.]
    Ms. Garvey. It certainly is, Mr. Chairman. This could be a 
tough discussion back at the FAA.
    Mr. Wolf. We have some other questions on that area but we 
will just talk to you about it.
    Ms. Garvey. Thank you.
    [The information follows:]

    Title 5 of the United States Code, section 3307, paragraph (b) 
permits the Secretary of Transportation to establish a maximum entry 
age for original appointment as an air traffic controller. The 
Secretary's authority continues under FAA Personnel Reform.
    The language of the maximum entry age states: ``A maximum age of 30 
years is established for entry into air traffic control positions 
covered by Public Law (P.L.) 92-297 (May 16, 1972). Persons who have 
reached their 31st birthdays may not be originally appointed to these 
positions.'' Thus, FAA controllers may not receive their initial 
appointment to terminal or en route positions on or after reaching 
their 31st birthdays.
    The FAA General Counsel determined that the phrasing of the 
Department of Transportation maximum entry age rule precludes waivers. 
For this reason, we are not allowed to use a DOD age waiver to hire 
someone from DOD who was appointed there after reaching age 31. In 
contrast, we are allowed to employ DOD civilian controllers if they 
received their civilian controller appointments from the DOD.

                           PATCO Controllers

    Mr. Wolf. There have been some concerns, which fit in with 
that, which were discussed last year about the additional cost 
of hiring former PATCO controllers. In 1996, about 75 percent 
of FAA's new controller hires were from the PATCO ranks. Your 
plans were to hire 60 percent of new hires in fiscal year 1997, 
300 out of 500 from former PATCO rolls. What was the final 
percentage?
    Ms. Garvey. That was the final percentage. Those were the 
final numbers. This year of the 800, we are looking at a number 
of about 300 and we have not yet had any determination for 1999 
so we still need to discuss that.
    Mr. Wolf. How many made it and didn't make it? How many 
washed out or didn't wash out?
    Ms. Garvey. Let me get back to you on the specific numbers. 
I thought they were actually doing pretty well, but let me get 
back to you with the numbers.
    [The information follows:]

    We hired 300 former PATCO controllers in FY 1997. This 
represents 60 percent of our planned new controller hires.
    Out of the total 300 former PATCO controllers hired in FY 
1997, one resigned, and the other 299 were enrolled in training 
either at the FAA Academy or facility level.

                        patco controller success

    Mr. Wolf. Some left, though, did they not?
    Ms. Garvey. Go ahead. You may want to stay here.
    Mr. Belger. Okay. Through February of this year, we had 
hired 475 former controllers. Only 7 of those have resigned or 
retired. A small number, it is a dozen or so, I believe, didn't 
make it through the training in the facility that they went 
back to but we were able to reassign them to a lower level 
facility. And in balance, they are doing quite well.
    Mr. Wolf. Okay. Great. Would you tell us where the problem 
areas were?
    Mr. Belger. Yes, sir. We can provide that.
    Mr. Wolf. Was it in a particular location?
    Mr. Belger. No. I don't think there was any particular 
trend. It was generally--well, let me not speculate, but we can 
tell you precisely where those were.
    [The information follows:]


[Page 296--The official Committee record contains additional material here.]



                       REHIRED PATCO CONTROLLERS

    Mr. Wolf. Is it a good policy to continue hiring large 
numbers of former PATCO controllers? Why?
    [The information follows:]

    Former PATCO members that the agency has hired are valuable 
additions to the agency's work force. These individuals bring a wealth 
of experience to their jobs. They have filled vacancies that needed to 
be staffed. They are doing their part to make the NAS safe and 
responsive.

                   cwf labor/management relationship

    Mr. Wolf. Okay.
    All right. In 1991, FAA administrator Mr. Busey told us, 
``I do not have any uneasy feelings about management/labor 
relationships * * * I do not feel uneasy today that we have a 
looming problem of management-labor relations out there.''
    Contrast this with a document distributed by NATCA in 
December of 1997 which said, and I quote, ``In 1997, 
campaigners for NATCA's leadership positions visited over 200 
of nearly 400 facilities nationwide and find employee morale at 
an all time low * * * The workforce, only 16 years after the 
strike, is talking job actions and hate for FAA management * * 
* History is repeating itself.''
    The tone and the rhetoric of FAA's labor-management 
relationships, and let me just stress that this is basically 
referring to times before you came in, has appeared to get a 
little more sour in the last couple of years. Certainly when I 
bump into controllers in the supermarket or somewhere people 
will come up and say something. Would you comment on the state 
of relations between the FAA and the controllers now?
    Ms. Garvey. Well, let me start, and Monte may want to add 
to this as well. Let me say first of all, it is something I am 
concerned about. I think the relationship between management 
and labor and union is absolutely critical if we are going to 
succeed. It has to be productive, it has got to be a 
relationship based on trust. It has got to be a relationship 
that says we are in this together. You know, these issues are 
too complicated, they are too difficult for us not to be in it 
together.
    So it is something that is really a top priority for me and 
it is a top priority, I know, for Monte as well. We have spent 
a lot of time talking with the management team that is doing 
the labor negotiations for us. We meet with them at the end of 
every week, assess how things are going, look for problem 
areas, and there will be and there are problem areas. I have 
spent a good deal of time with Mr. McNally and with his board. 
I have met with all of the NATCA representatives that were in 
town last week. I think there were about 300 of them, and I 
spoke with them and answered questions.
    I have offered to Mr. McNally, and he has said he would 
love to do this, to visit centers with him, to visit the towers 
with him. I think it is very important that we keep those lines 
of communication open. I e-mail the employees every week. I let 
them know what is going on. I hear back from lots of employees. 
I hear back.
    Mr. Wolf. They have the ability to e-mail directly back to 
you?
    Ms. Garvey. Yes, oh, yes. It works well. So I think itis 
very important. I don't think we are always going to agree, and that is 
the nature of management and labor relations. I expect that there will 
be times when they will be disappointed and there will be times that I 
will be disappointed, but I think the issues are so important that we 
absolutely must work on it together. And I have also said to Mr. 
McNally--and also, by the way, to Mr. Fanfallone at PASS as well, let's 
look for some opportunities where we can work together, that is outside 
of the bargaining unit, if you will, or outside--away from the 
bargaining table. I think modernization is a perfect example. One of 
the action items that came out of the task force was an assessment of 
our workforce. What do we need as we move forward? What do we need in 
the year 2000? And that is an action item that we are undertaking with 
the unions together, to say, what is it we want? How do we prepare our 
workforce? How do we move out together?
    Monte is visiting Canada in a couple of weeks to look at 
some possible solutions to some technology that they have, and 
we talked yesterday about bringing the union with him on that 
trip. So that we are in it together, we are looking at it 
together, we are moving out together. But I am concerned. I 
think it is not an overstatement to say that there is a strong 
history of distrust probably on both sides. It is going to take 
movement on both sides for it to be more productive.

                        family friendly policies

    Mr. Wolf. Well, I appreciate it. In October 1997, NATCA 
national leaders sent a letter to all union members saying ``if 
this agency thinks we have catapulted to the forefront of the 
public's mind before, it hasn't seen anything yet.'' And I 
think it is important to treat people with dignity and respect, 
to be talking to people, to be listening to people.

                          NATCA AND THE MEDIA

    Mr. Wolf. In October 1997, NATCA national leaders sent a 
letter to all union members saying ``If this agency thinks we 
have catapulted to the forefront of the public's mind before, 
it hasn't seen anything yet . . . Media will be an important 
NATCA tool''. Do you have any understanding with NATCA about 
what is ``fair game'' about approaching the media?
    [The information follows:]
    The FAA is working very closely with NATCA on communicating 
a unified message regarding the agency's future direction.

                        Family friendly policies

    Mr. Wolf. Which leads me to another area. Congressman Hoyer 
and I, over the years, on another Appropriations Subcommittee, 
have offered a whole series of what we call ``family friendly'' 
policies.
    I wonder how successful the FAA has been? Do you have flex-
time?
    Ms. Garvey. We do have flex-time and employees have told me 
that they like that very much.
    Mr. Wolf. Do you have leave sharing?
    Ms. Garvey. Do we have leave sharing?
    Mr. Belger. Yes.
    Ms. Garvey. We do have it. Monte is here and he will----

                             leave sharing

    Mr. Wolf. How many people are participating in leave 
sharing in the last several years?
    Mr. Belger. We have that information. I don't have that in 
my head, but it is available throughout the agency.
    [The information follows:]

    We don't maintain summary records of the exchange of leave. 
However, it's estimated that approximately 1,400 FAA employees 
were eligible for leave donations over the last several years.

                              job sharing

    Mr. Wolf. Do you have job sharing? I see some people 
shaking their head.
    Mr. Belger. I am not sure.
    Mr. Wolf. Job sharing is where you and the administrator 
could--not as administrator obviously, but two people could 
share----
    Ms. Garvey. Thank you. Thank you, Mr. Chairman.
    Mr. Wolf. Could share a job. One may want to take care of a 
father who is dying. Another may want to go back and get a 
Master's Degree.
    Mr. Belger. I stand to be corrected, but I don't think we 
have really implemented that in any broad scale yet.
    Mr. Wolf. That is the law, though, and if this 
administration maintains it is so interested, there are new 
proposals with regard to child care, most people are looking 
for choices, for options, to be in control of their own life. 
No one size fits all, but I think the opportunity at the FAA 
for two people to share a job for 2 or 3 years, maybe if you 
did have a parent who was going through a very difficult time 
and you wanted the opportunity to spend more time with them, or 
whatever the case may be, but I think job sharing, particularly 
in this modern time, is--and therefore somebody maintains their 
work experience with whoever they are working for, but at a 
reduced level and if two people are sharing the same job you 
generally find you are getting from both actually more time 
because they are very appreciative of having this opportunity, 
and that is the law.
    Mr. Hoyer and I sent a letter to OPM last week asking them 
to do an audit of all of the agencies, as to how successful 
they are. And I would urge you to go back--do you do any 
telecommuting?
    Mr. Belger. Yes.

                             telecommuting

    Mr. Wolf. How many employees do you have doing 
telecommuting?
    Mr. Belger. Again, we can provide that for you. We have 
encouraged that quite a bit.
    [The information follows:]

    As of November 1997, the FAA had 280 participants in the 
telecommuting program, or approximately 1.6 percent of employees in 
position suitable for telecommuting and 0.6 percent of our total 
employee population. There are 105 telecommuters at our Washington 
headquarters, and 175 in regional offices or field facilities.

    Mr. Wolf. Telecommunicating from a telecommunications 
center or from their own home?
    Mr. Belger. From a center, primarily. We might have some 
from home, too. But we tried to focus on the telecommunicating 
centers.
    Mr. Wolf. But you may have employees in an area where there 
is no telecommunications center.
    Mr. Belger. Right. One of the things we have done, and this 
is more appropriate in our safety work force where our 
inspectors are on the road so much. I think we are giving them 
much more flexibility to work out of their home and channel 
from the home without having to go into the office and wasting 
the time of having to go into the office where they could, by 
computer or by phone, do the same work from home before they go 
on the road to do their inspections.
    Mr. Wolf. I think that is a good idea. Bell Atlantic 
learned that a number of years ago. They used to make the 
people come in, pick up their equipment, and then go out. Now 
they just take their equipment home. And there is nothing magic 
about strapping yourself into a car and driving 35 or 40 miles 
to come in and begin the day and then go out. So I think the 
more you can give people----
    Mr. Belger. Right.
    Mr. Wolf. And I think if you find it is abused, you can 
certainly deal with that. But most people, the studies show, do 
not abuse it. They actually are so appreciative, particularly 
with where they are in life, that it gives them more options 
and choices. So deal with flextime, flexplace, job sharing and 
leave sharing in telecommunications and give us some sense of 
how the FAA is doing.

                        user fees--court ruling

    Mr. Wolf. User fees. The issue came up before, but the D.C. 
circuit court of appeals recently struck down the FAA's 
overflight user fees. Do you agree with the rationale of the 
Court? Are you going to appeal it?
    Ms. Garvey. We have, Mr. Chairman, until March 16, so we 
have another week before we have to make a decision on whether 
we ask for a hearing or appeal the case. We are still looking 
at the options and talking with Justice; obviously Justice 
plays a role in this, so we are still looking at the options.
    We were disappointed. There was much about the Court 
decision that I thought was positive for some of the actions of 
the FAA, but clearly, how we had structured the pricing, using 
the Ramsey pricing was really the critical issue. So we will 
decide before March 16 whether we will appeal it or ask for a 
hearing. I guess you can ask for a hearing separate from the 
appeal.
    Mr. Wolf. That is a couple days?
    Ms. Garvey. Yes, a couple of days. I was glad this was 
today, so we have a little bit of time to think, but not much 
though.
    Mr. Wolf. How much of a shortfall does this give you, your 
operating budget in fiscal year 1998, and what are you planning 
to do to deal with that shortfall?
    Ms. Garvey. Well, as you know, Mr. Chairman, we had 
anticipated getting about $100 million from that I think we 
collected about $49 million to date, and it is going to----
    [Additional information follows:]

    The reduction in anticipated user fees results in a shortfall of 
$84 million. We are currently considering our options to address this 
shortfall. No decision has yet been made.

    Mr. Wolf. Do you have to refund that?
    Ms. Garvey. We believe we do, yes; so it is going to have 
quite an impact. So we are looking at those options as well 
and, quite honestly, talking very seriously with OMB about what 
are some potentials, options open to us.

                  user fees for rural airports program

    Mr. Wolf. The authorizing legislation assumed that the 
overflight fees, which would be used to finance $50 million 
each year for the Office of Secretary's rural airports program, 
formerly the essential air service program, and the balance 
could be used by the FAA for agency operations. The law was 
technically drafted in a way which requires the FAA to send $50 
million to the rural airports program, even if those fees 
aren't collected; is that right.
    Ms. Garvey. That is correct, Mr. Chairman, and we are 
following the letter of the law. We knew that going intothis 
year's activities. We have found a way to fund it, I understand.
    Mr. Wolf. You are not asking for a change then.
    Ms. Garvey. We are not, Mr. Chairman.
    Mr. Wolf. But if you had to make a difference between 
safety and essential air service, what would you do?
    Ms. Garvey. Safety is clearly our priority, but I guess our 
goal would be to try to respect the letter of the law and find 
a way to make sure our safety program is not affected.
    Mr. Wolf. You will be subsidizing EAS out of your budget by 
$50 million?
    Ms. Garvey. We will, Mr. Chairman.
    Mr. Wolf. Does that sound very logical, though, if you were 
sitting up at Amherst?
    Ms. Garvey. Well, it certainly seemed logical when we were 
thinking in terms of user fees because that was a vehicle by 
which we could do it. It certainly makes it much more 
challenging now.
    Mr. Wolf. Well, I mean, if you get to the two points, that 
they are in conflict, and you find this is a safety problem, I 
think you ought to----
    Ms. Garvey. We certainly can't compromise on safety.

                           technical training

    Mr. Wolf. On training, there has been a lot of concern over 
the past few years about the adequacy of FAA's resources in 
technical training. Controllers say they are not getting enough 
training, and GAO and the IG say safety inspectors are not 
getting enough training. The Coopers and Lybrand study 
indicated FAA invests less in training than technically-
oriented private businesses they look at. Does your fiscal 1999 
budget request an increase in technical training for 
controllers, inspectors, and other elements of the safety work 
force particularly?
    Ms. Garvey. I am not sure it specifically calls out those 
areas. I am going to ask for clarification.
    Mr. Wolf. Go ahead.
    Ms. Garvey. They are leaving me here.
    Mr. Belger. The 1999 request, Mr. Chairman, does include an 
increase for technical training for air traffic controllers and 
it does include an increase in technical training for airways 
facilities technicians and engineers.
    Mr. Wolf. Of how much?
    Mr. Belger. The increase for controller training, I think, 
is about $2 million. That is primarily for the contract for the 
training of air traffic controllers in the facilities. The 
increase for airways facilities technicians and engineers is in 
the NAS hand-off area. We can provide the specific dollar 
amount to you.
    Mr. Gardner. In the safety work force side, sir, the 1998 
budget, you gave us a large increase in the training budget 
which we are using for that purpose this year and that 
continues on as part of our base throughout--in 1999 and on.



[Page 303--The official Committee record contains additional material here.]



                        consortium for training

    Mr. Wolf. Would it make any sense to develop a relationship 
with a consortium of universities, around the country, to 
develop a training program that could be--you could do it by 
teleconferencing one day a week, on a Monday from 5 to 6:30, or 
whatever the case may be, to really aggressively--because I 
have seen statements from some of the flight service people and 
different safety occupations, inferring there was not a lot of 
training. And obviously the job is so complex that what the 
private sector is doing, you spend a lot of time on training. 
In my office we spend a lot of time on training, in new 
computers, and new this and new that. Would it not make sense 
to develop a relationship with a consortium of universities 
scattered around the country?
    Ms. Garvey. I think that is an excellent suggestion, one we 
ought to take an action on and take a good hard look at. 
Because, I think the benefit of something like that is you 
really get to take advantage of the most up-to-date training 
that is available. And I think that kind of constant refreshing 
of what is out there and constantly having that kind of 
training available would be a real benefit to us. And certainly 
I think your point about using the video teleconferencing that 
we can do so readily now is a way to deal with the large work 
force that we have.
    Mr. Wolf. Mr. Sabo.

                       marc program in minnesota

    Mr. Sabo. Just one question at this point. One program that 
has been of ongoing interest to me is the MARC program in 
Minnesota. We have some problems with OMB, but my question is, 
does MARC continue to do good work?
    Ms. Garvey. They continue to do very good work. It is a 
good outfit.
    Mr. Sabo. I thank you.
    Mr. Wolf. You made the record.
    Ms. Garvey. If it is for the record, excellent work.
    Mr. Wolf. We have a number of questions more. I tell you 
what I thought we would do; go until about 1 o'clock and give 
you an opportunity to take a break and get a sandwich and maybe 
come back at 1:30.
    Ms. Garvey. That is just fine. That is great.
    Mr. Wolf. Wouldn't you rather keep moving than break for a 
long 2-hour period?
    Ms. Garvey. Absolutely, if those are the options. Is there 
a third option that we could just break? [Laughter]. Don't push 
it, I know.

                           maintenance issues

    Mr. Wolf. With regard to maintenance, the maintenance union 
testified before the subcommittee a few weeks ago that the 
National Airspace System is experiencing increased maintenance 
problems. They said the time to restore equipment has increased 
from 7 hours in fiscal year 1983, to 27.5 in 1997. Unscheduled 
outage time has gone from 210,000 hours in 1983 to over 600,000 
in 1997. Aircraft delays caused by equipment have increased 
from 5,000 in 1991 to 6,500 in 1996.
    Is the NAS experiencing a deterioration of service due to 
inadequate maintenance, as PASS suggested during the hearing?
    Ms. Garvey. Mr. Fanfallone and I have talked a great deal 
about this. This is an absolutely critical and important issue. 
I mean we certainly bear some responsibility in making sure we 
get the equipment in place they need, the up-to-date equipment 
that is easier to maintain.
    As he has pointed out, we also bear some responsibility in 
providing the right kind of training for the personnel that are 
working on these issues. We have invited PASS and Mr. 
Fanfallone has been very generous: in giving his time on this 
issue to be with us as we are thinking and developing the 
training programs, as we move forward; also to be part of the 
kind of task force that we have that are looking at the 
staffing issues; and in looking at ways that we can make some 
improvements. He has brought to my attention some very specific 
issues around some of the equipment we have, where we really 
need to make some changes in order to make the maintenance work 
a little bit better. He has brought those issues to our 
attention. I think we are very much aware of them and working 
closely with PASS to address them.
    I don't know if Monte wanted to add anything.
    Mr. Belger. No.

                 field maintenance technician staffing

    Mr. Wolf. He also said the work force is currently staffed 
at 71 percent of staffing, and even if FAA officials agree that 
the level needs to be maintained at a minimum of 80 percent of 
the standard, which would result in 575 current vacant 
positions being filled. Do you agree that at least 80 percent 
of the staffing standards should be filled?
    Mr. Belger. Yes, sir. And I think our hiring plans will get 
us to that level. We continue to look at the validity and the 
appropriateness of the airways facilities staffing standards. 
As the Administrator mentioned, we have an effort underway 
right now with both of the major unions, PASS and NATCA, to 
look at our needs for the future in terms of skills, knowledge, 
abilities, training, and numbers of people, so I continue to be 
concerned about our airway facilities staffing standards.

    Mr. Wolf. PASS says that, in addition to the current workload, the 
workload of FAA maintenance specialists will increase over the next 
five years because they will have to operate both the old and new 
systems in parallel during the transition period. Is this accurate, and 
if so, do your 1999 and out year staffing estimates reflect this 
workload?
    [The information follows:]
    Yes, this is accurate. We expect to be maintaining both the 
existing NAS infrastructure, as well as new systems coming on line. The 
Staffing Standards Analysis System takes this into account, and 
generates outyear staffing requirements based on the expected 
inventory. This growth in the total number of facilities is the main 
driver behind FAA's request for an additional 150 field maintenance 
staff in FY 1999.

    Mr. Wolf. They also say that an average attrition rate of 
about 660, along with 1,200 to 1,500 specialists who are 
typically in a developmental status, means that on any given 
day, over 25 percent of the field maintenance work force is 
either waiting for the FAA to provide essential training or 
preparing for retirement. Do you think those figures are 
accurate?
    Mr. Belger. We can provide very accurate figures. I think 
the 600 number for retirement is quite high. We do have 
employees, obviously, in developmental positions, being trained 
to the full performance level, and that is why we need the 
technical training dollars to provide the training for those 
folks.
    Mr. Wolf. Do you have enough in the budget that you asked 
for?
    Mr. Belger. I think we made a lot of progress on technical 
training. If you look at the trends for technical training in 
airways facilities, there has been a significant increase in 
technical training dollars since 1994. So I am much more 
confident that we do now than we did several years ago.

    Mr. Wolf. PASS claims that the 1994 Airways Facilities Realignment 
Plan, signed by FAA and the union, agreed to fund a nationwide business 
process engineering (BPE) effort, to streamline the work procedures 
that would have enabled more employees to work efficiently with fewer 
supervisors. The FAA envisioned that 1,100 supervisory personnel would 
be placed into hands-on, safety-related positions, and BPE would 
streamline the processes. However, the union claims that a majority of 
these supervisors instead took a buyout in 1995 and the hands-on 
positions were never filled. In addition, the BPE was never funded by 
the agency, leaving many people working harder than ever before. Is 
this accurate?
    [The information follows:]
    Yes, there were large reductions in supervisory and administrative 
staffs as result of employment targets set by the National Performance 
Review (NPR). Many of these employees left as the result of the buyout 
and early out authorities.

               COST BENEFIT ANALYSIS--AF CONTRACTING OUT

    Mr. Wolf. PASS advised the Committee that FAA does not typically 
conduct a cost-benefit analysis before contracting out the maintenance 
of a new system. Is that accurate? If so, why?
    [The information follows:]
    These types of analyses are required as part of the FAA Acquisition 
Management System (AMS). During the investment analysis phase of an 
acquisition, the airway facilities directorates and users working with 
the air traffic systems requirements service establishes initial 
requirements and participates in an alternative analysis process to 
fulfill those requirements. As part of the alternative analysis 
process, maintenance strategies are evaluated and life-cycle costs are 
determined for each likely alternative.
    The FAA must also follow the Office of Management and Budget, 
Circular No. A-76, ``Performance of Commercial Activities'', March 
1996, which establishes Federal policy for the performance of recurring 
commercial activities. This circular provides the procedures for 
determining whether recurring commercial activities, such as equipment 
maintenance, should be placed under contract with commercial sources of 
performed in-house using government facilities and personnel.

                     contract maintenance criteria

    Mr. Wolf. What guidelines does the FAA use when determining 
whether to perform maintenance in house with government 
employees or contracting it out?
    Mr. Belger. The basic guideline is two criteria. Number 
one, there obviously has to be no decrease in the safety level; 
and number two, it really boils down to how can the work be 
performed, more efficiently, or more cheaply, for the taxpayer.
    There are certain circumstances and situations where 
thecontractor can provide the services more quickly and at a lower cost 
than we can in-house. Many times, though, it is much more efficient and 
cheaper for us to do the work in-house. If that is the case, then we 
should do the work in house.
    Mr. Wolf. I agree. But do you have standards?
    Mr. Belger. Yes, sir; we have published criteria.
    Mr. Wolf. That are understandable to everybody?
    Mr. Belger. I think they are pretty straightforward, just 
like I said. It really boils down to how can we provide the 
best service for the users of the system.
    Mr. Wolf. In most, if not all cases, it is the airlines 
and, obviously, the passengers that suffer when your NAS 
systems are down for maintenance because they suffer the delays 
and the passengers suffer inconvenience. PASS offers several 
examples in their testimony where it appeared that contractors 
were not as responsive as government employees might have been, 
causing the system to be out of operation longer than 
necessary. Are the airlines involved in this maintenance, too?
    Mr. Belger. They are not involved in the maintenance.
    Mr. Wolf. In the decisions?
    Mr. Belger. They are obviously impacted.
    Mr. Wolf. Are they involved in the maintenance decisions?
    Mr. Belger. Oh, yes, sir. As a matter of fact, we have 
significantly increased the dialogue.
    Mr. Wolf. Whether to use in-house or out?
    Mr. Belger. They, quite frankly, want it fixed. You know, 
now, regardless of whether it is done in-house or by the 
contractor. So their pressure on me and on us is, you know, get 
it fixed now, and however we can best do that is what we ought 
to be doing.
    Mr. Wolf. What has been the trend, say, in the last year? 
Have you gone outside more?
    Mr. Belger. I think the trend in the past couple years is 
we brought more in-house. We actually made decisions on pieces 
of equipment like ASOS and some of the other equipment in the 
centers where, because we have been able to show it is cheaper 
to do it in-house, we have brought it in-house. My challenge to 
the union and to our airway facilities organization is, you 
know, show us how it can be done more cheaply in-house and that 
is what I will support.

                          Enforcement Actions

    Mr. Wolf. They have recommended we fund an independent 
review of how FAA legal staffs respond to and enforce the 
recommendations coming from inspectors in the field. Their 
testimony says inspectors are concerned that enforcement 
actions are not undertaken quickly enough to ensure public 
safety.
    Ms. Garvey. Let me make a couple comments about it, and I 
don't know if Mr. Gardner wants to add anything, but that is a 
very serious issue. It is one I have talked with people 
internally about. And I will tell you I have talked with some 
inspectors about it. I think we have had even a recent example 
where some of our inspectors, early on in the process, 
uncovered some issues they thought were of great concern. We 
brought an additional national team in--again, by the way, 
working with the IG to take a very hard look at it.
    One of the changes that we have made, which I think is very 
important, is when we produce a report. Recently we just 
produced a report that I think illustrates this quite nicely. 
The issues that have been raised in the course of the 
investigation are laid out and the responses laid out, so that 
if an inspector finds something and it is something that he 
believes is serious, but if upon further investigation, further 
evaluation, that issue is disposed of adequately, we say that 
in the report. So, there is a full understanding and there is 
not the appearance or reality of trying to sweep something 
under the rug.
    I think that is a very good step forward because it really 
does say: Look. You can find things early on in the process and 
you should--that is what the inspector should be doing, 
throwing up some red flags for us. If you go back in and learn 
more about it, some may be disposed of, some may not. Some may 
be just as serious as the inspector first thought.
    So I think part of what we need to do is be very clear to 
the public--your point earlier. The American public really 
needs to know these things. We need to be clear to the public 
and our own work force that we are taking this seriously and 
here is the answer.

                         Regional Coordination

    Mr. Wolf. We seem to be seeing an increasing number of 
reports which show inadequate coordination of FAA's field 
activities. The IG went out to your regional offices and found 
that different offices had their own definition of what 
constitutes a runway incursion, making measurement of this 
important safety problem difficult. PASS claims that there is 
an inconsistency among your regions in their pursuit and 
enforcement of safety regulations. How does FAA coordinate the 
work of its regional field offices to ensure consistency, 
fairness, and aggressive enforcement? And obviously the 
standards should be the same, I would imagine, for safety in 
every region.
    Ms. Garvey. Absolutely. And it really originates in the 
lines of business. In other words, the lines of business 
establish the policies. I will tell you, though, that is a 
criticism I have heard almost across the board, that in 
different regions there are different interpretations sometimes 
of the airport's rules or sometimes of some of the safety rules 
and so forth. One of the efforts that is currently underway, 
and I know in the regulation field they are working very hard 
on this, is first of all to make sure the policies are clear. I 
think sometimes it is an interpretation issue. And so making 
sure that the policies are first and foremost very clear. The 
policies that we are issuing, and regulations, are going 
through all of the policies that we have and making great 
progress and making sure there is first and foremost a clarity.
    The second step is going to be to make sure we do 
additional training so that we are all interpreting it in the 
same way. And I think there is also, sometimes, a disconnect, 
as I understand it, between what the inspector sees and what 
some of our lawyers--and I think that may be referenced in your 
question--but some of our lawyers see as well. One of the 
activities that our Chief Counsel has talked about and is 
undertaking as part of his performance plan for this year, is 
to bring together both the legal people that he deals with, 
with some of the inspection folks that Guy Gardner deals with, 
in certain locations throughout the country. Let's do some case 
studies and let's look at how we are interpreting some of the 
laws that we have.
    I think this is a very real issue and I think it is an 
issue that is going to take us sometime to make sure we are 
getting at all aspects. I think, when Mr. Hinson talked about 
the lines of business, one of the reasons he really wanted to 
do that was to make sure that within the lines of business they 
were establishing clear policies. But we need to take it even a 
step further and make sure it is being implemented consistently 
across the country.
    Mr. Wolf. So all of them would come together at the same 
time.
    Ms. Garvey. Right. Everyone could hear the same message.

                           Tampa ASR-9 Radar

    Mr. Wolf. Congressman Young asked if we would raise this 
issue with you. He has written about the problems with the 
reliability of the ASR-9 radar in Tampa. Do you know anything 
about these problems and can you tell me if FAA has done 
anything to fix them, is doing anything to fix them, or when 
the problem will be resolved? What can we tell Mr. Young?
    Ms. Garvey. The good news is we are on schedule. I am going 
to let Monte explain the details, but I like to at least 
deliver the good news.
    Mr. Belger. There have been problems with the ASR-9, which 
is a terminal radar in Tampa. Most have been related to a power 
conditioning system, and we have had that problem throughout 
the country with the ASR-9 radars. We are installing a state-
of-the-art power conditioning system, which does the same 
function as you would use on your computer to condition and 
purify the power that goes to the radar. We are on schedule to 
do that by the end of this year.

                             New York TDWR

    Mr. Wolf. We will tell Mr. Young that, and maybe you could 
give us a letter we could give to Mr. Young.
    What is the status of the doppler radar up in New York, I 
know there has been opposition to it and we have put report 
language in, I think, on several occasions urging them to move 
ahead because that is probably the busiest area--what is the 
status of that?
    Ms. Garvey. Go ahead.
    Mr. Belger. As you know, there has been a lot of 
controversy around the siting of that radar. We are currently 
doing an environmental assessment. I believe the schedule for 
the completion and the schedule for record of decision is in 
the late summer of this year.
    Ms. Garvey. Early fall, yes.
    Mr. Wolf. Rich said the Coast Guard is closing the station 
where you hoped to put the radar. Is that good for you or bad 
for you?
    Mr. Belger. I think that the land either has been or will 
be turned over to us, so I don't see that as a negative at all.
    Mr. Wolf. So, this summer you will make a decision?
    Ms. Garvey. I believe it is closer, actually, to September. 
This is the environmental work going on now, and there are a 
number of environmental issues being raised by neighbors and 
community folks. I know people in New York are meeting with 
them and there have been a number of public forums for people 
to voice the concerns that they have.
    Mr. Wolf. Do you agree that that is a major safety problem?
    Ms. Garvey. We know it is an issue we have to deal with and 
come to grips with. Absolutely.
    Mr. Wolf. How long will it take once you make a decision--
say, Labor Day--how long will it take until it is up and 
running and moving, roughly, and if you can elaborate a little 
bit more for the record?
    Mr. Belger. We will do that for the record.
    [The information follows:]

    The Environmental Impact Statement (EIS) process for Terminal 
Doppler Weather Radar (TDWR) to serve John F. Kennedy International 
JFK) and LaGuardia airports is well underway. A draft EIS was 
distributed to over 500 members of the public and government agencies 
in August 1997. The FAA accepted comments on the draft EIS through 
November 1997 and held 5 public hearings in Brooklyn and Queens during 
the comment period. A large number of verbal and written comments were 
received. These comments are currently under review by the FAA. An 
analysis of alternatives suggested by the public is being prepared for 
inclusion in the final EIS. The FAA expects to complete the EIS process 
by issuing a Final EIS by August with a record of decision by late 
fall.
    A commissioning date will be determined pending the results of the 
EIS process. If any site other than the current preferred site is 
selected, additional public hearings would be required.
    Assuming approval of funding in Fiscal Year 1999, construction 
would commence 2 months after the record of decision. The TDWR would be 
commissioned 12 months later.

    Mr. Wolf. But I would like to get some sense of this, 
because I think there is going to be opposition.
    Mr. Belger. That is what I was going to say.
    Mr. Wolf. But if you are bold and forthright and say this 
is a major safety issue and this is the fundamental problem for 
anyone flying into New York, I think----
    Ms. Garvey. Yes, we would support that.
    Mr. Wolf. Yes, you would support that. How long if you move 
normally?
    Mr. Belger. If we are not sidetracked by other appeals or 
obstacles, it is just a matter of the installation of the 
radar. I will correct this if I am wrong and too optimistic, 
but probably a year or less for the actual installation and 
commissioning of the radar.
    Mr. Wolf. By the end of 1999.
    Mr. Belger. I would hope. Hopefully we don't run into other 
obstacles.

        Standard Terminal Automation Replacement System (STARS)

    Mr. Wolf. On the issue of STARS, in our last hearing last 
October on STARS, the FAA said that human factors-related 
design changes could affect the program's cost and schedule. 
You said these changes might be more clear in April of 1998, 
next month's time frame. Do you have a better handle today on 
the cost and the schedule impact?
    Ms. Garvey. We have somewhat of a handle and we are going 
to have a better one in April, as indicated. Let me say, first 
of all, I think this committee did a wonderful thing in really 
acting as a catalyst to get the right group of people together 
to work on this issue. I am not overstating it when I say great 
progress has been made. The model we are establishing with 
STARS, a way to deal with human factors and to deal with them 
early on in the process, would be an excellent model as we move 
forward with other automation tools and with other new 
technology. I think both PASS and NATCA have felt very 
encouraged by the progress to date.
    I have been encouraged and I have been very appreciative, 
of the work that the union members have put into it, that the 
FAA management team has and that, frankly, Mitre and the IG as 
well, who have been active participants in this. We are in a 
very critical period now. We have dealt with, I think, most of 
the issues on the controller's side, we have a good process 
underway with PASS. We have gotten a little further behind, but 
I think we can close the gap quickly on dealing with the issues 
that PASS has raised. In 1998, I believe, we are down to about 
11 issues with NATCA, and a slightly larger number with PASS. 
But I talked to Mr. McNally and Mr. Fanfallone last week and 
said the next few weeks for our folks is going to be very, very 
important because we want to do this right. At the same time, 
we want to be mindful of a schedule and a budget and we want to 
make sure we are prioritizing the issues correctly.
    So we have agreed to meet either March 31st or early April, 
depending again when people's schedules allow, the first couple 
days in April; and the top folks, myself and Fanfallone and 
Mike McNally and the IG and so forth, and say all right, where 
are we, how much progress have we made and what needs to be 
resolved, and really take a look at it ourselves. So I am very 
encouraged. But I also, as Ken Mead said last week in one of 
the testimonies, it is also important we bring it to a 
conclusion, it not be an endless process. We must figure out a 
way to have a good strong exit criteria.
    Mr. Wolf. You are going to bring everybody together, the 
unions, everybody, and say this is it, put a bow on it.
    Ms. Garvey. Let's try to put a bow on it and let's try to 
move forward. It is really at that time we will have a better 
sense of what the cost implications are.

                          Stars Reprogramming

    Mr. Wolf. That is what I was going to ask you. What about 
the additional $28.9 million?
    Ms. Garvey. That is actually part of the reprogramming that 
we put in, even before we had these issues on the table; that 
that reprogramming allows us to deal with some of the software 
issues and also to advance the National piece. We are not sure 
yet whether that $28 million will deal with the human factors 
issues. Again, we will know more after our staffs are working 
it. We know Raytheon is working very hard to make sure they can 
address it, and trying to give us some budget numbers as well.


[Page 312--The official Committee record contains additional material here.]



                      stars accelerated deployment

    Mr. Wolf. Looking at it locally here, last year you agreed 
to accelerate the deployment of STARS for National Airport. In 
your reprogramming request, I see you are also planning to 
accelerate deployments for New York and Dallas-Fort Worth. Will 
you explain why the list of early deployment sites is 
expanding, and is this the final list, and what is the status 
of early deployment of STARS at National Airport, when do you 
think it will be at National Airport, bring us up to date?
    Ms. Garvey. Our contractor is still optimistic but, quite 
honestly, the human factors issues and software issues will 
impact Washington National as well. We will know better when we 
meet with everyone in April.

                       stars at national airport

    Mr. Wolf. What was the target for National?
    Ms. Garvey. It was at the end of the summer, early fall.
    Mr. Wolf. Do you think that is going to slip?
    Ms. Garvey. I think it may slip a little bit, but again we 
will know more after we meet with folks, because the human 
factors issues we are dealing with also, obviously, affects 
National. In fact, we are focusing on the National piece.
    Mr. Wolf. At the time you announced it would, would you be 
able to say it will be in National on this date?
    Ms. Garvey. That is our goal, that once we see how we do 
with our meeting with the union people and with Mitre, that we 
can collectively, as a group, say this is what our schedule is. 
I mean, we talked a little bit last week that, look, if this 
schedule slips by a few months but we have gotten what we need, 
which is the human factors dealt with in a way that will be a 
model for future deployments, then I think all of us can be 
comfortable. My great concern is if we are not able to 
prioritize some of the human factor issues, or if the list is 
really much more complicated than we thought, then the impact 
may be greater. That is really what we need to understand and 
certainly be back to you with that information.
    Mr. Wolf. So you really can't say when it will be.
    Ms. Garvey. Not at this point, until we explore the human 
factors issue a little bit more.

                      oversight of repair stations

    Mr. Wolf. Currently nearly half of the maintenance 
renovation and repair of commercial aircraft owned by U.S. 
airlines is conducted by independent repair stations rather 
than by air carriers themselves. They are located worldwide and 
use has grown significantly in recent years. In a recent audit 
of repair station oversight, GAO found the FAA was not 
deploying its staff efficiently to oversee these stations and 
that the FAA had no standards on what documentation should be 
kept by your inspectors. What is your overall response to the 
GAO findings?
    Ms. Garvey. We actually agree with the findings and the 
recommendations the GAO made in that report. We think they made 
some excellent recommendations and we implemented many of them, 
including the idea of using teams to take a look at the repair 
stations and focusing those resources in a team effort. We also 
looked at the documentation issues they raised, and so we are 
well on our way in terms of implementing those recommendations. 
That was one that I thought, where again having GAO weigh in 
with some specific recommendations and giving us an opportunity 
to respond in a timely fashion, I think was important.
    Mr. Wolf. Maybe you answered this, maybe not. If the FAA 
doesn't specify what documentation is to be kept on safety 
deficiencies, how will inspectors know when they conduct the 
followup inspection that the problems have been corrected?
    Ms. Garvey. I think that is quite honestly the fair issue 
that GAO raised for us. The documentation that we have in place 
now is much more specific and is something that you could use 
as a followup.
    Mr. Wolf. The report also notes GAO and IG have been 
reporting on FAA shortcomings and documenting inspection 
activities as far back as 1987. And I know you were in high 
school then. [Laughter].
    Ms. Garvey. I was, Mr. Chairman, thank you.
    Mr. Wolf. That is just an indication; 1997, 1998.
    Ms. Garvey. I hope, by the way, the laughter was not coming 
from anyone who works at the FAA.
    Mr. Wolf. The report also expresses concern over the, 
quote, ``relatively limited amount of oversight FAA gives 
repair stations compared with the oversight it gives air 
carriers.'' Each was to have a minimum of one facility 
inspection, while each air carrier was required to have many 
more. So you really have different standards and you are much 
more aggressive, which I think is appropriate. Probably on ones 
who have less of a problem in the areas where there might be a 
greater problem, there is less aggressive activity.
    The GAO interviews of FAA inspectors at European field 
offices found that in Europe, your inspectors spent 80 percent 
of their time on surveillance and the oversight of repair 
stations, whereas in the U.S., they spent only 30 percent of 
their time on surveillance, and this includes all types of 
facilities, not just repair stations. Why the difference?
    Ms. Garvey. I am not sure I can answer why the difference, 
except to say that the recommendations--we have made the 
modifications, based on GAO's report. But let me ask Guy if 
there is anything more you would like to add to that, Mr. 
Gardner.
    Mr. Gardner. No. We are addressing those issues. I don't 
have the response to the 80/30 percent, other than we are 
methodically working to equate foreign repair station oversight 
with domestic repair oversight.
    Mr. Wolf. The report went on to say FAA field inspectors 
who worked domestically and overseas want to extend the annual 
certificate renewal to domestic repair facilities. However, 
inspectors based in the U.S., it said, are more suspicious 
because they fear an increase in their workload. The least 
amount of support came from FAA management, and I think that is 
important. You have read the report?
    Ms. Garvey. Yes, I have studied the report and also been 
briefed by staff. Again I want to say this is one where--in the 
briefing I have had, people have embraced those recommendations 
enthusiastically and said this is really something we need to 
do. It is part of our action plan.

                         inspection regulations

    Mr. Wolf. Are the regulations being totally overhauled or 
will new regulations come out? When will they come out, just 
roughly?
    Ms. Garvey. Actually, a new part 145 NPRM is in the works 
right now. It is in executive review, ironing out some of the 
specific details of it, but we hope to have it out on the 
street very shortly.
    Mr. Wolf. Rich said it has been in the works about 8 years.
    Mr. Gardner. Yes, sir, it has.
    Mr. Wolf. That is a long time. When do you think it will 
actually be in effect? What is the problem? Maybe I am missing 
something here.
    Mr. Gardner. It is up at OST right now, sir. They had some 
changes they wanted us to make. We are making the changes and 
should be back there within a month.
    Mr. Wolf. Is there somebody lobbying against it? Is that 
part of the problem?
    Mr. Gardner. It is a very complicated rule, it covers a lot 
of things, and the specific difficulties of it I am not 
completely up to speed on. I will have to provide that for the 
record.
    [The information follows:]

    The oversight of the domestic and foreign stations is 
consistent with the certification basis of each station. For 
example, foreign repair stations have an initial and biannual 
recertification requirement, whereas domestic stations once 
certificated are not required to go through a recertification, 
and their certificates are valid until revoked or surrendered. 
All other aspects of oversight are identical.

    Ms. Garvey. I will mention there are a couple of key rules 
that we are very concerned about and working closely with OST's 
legal counsel to make sure we get them out. They have made some 
good suggestions and I think will make the rules we have been 
concerned about even better, but we need to move it out. We 
will follow up with the Chief Counsel's Office on that.

                       aviation safety inspectors

    Mr. Wolf. Eight years is too long, obviously. Eight months 
is too long.
    Congress has funded a 41.8 percent increase in the number 
of aviation safety inspectors, that is 984 inspectors, between 
1994 and 1998, and additional increases are proposed for 1999, 
45. The GAO report indicates that the FAA may waste these 
additional resources by not deploying them efficiently in 
teams. Is that one of the implementation--do you plan on 
following the GAO recommendations?
    Mr. Gardner. Yes, sir. Actually, as a result of the safety 
review done following the ValuJet accident, there is a 
tremendous renovation in both how we do inspection and how we 
prioritize our inspection resources, including the national 
certification team that is just now up to speed and starting 
their process. We are particularly looking at the new entrant 
carriers, but looking more at a national basis to address 
several of the issues you brought up here today, not only the 
issue of how do we focus and prioritize our resources but also 
to accomplish a better standardization of our inspectors across 
the spectrum of the United States and the world.

                           inspector training

    Mr. Wolf. In the GAO survey, safety inspectors also said--
80 percent of them believe that more training was needed on 
inspection skills, and almost half said that inadequate 
training undercut their ability to ensure compliance with 
existing safety regs. Is that in the budget this year, more 
training?
    Mr. Gardner. Yes, sir. As I mentioned, you gave it to us in 
the 1998 budget.
    Mr. Wolf. But in this coming year, too?
    Mr. Gardner. Yes, sir. That continues on in 1999 and on.
    Ms. Garvey. Mr. Chairman, I want to mention the 90-day 
report Mr. Gardner referred to. The IG and the FAA initiated 
very early in September a review of that. How well have we 
done? Have we implemented all of the recommendations that came 
out of a 90-day review? That review was just completed and sent 
up to the Secretary and we would be happy to provide a copy to 
you. I think it is a very positive report. It says that the FAA 
has made progress in some areas. It has pointed out some areas 
where perhaps originally the schedule we outlined may have been 
a little ambitious, but says we are on track. It made a couple 
other additional recommendations, including reporting to the 
Administrator on a quarterly basis. So I think it is, again, 
another example of a good cooperative working effort with the 
FAA. Both of our teams, the FAA and the IG, went down to 
Atlanta, spent time, really met with inspectors and teams. It 
was a very good effort and I am encouraged by the progress that 
we are making and will continue to make in that area.
    Mr. Wolf. How often do you meet with Mr. Mead and Mr. 
Anderson?
    Ms. Garvey. Mr. Anderson, less so, because Mr. Mead is part 
of the Department and I see him at the Secretary's staff 
meetings. I would bet we meet a couple times a week. We 
certainly talk at least two times a week, but we probably meet 
a couple times a week. He was a very active participant in the 
Task Force on Modernization and it was very helpful to have 
that perspective of somebody who has watched this through the 
years.

                 REGULATION AND CERTIFICATION STAFFING

    Mr. Wolf. Your fiscal year 1999 request for regulation and 
certification includes funding to raise end-of-year employment by 45 
during the fiscal year. The comparable increases in the two prior years 
were 632 and 372. Would you explain why the rate of staffing growth has 
slowed in this activity?
    [The information follows:]
    The rate of staffing growth has slowed in FY 1999 because the 
requirements which drove relatively large staffing increases in FY 1997 
and FY 1998 have been satisfied. Specifically, the FY 1997 and FY 1998 
increases were designed to increase staffing commensurate with staffing 
standards and with the 90 Day Safety Review. Having achieved these 
increases, the FY 1999 requested increase is based solely on projected 
growth using the current staffing models.
    A new integrated staffing model is being developed that will 
include essential elements of the existing flight standards staffing 
models, additional staffing identified as a result of the 90 day safety 
review, and other changes in work requirements, workload drivers and 
performance measures. With the planned completion of the model in the 
summer of 1999, it will be used to project future staffing 
requirements.

                           runway incursions

    Mr. Wolf. I give the Secretary a lot of credit for 
appointing him. I think it is one of the better appointments.
    We were disturbed over something Mr. Mead said, speaking of 
Mr. Mead again--what would we do without Mr. Mead and Mr. 
Anderson we don't know, we would have to rely on just one 
person--but Mr. Mead's testimony said that runway incursions 
are increasing. He said the FAA must focus like a laser on 
reducing runway incursions.
    What are your plans for dealing with this safety issue? 
And, again, they found out the FAA's regional offices did not 
focus their efforts on airports with the most runway 
incursions, they did not have a person designated to identify 
the causes of incursions or periodically analyze runway 
incursion data. Are you planning to make specific improvements 
at the field level? What are you planning with regard to this 
issue?
    Ms. Garvey. Mr. Chairman, on the issue of runway 
incursions, there were 10 recommendations that came out of the 
GAO report. They were also the same recommendations that came 
out of RTCA. We have embraced those.
    Mr. Wolf. RTCA. What is that?
    Mr. DeGaetano. It no longer stands for anything. It used to 
be Radio Telecommunications Administration.
    Ms. Garvey. I just deliver the message. This is the 
industry branch that takes a look at some of the 
recommendations as well. They have come up with the same. All 
10 are in our strategic plan, they are part of our action plan. 
We have actually implemented some of them having to do with 
procedures.
    The issue that you mentioned is one that we have talked 
about internally and Ken has raised as well, which is how can 
we get the air traffic operation and the airports people to 
sort of come together on this issue. Susan Kurland has been 
working with Monte to really appoint the right people in the 
region so we have communication and we have coordination 
between the airports office and air traffic control, but the 10 
recommendations that came out of GAO are very much a part of 
our strategic plans.
    Mr. Wolf. Are they the same 10 recommendations that came 
out of Mitre in 1994?
    Ms. Garvey. I would bet they are very similar. I am not as 
familiar with the Mitre report, but we talked with Mitre about 
runway incursion.
    Mr. Wolf. Are you going to ask they follow up with this?
    Mr. Belger. Mitre is helping us. Mitre has already 
conducted a survey of pilots and is in the process of 
completing a survey of air traffic controllers, specifically on 
the question of runway incursions. These are all being 
incorporated into our new runway incursion action plan which we 
will publish in June. That will incorporate all the 
recommendations from the IG, from the advisory committee, and 
some other recommendations that we are coming up with on our 
own. Specifically, one of the actions will be to establish, in 
fact we are already doing it, runway incursion action teams in 
each of the regions. That will be a specific action that we 
will follow through on. In fact, some of the teams have been 
out and visited airports and some of the fixes that we have put 
in place, like in Cleveland, which was mentioned as one of the 
airports with the highest occurrence of runway incursions, have 
already shown results. And so we are optimistic that we will 
stay on top of it this time.
    Mr. Wolf. Why did it take the IG, though, to have to do 
this?
    Mr. Belger. I think it was a question of, quite frankly, 
just a question of priorities, and we perhaps didn't put enough 
emphasis on the runway incursion program over the past 2 or 3 
years. I think that is probably the most straightforward 
answer.

                       trend in runway incursions

    Mr. Wolf. For the record, maybe you can tell me if you have 
it, how many runway incursions have there been, say, in 1997, 
1996 and 1995? They are up. Can you tell us a little bit, so 
this will be complete for the record?
    Mr. Belger. We will provide the specific numbers for the 
record, but the trend in runway incursions are increasing.
    [The information follows:]


[Pages 319 - 322--The official Committee record contains additional material here.]



                    RUNWAY INCURSIONS--MITRE REPORT

    Mr. Wolf. In 1994, Mitre issued a report on the runway incursion 
problem and recommended 10 areas for improvement. To what extent has 
FAA resolved those 10 areas, and what further progress is needed.
    [The information follows:]
    The following describes the status of the recommendations, 
including those recommendations that are under consideration.


[Page 324--The official Committee record contains additional material here.]



    Mr. Wolf. Are you planning to have Mitre follow up this year on 
that earlier report?
    [The information follows:]
    MITRE issued two reports on Airports Surface Operations in the 
1994-1995 timeframe. The first, Part 1, identified problems and 
proposed solutions for Surface Navigation and Communications, and was 
issued in May 1994. Those recommendations, in part, were included in 
the FAA's 1995 Action Plan.
    The second, Part 2, identified problems and proposed solutions for 
Surface Operational Procedures and Factors Affecting Pilot Performance.
    Both Part 1 and 2 were reviewed by the Runway Incursion 
Subcommittee of the RE&D Subcommittee last year. Their report was 
issued January 1998, and incorporated MITRE's issues, when appropriate.
    The FAA is currently preparing the 1998 Airport Surface Operations 
Safety Action Plan. The approach in this preparation is to create 
specific and measurable goals and objectives based on past 
recommendations. This plan will be completed by June 30, 1998.
    MITRE is assisting the FAA with an air traffic controller survey, 
which will be similar to the efforts MITRE conducted in 1994 for 
pilots. Their work is scheduled to be completed in September 1998. If 
necessary, the FAA will revise their action plan in response to this 
survey.
    MITRE is also conducting a review of the Airport Movement Area 
Safety System (AMASS). This work should be completed this fall.

                           runway incursions

    Mr. Wolf. By?
    Mr. Belger. It is significant, let me put it that way. It 
is enough for us to be concerned and to make it a major part of 
the strategic plan and a major part of the Administrator's 
initiatives for this year.
    Mr. Wolf. Any fatalities?
    Mr. Belger. There have been fatalities as a result of 
accidents, yes. We categorize runway incursions into three 
categories: those caused by errors and mistakes made by air 
traffic controllers; those caused by errors or mistakes made by 
pilots; and those caused by people inadvertently, whether 
employee or pedestrian, getting on the runway where they 
shouldn't be, or vehicles on the return way that shouldn't be 
there.
    The single biggest area where we have seen an increase in 
runway incursions is in the area of pilot deviations or pilot 
errors in the general aviation community. That is the area 
where the increase has been the most dramatic, and that is 
where we are really going to focus our efforts, in the areas of 
education, in the areas of visual aids on the airports to help 
the pilots. Whatever we can do to make the airport easier for 
the pilot to use decreases the likelihood that a mistake will 
be made.
    Ms. Garvey. Mr. Chairman, just as an anecdote, I am just 
remembering Mr. Morgan last week brought to our senior staff 
meeting a letter following on some of the activities from the 
teams that Monte has talked about, where a particular airport 
that talked with the FAA about the importance of this. An 
airport director noticed that there had been a violation and 
got right out with a letter to the pilot, citing the concern of 
the FAA that the FAA had raised around incursions, and 
mentioned that this is an important issue and you really have 
to pay attention. So I thought it showed the level of 
consciousness for some of the airports, too, it was raising on 
this issue.

                near mid-air collisions/pilot deviations

    Mr. Wolf. I also think this is an opportunity for the bully 
pulpit, too, when you see some of these issues. As Mr. Belger 
seemed to say, it just kind of got away from you. It is almost 
like--and I have used this example before in the hearings--when 
you were a little kid, you watched the Ed Sullivan Show, and 
the magician came on and he would spin the plates, and after he 
would turn around he would talk to the audience and the 
audience would holler that the plate is ready to fall and he 
would quickly spin it again. I think it is a question of going 
back and spinning the plates, and I think speaking out about it 
verbally in communications, giving speeches on it, I think 
sensitizes people.
    On another safety issue, near mid-air collisions were up 
22.5 percent last year, from 195 to 239, and pilot deviations 
were up 18.1 percent, from 1,288 to 1,521. Is this something 
else we should be worried about or something we should be doing 
something about; is this part of your program?
    Mr. Belger. I think we should. We are concerned about any 
increases in those trends. Each one of those pilot deviations 
and near mid-air collision reports is investigated, and we are 
looking for trends in areas we can really focus on, if there 
are any trends.
    Mr. Wolf. Is there a trend?
    Mr. Belger. I am not aware of any particular trends coming 
out of that increase, but we continue to look at each one of 
them.

                       acquisition reform savings

    Mr. Wolf. The Civil Aviation Review Commission expressed 
the opinion--this is on the funding issue--that FAA's 
modernization program needed additional resources, and its true 
funding in this area has been reduced over the past few years. 
Yet, as we noted in our committee report last year, the FAA 
told us acquisition reform would save as much as 20 percent of 
the cost of the new systems, allowing you to buy more with the 
money you have. Two years into acquisition reform, there really 
haven't been the significant savings. Do you have any comments 
about that?
    Ms. Garvey. Let me make a couple comments.
    Mr. Wolf. Do you think it will produce the savings?
    Ms. Garvey. I think it will produce the savings, and I will 
provide this for the record. Some of the contractors have told 
us there are savings just in doing the early phases, just in 
getting the contracts in. I think a lot of what acquisition 
reform will produce still needs to be measured. It is still 
very early on in the process, and even determining some of the 
metrics, I think, is something we are focused on. How do you 
determine the metrics of whether it has been successful or not?
    For me, the key to modernization is putting in place those 
early building blocks so you can really have something to show 
for it, that I think we are going to be able to drive. At least 
in listening to industry and people like Mitre who spent time 
on it and listening to people within the FAA, that if we are 
able to put in place the early deployments, we will get the 
results we want, that we need. Some have suggested we will get 
them even at cost savings.
    I am not sure about that, and I think those are numbers we 
need to run and we are running those numbers presently. But I 
think acquisition reform is still very much in its infancy. 
There still are some benefits that can be derived.

    Based on the FAA's internal assessment and the independent 
assessment of the first year (April 1996--March 1997) under acquisition 
reform, we have found significant reductions in the time required to 
award contracts. This reduction in time translates to better 
utilization of resources and reduced expenses associated with contract 
awards. We are currently performing our assessments of the second year 
which ends March 30, 1998.
    Based on the independent assessment of the FAA's first year under 
the Acquisition Management System, we found a reduction in the time to 
award an average contract of 53 percent. This equates to a reduction in 
the number of days to award an average contract from 380 days to 178 
days, a savings of an average of 202 days. We also found a reduction of 
time from announcement of contract award of over 30 percent. This time 
savings ultimately translates to significant dollar savings.
    Concerning small procurements, we estimate the savings from 
increased use of credit cards as a procurement medium to be $1.4M.
    Finally we have increased our emphasis on the use of commercial off 
the shelf and non developmental items (COTS & NDI) throughout the 
agency. This tends to result in significant cost savings.
    We are currently tracking all major procurements which have been 
approved since the inception of acquisition reform. We will compare 
these programs with projects awarded under the old system and will be 
able to quantify savings in future years.

    Mr. Wolf. And this is not meant as a joke, but you will be 
around to see these.
    Ms. Garvey. I will.
    Mr. Wolf. Because you have 5 years.
    Ms. Garvey. Four years, 6 months, 22 days and 16 hours. 
[Laughter]. Although I was interested, Mr. Chairman, that you 
were considering an 8 to 10 year term that you mentioned 
earlier.
    Mr. Wolf. I hope we can say if they took your picture 6 
months ago and take it 5 years from now----
    Ms. Garvey. That is what I am the most worried about, if 
you really want to know the truth.
    Mr. Wolf. I remember seeing the pictures of President 
Carter after 4 years, and he didn't have nearly as tough a job 
as you have. It will be interesting to watch. Can we get a 
camera in here? [Laughter].
    Ms. Garvey. Before and after.

                    facilities and equipment request

    Mr. Wolf. Your F&E budget requests $2.1 billion, a 13.6 
percent increase over the previous year. If this is approved, 
it will represent the highest level of modernization funding in 
6 years; yet some in the aviation community say this is far 
from adequate, and we hear calls for a level of $2.4 billion. 
Is your F&E request adequate for next year?
    Ms. Garvey. I think it is adequate for next year, Mr. 
Chairman. It does grow from $2.1 to $3 billion over a 5 year 
period, (1999-2003) for the early building blocks for Free 
Flight Phase 1 that RTCA and the Task Force have put forward. 
We are looking at that carefully in light of the President's 
budget.
    I was encouraged by the early comments we got back from the 
budget people. They are feeling reasonably optimistic. But we 
do have more analysis to do on that. Part will be determined by 
how many sites we deploy some of the activities on, and that 
will affect the budget a little bit. I feel reasonably 
confident right now and very good about the President's budget 
with the Free Flight Phase 1, and will certainly be in close 
communication with Members of Congress as we move forward. And 
also, by the way, with OMB. They have been very supportive in 
our discussion yesterday with Michael Deich. He was encouraged 
by the consensus that seems to be growing in industry, and 
said, ``Look, let us know, if you have the consensus and can 
move out more this year. Let us know that.''
    Mr. Wolf. Is he your OMB examiner?
    Ms. Garvey. He is actually higher even than the examiner. I 
think the examiner is John Ball right here. John has left. 
Whew, I can relax. [Laughter].

                F&E PRIORITIES & MODERNIZATION OFF-SITE

    Mr. Wolf. As I understand it, you have been working with outside 
groups such as the RTCA Free Flight Select Committee and the 
Modernization Off-Site Task Force to determine whether the 
modernization plan can be phased in a more focused way, to get improved 
services and equipment into the field sooner. I know you were trying to 
have some decisions made in this area by the date of this hearing 
today. Can you share with us any decisions you have made?
    [The information follows:]
    A proposal was made at the January 23 meeting of the NAS 
Modernization Task Force for a revised approach to NAS Modernization 
which outlined a Free Flight Phase I concept. Drawing on the draft NAS 
Architecture version 3.0, this approach was proposed with the purpose 
of minimizing risks, providing user commitment, and advancing 
capabilities that would assure early user benefits within budget by the 
year 2002. Research and Acquisition, Air Traffic Services, and 
Regulation and Certification organizations are directed to give this 
proposal their top priority. We will then provide this assessment and 
data to the RTCA Free Flight Select Committee and work with them to 
come up with the best possible approach, along with a plan for how we 
can successfully implement Free Flight Phase I.
    The plan is to reach agreement with industry at the April meeting 
of the Government/Industry Free Flight Steering Committee. We need the 
consensus and commitment of both Government and industry if we are to 
be successful.
    Mr. Wolf. Does all this recent activity indicate that many of your 
1999 budget requests for individual programs are no longer valid--that 
some will need more money, and others less?
    [The information follows:]
    Some adjustments to FAA's 1999 budget will have to be made to 
accommodate the recommendations of the NAS Modernization Task Force and 
the RTCA Free Flight Select Committee. We are in the process of 
finalizing the analysis. Some of those programs associated with Free 
Flight Phase I will require additional funding in FY 1999, and others 
will have to be adjusted downward. The adjustments will be zero sum and 
the reductions will have to come from lower priority programs that will 
have to be delayed into the out years.
    Mr. Wolf. If so, when will you be able to submit an update to the 
budget requests for your specific programs?
    [The information follows:]
    The FAA will know what adjustments must be made to the 1999 budget 
in the April-May time frame.

                    hartsfield international airport

    Mr. Wolf. Last year's committee report stated that the FAA 
should continue its responsibility for financing navigation 
systems and landing aids, and should not shift those 
responsibilities to airports. Why then did the FAA Southern 
Region notify the Atlanta Hartsfield International Airport in 
January of this year that the city of Atlanta would be 
responsible for funding the ILS, runway visual range and the 
lighting system for the new runway?
    Ms. Garvey. Let me say that is an issue we have revisited 
that is going to be part of the year 2000 budget. We looked at 
the schedule for Atlanta. The runway is scheduled to be on line 
in the year 2002, so we think the year 2000 will be the 
appropriate time. The whole issue of lighting is one that has 
been debated within the agency and also with some of our 
stakeholders. I believe it is more appropriate for this to be 
part of our budget in 2000.
    Mr. Wolf. So we can tell the Members from that area.
    Ms. Garvey. Yes.
    Mr. Wolf. Did Denver Airport pay for the navigational aids 
and lighting systems and the radars?
    Ms. Garvey. I believe they did not, but I would want to 
verify that for the record and, Monte, you may remember.
    Mr. Belger. The navigational aids, the radars, would have 
been installed by the FAA under Facilities and Equipment costs.
    [Additional information follows:]

    No, Denver did not pay for the navigational aids, lighting systems 
radars, and control tower, in the Facilities and Equipment budget.
    The New Denver Airport Project was a special F&E project for a new 
airport, submitted through the Capital Investment Plan (CIP) process 
and funded under a separate F&E budget line item.
    The Atlanta project is an AIP project for an additional runway to 
an existing airport. The FAA F&E projects do not normally procure 
equipment for AIP projects. In this case, however, the FAA will submit 
a project in FY2000 to fund the equipment procedures.
    Mr. Wolf. The letter from Southern Region said ``at the present 
time, the FAA does not plan on funding any future ILS's.'' Isn't it 
likely that you will need additional ILS systems, given the need for a 
backup system for GPS?
    [The information follows:]
    The Federal Aviation Administration expects Global Position Systems 
(GPS), to reduce the need for many of the current land-based radio 
navigation systems, including Instrument Landing Systems (ILS) which 
support Category I operations. We are in the process of determining if 
a backup system (such as Loran-C) for GPS is necessary. We have not 
identified a requirement for additional ILS's as a backup for GPS.

    Mr. Wolf. Was Atlanta Hartsfield treated differently than 
the new Denver airport?
    Mr. Belger. As you referred to, about a year ago I guess, 
or maybe more, we were thinking about the possibility of 
transferring some of these costs, for lights particularly, and 
for some instrument landing systems and certain categories over 
to the AIP program. We never followed through with that, so I 
think there might be some communication.
    Mr. Wolf. Do you think they were treated fairly, if an 
objective person came in and looked at Denver?
    Mr. Belger. Yes, sir. It is appropriate for the FAA to 
install the navigational aids and radars, as we do at all other 
airports.

   NAVIGATION AND LANDING SYSTEMS AT HARTSFIELD INTERNATIONAL AIRPORT

    Mr. Wolf. The FAA's airports' office recently signed a $75 million 
letter of intent in support of Atlanta's new runway. Yet the regional 
office and acquisition executives will not pay for the FAA equipment 
necessary for the new runway to open. Can you see how this sends mixed 
signals to communities like Atlanta about the steadfastness of FAA's 
support?
    [The information follows:]
    The expansion of the Hartsfield International Airport is a priority 
for the FAA. The FAA will fund a new runway and equipment for a new 
tower. This will allow sufficient time to procure and install the 
equipment to meet the proposed commissioning date of the new runway in 
2002.
    Mr. Wolf. Until this Committee stepped in and added funds to the 
budget, FAA officials had been telling Atlanta that they would have to 
pay the costs of a new consolidated radar facility in order to achieve 
airspace efficiencies. Then they told the city they would have to pay 
for their new control tower. After this, the agency advised Atlanta 
that, although they had reserved a precision runway monitor for the 
airport, the City would have to pay the FAA to install it; and now they 
say Atlanta will have to find money for navigation aids and lighting 
systems for the new runway to open. Is there some reason why Atlanta is 
being asked to pay so many costs which have almost always been paid by 
the FAA?
    [The information follows:]
    The FAA is funding the cost of the new consolidated radar facility. 
It is currently scheduled for commissioning in July 2000. The FAA will 
fund the installation of the precision runway monitor, the navigation 
aids and lighting system.

                               year 2000

    Mr. Wolf. Maybe we can just continue, if you don't mind. 
That way we won't even have to take a break and we can just 
finish. There are a number of other questions, but we will 
submit them for the record. I think we covered the year 2000 
issue. I would like to go out----
    Ms. Garvey. We would love to have you.
    Mr. Wolf. Maybe we can pick a Friday or something.
    Ms. Garvey. I think I mentioned I spent New Year's Eve with 
the Deputy Secretary at the command center.
    Mr. Wolf. How big is the command center?
    Ms. Garvey. Not big enough. No, it is actually several 
offices. But we are right with Coopers, so that we have our 
business partner with us as we are looking at the issues. Ray 
Long now has both an office in headquarters and at the command 
center.
    Mr. Wolf. We will submit most of these for the record. I 
think we have covered a large number of them.

                          HOST COMPUTER SYSTEM

    Mr. Wolf. What is the total cost to pursue a parallel repair-and-
replace strategy for the HOST computer system, and how much funding is 
included in your fiscal year 1998 budget and 1999 request to address 
the HOST problem?
    [The information follows:]
    The total amount requested to pursue a parallel repair-and-replace 
strategy for the HOST computer system is $149.3 million in FY 1998-
1999. Of that amount, $2 million is included in the FY 1998 Y2K 
reprogramming request to renovate software and microcode; $75.3 million 
was proposed for FY 1998 reprogramming to replace the HOST; and $72 
million is contained in the FY 1999 President's budget.

                           YEAR 2000 PROBLEM

    Mr. Wolf. What is your total estimated cost to analyze and fix the 
Y2K problem at FAA, and what confidence do you have in that number?
    [The information follows:]
    The total estimated cost (FY97-01) to analyze and fix the Y2K 
problem at the FAA is currently $156.1 million.
    These cost estimates are the result of completed assessments of all 
430 agency mission critical systems. Of the 784 total FAA systems, 684 
of those have been assessed. The remaining 100 non-mission critical 
assessments will be completed by April 15, 1998.
    We are currently assessing the impact of a five month schedule 
acceleration on our cost estimates.
    Mr. Wolf. What is your fiscal year 1999 request and in which 
appropriations is that funding located?
    [The information follows:]
    FY 1999: $36 million (F&E appropriation).
    Mr. Wolf. I understand you have set aside about $50 million in the 
1998 operating budget for Y2K work. Which Y2K activities are funded 
with operating funds and which are funded with capital dollars?
    [The information follows:]
    The only set aside in Operations in fiscal year 1998 is within Air 
Traffic Services; and the amount is $15.8 million versus $50 million.
    The majority of Y2K renovation will be funded with capital (F&E) 
dollars; $18 million was appropriated in fiscal year 1998 in F&E for 
Y2K, plus $37.7 million in the FY 98 reprogramming package. F&E funds 
are being used for both operational air traffic systems and those in 
development.
    Mr. Wolf. What activities are being deferred or eliminated during 
fiscal year 1998 because of the need to dedicate $50 million to Y2K?
    [The information follows:]
    Based on our January 30, 1998, cost figure, we estimated that 
approximately $25.3 million will be absorbed by Operations. This number 
may change when new cost estimates are provided at the end of April 
consistent with plans to accelerate the Y2K implementation schedule. 
Some of the activities that may be reduced to absorb estimated costs 
include telecommunications and stock and stores.

                     Host Replacement and/or Repair

    Mr. Wolf. Do you consider the HOST repair and replacement project 
as part of the Y2K problem? Why or why not?
    [The information follows:]
    The FAA is proceeding with an accelerated acquisition for HOST & 
Oceanic replacement systems primarily due to supportability issues and 
potential Y2K risk. The current systems' hardware supportability is 
questionable due to parts and repair skills availability. While this is 
the major driver for the hardware replacement, replacement is one of 
the two parallel approaches being pursued to mitigate potential Y2K 
risks for the HOST. Renovation of the FAA software and machine 
microcode is also being aggressively pursued in parallel, the original 
equipment manufacturer will not certify that the HOST & Oceanic 
computers are Y2K compliant.
    Mr. Wolf. What is the total cost to pursue a parallel repair-and-
replace strategy for the HOST computer system, and how much funding is 
included in your fiscal year 1998 budget and 1999 request to address 
the HOST problem?
    [The information follows:]
    The total amount requested to pursue a parallel repair-and-replace 
strategy for the HOST computer system is $149.3 million in FY 1998-
1999. Of that amount, $2 million is included in the FY 1998 Y2K 
reprogramming request to renovate software and microcode; $75.3 million 
was proposed for FY 1998 reprogramming to replace the HOST; and $72 
million is contained in the FY 1999 President's budget.
    Mr. Wolf. When will you decide whether this parallel strategy 
(suggested by the IG) is necessary?
    [The information follows:]
    In her testimony to this subcommittee on February 4, Administrator 
Garvey indicated that she agreed with DOT Inspector General Mead's 
recommendation of a parallel approach, and directed the FAA to proceed 
accordingly.
    Mr. Wolf. The FAA's original cost projections estimated it would 
cost $1.50 per software line of code to fix air traffic control 
systems. Especially since much of this software is written in the older 
Ada and Jovial programming languages, it is conceivable that cost could 
be much higher than that. What are your current estimates?
    [The information follows;]
    Certain industry experts estimate the cost of code replacement at 
between $1.50 and $4.00 per line of code.
    The FAA is using estimates up to $8.00 per line of code, contingent 
on system complexity, for air traffic control systems.
    For administrative and non-ATC systems, the FAA is using estimates 
between $3.00 and $4.00 per line of code.

                           Year 2000 Problem

    Mr. Wolf. Do you have a published contingency plan that could be 
immediately implemented should significant Y2K problems appear, and has 
that been properly coordinated with airlines, manufacturers, general 
aviation groups, and others?
    [The information follows;]
    We have non-Y2K specific contingency plans in place for every 
deployed system in the National Airspace System (NAS), that can be 
implemented in the event of system outages.
    In addition, a Y2K contingency plan exists for each NAS system. The 
FAA Year 2000 Program Office is in the process of determining the 
status of non-NAS (administrative systems) contingency planning.
    An agency-wide Y2K contingency plan has been mandated by the FAA 
Y2K Program Office, and is currently being developed. This plan will be 
broadly coordinated with airlines, manufactures, general aviation 
groups, and others with a need to know.
    Mr. Wolf. The PASS maintenance workers union suggests that 
additional funding is needed to fiscal year 1998 and 1999 to train 
Airway Facilities System Specialists on new computers being installed 
to address the Year 2000 problem, especially if you replace the HOST 
computer. Could you address the adequacy of your budget for such 
training?
    [The information follows;]
    The replacement of the Host of Oceanic computer hardware is one of 
our top priority efforts. We submitted a Facilities and Equipment (F&E) 
reprogramming request to Congress for $75.3 million in FY 1998, which 
includes training for Airway Facilities technicians. Our FY 1999 F&E 
budget requests funding to continue the effort.

                   explosive detection systems (eds)

    Mr. Wolf. Mr. Pastor raised a couple of issues we were 
going to raise. The FAA's capital appropriation is generally 
considered to be for establishment and modernization of the air 
traffic control system; the airports grant program, known as 
AIP, is for airport development and planning, including grants 
for enhanced airport safety and security.
    Given the purposes of these appropriations, why is funding 
for acquisition and installation and new explosive detection 
systems at airports more appropriately an expense of the F&E 
account rather than the AIP account?
    Ms. Garvey. That is an issue we have talked about with OMB 
and within the administration, and because the Gore Commission 
came out so firmly establishing security as a National Goal or 
a National interest, if you will, we felt it was more 
appropriate to be part of the F&E account. I think as airports 
become more familiar with some of this equipment, and as it 
becomes more institutionalized, if you will, it may be an issue 
that will be raised again and discussed in that context.
    Mr. Wolf. Didn't Congress make security systems eligible 
for AIP?
    Ms. Garvey. I did not think it was eligible for AIP. Let me 
go back and check, Mr. Chairman.
    Mr. Flynn. There is language in the authorization 
permitting the expenditures of AIP for explosive detection. 
Whether that is equipment that can be used by the airlines, 
fulfilling their regulatory responsibility, versus the 
airports, is among the issues that we need to work through in 
the process the Administrator was mentioning.
    Mr. Wolf. How are you doing that--are you doing that with 
your lawyers, or what are you doing?
    Mr. Flynn. It is a matter of lawyers looking at the law, of 
appropriate precedents.
    Mr. Wolf. How long has that been in question?
    Mr. Flynn. It only came to my attention within the last 
month or so.
    Mr. Wolf. When do you think it would be resolved? Fairly 
soon?
    Mr. Flynn. I wouldn't give an estimate of that now. If we 
could look into it and provide an answer for the record.
    [The information follows:]

    In 1997 the White House Commission established aviation 
security as a national interest and the Congress supported the 
initiative by providing additional funds in the Facilities and 
Equipment (F&E) account to begin procuring advanced security 
equipment for airports. During the FY 1999 budget formulation 
process, we discussed alternatives for continued security 
funding, including the use of AIP. We concluded that funding 
security equipment in the F&E account is appropriate, 
considering the integral part that aviation security is to the 
entire safe, efficient operation of the National Airspace 
System.

                           eds certification

    Mr. Wolf. Okay. Mr. Pastor raised the question about other 
competitors being certified. Did you want to tell us a little 
bit more? I wasn't quite clear if you were going to wait for 
the certification or if you were moving ahead aggressively.
    Mr. Flynn. The certification standard is important. In the 
1997 Supplemental Appropriations Act, we were also directed to 
buy some uncertified equipment, so the division is 54 certified 
equipment.
    Mr. Wolf. Is what?
    Mr. Flynn. Fifty-four units of the certified equipment and 
22 machines--also for screening checked baggage--that were not 
certified, that we would use as high-speed surrogates for 
eventual high-speed certified equipment. In the request for 
fiscal year 1998, the request is for certified equipment. It is 
for 20 machines, which will be--the only certified ones now are 
the CTX 5000 made by InVision. We expect the one made by L3 
Communications will come for certification testing in April.
    Mr. Wolf. Next month?
    Mr. Flynn. Next April. Now, we have had some problems 
there. It first came for certification testing in January and 
has missed a couple of dates since, so we are not certain that 
it will pass certification testing in April. Then there are two 
other machines, one made by InVision and one made by Vivid 
Technologies, that will be coming for certification testing 
later this year. If they pass certification testing, and we 
have reasonable expectations that they will, we would fund 
their initial procurements in 1999 because they will be right 
up against the end of 1998 when they are certified.
    Mr. Wolf. Are they all three American companies?
    Mr. Flynn. Yes, they are all American companies.
    Mr. Wolf. What are the foreign companies doing in this 
area?
    Mr. Flynn. They don't have anything quite in the same 
league. Heimann makes one of the uncertified----
    Mr. Wolf. Excuse me. Rich was saying there is one foreign 
company.
    Mr. Flynn. Yes, Heimann is a manufacturer of X-rays, and we 
have bought two of their machines because they seem to be 
particularly appropriate in combination with another 
technology.
    Mr. Wolf. When will these be deployed?
    Mr. Flynn. They are being deployed right now.
    Mr. Wolf. How many are deployed?
    Mr. Flynn. We have 13 deployed now.

                   1998 REPROGRAMMING REQUEST FOR EDS

    Mr. Wolf. Your February 13th reprogramming request includes $25.1 
million for explosives detection equipment. Can you give us an idea of 
how this would be distributed among the various types of equipment and 
manufacturers?
    [The information follows:]
    The breakdown of the planned purchases is:

------------------------------------------------------------------------
                                                               Est. cost
              Vendor                       Equipment            ($000)  
------------------------------------------------------------------------
InVision Technologies............  16--CTX-5000SP...........     $14,400
Vendor(s) TBD....................  Four--2nd Generation EDS.       3,600
Raytheon Service Co..............  Integration Services.....       3,500
Lockheed Martin..................  Integration Services.....       2,500
Vendor(s) TBD....................  20--Explosives Trace            1,100
                                    Detection Devices.                  
------------------------------------------------------------------------

                      EXPLOSIVE DETECTION SYSTEMS

    Mr. Wolf. Last year, this Committee recommended funding to prevent 
a shutdown of the manufacturing line at InVision. The administration 
did not support this, and used prior year funding to buy other, 
uncertified systems rather than keep the InVision production line going 
at a healthy rate. Yet, now you are concerned about the InVision 
production line. Why the change of heart?
    [The information follows:]
    The FAA purchased a limited number of automated x-ray and quadruple 
resonance checked baggage screening systems consistent with the Federal 
Aviation Reauthorization Act of 1996, the Omnibus Consolidated 
Appropriations Act of 1997 and the recommendations of the White House 
Commission on Aviation Safety and Security. These 22 devices were 
purchased from funds provided in the Omnibus Consolidated 
Appropriations Act along with the purchase of 54 certified systems.
    The InVision CTX-5000, a computed tomography (CT) based machine, is 
currently the only device to meet the stringent national EDS 
performance standards required for certification. During 1998, FAA 
expects several candidates for testing. L3 Communications' second-
generation CT based EDS is currently undergoing certification testing. 
InVision's second-generation CT system, the CTX 6000, is expected to be 
ready for certification testing this fall. VIVID Technologies' multi-
view automated x-ray system's certification testing is expected late 
this summer. The goal is to achieve the high level of certified 
performance while offering improved operational characteristics, 
especially throughput, false alarm rate, and cost.
    <bullet> The continued viability of the only available source of 
FAA-certified EDS equipment was an important consideration. If the L3 
is certified in April, it will take 90 to 120 days to produce a limited 
quantity of systems to be deployed in airports for operational testing 
and take 6 to 9 months to manufacture full production units with all 
support capability in place for major acquisition. Even after FAA 
laboratory technical performance criteria are met for certification, 
the following support requirements must be met for widespread 
operational deployment:
    <bullet> Test Procedures for Factory, Site, and Operational 
Acceptance.
    <bullet> Image Quality Test Bag--Provides capability for daily 
calibration.
    <bullet> Training Program for Screeners and Ground Security 
Coordinators.
    <bullet> Threat Image Projection--Provides capability to monitor 
on-line performance of screeners.
    <bullet> Field Data Reporting--Provides capability to monitor 
operational system performance.
    Five CTX-5000SP units were initially procured and deployed for over 
a year, before a contract was awarded in December 1996 to procure 54 
additional units. From lessons learned, the time required from 
certification to producing an operational production model with all 
support features will be reduced to 6-9 months. This will allow major 
acquisition and deployment to occur in FY 1999.

    Mr. Wolf. Does it take any particular skill to operate 
them?
    Mr. Flynn. Yes. These are similar to hospital CAT scans.
    Mr. Wolf. What is the salary they are paying the people 
that are operating them?
    Mr. Flynn. It is around $6, $6.50 an hour.
    Mr. Wolf. We have seen reports, and they may or may not be 
true, of people leaving and going to work at McDonald's, or 
going to work at other restaurants. Are those stories accurate 
or is that just an exaggeration?
    Mr. Flynn. I don't think it is an exaggeration. I am sure 
that has happened. However, there are some things; the 
performance of screeners at screening checkpoints has improved 
in our testing. We intend to have a regulation which will 
cause, will require, improved performance. We want to have ways 
of measuring that accurately, the performance, in detecting 
difficult-to-detect things such as improvised explosive 
devices, that is to say bombs. With those requirements on the 
screening companies, it will be necessary to retain employees 
longer; consequently, it will be necessary to compensate them.
    Mr. Wolf. What is the turnover rate?
    Mr. Flynn. As we discussed last year, it is unacceptably 
high. The statistics that we provided for that last year showed 
a range from 30 percent--which is barely acceptable for the 
kind of work that might be used in using a CT machine--to 400 
percent.
    Mr. Wolf. Four hundred percent?
    Mr. Flynn. In some airports.
    Mr. Wolf. Why would the swing be so great?
    Mr. Flynn. It depends on the local market, the size of the 
airport.
    Mr. Wolf. Harder to retain someone in a high-tech area 
where there are plenty of jobs.
    Mr. Flynn. And also the conditions. It can be quite a 
stressful job, screening at a very busy center, and indeed 
there are more jobs at those airports.
    Mr. Wolf. And that person's salary is paid for by the 
airport?
    Mr. Flynn. No, sir; no, Mr. Chairman. It is paid, in the 
first instance, by a screening security company which is under 
contract to an airline.
    Mr. Wolf. How would it work at Dulles, for example? You are 
coming out through the main system; I mean, it is several 
different airlines you are servicing. Do they pool that?
    Mr. Flynn. Yes, they do and we regulate through a joint 
screening checkpoint that is screening for several airlines, 
and then the actual operator there, for example, is Argenbright 
Security, and they are under contract to the airlines 
concerned.
    Mr. Wolf. If you find one not doing well, do you make a 
recommendation to the airlines that they change?
    Mr. Flynn. We make strong recommendations to them that the 
performance should improve, and sometimes that can lead to the 
airlines having a change of contractors; yes.
    Mr. Wolf. Okay. Well, if you could for the record update us 
on this. I mean, at times I just didn't have a lot of 
confidence, and other times I did. I know it is a very, very 
stressful and tough job, and we should have a lot of respect 
for the people doing it. My sense is the salaries ought to be 
higher. I mean, you can't get a high school kid to come cut 
your grass for that--and I think it is just too low. They are 
not treating people fairly. It is a very important job.
    Ms. Garvey. This is an issue the airlines have raised with 
us and they are very concerned about it as well. And I know in 
discussions with them a couple months ago, a couple of airlines 
said they really wanted to get together with their colleagues 
and see if there was a way to approach the concern about the 
retention issue, the training issue and then the salary issue 
as well. So we would certainly welcome any suggestions that 
they would have or any thoughts they would have in this as 
well. I know it is an issue they are concerned about.


[Page 337--The official Committee record contains additional material here.]



                       foreign security screeners

    Mr. Wolf. Rich was saying about EL AL. How do they pay 
compared to the others?
    Mr. Flynn. It is an entirely different system and aspects 
of it, if I may--I know them because we have been told about 
them on a classified basis by the government of Israel, and I 
would like to----
    Mr. Wolf. I am not suggesting that you do that.
    Mr. Flynn. They are paid more.
    Mr. Wolf. Significantly more?
    Mr. Flynn. Significantly more.
    Mr. Wolf. For instance?
    Mr. Flynn. It is quite a different system, sir, and it 
involves incentives such as scholarships for school. It is 
quite an involved process; the overall compensation. And it is 
also the question of national service, sir.
    Mr. Wolf. Rich was saying he thought they did better on the 
FAA test. Do they?
    Mr. Flynn. Well, we don't----
    Mr. Wolf. You do test.
    Mr. Flynn. Yes.
    Mr. Wolf. If you were to test them----
    Mr. Flynn. When EL AL has identical equipment to the U.S., 
we will have a basis for a test. And we also have a basis for 
examining test results among various airlines, including some 
in the United States who compensate their screeners at a 
considerably higher rate than I mentioned. There are very few 
who do that.
    Mr. Wolf. What is the range? Who compensates at the highest 
level?
    Mr. Flynn. My guess is Tower Airlines compensates more 
heavily than others.

                             security data

    Mr. Wolf. There have been a number of cases over the past 
few years where FAA's ability to protect public safety and 
security is compromised by the agency's inability to protect 
sensitive information from public disclosure. Data collected by 
the safety performance analysis system and flight operations 
quality assurance programs are having this problem, as well as 
certain activities in the airport security area.
    The committee report last year encouraged the 
administration to explicitly recognize those cases where civil 
aviation security information falls within the definition of 
national security for the purpose of security classification. 
Have you made any headway over the past year in being able to 
appropriately protect this information?
    Mr. Flynn. Yes. There are certain aggregations of data that 
are classified with regard to the performance of systems. We 
protect the others under a rule, the sensitive security 
information rule, that gives substantial protection to data on 
vulnerabilities and performance of systems.

                           security profiling

    Mr. Wolf. How are you doing in dealing with the problem of 
people being stopped and searched, who are American citizens, 
who have complained they have been singled out?
    Mr. Flynn. We have done----
    Mr. Wolf. That came up, as you recall, last year.
    Mr. Flynn. There has been considerable progress in that. We 
have automated systems, we have provided better equipment at 
the screening checkpoints, and the complaints are much fewer 
than there were at this time last year.
    Mr. Wolf. Can you just supply the number for the record--
complaints this year versus last?
    Mr. Flynn. Yes, Mr. Chairman.
    [The information follows:]

    Neither the Department of Transportation (DOT) nor the FAA 
maintains a tracking system of general complaints to the air carriers 
or to FAA regarding security measures. However, DOT carefully tracks 
complaints it receives of possible discriminatory actions that may have 
occurred under the guise of security measures. DOT received 78 
complaints in the last six months of 1997, and only two complaints so 
far in 1998. The decline in complaints may be the result of the 
November 1997 implementation of alternatives to manual search 
procedures. The implementation of Computer Assisted Passenger Screening 
(CAPS) may lead to a further reduction in discrimination complaints.

           UNION NEGOTIATIONS ON COMMISSIONING OF NEW SYSTEMS

    Mr. Wolf. In a recent audit, the IG found that the FAA allows its 
individual facilities to negotiate their own impact and implementation 
(I&I) agreements deciding when controllers will allow new technology to 
be implemented in their facility, even though there is already a 
national agreement in place. At the Chicago and New York en route 
centers--two of our busiest facilities--commissioning dates for the new 
communications system VSCS were delayed for 5 or 6 months while FAA 
negotiated with the local chapter of the union. The agency incurred 
with $600,000 to lease the current system while that was going on. Why 
does the agency allow these local agreements, in addition to an 
agreement with the union nationally?
    [The information follows:]
    While it is usually in the agency's interest to negotiate 
comprehensive agreements at the national level, some unique conditions 
exist which are appropriate to address at the local facility level. 
Since the majority of en route sites are configured somewhat 
differently, the voice switching and control system (VSCS) national 
agreement could not possibly address the individual locations as a 
group. For example, equipment placements and certain procedures 
surrounding the implementation of the VSCS equipment, needed to be 
negotiated at the facility level as only the local sites have the 
information necessary to bargain on those issues.
    In addition, although both parties may bring issues to the 
bargaining table, neither is compelled to reach agreement at the 
national level. The union may choose to pursue a more acceptable 
agreement at the facility level. In such a case, the agency is 
prevented from unilaterally implementing changes by the Federal Labor 
Management Relations Statute and the party's collective bargaining 
agreement.

                   flight 2000 demonstration program

    Mr. Wolf. Flight 2000.
    Your budget requests $90 million to initiate a flight 2000 
demonstration program. Why was this included in your research 
budget rather than your engineering development, test, and 
evaluation budget? Does this indicate a focus more on long-term 
research than a demonstration of practical applications of new 
technology? Earlier today, you were talking about the next 
couple years versus the long term.
    Ms. Garvey. We think Flight 2000 will give us an 
opportunity to really test some of the risks associated with 
the communication, navigation, and surveillance. We made the 
judgment call that since it is deployment, that we could put it 
in the RE&D account. I think that Flight 2000, as we talk even 
more with RTCA and understand some of the implications of free 
flight phase.
    [Additional information follows:]

    The FAA has a combined Research, Engineering and Development 
(R,E&D) Budget, comprised of roughly 15% long-term research, and the 
remainder consisting of near-term engineering and development efforts. 
Testing and evaluation is typically funded as a part of each individual 
program in the R,E&D account, or in the Facilities and Equipment (F&E) 
account.
    Flight 2000 is a limited real-world demonstration and validation of 
advanced operational capabilities. It is an R,E&D program focused on 
integrating technologies, developing procedures, and mitigating risks 
prior to a full-scale National Airspace System (NAS) deployment. As 
such, Flight 2000 is a key near-term learning effort in applying new 
communications, navigation, and surveillance (CNS) technology to the 
operational NAS.

    Mr. Wolf. RTCA?
    Ms. Garvey. It is the industry group. Am I giving that the 
right--
    Mr. Belger. Standing advisory.
    Ms. Garvey. I apologize for not knowing what all the 
letters stand for. But as they move forward and as we 
understand some of the Free Flight Phase 1 building blocks they 
have presented to us, we may refine Flight 2000 a little bit. 
We may make some modifications and changes to it, but we really 
want to use it as a way to understand what the risks are, how 
we might mitigate some of those risks to some of the early 
deployments that we have.
    Mr. Wolf. The FAA's research budget, as you know, is 
authorized by the Science Committee. Last year the Chairman of 
the committee wrote us and specifically requested that we not 
appropriate any money for this program. Have you succeeded in 
gaining the support and approval of the authorization committee 
for the Flight 2000 project at this point?
    Ms. Garvey. Let me just give you my informal observations. 
Dennis, did you testify yesterday?
    Mr. DeGaetano. No.
    Ms. Garvey. I guess he testifies later this week and he 
will have a better handle on that.
    In talking about the Modernization Task Force efforts and 
some of the work that has come out, I have talked with members 
of the committee about fine-tuning Free Flight--or Flight 2000 
and whether or not there might be some modifications. They seem 
open to that. They understand the need to test some of the 
deployments. They understand the need to better come to grips 
with the risks. And we will continue those discussions with 
them.
    [Additional information follows:]

    The committee has not yet approved the program. The staff 
of the House Authorization Committee has been briefed and 
provided full budget information on the Flight 2000 Program. 
Members of the Authorization Committee were briefed on the 
program at a hearing, March 12, 1998. FAA responded to a broad 
range of questions leading up to this hearing. While the 
committee was receptive to the discussion that took place on 
Flight 2000, no clear support or opposition to the program has 
been noted thus far.

    Mr. Wolf. Can you give us an idea how much would be for 
bending metal or buying and installing electronics versus paper 
studies and administration?
    Ms. Garvey. I would have to get back to you, Mr. Chairman, 
on the breakdown on that.
    [The information follows:]

    Since the purpose of Flight 2000 is to demonstrate and 
validate advanced flight systems technology in a real 
operational environment, the vast majority of funding will be 
spent installing the equipment necessary to conduct the 
demonstration. Roughly 44 percent of the total cost will go to 
equipping as many as 2000 aircraft with next generation 
avionics for the demonstration. Another 44 percent will be 
spent acquiring and installing the necessary ground systems to 
support Flight 2000 operations. The Flight 2000 demonstration 
is comprised of a cross-section of aircraft operators using 
advanced equipment to carry out their normal operations. 
Validation of Flight 2000 procedures will essentially be a by-
product of these operations, and less than 10 percent of FAA 
funds for Flight 2000 will go to administrate the 
demonstration. Data collected will be analyzed, and the results 
reported to support future NAS modernization decisions. Other 
than these reports, no paper studies are envisioned as Flight 
2000 products.

    Mr. Wolf. Some have said Flight 2000 is very risky, because 
if it fails, it will be a very public failure and undermine 
support for many key technologies needed to modernize the NAS. 
If we can't successfully integrate the technologies in a 
demonstration project, there is less confidence in nationwide 
implementation. How are you working to ensure Flight 2000 
doesn't become gold-plated and is designed in a manner that can 
be successful?
    Ms. Garvey. The building block approach we are taking on 
getting out the early deployment on the automation tools is one 
way to get some tools in place pretty quickly, that provides 
some real benefits. I think in defining Flight 2000, we are 
using it to test the communication, navigation and surveillance 
aspects of modernization and have it tightly defined, working 
closely with Mitre, working closely with the industry.
    Mr. Wolf. What about the controllers? Will they be 
involved?
    Ms. Garvey. They are with us every step of the way, and a 
key part of it.
    [Additional information follows:]

    Controller expertise has been involved in developing the 
concept for Flight 2000 from the beginning. Since Flight 2000 
is an operational demonstration, controllers are an integral 
part of demonstrating and validating systems, and developing 
acceptable procedures.
    Mr. Wolf. Last year, we prohibited FAA from starting this 
program because many of the facts were not clear. Can you give 
us a better idea of the total cost of Flight 2000 for both the 
government and industry, and some specifics as to demonstration 
sites and how they were chosen?
    [The information follows:]
    The Flight 2000 Program will be accomplished through 
Partnership Agreement(s) with industry partners whose future 
company goals are tied to successful accomplishment of Flight 
2000 goals and objectives. An avionics integrator will be 
utilized for acquiring, certifying, installing, and maintaining 
Flight 2000 avionics. To mitigate costs, the FAA is encouraging 
teaming arrangements by ground services providers, and avoinics 
producers or installers. All parties will share the costs of 
accomplishing the common goal of demonstrating operational 
Flight 2000 technology and procedures. Total Government costs 
for Flight 2000 are estimated to be $388 million over five 
years. Since the FAA will be furnishing Flight 2000 avionics, 
participating aircraft operator expenses will be revenue lost 
while an aircraft is out of service for installation of the 
avionics, crew training time, and possibly some minor 
maintenance costs during operation.
    Hawaii and Alaska have been selected as operational 
demonstration sites because they offer a manageable fleet size 
and mix of aircraft that can be equipped affordably. At these 
locations, Flight 2000 can readily involve all classes of 
airspace users, in all phases of flight operations and surface 
movement, over a wide range of weather and terrain conditions. 
The adjoining oceanic airspace managed by the Oakland Air Route 
Traffic Control Center, simultaneously provides a great 
opportunity for assessment of enroute and international 
procedures supported by Flight 2000 technologies.

                            weather research

    Mr. Wolf. For many years, the committee strongly urged the 
FAA to submit a budget request which more effectively addresses 
safety hazards of adverse weather. Every year we go through 
this--I don't know what you want to call it--where FAA takes 
money out of the weather program and puts it into other 
research programs, and we cut the programs and put it back into 
weather. I almost want to say I know they are going to put this 
in and we are going to take it out and put it here, because I 
know the committee over the years has put this in. And if it is 
not said, I am sure some people think it. This, you know, is a 
problem.
    This year you are proposing a big cut in weather research, 
almost 20 percent. However, you have plenty of money to 
increase the FAA's laboratory facilities, assistance planning 
money, and you have the new $90 million we talked about for 
Flight 2000.
    Why does the FAA give weather such a low priority? With 
turbulence, we saw the flight coming out of Hawaii 2 or 3 
months ago.
    Ms. Garvey. Let me start, and then have Monte step in as 
well, who has more of a history here. I know the issue is one 
that has been raised with me, particularly by members of the GA 
community, who like to see us put more money into it. I think 
trying to balance out budget priorities sometimes makes it more 
difficult.
    I think some of the information we are getting out of 
collaborative decision-making, dealing with some of the weather 
information that I know--for example, Northwest has a very good 
program on turbulence and we are usingcollaborative decision-
making and that process to share information among the airlines. But, 
Monte, do you want to talk on that a little bit more?
    Mr. Belger. Briefly. Weather is one of our priorities. It 
is a major cause of accidents and it is something we are trying 
to focus on. We created within the last 2 years a Weather 
Requirements Office so we can centralize and focus on FAA's 
requirements. One of our initiatives for this year, coming out 
of the office, is to look at everything we can do to provide 
better weather information to the pilot, particularly in 
general aviation environments. That is where our focus is.
    Mr. Wolf. Is there a cut this year, though, on weather 
research?
    Mr. Belger. I will have to ask Dennis or check for the 
record to see why, if we did cut it--I mean, what I just said 
the priorities are reflected in the budget.

                    BUDGET CUTS IN WEATHER RESEARCH

    Mr. Wolf. Is there a cut this year, though, on weather 
research?
    [The information follows:]
    Our request for funding is $3 million less than the enacted 
funding level of 1998. This reduction is equal to the amount 
dedicated in 1998 to a feasibility study of a particular 
technology called SOCRATES. While the benefits of this 
technology in detecting clear air turbulence and wind shear 
would be very valuable, there is uncertainty in whether the 
capability is possible and if possible how much funding and 
time would be required to get to a prototype or production 
system.

                 regulations on mandatory seat belt use

    Mr. Wolf. If you can do that and elaborate, because I think 
the funding is down.
    Do you plan on doing anything with regard to any 
regulations on mandatory seat belt use at all times? I know the 
pilot comes on and says when you are walking around the cabin, 
fine; but when you sit down, use the seatbelt. But a lot of 
people aren't in their seat belts. Do you plan on doing 
anything?
    Ms. Garvey. I think you will see this in more detail when 
we talk about the safety agenda. But there are three elements 
of the safety agenda: a commercial side; a general aviation 
side; and something we are calling cabin safety, and that 
includes a number of activities that may or may not lead to 
regulations. It is in part, as you suggested earlier, using the 
bully pulpit. We are working very closely with the Pilots' 
Association, and with the flight attendants.
    Turbulence and seat belt uses are one of the issues. Right 
now we are taking the approach that rather than doing it by 
regulation, let's figure out a way with industry, through the 
bully pulpit, we can make this even more an issue in the 
public's mind.
    Mr. Wolf. Wouldn't the industry almost like you to say that 
you should stay in your seat belts?
    Ms. Garvey. You mean through regulation?
    Mr. Wolf. Yes, I guess so.
    Ms. Garvey. At this point, I think they are very willing to 
work with us. We had a very successful public service campaign 
a couple years ago on turbulence and it was actually an award-
winning campaign and received a National award. We are looking 
at that again and seeing if we can update it and bring it back 
into the forefront, again, working with industry in ways we can 
deliver that message more effectively. We had a safety 
conference a couple weeks ago in Richmond. We had a number of 
professionals and people from the community there, and that was 
one of the issues that we talked about.

                     fatalities from air turbulence

    Mr. Wolf. How many deaths have there been from air 
turbulence over the last several years?
    Ms. Garvey. We can get you the number for the record, but I 
can tell you it is a number that can absolutely be avoided.
    [The information follows:]

    A review of all accidents since 1978 shows 3 fatalities 
associated with turbulence: 1987 (Skyworld); 1990 (Eastern 
Airlines); and 1997 (United Airlines). In the first two cases, 
the injured passengers were moving about the aircraft despite 
aural warnings to be seated due to turbulence. The most recent 
case is still being investigated.

    Mr. Wolf. Right, it can.
    Ms. Garvey. What I found striking is wearing the seat belt 
made the difference.
    Mr. Wolf. There was one in the Hawaii flight.
    Ms. Garvey. That is right; there was one there.

                      injuries from air turbulence

    Mr. Wolf. Can you tell us the number of injuries?
    Ms. Garvey. We will get that for the record. Obviously the 
injuries would be more than the fatalities.
    [The information follows:]

    During the period from 1993 through 1997, Part 121 
turbulence accidents resulted in 1 fatality, 58 serious 
injuries and 183 minor injuries.

                        mandatory seat belt use

    Mr. Wolf. Would most be prevented by continuing to sit in 
your seat with your seat belts buckled?
    Ms. Garvey. It is one of the few times you can say, almost 
absolutely, those are injuries that would be prevented with the 
use of the seat belt, and that is pretty compelling.
    Mr. Wolf. It just would seem to me, and I don't know, I 
haven't talked to the industry about it, that they would 
welcome--I know no industry welcomes regulations, but I think 
most agree and I think this committee did a good thing when it 
supported Mr. Durbin several years ago in stopping smoking on 
airplanes.
    I come from Virginia, which is a tobacco state, and I was 
very glad to cast my vote for it. I would think the same thing 
would hold true here, that by mandating that--because many 
people don't know, particularly people who may not fly as often 
as others, particularly young people, perhaps going on a class 
trip the first time to Washington or something like that--if it 
were a mandatory requirement, that unless you are walking 
around the cabin to use the restroom or whatever, that you 
should stay in your seat belt.
    If you could just have your people look and see, if that 
had been in effect for the decade of the nineties, how many 
lives would have been saved and how many injuries would have 
been prevented.
    Ms. Garvey. We will provide that for the record.
    [The information follows:]

    Based on a FAA review of turbulence related injuries, all but 2 of 
150 persons seriously injured in turbulence accidents from 1980 through 
March 1997 were moving about the aircraft or seated but not secured. A 
significant number of the 150 serious injuries would have been avoided 
if the individuals had been properly secured by their seat belts.
    Evidence points to the fact that the majority of injuries occur 
during turbulence when the seat belt sign is illuminated. Federal 
Aviation Administration (FAA), Federal Aviation Regulations (FAR) 
contain requirements regarding seat belt usage. Specifically: FAR, Part 
121, Section 317(d) mandates there be a placard visible to passengers 
that reads ``Fasten Seat Belt While Seated'', Section 317(f) requires 
passengers to be seated with their seat belts fastened when the seat 
belt sign is illuminated, and Section 571(a)(2) requires, after each 
takeoff and immediately before or after turning off the seat belt sign 
that an announcement be made stating that passengers should keep their 
seat belts fastened while seated.
    In June of 1980, FAA withdrew rulemaking which would have required 
passengers to keep their seat belts fastened at all times while seated 
and allowing them to leave their seats only for physiological needs or 
when authorized by the crewmember. The majority of the commenters 
strongly opposed what they considered unnecessary regulatory 
restrictions on passengers.
    Currently, as part of the Partners in Cabin Safety, the FAA has 
formed a government/industry team to address these issues. The team 
proposes to develop additional information for passengers to emphasize 
the importance of proper seat belt usage and their responsibility.

    Mr. Wolf. Are there any flying carriers that require that?
    Ms. Garvey. I don't believe it is regulated, but we will 
provide the numbers for the record.

                                 mitre

    Mr. Wolf. Your budget request for Mitre's Center for 
Advanced Aviation Systems Development, considering both F&E and 
R&D funds, would be reduced by 1 percent, $544,000 in 1999. 
Given the extra work they have been doing for you over the past 
several months, should you be cutting them, or should you at 
least be giving them enough to cover their increases based on 
the rate of inflation?
    Ms. Garvey. Again, we try and work within the budget 
constraints and arrived at that number. We have rearranged some 
priorities in discussing it with Mitre. Your point about how 
helpful they are is well taken. It is certainly a group we work 
very closely with.
    Mr. Wolf. You mentioned them several times today.
    Ms. Garvey. I have, yes.

                      denver international airport

    Mr. Wolf. And somehow I think to be reducing them now, it 
seems a little bit out of order.
    Denver. As you know, the Committee has maintained a 
prohibition on construction of a sixth runway at Denver 
International Airport. What are your views on the progress they 
are making with regard to the noise problem out there at 
Denver? If you recall, Senator Allard and Congressman Hefley 
have been concerned. Last year we put some language in, 
allowing them to move ahead with regard to the noise studies. 
What progress have they made?
    Ms. Garvey. I understand, I think, last September I spoke 
with the Congressional delegation about this. At that point 
there was still a number of issues. They asked for more 
involvement from the FAA in the regional office to work with 
some of the neighbors on the noise issues. We were happy to 
provide that. I suspect it is still a difficult issue. Noise 
continues to be one of the issues we wrestle within communities 
and neighborhoods.
    Mr. Wolf. Do you know when the report will be ready?
    Ms. Garvey. We will have to provide you that for the 
record. I am not sure exactly when it will be completed.
    Mr. Wolf. Well, if you could try to do that, just to get 
some sense of it.
    [The information follows:]

    The Denver International Denver Study Coordination Group, 
Inc. released ``A Study of the Noise Impact of Aircraft 
Operations in the Denver, Colorado Area'' the week of March 16. 
The study was sponsored by local communities surrounding Denver 
International Airport and was to determine whether the FAA is 
maximizing its flexibility to minimize current noise impact and 
impacts resulting from construction of a sixth runway.

                           revenue diversion

    Mr. Wolf.  Has Denver resolved the issues of revenue 
diversion which came up a couple of years ago?
    Ms. Garvey. The revenue diversion issues have all been 
resolved. In fact, we have a report from the IG that I must say 
I have not reviewed in detail but I have certainly talked with 
the IG about it He feels all the outstanding issues on revenue 
diversion have been resolved.
    Mr. Wolf. At all of the airports?
    Ms. Garvey. Yes, Mr. Chairman, including Denver and LAX. 
That one was resolved, Mr. Chairman.
    Mr. Wolf. How was that resolved?
    Ms. Garvey. It is before my time, but I believe they paid 
back a significant amount of money to the airport and they were 
able to resolve it that way.
    Mr. Wolf. So there are no outstanding issues?
    Ms. Garvey. There are no outstanding ones to date and it is 
something, by the way, we are monitoring very carefully.

                       northwest arkansas airport

    Mr. Wolf. On the AIP formula, are you familiar with the 
airport in Arkansas that apparently has been receiving funding 
from the FAA that apparently is not well thought of by certain 
people; can you tell me?
    Ms. Garvey. I am not familiar with that issue.
    Mr. Wolf. Northwest Arkansas.
    Ms. Garvey. I can tell you I do remember it being discussed 
in the department when I was at the Federal Highway 
Administration, but I must confess I didn't pay as much 
attention to it, but I will look into how much money has gone 
into it.
    Mr. Wolf. If you can.
    Ms. Garvey. Thank you.
    [The information follows:]

    The airport in question is the Northwest Arkansas Regional Airport, 
located near Fayetteville. It is currently under construction. Airport 
Improvement Program funds totaling $40.0 million have been granted to 
this airport to date. The grants began with a master plan study in 
1991. A letter of intent was approved in 1997. The scheduled payments 
through 2002 total $29.5 million, bringing the total AIP to $69.5 
million.
    The construction is on schedule and under budget, and the new 
airport is scheduled for opening in late 1998. It will provide this 
growing area with the capability of accommodating full instrument 
operations and commercial jet passenger service, which cannot be 
accommodated at other airports servicing the region. On March 11, 
American Eagle announced that it would begin servicing Northwest 
Arkansas Regional Airport when the new airport opens. American Eagle 
has filed with the Department of Transportation for slots to operate 
three daily roundtrips between Chicago O'Hare and Northwest Arkansas 
using new Embraer regional jets.
    The opening will be the culmination of a dedicated community effort 
and bipartisan congressional support which began in the early 1980s 
when the limitations of other airports for expansion to meet the long 
term needs of the area became apparent. A countywide vote in the early 
1990s overwhelmingly endorsed the new airport concept.

                         aip funding for noise

    Mr. Wolf. At the request last year of the Senate, we agreed 
to a provision in conference which capped formula funding for 
the noise and military airport programs, and in fact switched 
those funds to provide capacity, safety and security 
enhancements. The 1996 reauthorization act changed the AIP 
formula in a way which provides huge increases for the noise 
program at the expense of safety and capacity. I understand 
your support for growth in these programs, as certainly I do, 
and I think everybody else on the committee does, but we are 
talking about a relative balance. Even with a cap, the noise 
program increased almost 40 percent in fiscal year 1998. Your 
budget proposes we drop the cap in 1999. Why?
    Ms. Garvey. I know we are looking at the issue as we are 
developing a reauthorization proposal and whether or not the 
cap should exist. That is going to be part of what we will be 
putting forward with the AIP proposal. I am not exactly sure 
what is in the budget for next year. I believe it is a 
reflection of what we know to be the noise request or balancing 
it out again with the noise request for next year. I believe it 
keeps up with most of the requests that we have, but let me get 
back to you.
    [The information follows:]

    The Administration's budget proposal includes $1.7 billion for 
grants under the AIP, not less than $200 million of which would be 
available for noise mitigation and planning. There is no reference to a 
cap on funding for any area within the AIP, nor to any mechanisms that 
would affect the distribution of AIP funds. The Administration's AIP 
reauthorization proposal will address the issues of balance among all 
areas of the grant program, taking into account the first priority of 
ensuring adequate funds for airport safety and security requirements 
and, second, the needs of smaller airports, noise mitigation and 
capacity enhancement.
    Mr. Wolf. Given the administration's priority on safety 
improvements at airports, and security equipment like explosive 
detection systems--all of which would be impacted by lifting the cap--
wouldn't it make more sense instead to provide balanced increases 
across each of these areas?
    [The information follows:]
    The Administration's budget proposal includes $1.7 billion for 
grants under the AIP, not less than $200 million of which would be 
available for noise mitigation and planning. There is no reference to a 
cap on funding for any area within the AIP, nor to any mechanisms that 
would affect the distribution of AIP funds. The Administration's AIP 
reauthorization proposal will address the issues of balance among all 
areas of the grant program, taking into account the first priority of 
ensuring adequate funds for airport safety and security requirements 
and, second, the needs of smaller airports, noise mitigation and 
capacity enhancement.

                         REAUTHORIZATION OF AIP

    Mr. Wolf. The AIP program is up for reauthorization this year. When 
do you intend to submit the reauthorization proposal, and can you give 
us a preview of any new initiatives?
    [The information follows:]
    Consistent with the President's commitment to strengthen investment 
in our nation's transportation infrastructure, the FAA will seek 
authorization of $1.7 billion annually. Other financing options, such 
as a consensual increase to passenger facility charges, are under 
review in an effort to provide airports more ways to increase capital 
investment.

                       ntsb ``most wanted'' list

    Mr. Wolf. A couple of last questions. On the most wanted 
list, how many FAA concerns are on there?
    Ms. Garvey. We are doing very well. We had a good meeting 
with Jim Hall in the NTSB about a month ago. We identified a 
couple of areas where we wanted to go back and work on it 
together. We have a final report that is due in May. The latest 
update from staff about a month ago is we were making some very 
good progress, which I believe was consistent with what Mr. 
Hall was hearing from his staff as well. We have the final 
report in May, and I expect Chairman Hall and I will meet 
before the report becomes finalized, just to make sure we are 
all in the same place. There were really just a couple issues 
where there was some professional disagreement. People were 
going back to look at it again and work at those issues again.

                          airline medical kits

    Mr. Wolf. There was a ``Dear Colleague'' letter, and the 
issue I think is in the authorizing committee, with regard to 
the cardiac device used to revive victims on airliners, and I 
think Mr. Duncan has a piece of legislation. What is the FAA's 
position on this issue of requiring that this equipment be 
carried on the airlines?
    Ms. Garvey. I know Mr. Duncan is working on legislation. I 
met with our chief physician about 2 weeks ago, and he has done 
a lot of work and analysis about what should be in medical 
kits. It seemed fairly straightforward to me. He raised a 
number of issues about what is appropriate in the medical kits. 
They are very close to coming back to the Management Board and 
to myself with a recommendation of a rulemaking or action we 
could take on what should be included in the medical kits.
    In the meantime, I think it is very good news that there 
are at least three airlines that have voluntarily stepped 
forward with the defibrillators. The issue for us is what 
should be in the kit, what should be included? As usual and as 
often happens, there are legal issues that need to be resolved. 
He said he thought we were very close to resolving them.
    Mr. Wolf. Who is he working with? Is he working with the 
Medical Association?
    Ms. Garvey. There is an advisory group he works with and a 
number of people in the medical profession that have been very 
instrumental in helping with the analysis and offering some 
very sound medical judgments and opinions.
    Mr. Wolf. So you are basically pretty supportive of doing 
this?
    Ms. Garvey. I am, Mr. Chairman.

                      medical personnel on flights

    Mr. Wolf. Do they do an inventory at the beginning of a 
boarding where they notify the airline whether or not you are a 
doctor or not, where when an airline is flying it knows there 
are several doctors on board, one on flight 9A, seat 13B or 
something; is there any mechanism? Obviously it would have to 
be on a voluntary basis. Some doctors may not want to do it.
    Ms. Garvey. I think that is a good suggestion. I think it 
is only evident if it is in the manifest, if somebody indicates 
it by the title.
    Mr. Wolf. But that could be a Doctor of Philosophy.
    Would there be a mechanism whereby it could be notified at 
a time, or somehow whereby the airlines would ask, one, are 
there any medical doctors on board; are you a medical doctor; 
and, if so, would you agree to treat a patient if an emergency 
developed? Because there has been a case where they would say, 
is there a doctor around, and no one knows. And in a large 
aircraft, you may be sitting up in business class and the 
activity is taking place back in coach, or you may be sitting 
in coach when the activity is taking place in business class. 
So has there been any requirement to ask the airlines to 
inventory the passengers?
    Ms. Garvey. It is certainly not something that has come to 
my attention, but I think that is a good suggestion and we 
certainly have very constant communications with ATA, with 
Carol Hallet and the CEOs that are part of that, and that will 
be something we will raise with Ms. Hallet.

                    liability for physicians onboard

    Mr. Wolf. What is the liability of a doctor on an aircraft, 
and would there be any need for a Good Samaritan law to be 
passed, exempting a doctor from suit?
    Ms. Garvey. Let me find the answer to that. I don't know, 
and that is something I would want to ask the lawyers. But, 
again, in talking with a physician a couple weeks ago, I know 
the liability issues were at the forefront and issues I know 
the lawyers were working on.
    [Additional information follows:]

    Generally speaking, tort liability is determined in accordance with 
state law. Even when the government is sued, its liability is 
determined in accordance with the law of the state where the alleged 
negligence occurred. In the case of a physician coming to the aid of an 
airline passenger in distress, the question of what state law applies 
is not necessarily easy to answer. The easy case is where the event 
occurs while the aircraft is on the ground; but even there the result 
is not certain. Moreover, if the aircraft is in flight there is a range 
of possibilities as to what state law would apply. It could be the law 
of 1) the state where the flight originated, 2) the destination state, 
3) the state where the airline is incorporated, 4) the home state of 
the injured passenger, or 5) the state (airspace) where the alleged 
negligence took place. The actual law to be applied would also depend 
on the state where the plaintiff chose to file suit as, in the end, it 
is a question of that state's conflicts of laws application.
    In order to ensure that a physician is immune from liability for 
coming to the aid of a passenger in distress, and avoid the 
uncertainties of state law, it will be necessary to pass Federal 
legislation that preempts any state law that would otherwise apply.
    FAA does not take a position on whether such legislation is 
necessary, but notes this is an area in which many states have laws 
providing such protection. Further, such legislation is pending in 
Congress. H.R. 2843, the Aviation Medical Assistance Act of 1997, would 
hold ``medically qualified individuals'' harmless from liability for 
their acts or omissions in providing or attempting to provide 
assistance in the case of an inflight medical emergency in the absence 
of gross negligence or willful misconduct. The term ``medically 
qualified individual'' includes nurses, physician assistants, 
paramedics, and emergency medical technicals, as well as doctors.

                           diversity program

    Mr. Wolf. Okay. I think the last question is one I have 
spoken to you about. I received a letter from a gentleman who 
is not a constituent of mine, but he said, ``Dear Congressman, 
I am writing to you as a member of the Federal Aviation 
Administration family.'' He works at the FAA. He says, ``I feel 
compelled to defend my faith in what I believe is an ongoing 
concerted effort within the FAA to minimize and indeed 
ostracize Christian men and women.'' He went on to talk about 
this magazine, ``Managing Diversity.'' He said some of the 
diversity materials include magazines or newsletters to which 
the FAA subscribes for half of its employees. One of those 
publications is the monthly newsletter, ``Managing Diversity.''
    ``My office, System Architecture and Investment Analysis 
receives 200 of ``Managing Diversity'' each month at a cost of 
approximately $1,951 annually. Over time, I noticed what I 
considered a subtle anti-Christian bias in the newsletter. Any 
doubt was quickly removed in the October of 1996 issue of 
`Managing Diversity' in the article `What are the Values of 
White People,' '' and he goes on to explain this article. He 
said that employee opinions on what are the values of white 
people varies.
    ``I am told by the Diversity Council that some people liked 
the article and support the `Managing Diversity' newsletter. 
Yet when my branch conducted a poll of its employees as to 
whether `Managing Diversity' ought to be continued or 
cancelled, we found 70 percent wanted the newsletter cancelled, 
15 percent wanted it to stay, and 15 percent did not care one 
way or another. I believe once any publication breaches FAA 
employee trust, it is no longer a valid tool to promote 
understanding and healing and it ought to go.''
    Then he submits a series of the articles, along with an 
article which was in one of the local newspapers here. I share 
the concern. I think the greatness of our country is we are 
diverse. As I told you, I come from an immigrant family that 
came from another country. And in the old days when I was a 
staffer up here on Capitol Hill, they used to vote by voice and 
it took 45 minutes, then it took 45 minutes. Now we vote by 
cards, but once or twice a session, a voting machine will break 
down and they will call the roll and it is a nice sound to hear 
names from all over the world, they come together, and the 
reason is we have taken the best from every other country and 
blended it together, so diversity is really who we are. But 
when we have a newsletter that is creating that sort of 
feeling, then I think it ought to be reevaluated.
    He also sent me a magazine called ``Next Step: Coping With 
Change,'' about diversity that looks like it is a very good 
magazine, and something that would bring people together in 
reconciliation and healing and letting people know the 
differences and how we are diverse and that is our strength, 
rather than something that inflames people and creates a 
problem.
    He then showed me this brochure, which I won't read all of 
it, put out by the Department of Transportation, FAA. He said 
diversity is an extremely broad term people use to refer to us. 
I really think this almost begins to smack of Gregory May, and 
we have gone through this before and this committee held 
hearings on it, and hopefully that has been eradicated from the 
FAA.
    I really think you ought to look at this. I will share it 
with you. The gentleman was willing to sign his name. I offered 
that I would do it, you know, without him signing his name. He 
said he was perfectly prepared. I think it is good to emphasize 
and to deal with diversity, but in a way that brings people 
together and not in a way that creates problems. And if the 
survey was accurate, that really creates a problem. So I would 
urge you, and if you want to make a comment, I would love to 
hear your comment about it.
    Ms. Garvey. First of all, I think your point is one that I 
would share, and I think I speak for all of the management 
team. The issue of diversity is important in encouraging people 
to work together. It is a sense of honoring both their heritage 
and the uniqueness of each of us. And so we certainly want to 
foster that, and I think what I find, particularly, I guess 
disturbing, would be the statistics that you quoted--the quote 
there that there may be 70 percent of employees that feel they 
are not being well served by the magazine. It is something we 
obviously have to take a hard look at.
    I like the fact another alternative was suggested, because 
I think the idea of talking about diversity in the workplace 
can be positive and should be productive, so I would appreciate 
taking a look at it. I actually did talk with some of my staff 
folks last night when I got home and I called them at home and 
asked them to begin to take a look at the issue. So, thank you.
    Mr. Wolf. I would appreciate it, and then I will just give 
you the whole packet. I don't see any need of going into it 
further. But if you could, to have something that says what are 
the values of white people and some of the inflammatory things. 
I will give you this magazine. You might want to just take a 
look at it.
    Ms. Garvey. Thank you.
    [Additional information follows:]

    The FAA subscribes to many publications in the course of 
its operations, both for technical and general information 
germane to its mission.

                            Closing Remarks

    Mr. Wolf. Anyway, I think that covers all of the questions. 
There will be others to submit for the record, and if any other 
Members have any. I want to thank you for your openness and for 
your willingness not to be so sensitive if there is criticism. 
Just because there is criticism doesn't mean it is necessarily 
right either. The Congress may think something is one way and 
you may have the good judgment to think it is the opposite, and 
I respect that, and I think there will be those cases.
    I personally will do everything I can to work with you to 
see that we give you the necessary resources to do what you 
want to do, and I respect the fact you have taken this job. 
This is a tough, tough job, and you will see people run for 
cover when the mud gets thick, and that is why I think it is 
important you bring in good people around you, that you have 
confidence in, that you trust, because there will be difficult 
times. And it is very easy for the Congress to sit up here and 
pick on that one point and pick on that one point, but you have 
the responsibility.
    So I want you to know we will do everything we can to work 
with you, to give you the resources, to give you the 
flexibility whereby if you see something, you don't have to 
wait and go through this long drawn-out process, to move 
quickly, and just stand ready to work with you in every way 
possible. You have a lot of good people in the FAA, a lot of 
very capable people, so any way we can help, let us know.
    The hearing is adjourned.
    Ms. Garvey. Thank you very much, Mr. Chairman.



[Pages 352 - 806--The official Committee record contains additional material here.]

















                            W I T N E S S E S

                              ----------                              
                                                                   Page
Belger, Monte....................................................   231
Chipkevich, Robert...............................................     1
Degaetano, Dennis................................................   231
Ellingstad, V. S.................................................     1
Flynn, C. ``Irish'' L............................................   231
Gardner, Guy.....................................................   231
Garvey, J. F.....................................................   231
Goelz, Peter.....................................................     1
Hall, Jim........................................................     1
Keller, C. E.....................................................     1
Lauby, Robert....................................................     1
Loeb, B. S.......................................................     1
Murtagh, Marjorie................................................     1
Osterman, Joseph.................................................     1
Sweedler, B. M...................................................     1













                               I N D E X

                              ----------                              

                    Federal Aviation Administration

                                                                   Page
Acquisition:
    Acquisition Process..........................................   705
    Acquisition Reform Savings...................................   326
    Acquisition Workforce End of Year Employment.................   595
Addressing the Fiscal Year 1998 Shortfall........................   361
Administrative Services Franchise Fund...........................   594
Advisory Committees..............................................   399
Aeronautical Charting..........................................426, 524
Aeronautical Data Link...........................................   631
Aging Aircraft Program...........................................   553
Air Traffic Controller Work Force Hiring Summary.................   503
Air Traffic Services:
    Air Traffic Staffing.........................................   482
    Air Traffic Staffyear Costs..................................   280
    Commissioned Facilities....................................532, 536
    Contract Maintenance..................................304, 306, 530
    Cost Benefit Analysis--AF Contracting Out....................   306
    Currency for CWF Supervisors.................................   290
    Operational Errors.........................................507, 513
Air Transportation Oversight System (ATOS).......................   547
Airline Medical Kits.............................................   348
Airline Pricing..................................................   248
Airline Safety Records...........................................   272
Airport Improvement Program (AIP)................................   800
    Funding for Noise............................................   346
    Funding for Small-Mid-Sized Airports.........................   269
    Program Data.................................................   757
    Reauthorization..............................................   347
Airport Movement Area Safety System (AMASS)......................   670
Airport Movement Area Safety Systems by Site.....................   671
Airport Surface Detection Systems..............................633, 779
Allowance for Off-Position Time..................................   486
Annual Leave.....................................................   474
ARA Performance Based Organization...............................   705
Asbestos Contamination at Leesburg Center........................   290
ATC Staffing Standards Cooper and Lybrand Report.................   286
Automated Surface Observing System...............................   799
Aviation Regulation and Certification:
    Air Transportation Oversight System (ATOS)...................   547
    Airline Medical Kits.........................................   348
    Aviation Safety Inspectors...................................   315
    Oversight of Repair Stations.................................   313
    Staffing.....................................................   316
Aviation Weather Research..................342, 707, 709, 712, 714, 718
Aviation Workload Budget Impact..................................   267
Aviation:
    Accident and Fatality Rates..................................   400
    Aviation Weather Research..............342, 707, 709, 712, 714, 718
    Growth Compared to Budget Growth.............................   394
    Workload Budget Impact.......................................   267
Awards:
    SES Bonus Awards.............................................   382
    Time Off Awards............................................284, 485
Baggage Screener Turnover Rate...................................   337
Benefits.........................................................   282
    Annual Leave.................................................   474
    Enrollees in FAA's Transit Benefit Program...................   453
    Sick Leave...................................................   475
    Transit Subsidy Benefit Program..............................   453
Biographical Summary of Jane F. Garvey...........................   243
Budget Requests to OST and OMB...................................   458
Business Information and Consultation............................   575
Center for Management Development................................   591
Central Florida Metroplex........................................   677
Certification....................................................   552
Civil Aviation Security..........................................   565
    Aviation Security Measures...................................   797
    Baggage Screener Turnover Rate...............................   337
    Fiscal Year 1997 Appropriation...............................   569
    Government Performance and Results Act (GPRA)................   555
    Explosive Detection System.......................253, 254, 332, 333
    Foreign Security Screeners...................................   338
    Screener Proficiency Evaluation and Reporting System (SPEARS)   567
    Security Data................................................   338
    Security Enhancement.........................................   234
    Security Profiling...........................................   339
Civil Service Retirement Pension, Average........................   520
Closing Remarks..................................................   351
Commercial Space Transportation................................596, 609
Commissioned Facilities........................................532, 536
Comparing FAA's Growth With Industry Growth......................   267
Compensation System, Budget Neutral..............................   281
Congressional Review Act (CRA)...................................   730
Consortium for Training..........................................   304
Contract Maintenance......................................304, 306, 530
Contract Towers..................................................   505
Controllers:
    Age Limits...................................................   294
    Controller Work Force Vs. Contractor Staffing at FAA Contract 
      Tower (EOY)................................................   498
    Controller Work Force (CWF) Workplace Simulator..............   288
    Controller Work Force Labor/Management Relationship..........   297
    Currency for CWF Supervisors.................................   290
    Details......................................................   478
    Productivity...............................................285, 488
    Retirements..................................................   286
    Staffing Requirements........................................   247
    Staffing Standard............................................   286
    Staffing--Coopers' Findings..................................   255
    Training.....................................................   485
    Work Force--Employment Data...........................494, 495, 496
Coopers and Lybrand (C&L):
    ATC Staffing Standards.......................................   286
    Lack of Financial Management.................................   255
    Productivity Savings.........................................   244
Coping with a Potential Loss of $93 Million in Fiscal Year 1999..   360
Cost Accounting System..........................257, 258, 259, 582, 746
Cost Benefit Analysis--AF Contracting Out........................   306
Cost of Official Time for Unions.................................   283
Cost Savings.....................................................   246
Cost-Benefit Determinations Prohibited by Law....................   736
Credit Hours.....................................................   284
Denver International Airport.....................................   345
Depot Space Funding Requests.....................................   528
Deregulatory and Reinventing Government Rules....................   737
Display System Replacement.......................................   661
Diversity Program................................................   349
Economic Impact Analyses Availability of.......................736, 737
Employee Separations.............................................   363
Enforcement Actions..............................................   307
English Language Proficiency.....................................   275
Equipping U.S. Aircraft with LAAS and WAAS Avionics............686, 786
Executive Staff..................................................   577
Explosive Detection System.....................................332, 334
    Certification................................................   254
    Development..................................................   253
    Reprogramming Request........................................   254
FAA 3083 Replacement Effort....................................744, 745
FAA Environmental Staffing Shortages.............................   790
FAA Opening Remarks..............................................   233
FAA Personnel Stationed Overseas.................................   417
Facilities and Equipment:
    Obligations..................................................   630
    Outlays......................................................   628
    Priorities and Modernization Off-Site........................   328
    Reprogramming................................................   745
    Request......................................................   327
    Termination of Cost Growth...................................   626
Family Friendly Policies.........................................   298
    Job Sharing..................................................   299
    Leave Sharing................................................   299
    Telecommuting................................................   299
Fatalities from Air Turbulence...................................   343
Field Maintenance:
    Employment...................................................   537
    Other Object Costs...........................................   536
    Technician Staffing..........................................   305
    Travel.......................................................   537
Field Office Consolidation.......................................   246
Financial Assessments by OST.....................................   454
Financial Obligation if Limitation Lifted........................   481
Flight 2000......................................................   724
    Demonstration Program........................................   339
    Demonstration Sites and Total Cost...........................   729
    FY 1999 Budget...............................................   725
Flight Inspection Aircraft.......................................   697
Flight Inspection Requirements...................................   699
Flight Standards Staffing Standards..............................   551
Foreign Security Screeners.......................................   338
Full-Time Equivalent (FTE) Costs.................................   281
FY 1999 President's Budget Request...............................   236
General Aviation Accident Rate Chart.............................   415
General Aviation Instrument Operations...........................   416
Glenn Reffner, Reassignment of...................................   291
Government Use of Aviation System................................   271
Ground-Based Navaids, Decision to Shut Down......................   782
Hartsfield International Airport...............................328, 329
Hayes, Kansas, Instrument Landing System.........................   781
Health Benefits................................................361, 362
Hiring Plan, Six Year............................................   546
Host Computer:
    Host Computer Replacement....................................   251
    Host Computer System.........................................   330
    Host Replacement and/or Repair.............................331, 669
Human Factors Research...........................................   723
Human Intervention and Motivation Study..........................   423
Human Resources..................................................   585
ILS Equipment....................................................   781
Injuries from Air Turbulence.....................................   344
Inspection Regulations...........................................   315
Inspector General Audit of Contract Tower Program..............262, 263
Inspector Training...............................................   316
Janitorial and Guard Services....................................   467
Job Sharing......................................................   299
Korean Airlines Accident in Guam...............................685, 785
Lack of Financial Management--Coopers............................   255
Leased Telecommunications......................................543, 544
Leasing Versus Buying Satellites.................................   692
Leave Sharing....................................................   299
Liability for Physicians.........................................   349
Local Area Augmentation System...................................   546
Logistics Center--Operations and Maintenance Costs...............   526
LORAN-C..........................................................   695
Low Flying Aircraft Over Whittier................................   796
Maintenance:
    Aircraft.....................................................   538
    Issues.......................................................   304
    Overtime.....................................................   538
    Training.....................................................   529
Management Efficiencies..........................................   584
MARC Program in Minnesota........................................   304
Medical Personnel on Flights.....................................   348
Minneapolis/St. Paul International Airport.....................789, 790
MITRE..........................................................345, 657
NAS Infrastructure Management Systems (NIMS).....................   701
NATCA:
    NATCA and the Media..........................................   298
    Human Factors Resolution Status..............................   668
    Letter to Air Traffic Services on DSR Suitability............   666
    Letter to Inspector General on DSR Suitability...............   662
    Representation...............................................   487
National Civil Aviation Review Commission (NCARC).........264, 268, 422
National Reconnaissance Office...................................   691
Near Mid-Air Collisions/Pilot Deviations.........................   326
New Austin Airport...............................................   793
New Hires Under Reform...........................................   262
New York TDWR....................................................   309
Next Generation Landing System..................678, 685, 687, 783, 787
Non-Pay Inflation Increase.......................................   483
Northwest Arkansas Airport.......................................   346
Notification in the Unified Agenda of Federal Regulations........   739
NTSB ``Most Wanted'' List........................................   347
NTSB Safety Recommendations on Aircraft Icing....................   720
Obligation Plan Versus--Fiscal Year 1997.........................   365
Off-Budget Treatment for FAA.....................................   265
Office of Administrator and Deputy Administrator.................   611
Office of Policy, Planning, and International Aviation...........   619
Office of System Safety Hiring Plan..............................   615
Office of System Safety..........................................   613
Office of System Staffing Target.................................   614
Omega............................................................   652
Opening Remarks:
    Chairman Wolf................................................   231
    Jane F. Garvey, Federal Aviation Administrator.............233, 237
    Mr. Olver....................................................   250
Operational Errors.............................................507, 513
Operations:
    Assessment by OST............................................   454
    Average Civil Service Retirement Pension.....................   520
    Final Operating Plan for FY 1997.............................   478
    Obligation Plan Versus Actual--Fiscal Year 1997..............   365
    Travel--Operations Funded....................................   428
Overseas Travel..................................................   433
Oversight of Repair Stations.....................................   313
Overtime--Air Traffic............................................   484
Part 121 Departure Accident Rate Chart...........................   414
Passenger Screening Results......................................   554
PATCO:
    Controllers..................................................   294
    Controller Success...........................................   295
    Rehires....................................................297, 503
Pay and Benefits...............................................280, 282
Pay Negotiations.................................................   281
Payroll Costs..................................................361, 363
Performance Based Organization (PBO)...........................266, 269
    Chief Operating Officer......................................   270
Performance Plan:
    Delay Measures...............................................   617
    Safety Measures..............................................   616
Personnel Reform.................................................   259
Positions by Office, Distribution of.............................   369
Positions:
    Business Information and Consultation........................   575
    Office of Administrator and Deputy Administrator.............   611
    Office of Policy, Planning, and International Aviation.......   619
    Office of System Safety Hiring Plan..........................   615
    Office of System Safety......................................   613
    Office of System Staffing Target.............................   614
    Positions and Employment Summary...........................387, 391
    Public Affairs...............................................   592
Potomac Metroplex..............................................674, 677
Precision Approach Location System (PALS) Surface Weather 
  Observation System.............................................   674
Procurement/Small Business.......................................   794
Productivity.....................................................   289
Public Affairs...................................................   592
Realistic Testing................................................   566
Reauthorization of AIP...........................................   347
Reform Implementation............................................   260
Regional Coordination............................................   308
Regional Office Consolidation....................................   245
Regulations on Mandatory Seat Belt Use...........................   343
Regulatory Policies Critical to Achieving Agency's Strategic 
  Goals and Objectives...........................................   731
Relocation Contract..............................................   424
Reprogramming Request for EDS, FY 1998...........................   334
Reprogramming Request, FY 1998 Tower Replacement.................   651
Reprogramming, FY 1998.........................................254, 651
Research and Acquisitions........................................   595
Research, Engineering and Development Budget Table...............   721
Revenue and Expenditure Linkages.................................   271
Revenue Diversion................................................   345
Revitalization Pay (AF)..........................................   543
Rulemaking.......................................................   552
    Budget Resources for.........................................   732
    Decision to Abort............................................   741
    Determination of Rule Necessity..............................   730
    Determining Priorities for Rules.............................   741
    Discretionary, Statutory, and Judicial Rules.................   732
    Notification in the Unified Agenda of Federal Regulation.....   739
    Originating from Lawsuits....................................   735
    Procedures to Evaluate Success of............................   742
    Producing New Paperwork Requirements.........................   738
    Routine and Administrative...................................   735
    Submitted to the Office of Management and Budget.............   740
Runway Incursion.....................................317, 325, 779, 786
    MITRE Report.................................................   323
Safety...........................................................   233
Safety Agenda....................................................   272
Safety Task Force..............................................244, 272
SAIC Report Cost Estimates.......................................   694
Screener Proficiency Evaluation and Reporting System (SPEARS)....   567
Seat Belt Use, Mandatory.........................................   344
Security Baseline Working Group..................................   569
Security:
    Data.........................................................   338
    Enhancement..................................................   234
    Profiling....................................................   339
SES Bonus Awards.................................................   382
SES Positions....................................................   375
Sick Leave.......................................................   475
Sky Harbor Air Traffic Control Tower.............................   253
Spare Parts--Airline Safety......................................   274
SPEARS Fiscal Year 1999 Activities...............................   568
Special Pay......................................................   468
Staff Year Discrepancy...........................................   467
Staffing Standards...............................................   537
STARS......................................310, 312, 653, 792, 802, 804
    Accelerated Deployment.......................................   313
    Computer-Human Interface Issues..............................   655
    Deployment Sites.............................................   656
    Full System Capability.......................................   654
    Funding Profile..............................................   653
    National Airport.............................................   313
    Reprogramming................................................   311
State of the Nation's Airports...................................   801
Strategic Goals..................................................   278
Streamlined Enforcement Test and Evaluation Program (STEP).......   556
Sunday Premium Pay.............................................427, 481
System Assessment................................................   784
System Efficiency Upgrade........................................   234
Systems Management Offices.......................................   539
Tampa ASR-9 Radar................................................   309
Technical Training...............................................   301
Telecommuting....................................................   229
Time Off Awards................................................284, 485
Timeframe for Developing Rules in Response to Lawsuits...........   736
Tower Replacements........................................635, 637, 651
Trace Detection Equipment......................................557, 570
Training.........................................................   303
Transit Subsidy Benefit Program..................................   453
Transportation Fund for America................................251, 743
Travel--Operations...............................................   428
Travel--Operations Funded........................................   429
Trend in Runway Incursions.......................................   318
Trip to Wichita, Kansas..........................................   248
Trust Fund.......................................................   358
    Cash Outlays from............................................   353
    Status.......................................................   352
    Trust Fund Cap...............................................   269
    Trust Fund Penalty Clause....................................   268
    Trust Fund Revenues..........................................   353
    Use of for the Office of Commercial Space Transportation.....   426
Turbulence Accidents and Incidents...............................   715
Turbulence Data..................................................   717
Unions:
    Negotiations on Commissioning of New Systems.................   339
    Negotiations on Compensation.................................   281
    Union Time...................................................   283
Universal Access System..........................................   568
University-Based Training Programs...............................   589
User Fees:
    Proposal.....................................................   251
    User Fees....................................................   360
    Kansas Airports..............................................   249
    Rural Airports Program.......................................   301
    Versus Aviation Taxes........................................   244
    Cost Accounting System.......................................   258
    Court Ruling.................................................   300
Voice Switches...................................................   791
Vulnerability Assessments........................................   565
Wide Area Augmentation System (WAAS).............................   545
    Critical Design Review.......................................   690
    Financial and Programmatic Assessment........................   693
    Joint Resources Council......................................   690
    Satellite Leases.............................................   692
Wind Shear Detection...........................................672, 674
Windsor Locks TRACON.............................................   652
Work Load Measures and Industry Trends...........................   397
Workers Compensation:
    Costs......................................................518, 520
    Distribution.................................................   519
Year 2000 (Y2K)................................................279, 330
    Challenge....................................................   235
    Compliance...................................................   246
    Compliance Date..............................................   252
    Contingency Plans............................................   247
    Problem...............................................330, 331, 743
    Target Date..................................................   259

                  National Transportation Safety Board

Administrative Law Judges........................................   218
Authorized Funding Level.........................................   159
Aviation:
    Accident Investigations Completed............................    80
    Air Traffic Control Shift Rotation...........................   100
    Airborne Express/Narrows, VA.................................    27
    American Airlines/Palm Beach, FL.............................    32
    American Corp. Aviation/Houston..............................    34
    Aviation Growth..............................................   101
    Aviation Investigation Costs.................................    79
    Aviation Safety Issues.......................................    87
    Aviation Review Group........................................85, 86
    Boeing 737 Aircraft..........................................74, 75
    Chinese Aviation Products....................................   108
    Comair/Monroe, MI............................................    31
    Delta Air Lines/LaGuardia....................................    26
    Delta Air Lines/Pensacola....................................    25
    Emergency Evacuations........................................    34
    FAA Inspection and Surveillance..............................   102
    Federal Express/Newburgh, NY.................................    31
    Federal Express/Newark, NJ...................................    32
    Fine Air/Miami, FL...........................................    33
    Flight Data Recorders........................................81, 83
    Foreign Accident Investigations..............................    34
    Foreign Air Carrier Oversight.........................106, 107, 109
    Foreign Repair Stations......................................   107
    Hazardous Materials by Air...................................   109
    Icing........................................................75, 76
    Investigation Process........................................   103
    Jet A Fuel Tests.............................................    92
    Language Difficulties........................................   112
    Korean Airlines/Guam.........................................    33
    Maintenance.......................................73, 105, 106, 229
    Midair Collisions............................................   186
    National Civil Aviation Review Commission....................   102
    NTSB/FAA Relationship........................................   103
    Quincy, II. Runway Collision.................................    26
    Repair Stations............................................104, 105
    Runway Incursions............................................   110
    Safety Issues................................................    84
    TWA/East Moriches, NY....................29, 88, 90, 91, 92, 93, 94
    Turbulence...............................................76, 98, 99
    USAir/Pittsburgh.............................................    28
    ValuJet/Miami................................................    24
    Weather Research.............................................   113
    Windsor Locks Aviation Accident..............................    24
Corporate Culture................................................    43
Cost Benefit Analysis............................................   116
Emergency Fund...................................................   153
Family Affairs/Disaster Assistance Airline Plans........4, 60, 156, 182
Hazardous Materials Transportation...............................   117
Highway:
    Administrative License Revocation............................    69
    Air Bags...................................................5, 6, 38
    Alabama Highway 78...........................................   225
    Child Passager Protection....................................   226
    Cosmopolis, WA Accident......................................    37
    Driver Age...................................................    78
    Easton, MD Accident..........................................    42
    Franklin, NC Accident........................................    41
    Grade Crossing Safety........................................    42
    Intrastate Trucking..........................................    43
    Jackson, MO Accident.........................................    40
    Normandy, MO Accident........................................    40
    Plymouth Meeting, PA Acc.....................................    37
    Slinger, WI Accident.........................................    39
    Speed Limit..................................................    77
    Stony Creek, VA Accident.....................................    41
    Transit Bus Safety...........................................    83
    Vehicle Mismatch.............................................    79
    Young Drivers................................................    79
Local Reimbursements......................................114, 144, 152
Marine:
    BRIGHT FIELD Accident........................................    46
    Fishing Vessel Safety........................................    50
    JULIE N Accident.............................................    48
    MALLARD/GEERD TIDE Acc.......................................    49
    Marine Investigations........................................    44
    PATRIOT Accident.............................................    46
    Personal Watercraft Safety...................................    50
    ROYAL MAJESTY Accident.......................................    44
    Rhode Island Oil Spill.......................................    47
    STAR PRINCESS Accident.......................................    45
    UNIVERSE EXPLORER Accident...................................    48
    VISTAFJORD Accident..........................................    49
Most Wanted.............................................21, 66, 69, 124
NTSB:
    Attrition....................................................    72
    Authorized Funding Level.....................................   159
    Budget Request..........................................64, 88, 159
    Communications Center.........................................2, 63
    Computer Replacements........................................   181
    Conferences and Seminars.....................................   190
    Financial Management System..................................   179
    Reports Timeliness...........................................   201
    Reorganization...............................................   189
    Staffing.................................................7, 71, 131
    Supplemental Appropriations................................113, 143
    Training.....................................................   193
    Travel.......................................................   189
    Web Site...................................................2, 3, 62
Nuclear Waste Transportation.....................................    72
Pipeline:
    Excavation Damage Prevention.................................    51
    Fork Shoals, SC Accident.....................................    53
    Gramercy, LA Accident........................................    52
    Indianapolis, IN Accident....................................    54
    Koch Industries Gas Pipeline.................................   221
    Lively, TX Accident..........................................    52
    San Juan Gas Explosion.......................................    51
    Tiger Pass, LA Accident.....................................53, 186
Railroad:
    Accidents...........................................54, 57, 94, 185
    Automatic Train Control......................................    97
    Delia, KS Accident...........................................    58
    Devine, TX Accident..........................................    58
    Fatalities...................................................    95
    FRA Inspections..............................................    96
    Garden City, GA Accident.....................................    59
    Kelso, CA Accident...........................................    57
    Kingman, AZ Accident.........................................    59
    Positive Train Control.......................................    98
    Railroad Voice Recorders.....................................    96
    Safety Assurance and Compliance Program......................    95
    Secaucus, NJ Accident........................................55, 56
    Silver Spring, MD Accident...................................    55
    Transit......................................................   187
    Union Pacific Railroad.......................................    59
    Recommendations.............................................70, 126
    Acceptance Rate..............................................    70
    Aircraft Maintenance Recomm................................106, 229
    Most Wanted.........................................21, 66, 69, 124
    TWA Flight 800 Recomm........................................    92
Safety Studies...................................................   210
Strategic Plan...................................................   219
Transportation Fatalities........................................   184
Transportation Safety Issues.....................................   119
User Fees......................................................115, 178

                            <all>
</pre></body></html>
